<html>
<title> - CURRENT PUBLIC LANDS, FORESTS, AND MINING BILLS</title>
<body><pre>[Senate Hearing 113-28]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-28

 
                  CURRENT PUBLIC LANDS, FORESTS, AND 
                              MINING BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS, FORESTS, 
                               AND MINING

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 27                                 S. 28

                           S. 159                                S. 241

                           S. 255                                S. 256

                           S. 258                                S. 312

                           S. 327                                S. 340

                           S. 341                                S. 342

                           S. 353                                S. 360

                           S. 366                                S. 368

                           S. 447                                S. 609

                           S. 736                                S. 757



                                     

                               __________

                             APRIL 25, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources


                  U.S. GOVERNMENT PRINTING OFFICE
81-302                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

           Subcommittee on Public Lands, Forests, and Mining

               JOE MANCHIN, III, West Virginia, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 DEAN HELLER, Nevada
AL FRANKEN, Minnesota                JEFF FLAKE, Arizona
CHRISTOPHER A. COONS, Delaware       TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 LAMAR ALEXANDER, Tennessee
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota

Ron Wyden and Lisa Murkowski are Ex Officio Members of the Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     9
Baucus, Hon. Max, U.S. Senator From Montana......................     5
Connell, Jamie, Acting Deputy Director, Bureau of Land 
  Management, Department of the Interior.........................    34
Heinrich, Hon. Martin, U.S. Senator From New Mexico..............    10
Heller, Hon. Dean, U.S. Senator From Nevada......................    11
Johnson, Hon. Tim, U.S. Senator From South Dakota................    13
Lee, Hon. Mike, U.S. Senator From Utah...........................    13
Manchin, III Hon. Joe, U.S. Senator From West Virginia...........     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................    15
Pena, Jim, Associate Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    19
Reid, Hon. Harry, U.S. Senator From Nevada.......................     3
Udall, Hon. Mark, U.S. Senator From Colorado.....................    17
Wyden, Hon. Ron, U.S. Senator From Oregon........................     5

                               Appendix I

Responses to additional questions................................    69

                              Appendix II

Additional material submitted for the record.....................    73


            CURRENT PUBLIC LANDS, FORESTS, AND MINING BILLS

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                               U.S. Senate,
  Subcommittee on Public Lands, Forests, and Mining
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Joe Manchin 
presiding.

 OPENING STATEMENT OF HON. JOE MANCHIN, U.S. SENATOR FROM WEST 
                            VIRGINIA

    Senator Manchin. The committee will come to order.
    I'd like to welcome everybody to the Subcommittee on Public 
Lands and Forests and Mining. This is my first committee 
meeting as a Subcommittee Chairman. I appreciate very much 
having my friend, John Barrasso, here also.
    This is my first meeting as the chairman of subcommittee. 
It's clear just from today's agenda that the subcommittee will 
be actively involved in many Federal land management issues 
that are vitally important to Senator's home States, not just 
in the West, but throughout the Nation. I know the key to being 
able to successfully consider the large number of bills that 
will come before the subcommittee this Congress is being able 
to reach bipartisan support as much as possible.
    Toward that end, I look forward to working closely with 
Senator Barrasso, the subcommittee's ranking member, as well as 
with the other members of the committee.
    This afternoon the subcommittee will consider 20 bills most 
of which were also, the committee--before the committee last 
Congress and in a few cases the Congress before that. Because 
we already have a legislative record for most of the bills we 
are following a more streamlined hearing format today. The 
purpose of this hearing is simply to update the hearing record 
and allow committee members another opportunity to ask any 
questions they may have.
    We have a lot to cover this afternoon. In addition to 
statements from committee members our Majority Leader is with 
us today, Senator Reid, from Nevada and our Chairman of 
Finance, Senator Baucus, from Montana, asked to speak in 
support of their bills. We have 2 witnesses testifying on 
behalf of the Forest Service and Interior Department.
    I understand that many of these bills have considerable 
support and are non-controversial while others are more 
complicated and may be more controversial. But I'd like to 
emphasize that my commitment to continue working with the bill 
sponsors to try and get these bills ready for full committee 
consideration. While I know there may be issues of concern on 
both sides, there's been a lot of hard work from the bill 
sponsors and others to get these bills where they are today.
    So we'll do our best to try and address any concerns to 
move forward.
    At this time I'd like to recognize my friend, Senator 
Barrasso, for his opening statement.
    Senator Barrasso. Thank you very much, Mr. Chairman. I do 
have a statement. But with your permission I do look forward to 
working with you in this capacity.
    With your permission we may want to invite the 2 Senators, 
I know their time is limited. Perhaps I can give my statement 
after they've completed theirs.
    Senator Manchin. Thank you very much for that 
consideration.
    With that, Majority Leader, Senator Reid.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Senator Barrasso, you're very kind. Thank you 
very much.
    I've already apologized to my senior companion here, 
Senator Baucus. I'm going to take just a short period of time. 
I've already apologized to him.
    The State of Nevada is a huge State, area wise. Eighty-
seven percent of the State of Nevada is owned by the Federal 
Government. No other State compares to that.
    I sponsored the reintroduction of Lyon County Economic 
Development Conservation Act with my friend, Dean Heller and 
the rest of the Nevada Congressional Delegation. Lyon County 
Economic Development Conservation Act would allow the city of 
Yerington, Nevada in partnership with Nevada Copper Development 
12,500 acres of land surrounding the already operating Pumpkin 
Hollow mine site that is located now on private land. The bill 
would also designate about 50,000 acres as a wilderness area, 
Wovoka, named after the great Indian, Wovoka. The bill would 
provide a huge positive impact for Lyon County.
    Nevada has been hit hard by the economic downturn. No State 
in the Union has come close to the economic problems we've had 
in Nevada. For 20 years we led the Nation in economic vitality. 
For the last 4 or 5 years we've been at the other end of the 
spectrum.
    We've led the Nation in unemployment until just recently. 
We led the Nation in foreclosures until just recently. 
Difficult time.
    No part of Nevada, though, has been hurt worse than the 
area about which I'm talking now. As we speak Lyon County has 
15 percent unemployment. That is 50 percent of Lyon County 
school children qualify for free or reduced lunch programs.
    Yerington is about 70 miles south of Reno. The city of 
Yerington would be allowed under this legislation to purchase 
10,400 acres of lands surrounding their current operation. The 
City would partner with Nevada Copper to expand their operation 
resulting in hundreds of new jobs.
    Now, Mr. President, I'm sorry, Mr. Chairman, I've indicated 
that Yerington is economically depressed. This is a great shot 
in the arm. When I first started running State wide in Nevada 
in 1970 there was another vital part of that economy it was an 
Anaconda mine, copper mine. It's there now, but it's only the 
big, empty pit. We've been trying to reclaim that for the last 
15 or 20 years.
    This is badly needed in Yerington, Lyon County, but all 
over the State of Nevada. That's why I was a little 
disappointed this morning that an interview yesterday with a 
Reno newspaper I said that I would hope that they would be 
hiring Nevada people to do this work. In the paper I read today 
that they criticized me for saying that. Saying well half the 
people we've hired already are from Nevada. Half the people 
shouldn't be from Nevada, they should all be from Nevada.
    We have the highest unemployment until just the last couple 
months in the entire State. We've got people who can do any 
kind of work, craftsmen that can do anything. No one can 
criticize the fact that we don't have mining. We have the 
largest gold mining operations in the entire country. We're the 
third largest producer of gold in the world, the State of 
Nevada.
    So I would hope that the people here, they're going to get 
this legislation and we're going to pass it. But I would hope 
that they would look to Nevada and Nevada employees to do their 
work. This is a real important piece of legislation. It 
protects natural lands that are important to the people of 
Nevada.
    As I've indicated Wovoka Wilderness Area is named in honor 
of the Native American spiritual leader, the father of the 
Ghost Dance, who was born and raised in the area. A cultural 
and natural resource hero, worthy of a high level of 
protection, so their children and grandchildren can enjoy the 
beauty for generations. It's a wonderful area on the Walker 
River system.
    I can't stress enough how very, very important this 
legislation is for preserving beautiful lands and also 
releasing lands that can be used to their best use and for a 
mine. This is terribly needed. I repeat for the third time.
    Briefly, I'd also like to just put in a good work for the 
Pine Forest Recreation Enhancement Act which is also on your 
agenda for today. This creates 20,000 acres of pine forest 
wilderness. I would just acknowledge that my Republican 
colleague in the House is the person that's pushing this more 
than anyone else.
    It's something that he believes in. I believe in. It would, 
I want to stress the importance of the local effort that went 
into crafting this bill led by Congressman Amodei. The Nevada 
State Legislature endorsed both these pieces of legislation. I 
would hope that you will report in both of these favorably.
    [The prepared statement of Senator Reid follows:]

          Prepared Statement of Hon. Harry Reid, U.S. Senator 
                              From Nevada

                          ON S. 159 AND S. 345

    Thank you Chairman Manchin and Senator Barrasso for the opportunity 
to address your subcommittee about our bipartisan proposals to create 
new opportunities for economic development and conservation of Nevada's 
public lands.
    This January, I cosponsored the reintroduction of the Lyon County 
Economic Development and Conservation Act with my colleague Senator 
Heller and the rest of the Nevada congressional delegation.
    The Lyon County Economic Development and Conservation Act would 
allow the City of Yerington, in partnership with Nevada Copper, to 
develop approximately 12,500 acres of land surrounding the already 
operating Pumpkin Hollow mine site. The bill would also designate 
approximately 48,000 acres of public lands as the Wovoka Wilderness 
Area, while protecting the rights of ranchers who earn their living on 
the land.
    This bill will provide for a huge positive economic impact to Lyon 
County, the Nevada county that was hardest hit by the economic 
recession. Lyon has a current unemployment rate of 14.6%--five points 
higher than in the rest of Nevada. This year, over 50% of Lyon County's 
schoolchildren qualify for free or reduced lunch programs.
    The City of Yerington will be allowed to purchase 10,400 acres of 
land surrounding Nevada Copper's current Pumpkin Hollow mining 
operation. The City will partner with Nevada Copper to expand their 
operation, resulting in 500 construction jobs and adding 800 permanent 
jobs. These are desperately-needed, good paying mining jobs that should 
last for twenty years or more. I encourage Nevada Copper to use the 
local and state labor force to fill these jobs. Lyon County and Nevada 
have been hard hit and has the trained labor force to fill these 
positions.
    This bill also protects natural lands that are important to the 
people of Nevada. The Wovoka Wilderness Area, located in the southern 
Pine Grove Hills, is named in honor of the Native American spiritual 
leader and father of the Ghostdance who was born and raised in the 
area. The cultural and natural resources here are worthy of a high 
level of protection so that our children and grandchildren can continue 
to enjoy them for generations.
    Wovoka is home to 13 miles of the East Walker River, multi-colored 
canyons, pinyon-juniper forests, seasonal lakes and critical habitat 
for the bi-state Sage Grouse. The land also is rich in ancient human 
history. The archaeological resources include petroglyphs, ritual sites 
and a prehistoric village site.
    This bill is the result of a collaborative process that took into 
consideration the concerns of local officials, industry, ranchers, 
conservationists, and other interested parties in Lyon County.
    I also would like to take the opportunity to say a few words about 
another bill you are hearing testimony on today: the Pine Forest 
Recreation Enhancement Act, which creates the 26,000 acre Pine Forest 
Wilderness Area. I reintroduced this legislation this February, again 
with the support of the entire Nevada congressional delegation.
    I want to stress the tremendous local effort that went into 
crafting this bill. This wilderness proposal was presented by the 
county commission to our delegation with almost unanimous support from 
the community. The Nevada State Legislature endorsed the exceptionally 
collaborative process that went into developing this bill.
    The Pine Forest area is an incredible remote destination for 
hunters, anglers, hikers and campers. It has vital habitat for a number 
of animals, including the Lahontan Cutthroat Trout-which is native only 
to Nevada. This is a treasured place for Nevada families and should be 
protected for generations to come.
    I look forward to working with the Senate Energy Committee to move 
both of these bills forward.
    Thank you again for the opportunity to be here with you today. I 
request that my statement be included in the record.

    The Chairman. Chairman Manchin.
    Senator Manchin. Senator Wyden.
    The Chairman. If I could just interrupt very briefly while 
Leader Reid is here and Chairman Baucus is here. I think they 
both have done very good work here. I just want to assure them 
that it's my intent to work very closely with Chairman Manchin, 
with Senator Murkowski. Your bills, in my view, are high 
priority legislation. We are going to work very closely with 
both of you to get them out of this Committee and get them out 
quickly.
    Senator Reid. Mr. Chairman, thank you very, very much.
    Senator Manchin. Thank you.
    Any questions to the Leader?
    If not, Mr. Leader, thank you so much for your----
    Senator Reid. Heller better not ask me any questions.
    [Laughter.]
    Senator Manchin. You're carrying water today for him.
    The Chairman. Chairman Manchin.
    Senator Manchin. Senator Wyden.
    The Chairman. Could I take about 2 minutes and just speak 
very briefly on the bills that you're looking at today with 
respect to Oregon. I can do it in about 2 to 3 minutes.
    Senator Manchin. Senator, thank you.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    The Chairman. Thank you very much, Mr. Chairman.
    I just wanted to touch very briefly on the Oregon Treasures 
legislation that you're considering here today. They go right 
to the heart of the strategy I've tried to advance for our 
State. We've got to get people back to work in the woods in my 
home State. That's what we have focused on with respect to 
getting the harvest up. We think we can do that consistent with 
the environmental laws.
    We also want to protect our treasures. We want to do it for 
2 reasons.
    One, they're special places.
    But also the economics of public lands have changed and 
outdoor recreation, which is something we can promote with this 
legislation, is also an economic winner.
    Americans now spend $646 billion a year in outdoor 
recreation. The Outdoor Industry Association estimates its 
spending results in 141,000 direct Oregon jobs. So we have a 
host of challenges in the West.
    I know Chairman Baucus works through many of these same 
issues as well and has been so helpful to us. We've got to get 
people back to work in the woods. That means getting the 
harvest up.
    We also want to protect our treasures. They're for our 
kids. But particularly because of the importance of recreation 
in places like Montana and Oregon, Western State Senators all 
see the same thing.
    Thank you for your willingness, Mr. Chairman, to let me 
make this brief statement and for the good work you're doing 
here in the subcommittee.
    Senator Manchin. Thank you, Senator, for that and for your 
input on these two bills. As you know we'll be taking them 
seriously.
    At this time we have Chairman Baucus. Thank you so much for 
coming. The floor is yours.

          STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR 
                          FROM MONTANA

    Senator Baucus. Thank you, Mr. Chairman. I'm very happy to 
see the chairman of the full committee here and Senator 
Barrasso, all the rest of my friends.
    This is pretty important to me and to the State of Montana 
and, I think, to the Nation. This is support of S. 255. What is 
it? It's the North Fork Watershed Protection Act.
    Let me read you a quote from John Muir, which I think 
applies. He said. ``Everybody needs beauty as well as bread. 
Places to play in and pray in where nature may heal and cheer 
and give strength of body and soul alike.''
    This is one of those places. It's a very, very special 
place. I know all members of this committee have special places 
in their home States.
    Some of them are beaches and mountains or the plains, 
whatever they might be. For us in Montana we have several 
ourselves, but this is one of them. This is pretty high up 
there.
    When I first came to the House a few years ago, what 30 
some years ago, I immediately realized that one of my major 
efforts is going to be to protect, it's called the North Fork 
of Flathead River. The North Fork of the Flathead River begins 
up in British Columbia. It flows south from British Columbia 
and into East alongside of Glacier National Park as it flows 
south of Glacier Park. It would be to the east of it into 
Flathead Lake.
    Flathead Lake is the largest natural freshwater lake west 
of the Mississippi, the largest. It's the largest natural 
freshwater lake west of the Mississippi. It's pristine.
    I don't know now, but for many, many years it's drinkable. 
You can drink the water from Flathead Lake. It's that pristine. 
It's that clear.
    It's also the summer playground for a lot of Montanans, for 
a lot of people outside of Montana, who come there in the 
summer. It's great skiing in the winter. It's really, really 
special.
    It's the most intact ecosystem of the contiguous United 
States. It's a wide gravel bed river. The North Fork of the 
Flathead flows next to tall peaks from British Columbia into 
Montana and as I said, feeds the largest natural freshwater 
lake west of the Mississippi. That's Flathead Lake.
    It drains snow melt from places like Kintler Peak. On this 
photograph over to my right Kintler Peak is the tallest peak. 
Kintler Peak is in Glacier National Park.
    Many times I've backpacked in the summers across Glacier 
National Park, 4 or 5 days hike into Kintler Lake. It was upper 
Kintler close by and Lower Kintler is just one of the most 
special places that one could ever hope to see. It's like 
Alaska. It's very, very similar to many places in Alaska.
    On the other side of the North Fork run off comes from many 
species of trees, lodge pole, spruce trees. Again back into 
Glacier National Park. This drainage has the highest vascular 
plant diversity and the highest density of large carnivores in 
the lower 48. More in Alaska, but in the lower 48 this is the 
largest population of large carnivores and vascular plant 
diversity.
    Silver tipped grizzlies feed on huckleberries, buffalo 
berries in this same pristine valley. Native bull trout find 
cold water and clean gravel for their reds. It is, I mean, when 
you float the North Fork, you're just stunned.
    It's so deep. It's so clear. It's running so fast. There's 
just so much water. It's hard to find words to describe it.
    It's the most important wildlife corridor along the 
Canadian border between the Great Plains and the Cascades. 
Montanans, very many days, enjoy hunting and fishing there. 
Today, about 2 million people visit Glacier National Park every 
year, that's about $100 billion in the economy. It supports 
1,400 jobs.
    One day several years ago it really dawned on me how 
important it was to protect this resource. It was in 1976 and I 
talked to a couple scientists. One guy was named Jack Stanford 
and the other is Rick Howard. They explained to me how all the 
mining up in British Columbia, there's coal mining up there, 
economic benefits stay in Canada. But some of this coal mined 
would be shipped across the ocean over to Canada as coking 
coal, but yet all the environmental degradation flowed south. 
It was--the water flowed south into Montana and also air 
currents that flowed south into Montana.
    So what do we do? We thought, without being too involved 
here, I put together something called a baseline data study. 
They get the baseline data for the whole basin so we could know 
the effects whether it's Canadian, whether it's Forest Service 
in the United States, whether it's tourism in the United States 
or the private sector operations, homeowners along the lake. 
That baseline data has helped us realize what we have to do to 
protect this resource.
    Then what did we do? We went to the Canadians. Said, let's 
figure this out together. We signed a compact. Montana did with 
British Columbia so that both British Columbia and Montana are 
working to protect.
    I realize if we're going to show the Canadians we're doing 
our part a key here is to withdraw leases, oil and gas leases 
in the National Forest there. I mentioned just to the west of 
this river. Most of the leases have already voluntarily 
withdrawn.
    The oil companies said, hey we're not going to find oil and 
gas here. We've got a lot of better prospects out in other 
parts of the country with fracking, horizontal drilling, you 
know, other parts of Montana, other parts of the country. We're 
not going to drill here.
    So they've voluntarily withdrawn. There are just a few 
acres left of National Forest land. This bill provides that 
those acres--the bill provides that there be no future leases 
in the area.
    It doesn't pull the other leases out. It doesn't tell 
companies they've got to leave. It just says no future oil and 
gas leases in the area. As I said or implied, there's very 
little acreage left here anyway because most of the leases have 
already been withdrawn. The companies have voluntarily 
withdrawn.
    So I just urge you, Mr. Chairman and the rest of the 
committee, to look very seriously at this. This bill is the one 
missing piece. Given all the other efforts we've undertaken in 
roughly 30 some years.
    I know it's--what I'm next going to say applies to all of 
this. I was drawn to public service by the belief that each of 
us has a moral obligation that when we leave this place, we're 
not here forever. When we leave this place we leave it as good 
as shape or in better shape than we found it. Each of us has 
that moral obligation.
    It's environmental.
    It's economic.
    It's political.
    That's because we're only here for a short period of time 
on this Earth. For me, this is one of those areas where we can 
be sure that we're leaving this place in as good a shape, maybe 
even better shape, because of the protections that we founded. 
It's not controversial. Chamber of Commerce supports it. The 
entire Montana Congressional Delegation supports it. The two 
Democrats in the Senate, one Republican in the House. It's all 
supported.
    I just urge this committee to help finish this one little 
piece. That's going to show to Montanans and to all those who 
enjoy Glacier National Park, that hey, we're doing something 
that makes sense here. I strongly urge the committee's support 
for this legislation.
    Senator Manchin. Any questions to Senator Baucus?
    If I could just ask one question very quickly. Are there 
people trying to develop or encroach in that land or are you 
just wanting to make sure it's protected so it doesn't happen?
    Senator Baucus. No. No. It's very interesting when I first 
traveled up to North Fork in the late 1970 you could see the 
remnants of old rigs. I mean, they're old. I mean, it's about 
40 years old. There's just nothing left.
    But no, there's no activity. There's none whatsoever.
    Senator Manchin. Thank you, Senator.
    Senator Murkowski.
    Senator Murkowski. Just to follow up on that. So there's no 
current activity in terms of production. There are still some 
areas that are held, that the leases are held. Most have been 
relinquished.
    Of those that have not been relinquished are you aware of 
any interest in exploration or potential production?
    Senator Baucus. Nope. No. When I say most, I think it's 70, 
maybe 75 percent of the leases have been voluntarily 
relinquished.
    There are many leases. I've talked to the company, one 
major company. There are a couple, 3 companies, but one major 
company a couple times. They just like to keep it. To be honest 
they want to be compensated if they are withdrawn or they want 
to trade.
    But I say to them, you know, I appreciate that. But 
everyone else in your industry, most everybody else in your 
industry has voluntarily relinquished. I asked, are they 
exploring? Are they drilling? Are they looking? No. No. They're 
not. I'm not, again, this bill does not apply to those leases. 
This bill just says that no future leases would be available in 
the National Forest. That's all this one says.
    Senator Murkowski. Got it.
    Senator Manchin. No future leases.
    Senator Murkowski. Got it. I think I need to look at it and 
see if it really is as close to Alaska as the picture is, but 
maybe have to do a field trip. Thank you.
    [Laughter.]
    Senator Manchin. No, no, I could see it either. Alaska, not 
entirely I could see it, but it's special.
    Senator Manchin. Any further questions?
    Senator, thank you so much for your presentation.
    Senator Baucus. Thank you.
    Senator Manchin. A truly special place. Thank you.
    Senator Baucus. Thank you.
    Senator Manchin. Without further ado what we'll do is 
Senator Barrasso you want to have your opening statement and 
then we'll ask any members that want to make a statement after 
that.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you so much, Mr. Chairman. It 
stated a little earlier, I'm so looking forward to working with 
you, Senator Manchin, in your new role as Chairman of this very 
important subcommittee. I like the new name of the Subcommittee 
on Public Lands, Forests, and Mining.
    It was nice to have Senator Baucus as well as Majority 
Leader Reid here with us today to testify in support of their 
bills.
    Most of the 20 bills we have on the agenda today have been 
considered by this committee in past sessions of Congress 
including 2 that I'm co-sponsoring--that I'm sponsoring.
    The Grazing Improvement Act, S. 258.
    The Good Neighbor Forestry Act, S. 327.
    It's hard to comprehend, Mr. Chairman, but the Good 
Neighbor Forestry Act, a bipartisan bill, has lingered in this 
Committee now for 4 and a half years. The first time I 
introduced the bill was July 2008. I'm hopeful that things will 
be different this Congress. I hope under Senator Wyden and 
Senator Murkowski's leadership we can work together to move 
this legislation through committee and see it enacted into law.
    I want to point out that bipartisan support of this 
Committee. Senators Udall, Lee, Johnson, Heller and Flake have 
co-sponsored this legislation. The Good Neighbor Forestry Act 
allows the Forest Service and the Bureau of Land Management to 
enter into cooperative agreements with States to get work done 
on the ground across ownership boundaries.
    This cooperative authority isn't new. It has existed for 
nearly a decade in 2 States, in Colorado and in Utah.
    I am sure we will hear today from the Administration's 
witnesses that it is an effective tool to address the 
management challenges that we face: reducing wildfire risk, 
removing invasive species, preventing insect and disease, 
improving watersheds and conserving habitat. These challenges 
know no boundary lines and are best tackled through integrated 
partnerships that this bill would facilitate.
    Good Neighbor Authority is set to expire September 2013 in 
Utah and in Colorado. So it's time to prevent Good Neighbor 
Authority from expiring in Utah and Colorado and to extend it 
to other Western States. Our Western forests have benefit 
from--they would benefit from having this tool in the tool box, 
this common sense legislation and will advance the all lands 
vision for our forests.
    The other bill I'd like to just mention briefly, Mr. 
Chairman, is the Grazing Improvement Act, S. 258. This bill 
would provide needed regulatory certainty to ranching 
businesses operating on public lands.
    It also provides key tools to the Federal agencies to more 
efficiently process the grazing permit renewal work load.
    The bill would codify the year to year appropriation rider 
language providing for automatic renewal of grazing permits. 
These are ones that have been enacted every fiscal year since 
2004.
    Now as you know, Mr. Chairman, that the agencies are asking 
Congress for this rider in the President's budget request for 
Fiscal Year 2014. The measure would also extend the term of a 
grazing permit from 10 to 20 years and provide continuity for 
family ranching operations in the rural communities and 
traditions they support.
    In addition, the bill provides the agencies with a 
categorical exclusion to satisfy NEPA requirements for the 
renewal, reissuance or transfer of a grazing permit in certain 
rangeland health objectives are met. This categorical exclusion 
would reduce the current level of litigation that according to 
Mr. Connell's testimony, ``continues to pose significant work 
load and resource challenges for the BLM.'' These needed 
improvements to the grazing permit process are long overdue.
    I look forward to hearing the testimony of our witnesses on 
these bills and all of the bills on the agenda today. I hope 
the agencies will testify on these two active management bills 
with the same level of enthusiasm and support as the wilderness 
bills on the agenda.
    In conclusion, Mr. Chairman, I ask that 3 items be 
submitted for the record.
    One is the testimony of Robert Skinner, a Grazing 
Improvement Act support letter and Western Governors 
Association letter to Secretary Vilsack supporting the Good 
Neighbor Policies.
    Thank you, Mr. Chairman.
    Senator Manchin. Thank you, Senator.
    What we do if anyone has opening statements we'll see if--
start with Senator Heinrich, if you have any opening statement 
at all, Senator?

        STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Heinrich. Actually I was going to let Senator 
Johnson, if he wants to go first.
    Senator Manchin. What I was going to do was go back and 
forth as everybody arrived and do it that way, so.
    Senator Heinrich. OK. I'll be happy to give mine then.
    Senator Manchin. Did you have to go?
    Senator Heinrich. OK.
    Thank you, Chairman and also Ranking Member Barrasso for 
calling this hearing. I want to thank you for including a 
number of bills that have been in the works involving New 
Mexico for a number of years now.
    I wanted to start by just clarifying the continued need for 
S. 241, the Rio Grande del Norte legislation. After the 
President's designation of the Rio Grande del Norte National 
Monument just last month, that designation, I think, was an 
incredible recognition of the community's work in Northern New 
Mexico. They've been working to give special attention to this 
area for several decades now.
    The bill that the monument was originally based on which 
the subcommittee is considering today does one thing that a 
national monument designation by the President cannot do. It 
designates 2 areas currently managed as wilderness study areas 
as wilderness. I want to thank the subcommittee for considering 
consideration of this bill so that we can get the final 
management plan in place for this new national monument.
    I also wanted to note my support for S. 368, which would 
reauthorize FLTFA. FLTFA is an excellent model for public land 
management that supports conservation goals as well as economic 
development. As a sportsman I especially appreciate FLTFA's 
role in protecting critical wildlife habitat. Outdoor 
recreation is a critical and growing part of New Mexico's 
economy. FLTFA helps us preserve the places that draw visitors 
to New Mexico from around the world.
    Last, I'm also pleased that the subcommittee is considering 
S. 360, the Reauthorization of the Public Lands Service Corps.
    S. 609, to convey land in San Juan County, New Mexico.
    S. 312, to adjust the boundary of the Carson National 
Forest in New Mexico.
    I'm an original co-sponsor of all 3 bills and would like to 
thank the subcommittee for their consideration.
    Senator Manchin. Thank you, Senator.
    Senator Heller.

          STATEMENT OF HON. DEAN HELLER, U.S. SENATOR 
                          FROM NEVADA

    Senator Heller. Mr. Chairman, thank you and certainly do 
look forward to working with you and the ranking member on this 
subcommittee. When it has to do with public lands as Senator 
Reid said, 87 percent of Nevada is owned by the Federal 
Government. Public lands and mining, as you can imagine, are 2 
huge issues facing the State.
    So, anyway, I'd like to speak briefly, if I may, on the 
Nevada bills that are before us today.
    S. 757 does 2 things.
    The first is to allow the city of Mesquite, Nevada and 
Lincoln County, Nevada to use the funds in their respective 
special accounts that were created over a decade ago for 
conservation. Both the city of Mesquite and Lincoln County were 
charged with the development and implementation of a multi-
species habitat conservation plan. Unfortunately the BLM is 
determined that the lack of the work implementation in the 
enabling laws means its special account funds that could have 
been used for conservation have been languishing.
    I think we can all agree that money is better spent on 
protecting habitat on the ground then sitting in special 
accounts at BLM.
    The second thing S. 757 does is to provide the city of 
Mesquite with additional time to purchase land around their 
airport. This is necessary because the economic downturn meant 
the city had to reprioritize spending. The city still wishes to 
purchase the land for long term development. This bill will 
allow them to do so.
    S. 342, the Pine Forest Range Recreation Enhancement Act is 
an example of what, I believe, is a wilderness done right bill. 
This legislation was developed in order to resolve outstanding 
wilderness study areas in Humboldt County. It is a result of a 
collaborative community process where all stakeholders who were 
given a seat at the table. Legislation will improve recreation 
access, provide appropriate, permanent protection in the Pine 
Forest range.
    This type of collaboration is a model for how public land 
designation should be handled. I'm pleased to support this 
wilderness legislation.
    But there's no more urgent legislation for Nevada than the 
Lyon County Economic Development Conservation Act Senator Reid 
mentioned, S. 159. I authored this legislation initially to 
answer the desperate needs in Lyon County for economic 
development and activity. This bill is an excellent example of 
the balance between conservation and development.
    Currently Lyon County has 14.2 percent unemployment. It is 
the highest unemployment rate in the State with the highest 
unemployment in the Nation. Both the city and the county have 
had to severely cut staff and services. Without this 
legislation and the economic activity it will bring, they'll be 
forced to cut more essential services.
    This bill will convey to the city at fair market value 
approximately 12,500 acres of Federal land with no conservation 
value surrounding the Pumpkin Hollow project site. Upon 
completion of the conveyance, the Pumpkin Hollow project is 
estimated to create 800 mining jobs, 500 construction jobs. The 
lands conveyed by this bill will also be used for industrial, 
recreation and infrastructure purposes that will create sorely 
needed jobs and economic development for Yerington.
    The bill will also designate the Wovoka Wilderness Area 
while protecting the rights and interests of ranchers and 
miners who earn their living on the land in the area. The newly 
created wilderness will protect habitat and important cultural 
resources for generations to come. I'm pleased to have worked 
with Senator Reid to find a balance between development and 
conservation that will create jobs in Lyon County and beyond.
    Again, I want to thank Senator Reid for his support and 
help on this. But more importantly, I want to thank his staff. 
Between his staff and my staff working together to solve these 
issues and these problems, we're going to move Nevada forward. 
I look forward to doing that. I urge all my colleagues to 
support these important pieces of legislation.
    Thank you, Mr. Chairman.
    Senator Manchin. Thank you, Senator.

         Prepared Statement of Hon. Dean Heller, U.S. Senator 
                         From Nevada, on S. 757

    Mr. Chairman, I would like to speak briefly about the Nevada bills 
before us today.
    S. 757 does two very simple things. The first is it allows the city 
of Mesquite, Nevada and Lincoln County, Nevada to use the funds in 
their respective special accounts that were created over a decade ago 
for conservation.
    Both the City of Mesquite and Lincoln County were charged with the 
development and implementation of a multi-species habitat conservation 
plan.
    Unfortunately, the BLM has determined that the lack of the word 
``implementation'' in the enabling laws means that special accounts 
funds that could have been used for conservation have been languishing. 
I think we can all agree that money is better spent on protecting 
habitat on the ground than sitting in special accounts at the BLM.
    The second thing S. 757 does is provide the City of Mesquite with 
additional time to purchase land around their airport. This is 
necessary because the economic downturn meant that the City had to re-
prioritize spending. The City still wishes to purchase the land for 
long-term development and this bill will allow them to do so.
    S. 342, the Pine Forest Range Recreation Enhancement Act, is an 
example of what I believe is `wilderness done right.' This legislation 
was developed in order to resolve outstanding wilderness study areas in 
Humboldt County.
    It is the result of a collaborative community process where all 
stakeholders were given a seat at the table. The legislation will 
improve recreational access and provide appropriate permanent 
protection in the Pine Forest Range. This type of collaboration is a 
model for how public land designations should be handled and I am 
pleased to support this wilderness legislation.
    There is no more urgent legislation for Nevada than the Lyon County 
Economic Development and Conservation Act. I authored this legislation 
initially to answer the desperate need in Lyon County for economic 
development and activity.
    This bill is an excellent example of balance between conservation 
and development.
    Currently, Lyon County has 14.2 percent unemployment. It is the 
highest unemployment rate in the state with the highest unemployment in 
the nation. Both the county and the city have had to severely cut staff 
and services and without this legislation and the economic activity it 
will bring, they will be forced to cut essential services.
    The bill will convey to the city, at fair market value, 
approximately 12,500 acres of federal land with no conservation value 
surrounding the Pumpkin Hollow project site. Upon completion of the 
conveyance, the Pumpkin Hollow Project is estimated to create 800 
mining jobs and 500 construction jobs.
    The lands conveyed by this bill will also be used for industrial, 
recreation, and infrastructure purposes that will create sorely needed 
jobs and economic development for Yerington.
    The bill will also designate the Wovoka Wilderness Area, while 
protecting the rights and interests of ranchers and miners who earn 
their living on the land in the area. The newly created wilderness will 
protect habitat and important cultural resources for generations to 
come.
    I am pleased to have worked with Senator Reid to find a balance 
between development and conservation that will create jobs in Lyon 
County and beyond.
    I urge all of my colleagues to support these important pieces of 
legislation.

    Senator Johnson.

          STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR 
                       FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Senator Manchin for holding 
this hearing. There are 2 bills today that are of particular 
interest to South Dakota, the Black Hills Cemetery Act 
introduced by my colleague, Senator Thune and myself, and the 
Good Neighbor Forestry Act which was introduced by Ranking 
Member Barrasso.
    The Black Hills Cemetery Act will transfer ownership of 9 
historic cemeteries in the Black Hills National Forest to the 
local entities that have cared for them for generations. The 
current arrangement with special use permits is more suited for 
temporary uses of Forest System land. Providing local ownership 
of these cemeteries makes a lot better sense for everyone 
involved. I look forward to working with my colleagues to 
advance this bill.
    The Good Neighbor Forestry Act has been explained by my 
good friend, Ranking Member Barrasso. The Black Hills is a 
perfect example of the need for cooperation among all levels of 
government to address major forest health challenges like the 
pine beetle. The bill will enhance the cooperative efforts that 
are already underway.
    Thank you again, Mr. Chairman.
    Senator Manchin. Thank you, Senator.
    Senator Lee.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you very much, Mr. Chairman.
    I want to thank you for holding this hearing today. These 
issues are also of great concern to me because most of the land 
in my State is owned by the Federal Government, about two-
thirds of it. Managing that amount of land often, nearly 
always, requires Federal legislation, even for many parochial 
issues.
    Consequently hearings like these are critical to what we do 
in my home State. So I thank the Senator from West Virginia and 
the Administration witnesses that have come here to testify 
today.
    The Hill Creek Cultural Preservation and Energy Development 
Act will resolve a long standing land ownership problem in 
Eastern Utah. The legislation, if passed, will resolve this 
issue in a manner that benefits the school children of Utah. At 
the same time protect culturally significant land located on 
the Ute tribe of the Uintah and Ouray Reservation.
    The Utah School and Institutional Trust Lands 
Administration or SITLA, as it's known at home, is tasked with 
managing its portfolio of State trust lands for the benefit of 
K through 12 public schools. The revenues generated by SITLA 
are a critical source of funding for public education in Utah. 
This legislation will assist SITLA in its goal of ensuring that 
Utah schools have the resources needed to provide the best 
possible education for Utah's children.
    The Ute tribe supports this legislation because it will 
help the tribe develop its mineral resources while also 
preserving lands of significant cultural value. The bill 
presents--prevents the tribe from having to decide between good 
paying jobs and the preservation of important tribal lands and 
gives the tribe the opportunity to achieve both.
    In addition the legislation also ensures that the Federal 
Treasury is held harmless by providing that the United States 
will receive the same amount of revenue as it would receive if 
the Bureau of Land Management managed the land.
    S. 27 represents an approach to resource development that 
carefully balances the interests of all stakeholders. I urge 
the committee to act quickly to move this legislation.
    I'd also like to express my support for S. 28, the Y 
Mountain Access Enhancement Act. This bill would transfer a 
small amount of Forest Service land to Brigham Young University 
for the purpose of preserving continued access to the Y, which 
to those who haven't been to Provo, Utah, is a large block Y 
built into the side of the mountain overlooking the city and 
campus of BYU. This bill will benefit both the university and 
the local community. I'd ask for quick action by the committee 
in approving that.
    Thank you.
    It's a lovely Y. I'll promise I'll take you there sometime.
    Senator Manchin. Is it made with trees or rocks?
    Senator Lee. It's rocks. They've been white washed over the 
years. They use the more sophisticated version of white wash 
recently to make sure that it stayed white.
    Senator Manchin. It sounds like quite an investment, I'm 
sure
    Senator Lee. Yes. It's been there for about 100 years.
    Senator Manchin. I understand completely.
    Senator Lee. As a third generation BYU Cougar it has a lot 
of emotional value.
    Senator Manchin. I can tell.
    Last but not least is Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman and to our 
ranking member, thank you for the hearing today. Lots of bills 
on the calendar which we appreciate. Senator Wyden and I have 
been working to figure out the process that we can efficiently 
move some of these very important public lands bills through 
the committee and with the leadership of the 2 of you, I think 
we're making great progress.
    I'd like to focus my comments this afternoon on 2 bills 
that I'm co-sponsoring. I have 3 before us. But I'm only going 
to address 2 of them today.
    The first is the Southwest Alaska Native Land Entitlement 
Finalization and Jobs Protection Act. We know it as the 
Sealaska Lands bill.
    There's also a second bill that I call the Small Miners 
bill, S. 366, that would reinstate the mining claims of small 
miners in Alaska, claims that I strongly believe have been 
unjustly taken from them.
    But turning first to Sealaska. This is a bill that has been 
kicking around the committee here since 2008. I think that 
we're close to working out the final few points of contention. 
I'd like to think that we can get it wrapped up very, very soon 
and pass the bill.
    For members of the committee who are new or have not heard 
much about the Sealaska provision, it's a pretty simple premise 
and purpose. What we're doing here with Sealaska legislation is 
to provide for final settlement of outstanding aboriginal land 
claims under the Alaska Native Claims Settlement Act. This bill 
accomplishes this purpose by conveying approximately 70,050 
acres of selected land in Southeast Alaska on the Tongass 
National Forest to Sealaska. That's exactly the acreage that 
BLM estimates will finalize Sealaska's remaining land 
entitlement.
    Southeast Alaska's 20,000 native corporation shareholders 
have waited 42 years for this settlement. We think that it is 
long enough. When the Native Land Claims settlement was passed 
40 years ago it was with the understanding we'd get these 
conveyances. We would move them through the process. Alaska's 
native people would move forward. Unfortunately for the 20,000 
natives in Sealaska, they've been, kind of, in this holding 
pattern for far, far too long.
    Over the past 2 years my staff has worked diligently and I 
thank them. I thank all those that they've been working with. 
But they've been working well with the Forest Service, with the 
staff on the Democratic side here, interested stakeholders, 
uninterested stakeholders, people from all over Alaska, to 
really sort through the many issues with the bill.
    It's not an easy task. Nearly every acre, I would venture 
to say, that every acre of the 16.9 million acre Tongass is 
precious to someone. But in this process, in this multiyear 
process, more than 175 changes have been made.
    I think these changes have vastly improved the bill from 
the 2008 original. We know that it's not easy to make everyone 
happy. But I think that what we have in front of us is fair, 
equitable and a workable solution to the complicated land 
patterns in Alaska's panhandle.
    Although the Forest Service agrees that our bill has come a 
long way, there's still a few issues that it wants to work on. 
The most significant one raised concerns the Forest Service 
Tongass Timber Program. The Forest Service has raised concerns 
that settling Sealaska's land claims could affect its plans to 
transition timber harvesting in the Tongass from the old growth 
to the young growth trees.
    Now it's my understanding that to mitigate these concerns 
and to help jump start the transition, the Forest Service is 
asking that the bill be amended to include a provision 
exempting the Forest Service from compliance with culmination 
of mean annual increment requirements. As Senator Risch would 
understand that as CMAI requirements. These apply to even aged 
timber harvest under the National Forest Management Act.
    Now, Mr. Chairman, I am willing to consider some 
flexibility with regards to the CMAI requirements in order to 
help the forest make this transition work. But I do ask for 
some commitments from the Forest Service to address the needs 
of the existing timber industry that's being expected to make 
this transition. These existing timber businesses need some 
time. They need sufficient timber. They need economic certainty 
in order to survive and for this transition to have any chance 
of succeeding.
    So I do hope that we can reach a compromise on this 
outstanding issue that we can all live with that enables the 
bill to move forward with the Administration's unqualified 
support.
    I do have, Mr. Chairman, some letters where folks have been 
asked to have them included into the record of variety groups 
in the State. They include testimony from Sealaska Corporation, 
letters from the Archery Trade Association, the city of Tenakee 
Springs, the Point Baker Community Association and the Safari 
Club International.
    Senator Murkowski. I'd like to say just a couple words here 
on the small miner bill. This is S. 366. This is yet another 
attempt to try to right a wrong that I really think we should 
have been able to resolve some time ago.
    Back in 1993 Congress enacted a small miner waiver that 
exempted the small miners. Those are those that own 10 claims 
or fewer. They were exempted from maintenance fee to keep title 
to their claims provided that they performed at least $100 of 
assessment work per year on the claims.
    In order to get the waiver the miners have to file an 
application. If there are any defects in the application the 
miners are supposed to be given notice and an opportunity to 
cure. Unfortunately BLM has interpreted this waiver as allowing 
miners to cure their defects in their applications but only if 
these forms or fees are turned in on time. Otherwise the cure 
remedy doesn't exist. BLM then moves to extinguish the claims 
without appeal.
    So I have attempted to solve the problem by making it clear 
that the BLM had to notify miners if the applications or fees 
weren't received on time. Give the miners 60 days to solve the 
defects. This is exactly what Congress thought it was passing 
in 1993.
    So I offered that fix in the 109th Congress, the 111th, 
then the 112th and again this year. It's still being opposed by 
BLM. They say that it's just due to the potential notification 
costs.
    So I'm prepared, given the testimony that the government is 
submitting, to amend the bill substantially at mark up to 
simply address the claims on a case by case basis. On the other 
hand if the BLM can resolve these problems Administratively, I 
would certainly encourage it to do so. I understand that also 
may be the case with my Cabin Fee bill. Again, if it can be 
done without legislation, by all means, let's make it happen 
that way.
    Mr. Chairman, thank you for allowing me just a little extra 
time to give my statement and hopefully provide a little 
clarity in terms of where we're going with Sealaska. But again, 
appreciate the work that you and the ranking member are doing.
    Senator Manchin. Thank you very much.
    I see that Senator Udall has arrived.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Mr. Chairman, thank you for agreeing to hold 
a hearing on S. 341 which is the San Juan Mountains Wilderness 
Act and several other bills that are on the list that are 
important to Colorado.
    My San Juan Mountains Wilderness bill was first introduced 
in 2009 by former Congressman John Salazar. I'd like to express 
my appreciation for the extensive effort that John and his 
staff made to work with all the stakeholders involved and to 
develop the original bill in 2009. The bill would designate 
over 33,000 acres of National Forest Service and Bureau of Land 
Management Land in Southwestern Colorado as wilderness, mostly 
through expansions of the existing Lizard Head and Mount 
Sneffels wilderness areas.
    It would also establish a new area called McKenna Peak, 
which includes imposing sand stone cliffs rising 2,000 feet 
above the surrounding area. These are important lands that 
possess critical wildlife habitat, clean water and other scenic 
values. So they are very worthy additions to our national 
wilderness preservation system. The bill would also protect 
28,000 acres on Sheep Mountain and Naturita Canyon with other 
special designations.
    Now Mr. Chairman, this is a grass roots bill. By that I 
mean it was developed based on the ideas of a lot of local 
business people, residents, recreationalists. It protects 
existing water rights and it continues existing uses as they 
are now such as grazing, established heliskiing on Sheep 
Mountain and the Hard Rock 100 which is important and popular 
foot race and grueling as well because the 100 stands for a 
hundred miles. It does not affect any current legal motorized 
or mechanized access.
    As I alluded to the bill reflects extensive collaboration 
done over several years of local leaders and interested 
stakeholders. Because of this community based effort a large 
group of citizens, local leaders and other stakeholders from 
across Southwestern Colorado have supported my bill including 
the Ouray, San Miguel and San Juan, San Juan County 
Commissions, the city of Ouray and the Towns of Ophir, 
Ridgeway, Mountain Village, Telluride and Norwood. We've also 
had groups representing hunters and anglers including the Bull 
Moose Sportsmen Alliance, Back Country Hunters and Anglers and 
Trout Unlimited to have endorsed this bill.
    As I said on a couple cases already there is a long list of 
small businesses in the region who support the bill because 
they know protecting public lands helps create jobs and draws 
new residents, tourists and businesses to the surrounding 
communities. This region and I say in fact, much of my State 
depends on our public lands not only for recreational 
opportunities, hunting and fishing and the scenic vistas that 
are so present, all of which are vital to our local economies. 
But also we're dependent on these areas for in the way in which 
they protect our municipal water supplies and provide clean 
air.
    Support, therefore, from local businesses is not a 
surprise, but it's par for the course in tourism and recreation 
dependent economies. The outdoor industry is one of our most 
important economic drivers. Wilderness is one of our State's 
great economic engines. I'm proud to be able to lead the 
efforts on this bill.
    Our population by the year 2050 is expected to double. We 
need to be proactive so that future generations can experience 
the beauty, clean air and water and wildlife that we have 
today. I'm proud of our successful work. The past in 
designating wilderness at James Peak and in Rocky Mountain 
National Park. I'm committed to getting this bill and similar 
community driven efforts to the finish line.
    Mr. Chairman, I thank you for, again, indulging my interest 
in this bill. But I wanted to, before I close, briefly express 
my strong support for 2 other bills on the agenda today.
    The first is my good friend, Senator Barrasso's bill. I'm 
an original co-sponsor of it. What the Wyoming Senator would do 
is expand and reauthorize the Good Neighbor Authority. This 
authority has been in places, a pilot project in my State for 
10 years. It's proven to be cost effective and as well as a 
common sense way to reduce wildfire risk at the boundary 
between the National Forest and private property.
    Wildfires, we found out, doesn't respect orders and neither 
should our solutions. I look forward to working with Senator 
Barrasso across the partisan divide to pass what's very common 
sense and clearly a bipartisan idea.
    Then finally, Mr. Chairman, I support S. 368, which is the 
reauthorization of the Federal Land Transaction Facilitation 
Act. This act is another common sense approach that funds land 
conservation, especially in the West. It will benefit 
businesses, land owners, sportsmen, communities, historic 
preservation, recreational interests. It's critical that it be 
reinstated as soon as possible.
    Mr. Chairman, again, thank you for holding this hearing.
    Senator Manchin. Thank you, Senator.
    What we'll have at this time is our 2 panelists, Mr. Jim 
Pena, Mrs. Jamie Connell come forward.
    Mr. Pena, if you'd like to start with your presentation.

STATEMENT OF JIM PENA, ASSOCIATE DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Pena. Mr. Chairman, Ranking Member Barrasso and members 
of the committee, my name is Jim Pena. I serve as Associate 
Deputy Chief for the National Forest System with the U.S. 
Forest Service. Thank you for inviting me today to testify 
regarding a number of bills that affect the national forests.
    Before I begin my testimony I'd like to apologize for a few 
technical errors that we made in our written testimony. The 
process of creating and clearing testimony on 12 bills at the 
same time has been somewhat of a challenge. We've already made 
some corrections and are in the process of making a couple 
more. Thank you for your patience. I'm sorry for any confusion 
that this might have caused.
    We look forward to working with you on these bills as they 
move through the Senate.
    Would you like me to just go through the bills affecting 
the Forest Service first?
    Senator Manchin. If you can very briefly.
    Mr. Pena. Sure.
    My first comments will be on S. 28, the Y Mountain Access 
Act.
    It would direct the Secretary to convey to Brigham Young 
University all right, title and interests of the United States 
in 2 parcels comprising of approximately 80 acres of National 
Forest system land in the Uintah-Wasatch-Cache National Forest 
in the State of Utah.
    The Department does not object to the conveyance of the 2 
parcels but would like to work with the Subcommittee and 
sponsor to address public access at the trail head.
    Senator Manchin. So noted.
    Mr. Pena. My comments on S. 159, the Lyon County Economic 
Development and Conservation Act will focus on Sections 3 and 4 
as they pertain to management of the Toiyabe National Forest.
    Section 3 of S. 159 would add almost 50,000 acres to the 
National Wilderness Preservation System creating the Wovoka 
Wilderness. The Forest Service categorized this area as having 
a high capacity for wilderness during its forest plan revision 
in 2006.
    The Department supports the goals of the legislation and 
would like to work with the committee on the following 
concerns.
    First, we'd like the bill to use more specific terms to 
describe the roads as some are used to determine the location 
of portions of the wilderness boundary. This will avoid any 
confusion about where the wilderness boundary should be 
located.
    We also would like to work with you on sections that limit 
either the President's or the Secretary's discretion to review 
and approve water developments and wildlife management 
activities within the wilderness.
    Senator Manchin. That will be duly noted.
    Mr. Pena. Next we'd like to address S. 255, the North Fork 
Watershed Protection Act of 2013.
    S. 255 would subject to valid existing rights withdraw 
national forest system lands located in the North and Middle 
Forks of the Flathead River watershed in Montana from location 
entry and patent under the mining laws and from deposition 
under the Mineral and Geothermal Leasing Law.
    S. 255 would also withdraw a small amount of land in the 
Kootenai National Forest.
    The Department supports 255, however, I defer to the 
Department of the Interior on issues related to the management 
of Federal mineral estate as it's within the jurisdiction of 
the Secretary of Interior.
    Senator Manchin. Duly noted.
    Mr. Pena. The Department generally supports S. 258, the 
Grazing Improvement Act but would like to work with the 
committee on a few provisions in the bill.
    S. 258 would revise the permitting process for grazing in 
the National Land Policy and Management Act of 1976. 
Specifically the bill would extend the duration of the permit 
from 10 to 20 years.
    The bill would also make permanent the language used in 
annual appropriation riders requiring permits to be renewed 
with existing terms and conditions if NEPA has not been 
completed on allotments associated with the permit.
    The bill would establish and require the use of categorical 
exclusions and prohibit the agencies from preparing an 
environmental assessment or environmental impact statement 
under NEPA.
    The bill would also provide the Secretary with sole 
discretion to determine the priority and timing of completing 
the NEPA environmental analysis of grazing allotment, 
notwithstanding the schedule in section 504 of the Rescissions 
Act.
    The Department understands and shares the committee's 
desire for increasing Administrative effectiveness for both the 
Forest Service and the permitee. The Department can support the 
concept of having flexibility to issue a longer term permit 
where current management is continued and the allotments are 
monitored to assure they are meeting Forest Plan standards.
    The Department believes that the Secretary rightfully 
should have the sole discretion to determine the priority and 
timing for completing the environmental analysis of grazing 
allotments and as always--as is always the case under NEPA.
    However, we don't support being limited to only using 
categorical exclusions in certain circumstances for grazing 
permits. The Department would like to work with the committee 
and sponsor to make this modification to the bill.
    I'd also like to thank Senator Barrasso for his willingness 
to work with us and for the changes he's already made in the 
bill in response to our previous concerns.
    Senator Manchin. So noted.
    Mr. Pena. S. 312 would modify the boundaries of Carson 
National Forest in the State of New Mexico to include 
approximately 5,000 acres of private land known as Miranda 
Canyon that is adjacent to the existing national forest 
boundary.
    The Department supports the adjustment of the boundary 
because it will create an opportunity for the acquisition of 
Miranda Canyon property as part of the Carson National Forest.
    Senator Manchin. Duly noted.
    Mr. Pena. S. 327 would authorize the Secretary of 
Agriculture and Secretary of Interior to enter into cooperative 
agreements or contracts with State foresters authorizing State 
foresters to provide certain forest, range land and watershed 
restoration and protection services in the States West of the 
100th Meridian.
    We support Good Neighbor Authority, but would like to work 
with the committee to make some minor technical corrections.
    Senator Manchin. Duly noted.
    Mr. Pena. S. 340 would allow the Sealaska Corporation, a 
regional corporation established under the Alaska Native Claims 
Settlement Act to obtain its remaining land entitlement under 
the Alaska Native Claims Settlement Act from portions of the 
Tongass National Forest. These areas are outside the withdrawal 
area to which Sealaska's selections are currently allowed.
    The Department of Agriculture supports the principles or 
the principle objectives of this legislation to finalize 
Sealaska's remaining Alaska Native Claims Settlement Act 
entitlement and promptly complete its conveyance.
    However the last 2 years the Forest Service has worked 
diligently with USDA, the Department of the Interior, Sealaska, 
the Alaska Delegation, members of staff of the committee and 
others, in particular, Senator Murkowski and her staff, to 
develop a solution that is agreeable to all parties. In 
particular we wish to thank Senator Murkowski and her staff's 
efforts working with the Administration to resolve these long 
standing issues.
    S. 340 represents a major step forward in that effort. If 
Sealaska Board of Directors approves a total of a little over 
70,000 acres of Federal land would be conveyed to the full and 
final satisfaction of Sealaska's remaining land entitlement 
under Alaska Native Claims Settlement Act. We understand there 
is some concern that S. 340 would create a precedent for other 
native corporations to seek similar legislation. We believe the 
circumstances surrounding this legislation are unique and that 
no such precedent would be created.
    The biggest remaining issue deals with the potential 
effects of the bill on the transition to young growth forest 
management in Southeast Alaska and ways to offset those 
effects. Under 340 many of the oldest, second growth stands on 
the Tongass would be conveyed to Sealaska accelerating 
Sealaska's young growth program but substantially delaying 
development of the Forest Service young growth program. In 
order for the Tongass to continue its transition to harvesting 
young growth without any delay caused by the transfer of lands 
to Sealaska, the Administration recommends that a limited 
amount of young growth timber on the Tongass be expressly 
exempted from CMAI which limits the harvest of young growth 
forest stands until they've reached their maximum rate of 
growth.
    We look forward to the close working relationship to 
resolve the few issues that remain and then we'll be able to 
move this forward.
    Senator Manchin. Duly noted.
    Mr. Pena. S. 341 would designate 9 parcels of the Grand 
Mesa Uncompahgre, the GMUG, National Forest as wilderness under 
the National Wilderness Preservation Act.
    The Department supports S. 341 and would like to offer 
minor modifications to the bill that would enhance wilderness 
values and clarify the special management area designation.
    We thank Senator Udall for his collaborative approach and 
appreciate the local involvement that has contributed to wide 
support in Colorado for this bill.
    Senator Manchin. Duly noted.
    Mr. Pena. S. 353 would affect the National Forest lands by 
transferring Administrative jurisdiction over a parcel of land 
currently administered by the Bureau of Land Management to the 
Forest Service and by making changes to 2 existing Wild and 
Scenic River designations.
    The Department has no objection to either of these parcels 
being exchanged out of Federal ownership if the BLM, Bureau of 
Land Management, determines that the land exchange would 
benefit, provide public benefit.
    The Department is supportive of the Wild and Scenic River 
designation technical changes as they provide a more 
appropriate naming convention and better reflect management 
classifications and direction for the Chetco River.
    Senator Manchin. So noted.
    Mr. Pena. The Department strongly supports S. 360. This 
bill would strengthen and facilitate the use of public lands 
service corps program helping to fulfill Secretary Vilsack's 
vision for engaging young people across America to serve their 
community and their country. It's also consistent with the 
goals of the President's America's Great Outdoors Initiative 
which includes catalyzing the establishment of a 21st century 
conservation service corps to engage young people in the public 
lands--in public lands service work.
    S. 360 would help USDA and our sister agencies, Department 
of the Interior and NOAA expand opportunities for our youth to 
engage in the care of America's great outdoors and is a fine 
example of multiple agencies coming together to implement a 
shared goal.
    Senator Manchin. Duly noted.
    Mr. Pena. S. 344, the Black Hills Cemetery Act would 
require the cemetery to convey without consideration 9 parcels 
of the National Forest system lands containing cemeteries 
located on National Forest System land in the Black Hills 
National Forest to local entities. The conveyance of these 9 
cemeteries is consistent with the land and resource management 
plan for the Black Hills National Forest.
    The Department does not object to making the Federal land 
available for use as cemeteries. But it does not support 
conveyance of National Forest system lands without compensation 
for the value of the properties.
    Senator Manchin. Duly noted.
    Mr. Pena. S. 736, the Alaska Subsistence Structure 
Protection Act of 2013 would provide relief to the rural 
Alaskan cabin users who depend on the Tongass National Forest 
for subsistence fishing, hunting and gathering by capping the 
fee that may be charged for special use permits authorized in 
the use of these cabins.
    The Department does not oppose S. 736 but would appreciate 
the opportunity to work with the committee staff on technical 
changes to the bill.
    The Forest Service currently has authority to implement the 
changes in fees required by the bill. We'd like an opportunity 
to make those changes administratively to fit our fee 
structure.
    Senator Manchin. Duly noted.
    Mr. Pena. That concludes my run through of the bills. I'd 
be happy to take any questions now or at the end.
    Senator Manchin. I thought what we'd do is we'd go ahead 
and have Ms. Connell do hers. Then we'll have the members ask 
questions as they finish.
    Mr. Pena. Thank you.
    [The prepared statement of Mr. Pena follows:]

   Statement of Jim M. Pena Associate Deputy Chief, National Forest 
      System, Forest Service, Department of Agriculture, on S. 28

    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, thank you for inviting me here today to testify regarding 
S.28, the ``Y'' Mountain Access Enhancement Act.
    S.28, the ``Y'' Mountain Access Enhancement Act, would direct the 
Secretary to convey to Brigham Young University (BYU) all right, title, 
and interest of the United States to 2 parcels comprising approximately 
89 acres of National Forest System land in the Uinta-Wasatch-Cache 
National Forest in the State of Utah, as shown on the accompanying map. 
The southern parcel is a split estate, so the United States would only 
convey what it owns (the surface estate). The United States does not 
own the underlying mineral estate.
    The Department does not object to the conveyance of the two 
parcels, but would like to work with the Subcommittee and the sponsor 
to address public access at the trailhead. The trailhead and beginning 
portion of the ``Y Mountain Trail'' are located on land owned by the 
University. These parcels are adjacent to it. Historically, the public 
has been permitted access to the trailhead and trail. Section 2(c) of 
the bill seeks to provide the same reasonable public access for the 
trail that historically has been allowed. To accomplish this objective, 
the Department recommends that section 2(c) be revised to provide for 
the reservation by the Secretary of an easement for public access for 
the portion of Forest Service Trail #2062 that would be conveyed to the 
University. In addition, there is no legal public access to the trail 
and trailhead located on BYU owned property. Therefore, to ensure legal 
public access, the Department suggests the committee consider an 
amendment to allow the Secretary to obtain an easement from BYU for the 
trailhead parking lot and the portion of trail that traverses across 
BYU property.
    The bill provides for the conveyance of this land for consideration 
in the amount equal to the fair market value of the land. The bill also 
requires the proceeds from the sale shall be deposited in the general 
fund of the Treasury to reduce the Federal debt. The Department 
recommends utilizing Public Law 90-171, commonly known as the ``Sisk 
Act'' (16. U.S.C. 484a), which would allow for the deposit of proceeds 
received for a conveyance into the fund established under the Sisk Act 
for the acquisition of land or interests in land within the State of 
Utah.

                               ON S. 159

    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, thank you for inviting me here today to testify regarding 
S.159, the Lyon County Economic Development and Conservation Act.
    Section 2 of the bill pertains to public lands managed by the 
Bureau of Land Management. This testimony will address Sections 3 and 4 
in my comments as they pertain to the management of the Toiyabe 
National Forest.
    Section 3 of S.159 would add the Wovoka Wilderness to the National 
Wilderness Preservation System. These 47,449 acres are the largest 
remaining tract of wild country in Lyon County Nevada, encompassing the 
southern portion of the Pine Grove Hills south of Yerington Nevada. The 
core of this proposed wilderness is the Forest Service South Pine Grove 
Hill Inventoried Roadless Area. The Forest Service categorized this 
roadless area as having a high capacity for wilderness during its 
Forest Plan Revision wilderness evaluation in 2006.
    Designation of the Wovoka Wilderness would preserve sage-grouse 
habitat, protect prehistoric cultural resources, ensure the 
availability of primitive recreational resources, and maintain high air 
and water quality in the area, while ensuring the conservation of 
ecologically diverse and important habitats. Further, the bill 
encourages the collaboration between the Department and the Lyon County 
Commission on local wildfire and forest management planning. The 
Department supports these worthy goals and would support S.159, if the 
bill is amended to address the following concerns.
    S.159 would provide for several standard provisions for the 
management of wilderness area within the National Wilderness 
Preservation System. However, it introduces several new provisions that 
raise concerns.
    Section 3(c)(2) would require that the wilderness boundary be 
placed 150 feet from the centerline of adjacent roads when they border 
the boundary. While this is generally a good policy, we are concerned 
that the term ``roads'' is open to interpretation. We would prefer the 
use of the term ``forest roads'' or ``public roads'' which reflects 
those roads designated by the Forest Service during our travel planning 
process or by other jurisdictions. This will avoid any confusion about 
the intent of the provision during creation of the legal description.
    The Department objects to Section 3(d)(7), relating to water 
rights. Specifically, Section 3(d)(7)(E)(ii)(I) would prohibit the 
Forest Service from developing for its own purposes any water resource 
facility other than a wildlife guzzler. Additionally, Section 
3(d)(7)(E)(ii)(II) would require the Forest Service to approve 
applications for the development of water resource facilities for 
livestock purposes within the Bald Mountain grazing allotment submitted 
by Bald Mountain grazing allotment permittees within 10 years of 
designation of the wilderness. The President's discretion under the 
Wilderness Act to review and approve any potential water development 
structure or facility that is deemed in the national interest should 
not be limited by these provisions.
    Section 3(e), relating to wildlife management, also presents 
concerns. Section 3(e)(3) would give the State authority to use 
helicopters and other aircraft for specified wildlife management 
purposes without specific permission from the Forest Service. Section 
3(e)(4) would constrict the Forest Service's authority to restrict 
hunting or fishing, and section 3(e)(5) would perpetuate in perpetuity 
the application of a 1984 Memorandum of Understanding between the 
Forest Service and the State to State wildlife management activities in 
this wilderness area.
    The Department objects to Section 3(f) Wildlife Water Development 
Projects, which would require the Secretary to authorize structures and 
facilities for wildlife water development where the Secretary 
determines that the development will enhance wilderness values by 
providing more naturally distributed wildlife populations and the 
visual impacts of the structures and facilities can be visually 
minimized. This language, while it provides some flexibility, still 
removes Secretarial discretion to consider the impact of wildlife water 
developments on other wilderness values. The Department already has the 
discretion to consider the placement of wildlife water developments 
consistent with the Wilderness Act and House Report 101-405. This 
section is an unnecessary abridgement of the Secretary's discretion.
    Section 4 of the bill would withdraw an area of National Forest 
from (1) entry, appropriation, or disposal under public land laws, (2) 
location, entry and patent under the mining laws, and (3) operation of 
the mineral laws, geothermal leasing laws and mineral materials laws. 
The use of motorized and mechanical vehicles within the withdrawn area 
would be limited.
    The Department would like to work with the committee and the 
sponsor of the bill to ensure all valid existing rights may continue in 
the future.

                               ON S. 255

    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, thank you for inviting me here today to testify regarding 
S.255, the North Fork Watershed Protection Act of 2013.
    S.255 would, subject to valid existing rights, withdraw National 
Forest System (NFS) lands located in the North Fork and Middle Fork of 
Flathead River watersheds in Montana which are primarily managed as 
part of the Flathead National Forest from location, entry and patent 
under the mining laws and from disposition under the mineral and 
geothermal leasing laws. S.255 would also withdrawal a small amount of 
land in the Kootenai National Forest. Currently there are 39 existing 
leases or claims in the North Fork comprising 56,117 acres and 18 
existing leases or claims in the Middle Fork comprising 8,595 acres. 
The Department supports S. 255, however, I would like to clarify that 
although the Department has surface management authority concerning 
mineral operations, the management of the federal mineral estate falls 
within the jurisdiction of the Secretary of the Interior. We defer to 
the Department of the Interior on issues related to the status of the 
existing claims and leases.
    The Forest Service administers surface resources on nearly 193 
million acres of NFS lands located in forty-two states and the 
Commonwealth of Puerto Rico. The Forest Plan for the Flathead National 
Forest blends areas of multiple uses in the North Fork and Middle Fork 
with areas of specific or limited uses elsewhere on the Forest. Under 
current law, NFS lands reserved from the public domain pursuant to the 
Creative Act of 1891, including those in S. 255, are open to location, 
entry and patent under the United States Mining Laws unless those lands 
have subsequently been withdrawn from the application of the mining 
laws. This bill would withdraw approximately 362,000 acres from the 
operation of the locatable and leasable mineral laws subject to valid 
existing rights. This includes approximately 291,000 acres on the 
Flathead National Forest and approximately 5,000 acres on the Kootenai 
National Forest in the North Fork watershed and 66,000 acres in the 
Middle Fork watershed on the Flathead National Forest.
    The majority of North Fork and Middle Fork of the Flathead has low 
to moderate potential for the occurrence of locatable and leasable 
minerals. A portion of the Middle Fork does have an area of high 
potential for oil and gas occurrence. Much of the North Fork and Middle 
Fork was leased for oil and gas in the early 1980s. Subsequently, the 
Bureau of Land Management (BLM) and Forest Service were sued and BLM 
suspended the leases in 1985 to comply with a District Court ruling 
(Conner v. Burford, 605 F. Supp. 107 (D.Mont.1985)). Presently, there 
are no active locatable or leasable operations, including oil and gas, 
in the North Fork or Middle Fork.
    We recognize the bill would not affect the existing oil and gas 
leases because they would constitute valid existing rights. We also 
recognize the bill would not change the court's order in Conner v. 
Burford requiring the BLM and Forest Service to prepare an 
environmental impact statement (EIS) under the National Environmental 
Policy Act before authorizing any surface disturbing activities on the 
affected leases.
    The Flathead National Forest and Flathead County rely on the close 
proximity of local sources of aggregate to maintain roads economically 
and as a source of building materials. We are pleased this bill would 
not preclude the removal and use of mineral materials, such as 
aggregate. The ability to continue using those local mineral materials 
would allow us to more easily maintain local roads, thus reduce erosion 
related impacts to streams and lakes in the North Fork and Middle Fork 
drainages.

                               ON S. 258

    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, thank you for inviting me here today to testify regarding 
S.258 the Grazing Improvement Act. The Department supports this bill. 
We believe that this bill would increase efficiencies, but not at the 
expense of good land stewardship.
    The Department understands and shares the committee's desire for 
increasing administrative efficiencies for both the Forest Service and 
the permittee and while the Department supports certain provisions, we 
cannot support S.258 as written. The Department specifically has 
concerns with requirements and definitions in the use of categorical 
exclusions. The Department also recognizes that the Forest Service and 
the Bureau of Land Management operate under different authorities, such 
as the Rescissions Act of 1995, which determines how the Forest Service 
is to apply NEPA for grazing allotments. As a result, various 
provisions in S.258 affect the agencies differently. We therefore defer 
to the Department of the Interior on those provisions that don't 
directly affect the Forest Service, or the impacts of those provisions 
on Department of the Interior programs.
    The Forest Service enjoys a cooperative relationship with the vast 
majority of the over 6,800 individuals who hold permits for grazing, 
permitting approximately 8.2 million animal unit months on nearly 94 
million acres of National Forests and Grasslands. Grazing permittees 
have helped provide for the effective stewardship of our public lands 
for many decades. While the vast majority of the grazing permittees are 
excellent stewards in caring for range resources, there are some areas 
where permittees need to take action to improve range conditions. The 
Forest Service is working with many permittees to make such 
improvements.
    In addition, the Forest Service's grazing program not only helps 
support the economies of rural communities across the west, but it also 
helps maintain open space on private lands. Most permittees utilize and 
need both public and private lands to graze livestock economically. The 
loss of grazing on public lands can result in the loss of grazing on 
private lands that may lead to the conversion of private open space to 
other uses such as subdivision development.
    S.258 would revise the permitting process for grazing in the 
Federal Land Policy and Management Act of 1976. Specifically, the bill 
would extend the duration of the permit from 10 years to 20 years. The 
bill also would make permanent the language used in annual 
appropriation riders which has required expiring permits to be renewed 
with existing terms and conditions if the National Environmental Policy 
Act (NEPA) has not been completed on allotments associated with the 
permit. It further would expand the appropriation riders language to 
include transferred or waived permits or leases.
    The bill would establish and require the use of categorical 
exclusions (CE) and prohibit the agencies from preparing an 
environmental assessment or environmental impact statement under NEPA. 
CEs, which require no public notice, would apply if a decision 
continues the current grazing management on an allotment; monitoring 
has indicated that the current grazing management has met or is 
satisfactorily moving towards meeting land use management plan 
objectives; or the decision is consistent with the policy of the 
Department regarding extraordinary circumstances. While we support 
providing the line officer with the option to use a categorical 
exclusion category where the parameters of what constitutes a minor 
adjustment are narrowly defined, we do not support requiring use of 
categorical exclusions. The bill also would provide the Secretary with 
the sole discretion to determine the priority and timing for completing 
the environmental analysis of a grazing allotment, notwithstanding the 
schedule in section 504 of the Rescissions Act.
    S.258 also exempts crossing and trailing authorizations as well as 
the transfer of grazing preference from NEPA. We defer to the 
Department of the Interior on these provisions.
    S.258 would require that grazing permits be issued for a term of 20 
years rather than the current 10-year term. Permits may be issued for a 
shorter term on land that is pending disposal or will be devoted to a 
public purpose, or where it is in the best interest of sound land 
management on those allotments that have not had initial NEPA.
    The Department understands and shares the committee's desire for 
increasing administrative efficiencies for both the Forest Service and 
the permittee. The Department can support the concept of having the 
flexibility to issue a longer term permit where current management is 
continued and the allotments are being monitored to assure they are 
meeting Forest Plan standards. The Department believes that the 
Secretary rightfully should have the sole discretion to determine the 
priority and timing for completing environmental analyses of grazing 
allotments, as is always the case under NEPA. We do not, however, 
support being limited to only using CEs in certain instances for 
grazing permits. We have completed NEPA analyses on threefourths of our 
grazing allotments. We have been able to move forward with our renewed, 
reissued and transferred grazing permit program. Our analyses, with or 
without a CE, have been helpful in determining range conditions, a 
matter of great concern to all permittees and the Forest Service. We 
look forward to continuing to work with the committee and sponsors of 
this bill.

                               ON S. 312

    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, thank you for inviting me here today to testify regarding 
S.312, the Carson National Forest Boundary Adjustment Act of 2013.
    S.312 would modify the boundaries of the Carson National Forest in 
the State of New Mexico to include approximately 5,000 acres of private 
land known as ``Miranda Canyon'' that is adjacent to the existing 
National Forest boundary. The Department supports the adjustment of the 
boundary because it will create an opportunity for the acquisition of 
Miranda Canyon property as part of the Carson National Forest.
    The Trust for Public Land currently owns most of the Miranda Canyon 
Property and will purchase the rest from Weimer Properties by the end 
of the year. It is located approximately four miles south of Taos, New 
Mexico. Weimer Properties spent several years proposing to develop a 
subdivision and seeking to acquire approval from the Taos County Board 
of Commissioners. Approval of the subdivision was not granted and the 
Taos County Commissioners requested the New Mexico Congressional 
delegation consider placing this land under the stewardship of the U.S. 
Forest Service.
    The Miranda Canyon Property is an expansive piece of property that 
ranges in elevation from 7,200 ft. to 10,800 ft. The property has 
various vegetative types from low elevation sagebrush and pinon--
juniper to high elevation mixed conifer forest including large aspen 
clones. The landscape has numerous ridges and peaks that provide 
breathtaking views of the Rio Grande Gorge to the west and of Wheeler 
Peak (highest peak in New Mexico) to the north. The property contains 
historical features such as the Camino Real Trail and unique geologic 
features such as a small volcano and Miranda granite--1.7 billion year 
old rock outcrops that rival the age of rock found at the bottom of the 
Grand Canyon. There are also numerous meadows and riparian vegetation 
that provide excellent habitat for wildlife.
    The proposed boundary adjustment has wide grass roots support from 
the local residents, the Taos County Board of Commissioners, the 
Village of Taos, and local Native American Tribes and Pueblos. To date, 
there has been no opposition voiced to adjusting the boundary of the 
Carson National Forest. The adjustment of the Forest boundary would 
open the door to the potential federal acquisition of Miranda Canyon 
from a willing seller. The cost of acquiring the Miranda Canyon 
property would be approximately $10,500,000, subject to the 
availability of appropriations. The properties are in the process of a 
conservation sale to the United States through an agreement with the 
Trust for Public Lands, a 3rd party non-profit organization. This 
agreement keeps the property from being developed or sold on the open 
market until funding is appropriated. The acquisition would provide 
additional recreation opportunities for hunting, sightseeing, camping, 
hiking, interpretation, and horseback riding for the public.
    Thank you for the opportunity to testify is support of S.312. The 
Department supports the acquisition of the Miranda Canyon property 
because it would make an outstanding addition to the National Forest 
System.

                               ON S. 327

    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, thank you for inviting me here today to testify regarding 
S.327, the Good Neighbor Forestry Act.
    S.327 would authorize the Secretary of Agriculture and the 
Secretary of the Interior to enter into cooperative agreements or 
contracts with State foresters authorizing State foresters to provide 
certain forest, rangeland and watershed restoration and protection 
services in states west of the 100th meridian.
    Activities that could be undertaken using this authority include: 
(1) activities to treat insect infected trees; (2) activities to reduce 
hazardous fuels; and (3) any other activities to restore or improve 
forest, rangeland and watershed health, including fish and wildlife 
habitat. The bill would authorize the states to act as agents for the 
Secretary and would provide that states could subcontract for services 
authorized under this bill. The bill would require federal retention of 
decision making under the National Environmental Policy Act (NEPA) of 
1969 (42 U.S.C. 4321et seq.). The authority to enter into contracts or 
agreements under the bill would expire on September 30, 2019.
    We support Good Neighbor Authority (GNA), but would like to work 
with the committee to make some minor technical corrections. We know 
our Nation's forests face forest health challenges, which must be 
addressed across diverse land ownerships. In these times of limited 
resources, it is important to leverage workforce and technical 
capacities and develop partnerships for forest restoration across all 
lands. To that end, we look forward to continuing our work with the 
committee and states.

                               ON S. 340

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on S.340, the ``Southeast Alaska Native Land 
Entitlement Finalization and Jobs Protection Act.'' S.340 would allow 
the Sealaska Corporation, a Regional Corporation established under the 
Alaska Native Claims Settlement Act of 1971 (ANCSA), to obtain its 
remaining land entitlement under ANCSA from portions of the Tongass 
National Forest outside of the withdrawal areas to which Sealaska's 
selections are currently restricted by law.
    The Department of Agriculture supports the objectives of finalizing 
Sealaska's remaining ANCSA entitlement, and completing conveyance of 
it. Over the last two years, the Forest Service has worked diligently 
with USDA, the Department of the Interior, Sealaska, the Alaska 
delegation, members and staff of the committee, and others to develop a 
solution that works for everyone. S.340 represents a major step forward 
in that effort. We look forward to continuing the close working 
relationship to resolve the few issues that remain.
    Under S.340, if the Sealaska board of directors approves the 
conveyances contemplated by the bill within 90 days of its enactment, 
the Secretary of the Interior would convey to Sealaska 18 parcels of 
Federal land on the Tongass National Forest totaling 69,585 acres 
within 60 days. Sealaska would also be allowed to apply within two 
years to the Secretary of the Interior for 76 cemetery sites and 
historical places; conveyance would be limited to a total of 490 acres. 
If any of these sites were rejected, Sealaska could apply for 
additional cemetery sites. These conveyances totaling 70,075 acres of 
Federal land would be the full and final satisfaction of Sealaska's 
remaining land entitlement under ANCSA.
    The biggest remaining issue deals with the potential effects of the 
bill on the transition to young growth forest management in Southeast 
Alaska, and ways to offset those effects. USDA is making extensive 
efforts to transition the Tongass timber program, and the timber 
industry in Southeast Alaska, away from a reliance on old-growth timber 
towards a reliance primarily on the harvest of young growth stands. We 
believe this transition is essential to the long-term social and 
economic sustainability of the industry, and of the local economies of 
the communities in Southeast Alaska.
    Under S.340, many of the oldest second-growth stands on the Tongass 
would be conveyed to Sealaska. That would accelerate Sealaska's young 
growth program, but substantially delay the development of the Forest 
Service's young growth program on the Tongass unless additional steps 
are taken. The steps recommended by the Administration relate to the 
``Culmination of Mean Annual Increment,'' or CMAI. This is a provision 
of the National Forest Management Act which, in lay terms, generally 
limits the harvest of young growth forest stands until they have 
reached their maximum rate of growth. In order for the Tongass to 
continue its transition to harvesting young growth without any delay 
caused by the transfer of lands to Sealaska, the Administration 
recommends that a limited amount of young growth timber on the Tongass 
be expressly exempted from CMAI. This exemption is not precedent-
setting; it would apply only to the Tongass National Forest, due to the 
unique situation presented by this legislation. The existing CMAI 
provision contained in the NFMA would not be amended. We recognize that 
forest industry wants to ensure that the transition to young growth 
timber is done in a way that sustains the industry. We share that goal 
and believe that a limited CMAI exemption in this legislation will 
benefit the industry, local communities, and the Tongass. The 
successful resolution of this issue would remove the primary obstacle 
to moving forward with this bill. There are several other minor 
amendments still being discussed. We hope to continue working with 
Sealaska and the Committee on these issues to ensure the final bill can 
be swiftly and efficiently implemented.
    In conclusion, we have come a long way toward developing a solution 
that works for all parties. Particularly the department wants to 
recognize Sen. Murkowski and her staff, for their willingness to work 
in good faith toward agreements wherever possible. With a little more 
time and effort, the department believes that result can be achieved.

                               ON S. 341

    Mr. Chairman, Ranking Member Murkowski, and members of the 
Committee, thank you for inviting me here today to testify regarding S. 
341, the San Juan Mountains Wilderness Act.
    The Department supports S.341 and would like to offer minor 
modifications to the bill that would enhance wilderness values, clarify 
the special management area designation, and improve our ability to 
manage resources in the area. We thank Senator Udall for his 
collaborative approach and appreciate the local involvement that has 
contributed to the wide support in Colorado for this bill.
    The Department defers to the Department of the Interior in regard 
to the proposal to designate approximately 8,600 acres of Bureau of 
Land Management (BLM) lands as the McKenna Peak Wilderness.
    S.341 would designate nine parcels of the Grand Mesa, Uncompahgre 
and Gunnison National Forests as wilderness under the National 
Wilderness Preservation System. These areas, totaling approximately 
24,400 acres, encompass some of Colorado's most majestic, remote 
landscapes with many abundant wildlife species including elk, deer, 
bighorn sheep, bears and a variety of birds. Several world-class trout 
streams are also found in the areas. These areas also provide 
opportunities to experience solitude and primitive recreation use for 
members of the public seeking areas to connect with nature.
    These parcels would be additions to two existing wildernesses: 
Lizard Head and Mount Sneffels. In addition, S.341 would designate the 
Sheep Mountain area as a Special Management Area to be managed to 
maintain the area's existing wilderness character and potential for 
inclusion in the National Wilderness Preservation System. Also, S.341 
would provide for a mineral withdrawal within a portion of Naturita 
Canyon.

Lizard Head Wilderness Additions
    The Lizard Head Wilderness lies astride the spectacular San Miguel 
Mountains, 10 miles southwest of Telluride, Colorado on the Uncompahgre 
and San Juan National Forests. Elevations in the area range from 9,500 
to over 14,000 feet. The wilderness is evenly split between the two 
national forests and is 41,200 acres in size.
    The proposed wilderness additions include five parcels, 
encompassing approximately 3,150 acres of National Forest System lands 
adjacent to the existing wilderness. Though neither of the Forest Plans 
recommends these areas for wilderness designation, wilderness 
designation would be consistent with current management of the area. No 
summer motorized recreation is currently allowed and effects to winter 
motorized recreation will be minimal as there is very little snowmobile 
use of the area.

Mount Sneffels Wilderness Additions
    The Mount Sneffels Wilderness comprises more than 16,500 acres on 
the Uncompahgre National Forest between the communities of Telluride 
and Ouray, Colorado. Elevations range from 9,600 to 14,150 feet at the 
top of Mount Sneffels.
    The proposed wilderness additions include four parcels that 
encompass approximately 21,250 acres of National Forest System land 
adjacent to the existing wilderness. As with the Lizard Head Additions, 
even though this area was not recommended as wilderness in the Forest 
Plan, designation is generally aligned with forest plan direction and 
will have minimal effects on summer and winter recreation.
    We would like to work with the subcommittee to address some 
technical aspects of the bill. We recommend changing the wilderness 
boundary near Telluride to provide for a more definitive boundary by 
following a cliff formation, following a more recognizable topographic 
feature for the wilderness boundary. Moving the boundary would also 
allow an important race to the community to continue in its current 
location. If the area is designated wilderness the race would be 
prohibited through the wilderness.

Sheep Mountain Special Management Area
    S. 341 would also designate an area of about 21,600 acres of NFS 
land that lies south of the town of Ophir, Colorado as a special 
management area. About 10,850 acres are within the Uncompahgre National 
Forest and about 10,750 acres are within the San Juan National Forest. 
This area contains some lands purchased recently with funds provided by 
Congress as part of the Ophir Valley Land and Water Conservation Fund 
project.
    Elevations in the area range from 10,200 to almost 13,900 feet at 
the top of Vermillion Peak. The area is dense with spruce and fir trees 
at the lower elevations. Above timberline are high alpine valleys with 
numerous lakes, tarns and waterfalls beneath dramatic 13,000-foot peaks 
and serrated ridges. The Forest Plans identify half of the area to be 
managed for semi-primitive nonmotorized recreation and the other half 
for other recreation purposes.
    The Department recognizes the desire of the bill sponsors to 
preserve the characteristics of Sheep Mountain as a Special Management 
Area for potential designation as wilderness. With respect to water 
rights and water development, Section 4(d)(3) would prohibit new water 
development projects in the special management area. This provision is 
more restrictive than section 4(d)(4) of the Wilderness Act under which 
the President of the United States may exercise discretion to authorize 
such facilities within designated wilderness areas if they are 
determined to be in the public interest. We support amending this 
provision so that it is consistent with the discretion authorized by 
the Wilderness Act.

Naturita Canyon Withdrawal
    S.341 would also provide for a withdrawal on approximately 6,600 
acres of National Forest System lands within Naturita Canyon on the 
Uncompahgre National Forest. This is an area important to local 
residents and is about five miles south of the community of Norwood, 
Colorado. Naturita Canyon is a relatively low-elevation river drainage 
(7,000 feet) with steep canyon walls that tower 1,000 feet. There are 
no current leases within the area proposed for withdrawal. Impacts on 
available oil and gas resources for this withdrawal are unknown. 
Further exploration information would be needed for a conclusive 
assessment.

                               ON S. 353

    Mr. Chairman, Ranking Member Murkowski, and members of the 
Committee, thank you for inviting me here today to testify regarding 
S.353, the Oregon Treasures Act of 2013.
    S. 353 would affect National Forest System (NFS) lands by 
transferring administrative jurisdiction over a parcel of land 
currently administered by the Bureau of Land Management (BLM) to the 
Forest Service, and by making changes to two existing wild and scenic 
rivers designations.
    Section 2 of the bill provides for land exchanges between BLM and 
private parties. We defer to BLM for its position on those exchanges. 
One of the exchanges, identified in the bill as the Young Life 
Exchange, would involve the conveyance of two parcels of NFS land, 
comprising approximately 690 acres. The Department has no objection to 
either of the parcels being exchanged out of federal ownership if BLM 
determines that the land exchange will provide a public benefit.

Transfer of Administrative Jurisdiction
    Section 2(b)(7) of the bill would transfer administrative 
jurisdiction of certain BLM lands that lie within, or are adjacent to, 
the Ochoco National Forest to the Forest Service. The Department 
supports the transfer of jurisdiction over these lands to the Forest 
Service. This mutually beneficial transfer will make management of the 
federal lands more efficient.

Wild and Scenic River Designations
    Section 4(b) officially changes the name of ``Squaw Creek'' to 
``Whychus Creek'' to better reflect local usage and current geographic 
nomenclature standards. This section also updates the location 
description in the existing designation in section 3(a)(102) of the 
Wild and Scenic Rivers Act to incorporate several other name changes.
    Section 5 of the bill amends the existing designation in Section 
3(a)(69) of the Wild and Scenic Rivers Act to change the starting and 
ending points of the three main segments of the Chetco River. These 
changes will extend the wild segment an additional 2 miles from Boulder 
Creek to Mislatnah Creek so that the segment extends from the 
headwaters to Mislatnah Creek for a total segment length of 27.5 miles; 
reduce the scenic segment 1/2 mile so that it begins at Mislatnah Creek 
and ends at Eagle Creek for a total segment length of 7.5 miles; and 
reduce the recreational segment 1.5 miles so that it begins at Eagle 
Creek while leaving its end at the Siskiyou National Forest border 
unchanged, for a total segment length of 9.5 miles. The total length of 
the Chetco Wild and Scenic River would remain 44.5 miles.
    In addition, Section 5 would effectuate a mineral withdrawal of the 
Federal land within the boundary of the segments of the Chetco River 
designated as a wild and scenic river. Under the Wild and Scenic Rivers 
Act, only Federal lands within segments designated as wild are subject 
to a mineral withdrawal.
    The Department is supportive of these technical changes as they 
provide a more appropriate naming convention in the first case, and 
better reflect management classifications and direction for the Chetco 
River in the second case. The Chetco River is a jewel of the south 
coast of Oregon and should be protected from impacts that could change 
its river values and current conditions, including tremendous 
anadromous fish runs.

                               ON S. 360

    Mr. Chairman, Ranking Member Murkowski, and members of the 
Committee, thank you for inviting me here today to testify regarding S. 
360, the Public Lands Service Corps Act of 2013.
    S. 360 is a welcome amendment to the Public Lands Corps Act of 
1993. The Nation's forests and grasslands are unique and special 
ecosystems that the Forest Service manages to meet the needs of present 
and future generations. These lands yield abundant sustainable goods 
and ecosystem services for the American people. The National Forest 
System lands are perfect places for the Public Lands Service Corps 
participants to learn and practice an array of conservation, 
restoration, preservation, interpretation and cultural resource 
activities, and take advantage of outstanding and unique educational 
opportunities. In states in every region, the Forest Service has 
benefited greatly from the services of Conservation Corps on National 
Forest System lands.
    The Department strongly supports S. 360. This bill would strengthen 
and facilitate the use of the Public Land Service Corps (PLSC) program, 
helping to fulfill the vision that Secretary Vilsack has for engaging 
young people across America to serve their community and their country. 
It is also consistent with and will help the Administration to meet the 
goals of the President's America's Great Outdoors Initiative, which 
called for catalyzing the establishment of a 21st century Conservation 
Service Corps (21CSC) to engage young people in public lands service 
work.
    In January 2013, leaders of eight federal departments and agencies 
signed an agreement setting up a national council to guide 
implementation of the Administration's 21st Century Conservation 
Service Corps (21CSC), a national collaborative effort between federal 
and non-federal partners to put America's youth and returning veterans 
to work protecting, restoring and enhancing America's great outdoors. 
By signing the Memorandum of Understanding, the Secretaries of 
Agriculture, Interior, Commerce, and Labor, as well as the EPA 
Administrator, Chair of the President's Council on Environmental 
Quality, CEO of the Corporation for National and Community Service and 
Assistant Secretary for the Army (Civil Works) established the National 
Council for the 21CSC, implementing the first recommendation of the 
America's Great Outdoors Initiative introduced by President Obama in 
2010.
    Building on the legacy of President Roosevelt's Civilian 
Conservation Corps during the Great Depression in the 1930s, the 21CSC 
will bring agencies and partners together to help build and train a 
workforce that fully represents the diversity of America while creating 
the next generation of environmental stewards and improving the 
condition of our public lands.
    The 21CSC focuses on helping young people--including diverse low-
income, underserved and at-risk youth, as well as returning veterans--
gain valuable training and work experience while accomplishing needed 
conservation and restoration work on public lands, waterways and 
cultural heritage sites. The National Council works across the federal 
government to support the 21CSC by enhancing partnerships with existing 
youth corps programs that utilize PLC around the nation; stimulating 
existing and new public-private partnerships; and aligning the 
investment of current federal government resources.
    S. 360 would help both the Forest Service and our sister agencies 
in the Department of the Interior and the Department of Commerce offer 
expanded opportunities for our youth to engage in the care of America's 
Great Outdoors. Additionally, the PLC program helps the Department 
implement critical cost-effective conservation projects that have 
direct positive impacts for the agency and the public.
    In recent years, the Forest Service has greatly expanded 
partnerships with local, state, and urban based conservation Corps 
programs and our Job Corps Center portfolio. Under S.360, we will be 
able to increase partnerships with Corps programs and expand 
opportunities for Job Corps graduates in the Green Careers program.
    In 2012, our partnerships with the Students Conservation 
Association, The Corps Network, and multiple youth, conservation and 
veterans Corps in every region resulted in nearly 9,500 youth and young 
adults serving on public lands. The expanded authority provided by 
S.360 will improve the Act by providing increased flexibility to use 
interns and Conservation Corps teams. It will also help ensure that 
underserved populations are able to participate by defining minimum 
match requirements while also providing flexibility with the match 
requirement.
    The emphasis on experiential training and education will help 
promote the value of public service in addition to contributing to the 
accomplishment of much needed work. S.360 will expand our usage of the 
PLSC in a variety of program areas by providing additional resources 
and mechanisms to engage young people in a range of developmental 
opportunities. This authority will further assist in providing even 
more outdoor opportunities that will nurture the next generation of 
public land stewards.
    The broader definition of natural, cultural and historic resource 
work under the amendment benefits the Nation's forests and grasslands 
by authorizing a wider variety of different types of youth engagement. 
The expanded authority to engage Native Americans through the Indian 
Youth Service Corps and resources assistants and consulting interns 
will contribute to our goals of creating a more diverse workforce as we 
seek to fill positions in an aging workforce. These new and expanded 
authorities will ultimately promote public understanding and 
appreciation of the mission and work of the federal land, coastal and 
ocean management agencies.
    We appreciate the flexibility of the expanded authority in section 
205, which would authorize the use of residential facilities. Our 
history of program delivery through Forest Service Job Corps Civilian 
Conservation Centers has allowed us to reach more than six million 
youth since the program was established in 1964. The U.S. Forest 
Service operates residential Civilian Conservation Centers through an 
interagency agreement with the Department of Labor Job Corps program. 
The 2009 Omnibus appropriations Act authorized the Forest Service to 
operate six additional Job Corps Centers formerly run by the Bureau of 
Reclamation. The now 28 Job Corps Civilian Conservation Centers have 
the capacity to house, educate and train 6,200 enrollees between the 
ages of 16 and 24. Our extensive experience operating residential 
facilities successfully has resulted in the establishment of many best 
practices and in-depth operational knowledge about residential 
conservation centers.
    The Job Corps Civilian Conservation Centers not only help cultivate 
and develop emerging leaders within the Forest Service, but also 
provide a pipeline of entry-level workers. Each year the Forest Service 
hires dozens of Job Corps graduates that have participated in forestry 
and conservation programs. Through Job Corps, the Forest Service is 
building a skilled and diverse workforce capable of advancing the 
agency's mission.
    With our partners, we can confidently leverage resources and expand 
our ability to develop a well-trained and responsible workforce in 
natural and cultural resources. Youth will participate in community 
service, restoration and stewardship projects; leadership and civic 
engagement programs; recreation; and team building and independent 
living skills training.
    The Forest Service is uniquely positioned to manage residential 
conservation centers on the National Forests and Grasslands. This 
initiative could become an important component of the emerging youth 
outdoors initiative. It will also provide us with a unique opportunity 
to develop and implement innovative programming that will engage more 
urban youth and people that have been previously underserved.
    There are a number of implementation issues that should be 
considered in establishing new residential conservation centers. These 
include the costs of operating and maintaining the facilities, 
potential liability issues, and questions about the impact on contract 
and labor laws. We would like to work with the Committee on addressing 
these types of issues. The Department of Labor also is reviewing S. 360 
to ensure child labor protections apply for participating youth, and 
will address any concerns it has directly with the Subcommittee.
    S.360 would increase the opportunity for Public Lands Service Corps 
members to leverage their education and work experience in obtaining 
permanent full-time employment with Federal agencies. While we strongly 
support S.360, we offer a few amendments to the bill that are outlined 
below:
            1) Hiring preference
    The Administration recommends changing eligibility for former PLSC 
for noncompetitive hiring status from two years to one year. This 
change would make eligibility status consistent with other Government-
wide, non-competitive appointment authorities based on service outside 
of the Federal government.
            2) Cost sharing for nonprofit organizations contributing to 
                    expenses of resource assistants and consulting 
                    interns:
    Under current law in the case of resource assistants, and under 
S.360 in the case of consulting interns, sponsoring organizations are 
required to cost-share 25 percent of the expenses of providing and 
supporting these individuals from ``private sources of funding.'' The 
Administration recommends giving agencies the ability to reduce the 
non-Federal contribution to no less than 10 percent, if the Secretary 
determines it is necessary to enable a greater range of organizations, 
such as smaller, community-based organizations that draw from low-
income and rural populations, to participate in the PLSC program. This 
would make the cost-share provisions for resource assistants and 
consulting interns parallel to the provisions under the bill for other 
PLSC participants.
            3) Department-wide authorities
    The Administration recommends technical amendments to clarify that 
PLSC activities will be carried out on public lands as enumerated in 
the law. ``Eligible service lands'' may be interpreted to include non-
Federal lands.
            4) Agreements with Partners on Training and Employing Corps 
                    Members
    The Administration recommends striking the provision in S.360 that 
would allow PLSC members to receive federally funded stipends and other 
PLSC benefits while working directly for non-Federal third parties. The 
need for this language is unclear, since agencies already have 
flexibility in how they coordinate work with cooperating associations, 
educational institutes, friends groups, or similar nonprofit 
partnership organizations. Yet, the language could raise unanticipated 
concerns over accountability, liability, and conflicts of interest. For 
example, this language could allow an individual to receive a federally 
funded stipend under a PLSC agreement, and then perform work for a 
different non-federal group (such as a cooperating association) that is 
subject to agency oversight under different agreements. This language 
could blur the lines of responsibility that have been established in 
response to IG concerns over the management of cooperating associations 
and friends groups.
            5) Participants/Terms
    The Administration recommends striking the provision in S. 360 that 
would limit the terms of service of Corps participants. This would 
retain the authority provided for in current law which provides for 
administrative flexibility in determining the appropriate length of 
service for Corps participants.
            6) Authorization of Appropriations
    The Administration recommends amending S. 360 to eliminate the $12 
million authorization ceiling for the program under existing law. This 
would allow for an increased funding for the program in the future, as 
the three Departments increase their use of the Public Lands Service 
Corps.
    The Forest Service has offices already in place to help coordinate 
the Public Lands Service Corps through its National Job Corps Civilian 
Conservation Centers program and the Office of Recreation, Heritage and 
Volunteer Resources Volunteers (RHVR) and Service program. The Forest 
Service RHVR Volunteers and Service program could likely be the 
coordinating office for Public Lands Service Corps in the Forest 
Service.
    The Forest Service is fully committed to the advancement of young 
people through a variety of conservation projects, training, and 
service learning and conservation education. Along with the Bureau of 
Land Management, we can provide participants with an understanding of 
the agency's history and training on multiple-use and sustained-yield 
management of natural, cultural, historic, archaeological, recreational 
and scenic resources. Our mission, ``To sustain the health, diversity 
and productivity of the Nation's forests and grasslands to meet the 
needs of present and future generations,'' can only be achieved by 
educating future generations and training the future public and private 
land managers. In turn, they will promote the value of public service 
and continue the conservation legacy of natural resource management for 
the United States.
    The America's Great Outdoors initiative has generated a national 
dialogue on how to reconnect Americans with the outdoors. The AGO 
report released February 2011 includes a major emphasis on youth and 
career pathways. The very first goal in the report is ``develop quality 
conservation jobs and service opportunities that protect and restore 
America's natural and cultural resources''.
    The Department and the Forest Service, together with our sister 
Departments and agencies, are working together to: establish a 21CSC; 
improve federal capacity for recruiting, training and managing 
volunteers and volunteer programs to create a new generation of citizen 
stewards; and improve career pathways and to review barriers to jobs in 
natural resource conservation and historic and cultural preservation. 
The proposed amendments to the Public Lands Service Corps Act will 
support these efforts to fully implement the President's America's 
Great Outdoors initiative. We look forward to working with the 
committee on this bill.

                               ON S. 447

    Mr. Chairman, Ranking Member Murkowski, and members of the 
Committee, thank you for inviting me here today to testify regarding S. 
447 the Black Hills Cemetery Act.
    S. 447, the Black Hills Cemeteries Act, would require the Secretary 
to convey, without consideration, nine parcels of National Forest 
System Land containing cemeteries located on National Forest System 
land in the Black Hills National Forest to local entities. The 
conveyance of these nine cemeteries is consistent with the Land and 
Resource Management Plan for the Black Hills National Forest. The 
Department does not object to making the Federal land available for use 
as cemeteries, but it does not support conveyance of National Forest 
System lands without consideration. It is long standing policy that the 
United States receive market value for the sale, exchange, or use of 
National Forest System land. This policy is well established in law, 
including the Independent Offices Appropriation Act (31 U.S.C. 9701), 
section 102(9) of FLPMA, as well as numerous land exchange authorities.
    In addition, we would the committee to consider a provision that 
would require the recipient of each parcel cover the cost for heritage 
recordation and evaluation of significance for the National Register in 
addition to covering the land survey costs. The Forest Service would 
prepare the land survey instructions for the recipient's land surveyor.

                               ON S. 736

    Mr. Chairman, Ranking Member Murkowski, and members of the 
Committee, thank you for inviting me here today to testify regarding 
S.736, the Alaska Subsistence Structure Protection Act of 2013.
    The bill would provide relief to rural Alaskan cabin users who 
depend on the Tongass National Forest for subsistence fishing, hunting 
and gathering by capping the fee that may be charged for the special 
use permits authorizing the use of the cabins.
    The Department does not oppose S. 736, but would appreciate the 
opportunity to work with Committee staff on technical changes to the 
bill. These changes would better clarify which permits would be 
eligible for the reduced fees.
    We also note that the Forest Service has existing authority to 
implement the changes in fees required by the bill, so legislation on 
this topic may not be necessary. This concludes our testimony.

    Senator Manchin. Ms. Connell.

STATEMENT JAMIE CONNELL, ACTING DEPUTY DIRECTOR, BUREAU OF LAND 
  MANAGEMENT, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY CARL 
  ROUNTREE, BLM ASSISTANT DIRECTOR FOR THE NATIONAL LANDSCAPE 
         CONSERVATION SYSTEM AND COMMUNITY PARTNERSHIPS

    Ms. Connell. Thank you. Mr. Chairman, members of the 
subcommittee, thank you for the opportunity to testify on 
numerous bills of interest to the BLM and the Department of the 
Interior.
    As the Senator said, I'm Jamie Connell. I'm the Acting 
Deputy Director for the Bureau of Land Management. My job back 
home is as the State Director for Montana, North and South 
Dakota. So I appreciate your time having us here today.
    I'm going to attempt to very briefly summarize our position 
on these 16 bills and ask that the entirety of the statements 
be included in the record.
    Carl Rountree, the BLM Assistant Director for the National 
Landscape Conservation System and Community Partnerships is 
accompanying me today and will respond to questions on 6 of the 
bills before us today. Those would be S. 241, S. 341, S. 342, 
S. 353, S. 360 and S. 368.
    The Administration strongly supports S. 368, the Federal 
Land Transaction Facilitation Act Reauthorization and S. 360, 
the Public Lands Surface Conservation Corps Act. 
Reauthorization of FLTFA provides an important land management 
tool which allows the BLM to continue a rational process of 
land disposal anchored in public participation and sound land 
use planning while providing for land acquisitions to augment 
and strengthen our Nation's treasured landscapes.
    S. 360 strengthens and facilitates the use of the Public 
Lands Corps program to help fulfill the Administration's 
commitment to build the 21st century conservation service 
corps. This national collaborative effort encourages young 
people across America to serve their community and their 
country while supporting the missions of many of the Department 
of the Interior's agencies.
    Four of the bills before the committee today include 
important conservation designations.
    S. 241, to designate wilderness within the Rio Grande del 
Norte National Monument of New Mexico.
    S. 341, to designate lands as wilderness within the McKenna 
Peak area of Southwestern Colorado.
    S. 342, to designate the Pine Forest Range Wilderness in 
Humboldt County, Nevada.
    S. 353, the Oregon Treasures Act which includes several 
Oregon wilderness and Wild and Scenic River designations.
    We support all of these designations and in some cases 
would like to work with the committee and sponsors on minor 
technical modifications.
    Likewise we support S. 255, withdrawing Federal lands 
within the North Fork Watershed of my home State of Montana in 
the Flathead River from the mining laws and mineral leasing 
laws which will help prevent the remarkable resources in the 
Crown of the Continent ecosystem.
    Several of the bills provided for various land conveyance 
authorities.
    S. 27, the Hill Creek Cultural Preservation and Energy 
Development Act.
    S. 159, Lyon County Economic Development and Conservation 
Act.
    S. 609, San Juan County Federal Land Conveyance Act.
    S. 757, Multiple Species Habitat Conservation Plan 
Implementation Act.
    Each of these bills provides important economic benefits to 
local communities. The BLM is eager to resolve any remaining 
issues so that they can move forward with our full support.
    S. 340 provides for the finalization of Sealaska's land 
entitlement under the Alaska Native Claims Settlement Act. We 
support the goal of completing ANCSA entitlements as soon as 
possible through--though in general we defer to the Forest 
Service on this bill.
    The Administration supports Good Neighbor Authority and 
looks forward to working the committee on minor technical 
corrections to S. 327 which would expand and make permanent the 
authority. This authority can be an important tool for the 
efficient management of natural resources across landscapes.
    S. 258 concerns grazing on public land. The BLM has a 
shared interest in finding ways to make grazing permit renewal 
less complex, costly and time consuming. We would like to work 
with the committee to further these shared goals.
    However, we cannot support S. 258 because it requires the 
renewal of grazing permits without appropriate environmental 
and public review. This would significantly limit the BLM's 
ability to ensure land health standards are being met.
    S. 366 would allow mining claimants a chance to cure their 
failure to meet the required filing deadlines for the small 
mining waiver. Additionally, the bill gives private relief to a 
single mining claimant in Alaska.
    The Department opposes this bill which would result in a 
costly Administrative burden and special treatment for one 
mining claimant.
    Finally, I'm submitting a statement for the record on S. 
256, to convey submerged lands to the Commonwealth of the 
Northern Mariana Islands. The Department would strongly support 
this bill if amended to address the issues outlined in the 
statement for the record.
    Thank you for your opportunity to testify. Mr. Rountree and 
I would be happy to answer any questions.
    [The prepared statement of Ms. Connell follows:]

Prepared Statement of Jamie Connell, Acting Deputy Director, Bureau of 
         Land Management, Department of the Interior, on S. 342
    Thank you for inviting the Department of the Interior to testify on 
S. 342, the Pine Forest Range Recreation Enhancement Act. The 
Department of the Interior supports S. 342, which designates the Pine 
Forest Range Wilderness in Humboldt County, Nevada, on lands managed by 
the Bureau of Land Management (BLM). We urge the Congress to move 
swiftly to pass this bill.
    It is gratifying to see Congress moving to protect this area that 
was highlighted in Secretary Salazar's November 2011 Preliminary Report 
on BLM Lands Deserving Protection as National Conservation Areas, 
Wilderness or Other Conservation Designations. There is a long history 
of bipartisan support in Congress for the conservation of America's 
special places. Members from both parties have been essential to 
passing every major public lands bill that has been enacted in recent 
years. This type of cooperative and bipartisan approach to designating 
special lands for protection as wilderness, national conservation 
areas, or similar designations has historically been a regular practice 
for Congress. The designation of the Pine Forest Range has strong 
support from County government and local citizens. It is a wonderful 
example of how people can come together to protect one of America's 
real gems.

Background
    The Pine Forest Range in northern Nevada's arid Great Basin is a 
rare and exceptional area of abundant streams and clear, cold subalpine 
lakes. Nestled in a cirque and fed by snowmelt and springs, these lakes 
are not only visually stunning but also possess an excellent trout 
fishery. The lakes are surrounded by a rare remnant population of white 
bark and limber pines. Stands of quaking aspen and mountain mahogany 
are also found throughout the proposed wilderness. Fall brings an 
abundance of color found in few other places in northern Nevada.
    The spectacular scenery and vistas, combined with outstanding 
recreational opportunities, draw thousands of visitors annually. 
Despite being one of the most highly visited recreational areas in the 
region, the proposed wilderness still appears pristine. Day hiking, 
horseback riding, rock climbing, hunting, fishing, and camping are all 
popular in the area. Visitors enjoy a true primitive recreation 
experience, without trails or facilities. Even during peak visitation 
periods, solitude is easy to find in the rugged terrain. Abundant 
wildlife coveted by sportsmen includes trophy mule deer, antelope, 
bighorn sheep, mountain lion, and chukar.
    A wide range of stakeholders began working cooperatively in 2009 
and 2010 to bring together diverse interests in a grass-roots effort to 
protect this special area. In the fall of 2010, the Humboldt County 
Commission voted unanimously to approve the final recommendations of 
the Pine Forest Range Working Group to designate the Pine Forest Range 
Wilderness. The Nevada State Legislature subsequently passed a 
resolution praising the process used in arriving at the consensus 
represented by S. 342.

S. 342
    S. 342 proposes to designate the 26,000-acre Pine Forest Range 
Wilderness in Humboldt County, Nevada, on public land managed by the 
BLM. This wilderness area is largely formed by the Blue Lakes and Alder 
Creek Wilderness Study Areas (WSAs). Under the bill, approximately 
1,150 acres of land within those WSAs would not be designated as 
wilderness and would be released from WSA status, thereby allowing the 
consideration of other uses.
    Section 7 of S. 342 provides for land exchanges to improve the 
manageability of the Pine Forest Range Wilderness Area and nearby 
public lands while likewise allowing private landowners the opportunity 
to consolidate their holdings. The land exchanges are discretionary and 
would be completed consistent with the Federal Land Policy and 
Management Act (FLPMA) and other applicable laws. The BLM supports this 
provision. In addition, these land acquisitions may be undertaken 
through existing authorities such as purchase or donation.
    The Pine Forest Range Wilderness meets the definition of 
wilderness; the land and its community of life are largely untrammeled. 
It has retained its primeval character and has been influenced 
primarily by the forces of nature, with outstanding opportunities for 
primitive recreation or solitude. The BLM strongly supports this 
designation. We would like to work with the sponsor and the Committee 
on some minor technical modifications.

Conclusion
    Thank you for the opportunity to testify in support of S. 342 . We 
look forward to the swift passage of this legislation designating the 
Pine Forest Range Wilderness.

                               ON S. 341

    Thank you for the invitation to testify on S. 341, the San Juan 
Mountains Wilderness Act. The Department of the Interior supports the 
wilderness designation of the McKenna Peak area on lands managed by the 
Bureau of Land Management (BLM). Additional protection for the McKenna 
Peak area was highlighted in Secretary Salazar's November 2011 
Preliminary Report to Congress on BLM Lands Deserving Protection as 
National Conservation Areas, Wilderness or Other Conservation 
Designations. We urge swift Congressional action to protect this 
special area. We defer to the Department of Agriculture regarding 
designations on lands managed by the U.S. Forest Service (FS).
Background
    The McKenna Peak Wilderness Study Area (WSA) covers nearly 20,000 
acres of BLM-managed lands in San Miguel and Dolores Counties in 
southwestern Colorado. This WSA is currently managed by the BLM to 
protect its wilderness characteristics while awaiting Congressional 
action.
    This area is rich in wildlife, including mule deer, elk, mountain 
lions, black bear, and a variety of raptors. The McKenna Peak area is 
also home to the Spring Creek wild horse herd. Geologically, the area 
is quite diverse and includes 100 million year-old remnants of inland 
seas (now black Mancos shale rich in invertebrate marine fossils). This 
area offers a wide variety of recreational opportunities, including 
hunting, hiking, horseback riding, snowshoeing, and cross-country 
skiing, all of which are compatible with this wilderness designation.

S. 341
    S. 341 is the result of a collaborative process, which has included 
the Colorado Congressional delegation, county commissioners, adjacent 
landowners, ranchers, conservationists, recreationists, and other 
interested parties. The results are the proposed wilderness 
designations on both BLM- and FS-managed lands in San Miguel, Ouray, 
and San Juan Counties.
    Section 3 of the bill designates 8,600 acres of the existing BLM-
managed McKenna Peak WSA as wilderness. The BLM supports this 
designation. The legislation covers only those areas of the WSA in San 
Miguel County. The remaining almost 11,000 acres of the WSA, which 
include the eponymous McKenna Peak, are south of the proposed 
wilderness in Dolores County and are not addressed in the legislation. 
These acres will remain in WSA status, pending Congressional action. 
The BLM and the Department support future designation of this area in 
order to improve the manageability of the area. The BLM is currently 
completing a careful review of the boundaries of the proposed 
wilderness area to ensure manageability and would welcome the 
opportunity to work with the sponsor on possible minor modifications.
    Section 6 of S. 341 provides for the release from WSA status of 
those portions of the Dominguez Canyon Wilderness Study Area that were 
not designated as Wilderness under Title II, Subtitle E of Public Law 
111-11, the Omnibus Public Land Management Act of 2009. Section 2403 of 
that Act designated the Dominguez Canyon Wilderness Area. However, 
small portions of the underlying WSA totaling approximately 3,035 acres 
were neither designated wilderness nor released from WSA status, which 
would allow the consideration of a range of multiple uses. This release 
would benefit the BLM's ongoing management by removing narrow strips 
and scattered tracts of remaining WSA. These areas remain within the 
Dominguez-Escalante National Conservation Area (NCA), also designated 
by Public Law 111-11 and will be managed consistent with the rest of 
the NCA.

Conclusion
    Thank you for the opportunity to testify in support of S. 341. We 
look forward to its swift passage and to welcoming the covered area 
into the BLM's National Landscape Conservation System.

                               ON S. 368

    Thank you for the opportunity to testify on S. 368, the Federal 
Land Transaction Facilitation Act (FLTFA) Reauthorization. The 
Administration strongly supports S. 368 and encourages the Congress to 
move swiftly to reauthorize the FLTFA. Over the past decade, the 
Department of the Interior has made a number of important acquisitions 
using the FLTFA's provisions. Reauthorization of the FLTFA will allow 
us to continue to use this critical tool for enhancing our Nation's 
treasured landscapes.

Background
    Congress enacted the FLTFA in July of 2000 as Title II of Public 
Law 106-248. The FLTFA expired on July 25, 2011. Under the FLTFA, the 
Bureau of Land Management (BLM) could sell public lands identified for 
disposal through the land use planning process prior to July 2000, and 
retain the proceeds from those sales in a special account in the 
Treasury. The BLM and the other Federal land managing agencies were 
then able to use those funds to acquire, from willing sellers, 
inholdings within certain federally designated areas and lands that are 
adjacent to those areas that contain exceptional resources. Lands were 
able to be acquired within and/or adjacent to areas managed by the 
National Park Service (NPS), the U.S. Fish and Wildlife Service (FWS), 
the U.S. Forest Service (FS), and the BLM. Over the life of the FLTFA, 
approximately 27,200 acres were sold under this authority and 
approximately 18,100 acres of high resource value lands were acquired.
    The President's fiscal year 2014 Budget includes a proposal to 
permanently reauthorize FLTFA, and allow lands identified as suitable 
for disposal in recent land use plans to be sold using the FLTFA 
authority. FLTFA sales revenues would continue to be used to fund the 
acquisition of environmentally sensitive lands and the administrative 
costs associated with conducting sales.
    The 1976 Federal Land Policy and Management Act (FLPMA) provides 
clear policy direction to the BLM that public lands should generally be 
retained in public ownership. However, section 203 of FLPMA allows the 
BLM to identify lands as potentially available for disposal if they 
meet one or more of the following criteria:

  <bullet> Lands consisting of scattered, isolated tracts that are 
        difficult or uneconomic to manage; or
  <bullet> Lands that were acquired for a specific purpose and are no 
        longer needed for that purpose; or
  <bullet> Lands that could serve important public objectives, such as 
        community expansion and economic development, which outweigh 
        other public objectives and values that could be served by 
        retaining the land in Federal ownership.

    The BLM identifies lands that may be suitable for disposal through 
its land use planning process, which involves full public 
participation. Before the BLM can sell, exchange, or otherwise dispose 
of these lands, however, it must undertake extensive environmental 
impact analyses, clearances, surveys, and appraisals for the individual 
parcels.
    Before the enactment of the FLTFA, the BLM had the authority under 
FLPMA to sell lands identified for disposal. The proceeds from those 
sales were deposited into the General Fund of the Treasury. However, 
because of the costs associated with those sales (including 
environmental and cultural clearances, appraisals, and surveys), few 
sales were undertaken. Rather, the BLM relied largely on land exchanges 
to adjust land tenure. This can often be a less efficient process.
    Once the FLTFA was enacted, the BLM developed guidance, processes, 
and tools to complete the FLTFA land sales. Working cooperatively, the 
BLM, NPS, FWS, and FS then developed guidance, processes, and tools for 
subsequent FLTFA land acquisitions. The BLM markedly increased sales 
under the program; however market conditions in the later years led to 
less robust sales.
    Since it was enacted, the BLM utilized FLTFA to sell 330 parcels 
previously identified for disposal totaling 27,249 acres, with a total 
value of approximately $117.4 million. Over the same time period, the 
Federal government acquired 37 parcels totaling 18,535 acres, with a 
total value of approximately $50.4 million using FLTFA authority.
    Some lands identified for disposal and sold through the FLTFA 
process were high-value lands in the urban interface. For example, in 
2007 the BLM in Arizona sold at auction a 282-acre parcel in the 
suburban Phoenix area for $7 million. However, many of the lands the 
BLM identified for disposal prior to July 2000 that are eligible under 
FLTFA are isolated or scattered parcels in remote areas with relatively 
low value. Frequently, there is limited interest in acquiring these 
lands, and the costs of preparing them for sale may exceed their market 
value.
    Since the inception of the FLTFA, the BLM deposited $112.8 million 
into the Federal Land Disposal Account. That figure represents 96 
percent of the total revenues from these sales. Approximately $4.7 
million was transferred to the states in which the sales originated, as 
provided for in individual Statehood Acts (typically 4 percent of the 
sale price).
    Using the FLTFA proceeds, the BLM, NPS, FWS, and FS acquired 
significant inholdings and adjacent lands from willing sellers, 
consistent with the provisions of the Act. For example, in November 
2009 the BLM used FLTFA funds to complete the acquisition of 4,573 
acres within the BLM's Canyons of the Ancients National Monument in 
southwest Colorado. These inholdings encompass 25 documented cultural 
sites, and archaeologists expect to record an additional 700 
significant finds. The acquisition also included two particularly 
important areas: ``Jackson's Castle,'' which is archaeologically 
significant; and the ``Skywatcher Site,'' a one-of-a-kind, 1,000-year-
old solstice marker. The following are a few additional examples of 
important FLTFA acquisitions:

  <bullet> Elk Springs Area of Critical Environmental Concern (ACEC), 
        New Mexico/BLM--This 2,280-acre acquisition protects critical 
        elk wintering habitat.
  <bullet> Hells Canyon Wilderness, Arizona/BLM--A 640-acre parcel 
        constituting the last inholding within the Hells Canyon 
        Wilderness, located just 25 miles northwest of Phoenix.
  <bullet> Grand Teton National Park, Wyoming/NPS--This small (1.38 
        acres), but critical inholding within the Park was acquired and 
        protected from development.
  <bullet> Zion National Park, Utah/NPS--A combination of FLTFA and 
        Land and Water Conservation Fund monies were used to acquire 
        two 5-acre inholdings that overlook some of the Park's 
        outstanding geologic formations. These areas were previously 
        target for development.
  <bullet> Nestucca Bay National Wildlife Refuge, Oregon/FWS--This 92-
        acre dairy farm on the outskirts of Pacific City, Oregon, was 
        slated for residential development and was acquired to protect 
        a significant portion of the world's population of the Semidi 
        Islands Aleutian Cackling Goose.
  <bullet> Six Rivers National Forest, California/FS--Over 4,400 acres 
        were acquired within the Goose Creek National Wild and Scenic 
        River corridor, preserving 4 miles of the river known for dense 
        stands of Douglas fir, redwoods, and Port Orford cedar.

S. 368
    S. 368 would both reauthorize and enhance the original FLTFA 
through four major changes. First, the bill extends the program to July 
2021. The Department recommends eliminating the sunset altogether to 
enable the BLM to plan for and implement this program on a longer-term 
basis.
    Second, under the original FLTFA, only lands identified for 
disposal prior to July 25, 2000, were eligible to be sold. S. 368 
modifies that restriction by allowing any lands identified for disposal 
through the BLM's land use planning process by the date of enactment of 
S. 368 to be sold through the FLTFA process. The Department supports 
this change, which recognizes the usefulness and importance of the 
BLM's land use planning process. However, we would recommend 
eliminating this restriction rather than simply moving the date 
forward.
    The BLM currently oversees the public lands through 157 Resource 
Management Plans (RMPs). Since 2000, the BLM has completed over 75 RMP 
revisions and major plan amendments. Additionally, the BLM is currently 
involved in planning efforts on 57 new RMPs, all of which the agency 
expects to complete within the next three to four years. Planning 
updates are an ongoing part of the BLM's mandate under FLPMA. In this 
process, the BLM often makes incremental modifications to the plans, 
and identifies lands that may be suitable for disposal. All of these 
planning modifications or revisions are made in compliance with the 
National Environmental Policy Act, and are undertaken through a process 
that invites full public participation. If the enactment date is again 
utilized as the cut-off date, the BLM may, in a few years, face the 
same challenges it does with the program today. Many of the high-valued 
lands have been sold and the remaining eligible lands are isolated or 
scattered parcels in remote areas with relatively low value. 
Eliminating the restriction to provide more flexibility on the lands 
eligible for FLTFA will allow the BLM to maintain a more consistent 
program over time.
    Third, the original FLTFA allowed acquisitions of inholdings 
within, or adjacent to, certain Federal units such as BLM conservation 
units, National Parks, National Wildlife Refuges, and certain Forest 
Service units if they existed prior to July 25, 2000. S. 368 eliminates 
this limitation as well, and we support this change.
    Finally, S. 368 adds exceptions to the FLTFA in recognition of 
specific laws that modify the FLTFA with respect to some particular 
locations. The FLTFA does not apply to lands available for sale under 
the Santini-Burton Act (P.L. 96-586) and the Southern Nevada Public 
Land Management Act (P.L 105-263). S. 368 additionally exempts lands 
included in the White Pine County Conservation, Recreation, and 
Development Act (P.L. 109-432) and the Lincoln County Conservation, 
Recreation and Development Act (P.L. 108-424). Finally, a number of 
provisions of the Omnibus Public Land Management Act of 2009 (P.L. 111-
11) modify FLTFA at specific sites or for specific purposes. These 
exceptions are also captured by S. 368.

Conclusion
    Thank you for the opportunity to testify in strong support of S. 
368, the Federal Land Transaction Facilitation Act Reauthorization. By 
reauthorizing the FLTFA, the Congress will allow the BLM to continue a 
rational process of land disposal that is anchored in public 
participation and sound land use planning, while providing for land 
acquisitions to augment and strengthen our Nation's treasured 
landscapes.

                               ON S. 255

    Thank you for the invitation to testify on S. 255, the North Fork 
Watershed Protection Act of 2013. The Department of the Interior 
supports S. 255, which would withdraw Federal lands within the North 
Fork watershed of Montana's Flathead River from all forms of location, 
entry, and patent under the mining laws and from disposition under all 
laws related to mineral or geothermal leasing. Enactment of S. 255 
would mark an important milestone in the work occurring across multiple 
jurisdictions to help preserve the remarkable resources in the Crown of 
the Continent ecosystem.

Background
    The Flathead River Basin, a key portion of an area known as the 
Crown of the Continent ecosystem, spans the boundaries of the United 
States and Canada. It includes part of the United States' Glacier 
National Park and borders Canada's Waterton Lakes National Park. These 
two parks comprise the world's first International Peace Park as well 
as a World Heritage Site. The U.S. Forest Service's Flathead National 
Forest is also located within the Flathead River watershed. The Bureau 
of Land Management manages the Federal mineral estate underlying the 
Flathead National Forest.
    Running along the west side of the Continental Divide, the North 
Fork of the Flathead River enters the United States at the Canadian 
border and forms the western border of Glacier National Park until its 
confluence with the Middle Fork of the Flathead River near the southern 
end of Glacier National Park. The North Fork watershed, a sub-basin of 
the Flathead River watershed, includes areas currently managed by the 
National Park Service, the State of Montana, the U.S. Forest Service, 
and some private landowners.
    The Flathead River Basin is recognized for its natural resource 
values, including wildlife corridors for large and medium-sized 
carnivores, aquatic habitat, and plant species diversity. The area is 
rich in cultural heritage resources, with archeological evidence of 
human habitation starting 10,000 years ago. Several Indian tribes, 
including the Blackfeet, the Salish, and the Kootenai, have a well-
established presence in the area. The area also has celebrated 
recreational opportunities, including hunting, fishing, and backcountry 
hiking and camping.
    There has been interest in protecting the Crown of the Continent 
resources for some time. On February 18, 2010, the State of Montana and 
the Province of British Columbia executed a Memorandum of Understanding 
which addresses a myriad of issues related to the Flathead River Basin 
on both sides of the U.S.--Canada border. The intention of Part I.A. of 
that memorandum is to ``[r]emove mining, oil and gas, and coal 
development as permissible land uses in the Flathead River Basin.''
    The Flathead River Basin contains Federally-owned subsurface 
mineral estate under National Forest System lands that the Federal 
government has leased for oil and gas development. At the time 
legislation was initially proposed in 2010, there were 115 oil and gas 
leases in the North Fork watershed that the BLM issued between 1982 and 
1985. The leases, which cover over 238,000 acres, are inactive and 
under suspension as part of the 1985 court case Conner v. Burford. At 
the request of Montana Senators Max Baucus and John Tester, 
leaseholders have voluntarily relinquished 76 leases consisting of 
almost 182,000 acres. The BLM has not offered any other leases in the 
Flathead National Forest since the Conner v. Burford litigation 
suspended the existing leases in 1985.
    The U.S. Forest Service is responsible for the surface management 
of National Forest System land; however, as noted earlier, the 
Secretary of the Interior and the BLM are responsible for administering 
the Federal subsurface mineral estate under the Mining Law of 1872, the 
Mineral Leasing Act of 1920, and various mineral leasing acts. With 
respect to locatable minerals and oil and gas resources, the Forest 
Service has authority to regulate the effects of mineral operations 
upon National Forest System resources. The BLM only issues mineral 
leases for locatable minerals and oil and gas resources upon 
concurrence of the surface management agency and always works 
cooperatively with the agency to ensure that management goals and 
objectives for mineral exploration and development activities are 
achieved, that operations are conducted to minimize effects on natural 
resources, and that the land affected by operations is reclaimed.

S. 255
    S. 255 withdraws all Federal lands or interest in lands, comprised 
of approximately 430,000 acres of the Flathead National Forest, within 
the North and Middle Fork watersheds of the Flathead River from all 
forms of location, entry, and patent under the mining laws and from 
disposition under all laws related to mineral or geothermal leasing. We 
note that National Park acreage within the watershed is already 
unavailable for mineral entry. S. 255 does not affect valid, existing 
rights, including the 39 leases in the North Fork watershed that are 
suspended under the Conner v. Burford litigation. The Department fully 
supports S. 233 as it furthers the goal of preserving the important 
resources of this region.
    The Waterton-Glacier International Peace Park, which extends from 
Canada into the United States, is one of the great protected ecosystems 
on the North American continent. A 2010 World Heritage Center/
International Union for the Conservation of Nature Report noted that 
the International Peace Park is ``one of the largest, most pristine, 
intact, and best protected expanses of natural terrain in North 
America. It provides the wide range of non-fragmented habitats and key 
ecological connections that are vital for the survival and security of 
wildlife and plants in the Waterton-Glacier property and the Flathead 
watershed.'' Retaining this expanse of natural landscape in the Crown 
of the Continent ecosystem is of vital importance for providing 
ecosystem connectivity, which is essential for the growth and survival 
of plants and animals in the region. S. 255 will help accomplish this 
goal.
    The Department of the Interior is also committed to maintaining the 
ecological integrity of Glacier National Park, one of the most 
noteworthy natural and cultural treasures of our Nation. Preserving the 
region's and the park's water resources is also critical. The rich 
aquatic ecosystems provide breeding and feeding habitats for a variety 
of important species, and the Department recognizes the importance of 
maintaining critical habitat corridors when planning for resources 
uses. S. 255 will help protect and preserve the important resources of 
the greater Crown of the Continent ecosystem, including those within 
Glacier National Park.

Conclusion
    The Department supports S. 255 and commends the many parties 
involved in protecting the Nor th Fork of the Flathead River and the 
important resources shared by the United States and Canada. We hope 
that this legislation and the efforts of the federal and state/
provincial governments add to the important legacy of conservation in 
the Glacier/Waterton Lakes area and Flathead River basin.

                               ON S. 258

    Thank you for the opportunity to present the views of the 
Department of the Interior (Department) on S.258, the Grazing 
Improvement Act. The Bureau of Land Management (BLM) is dedicated to a 
broad range of stewardship goals, including the long-term health and 
viability of the public rangelands. Our Nation's rangelands provide and 
support a variety of goods, services, and values important to 
Americans. In addition to being an important source of forage for 
livestock, healthy rangelands conserve soil, store and filter water, 
sequester carbon, provide a home for an abundance of wildlife, provide 
scenic beauty and are the setting for many forms of outdoor recreation.
    The BLM recognizes that the conservation and sustainable use of 
rangelands is important to those who make their living on these 
landscapes-including public rangeland permittees. Public land livestock 
operations are important to the economic well-being and cultural 
identity of the West and to rural Western communities. Livestock 
grazing is an integral part of BLM's multiple-use mission, and at the 
right levels and timing, can serve as an important vegetation 
management tool, improving wildlife habitat and reducing risk of 
catastrophic wildfire.
    The BLM is committed to collaborating with those who work on the 
public lands and takes seriously its challenge to conserve and manage 
healthy rangelands for current and future generations.
    The Department shares the Sub-committee's interest in identifying 
opportunities for increasing efficiencies in public land grazing 
administration, as well as finding ways to make permit renewal less 
complex, costly, and time-consuming. The BLM would like to work with 
the Committee to further these shared goals. However, the Department 
cannot support S. 258 as it limits the BLM's ability to provide for 
appropriate environmental review and public involvement-critical 
components of the BLM's multiple-use management of the public lands. 
The Department looks forward to continuing a dialogue with the Congress 
on these important matters.

Background
    The BLM manages over 17,000 livestock grazing permits and leases 
for 12.4 million AUMs (animal unit months) across 155 million acres of 
public lands in the West. Since 1999, the BLM has evaluated the health 
of the rangelands based on standards and guidelines that were developed 
with extensive input from the ranching community, as well as from 
scientists, conservationists, and other Federal and state agencies. The 
BLM collects monitoring and assessment data to compare current 
conditions with the standards and land use plan objectives. This 
information is used to complete environmental assessments, to develop 
alternative management actions, and to modify grazing management as 
needed.
    The BLM administers the range program through issuance of grazing 
permits or leases. The Federal Land Policy and Management Act (FLPMA) 
provides for a 10-year (or less) term for grazing permits. In a typical 
year, the BLM processes up to 2,000 permit renewals or transfers. In 
1999 and 2000, the BLM saw a spike in permit renewals, when over 7,200 
permits were due for renewal. The BLM was unable to process all those 
permits before expiration, which resulted in a backlog of grazing 
permit renewals that remains today. By the end of the 2013 Fiscal Year, 
the BLM anticipates that a backlog of 4,964 unprocessed permits will 
remain. Congress has assisted the BLM since Fiscal Year 2004 by adding 
language to Appropriations measures that allow grazing leases and 
permits to continue in effect until the agency has completed processing 
a renewal, transfer, or waiver. The BLM is committed to eliminating the 
backlog of grazing permit renewals and to issuing permits in the year 
they expire. An increase in appeals and litigation of grazing 
management decisions continues to pose significant workload and 
resource challenges for the BLM.
    The BLM will continue to focus on grazing permits for the most 
environmentally sensitive allotments, using authorities Congress 
provided in the FY 2012 Consolidated Appropriations Act concerning 
grazing permit renewals and transfers. This strategy will allow the BLM 
to address a wide array of critical resource management issues through 
its land health assessments and grazing decisions. Additionally, this 
strategy will help ensure that the backlog of unprocessed permits 
consists of the least environmentally sensitive allotments that are 
more custodial in nature and/or that are already meeting land health 
standards.

S. 258
    S. 258 provides for automatic renewal of all expired, transferred, 
or waived permits, and categorically excludes all permit renewals, 
reissuance, or transfers from preparation of an environmental analysis 
under the National Environmental Policy Act (NEPA) if the decision 
continues current grazing management of the allotment. Terms and 
conditions of the permit would continue until a permit is later renewed 
in full compliance with NEPA and other Federal laws. The bill does not 
first require a determination that the permittee is meeting land health 
standards. S. 258 doubles the duration of grazing permits from 10 to 20 
years, and stipulates that livestock crossing and trailing permits and 
transfers of grazing preference are exempt from analysis under NEPA.
    The Department supports the concept of having the flexibility to 
issue longer term permits in certain circumstances, as well as the 
transfer provision that is currently in place under the FY 2012 
Consolidated Appropriations Act. That provision is expected to reduce 
the permit renewal workload in 2013 by about 700 permits. The number of 
transfers needing processing each year is unpredictable, posing 
significant challenges to the BLM as it works to manage staff and other 
resources.
    S. 258 includes provisions that the Department cannot support since 
they provide for automatic permit or lease renewal without requiring 
further analysis or assurances the permittee is meeting land health 
standards. The bill limits the BLM's ability to provide for appropriate 
environmental review and public involvement. S. 258 would result in the 
majority of permits being renewed under a categorical exclusion. The 
engagement of the public through the environmental review process under 
NEPA is a crucial component of the BLM's multiple-use management of the 
public lands. In summary, while S. 258 contains provisions that would 
expedite permitting, the Department cannot support it because of the 
overarching impact the bill could have on the 155 million acres of 
public lands used for livestock grazing, potentially affecting other 
valid uses and the health of the land itself.

Conclusion
    Thank you for the opportunity to present testimony on S. 258. The 
BLM looks forward to working with the Congress to develop improvements 
to the grazing permit renewal process while maintaining the integrity 
of NEPA, the Nation's bedrock environmental and citizen involvement 
law, and FLPMA, our multiple-use statute requiring consideration of 
many uses and values of the public lands. I will be pleased to answer 
any questions.

                                ON S. 27

     Thank you for inviting the Department of the Interior to testify 
on S. 27, the Hill Creek Cultural Preservation and Energy Development 
Act. The Department supports the goals of S. 27, and we could support 
the bill if amended as discussed below. The Department recognizes that 
we have a unique trust responsibility to the Ute Tribe; and therefore 
we are committed to finding an equitable solution.

Background
    In 1948, Congress, through P.L. 80-440, extended the boundary of 
the Uintah and Ouray Reservation by approximately 900 square miles to 
include what is generally known as the ``Hill Creek Extension.'' The 
Act transferred the Federal surface estate to the Tribe, while the 
mineral estate in those parts of the area affected by then existing 
withdrawals was reserved to the Federal government. Furthermore, that 
Act as amended in 1955 (P.L. 84-263), authorized the State of Utah to 
relinquish state sections for the benefit of the Tribe and subsequently 
select Federal lands (including the mineral interest in land) of equal 
value outside of the Hill Creek Extension area.
    The State of Utah's School and Institutional Trust Land 
Administration (SITLA) holds the mineral interest in about 28 square 
miles (approximately 18,000 acres) within the southern portion of the 
Hill Creek Extension in Grand County, while the surface ownership is 
held in trust for the Tribe. The Tribe would like to obtain the mineral 
estate underlying tribal lands in the Grand County portion of the Hill 
Creek Extension in order to prevent development on lands that have 
special significance to the Tribe. However, the Tribe does not object 
to development of other mineral estate, retained by the Federal 
government, within the Hill Creek Extension in Uintah County.
    SITLA proposed to relinquish their mineral estate within the Hill 
Creek Extension in Grand County in exchange for similar acreage of 
Federal mineral estate in Uintah County, also within the Hill Creek 
Extension. However, the 1955 law specified that the selection by the 
state should take place ``outside of the area hereby withdrawn,'' and 
therefore outside of the Hill Creek Extension.

S. 27
    S. 27 proposes to amend the 1948 and 1955 Acts to permit 
relinquishment of mineral estate in exchange for similar acreage of 
Federal mineral estate within the Hill Creek Extension. The legislation 
further provides that the transaction should be on an acre-for-acre 
basis and establishes a limited overriding interest for both the United 
States and SITLA in the lands exchanged.
    The Department has no objection to allowing for the selection by 
SITLA of mineral estate within the Hill Creek Extension and supports 
that provision of the legislation. However, the 1948 and 1955 laws as 
well as FLPMA require that these transfers be of equal value. The per-
acre value of mineral estate can vary dramatically from one acre to 
another, and this area of Utah has significant oil and gas resources.
    The legislation proposes to address any difference in parcel value 
by reserving for each conveying party a financial interest in the 
mineral estate being transferred. However, as written, the overriding 
interest fails to acknowledge the potential change in value of the 
federal minerals. The royalty rate specified for the financial interest 
is the royalty rate in effect today, and fails to account for the 
possibility of a changed royalty rate in the future. We believe that 
the overriding interest should be based on the Federal royalty rate at 
the time the lease or permit is issued. The Department would also like 
the opportunity to work on other technical amendments with the Sponsor 
and the Committee.

Conclusion
    Thank you for the opportunity to testify. The Department would 
welcome the opportunity to resolve these issues for the benefit of the 
Ute Indian Tribe and protect land that has special significance in a 
manner that also protects the fiduciary interest of the Federal 
government.

                               ON S. 241

    Thank you for the opportunity to testify on S. 241, the R!o Grande 
del Norte National Conservation Area Establishment Act. On March 25, 
2013, President Obama designated the R!o Grande del Norte National 
Monument on 242,000 acres of land administered by the Bureau of Land 
Management (BLM) in northern New Mexico. This designation closely 
mirrors the National Conservation Area (NCA) designation in S. 241. 
However, section 4 of S. 241 also includes the designation of two 
wilderness areas within the new R!o Grande del Norte National 
Monument--the proposed 13,320-acre Cerro del Yuta Wilderness and 8,000-
acre R!o San Antonio Wilderness. The Department supports the 
designation of these two new wilderness areas.

Background
    The Rio Grande del Norte National Monument lies north of Taos on 
the border with Colorado and straddles New Mexico's Taos and Rio Arriba 
Counties. Rising in stark contrast from the monument's broad expanse, 
the Cerro de la Olla, Cerro San Antonio, and Cerro del Yuta volcanic 
cones provide visible reminders of the area's volatile past. Between 
these mountains, the dramatic gorge of the Rio Grande Wild & Scenic 
River is carved into the landscape, revealing the dark basalt beneath 
the surface of the Taos plateau.
    The proposed Cerro del Yuta Wilderness has at its centerpiece a 
symmetrical volcanic dome soaring to over 10,000 feet in altitude. 
Covered by ponderosa, Douglas fir, aspen, and spruce on the north side, 
and pinyon and juniper on the south side, the mountain provides 
important habitat for wildlife, including the herds of elk that draw 
hunters to the area. The volcanic dome provides an outstanding 
opportunity for peak climbing and the forested slopes create a strong 
sense of solitude.
    The proposed Rio San Antonio Wilderness consists of a flat plain 
bisected by the R!o San Antonio. This grassland plain is dotted with 
occasional juniper, while the river sits two-hundred feet below the 
surface of the plateau at the bottom of a rugged gorge, the depths of 
which provide a microclimate for riparian vegetation, Douglas fir, and 
spruce. Visitors can find outstanding opportunities for solitude as 
they explore the gorge, which abruptly drops out of sight from the rest 
of the area. Protecting these characteristics will help to ensure that 
tourists will continue to visit the area, bringing economic benefits to 
the local community.

S. 241, Section 4
    S.241 (section 4) designates two wilderness areas on BLM-managed 
lands within the new national monument-the proposed 13,420-acre Cerro 
del Yuta Wilderness and 8,000-acre Rio San Antonio Wilderness. Both of 
these areas meet the definition of wilderness outlined in the 
Wilderness Act of 1964: they are largely untouched by humans, have 
outstanding opportunities for solitude and primitive and unconfined 
recreation, are over 5,000 acres in size, and contain important 
geological, biological, and scientific features. We support the 
designation of these areas as wilderness. The BLM would be happy to 
work with the Sponsor and the Committee to create a new map for the 
legislation reflecting both the existing national monument and the two 
proposed wilderness areas.

Conclusion
    President Obama's designation of the Rio Grande del Norte National 
Monument was a tribute to both the area's extraordinary value and the 
steadfast support for protecting this magnificent place. The Department 
supports S.241 in its designation of some of the new national 
monument's wildest lands as wilderness.

                               ON S. 327

    Thank you for inviting the Department of the Interior to testify on 
S. 327, the Good Neighbor Forestry Act. The bill authorizes the 
Secretary of the Interior to enter into cooperative agreements or 
contracts with a state forester to provide forest, rangeland, and 
watershed restoration and protection services on lands managed by the 
Bureau of Land Management (BLM). The Administration supports Good 
Neighbor Authority and we would like to work with the Committee to make 
some minor technical corrections. We welcome opportunities to enhance 
our capability to efficiently manage our natural resources through a 
landscape scale approach that crosses a diverse spectrum of land 
ownerships.

Background
    The BLM is increasingly taking a landscape-scale approach to 
managing natural resources on the public lands. Recent drought cycles, 
catastrophic fires, large-scale insect and disease outbreaks, the 
impacts of global climate change, and invasions of harmful non-native 
species all threaten the health of the public lands. They also tax a 
land manager's ability to ensure ecological integrity, while 
accommodating increased demands for public land uses across the 
landscape.
    The BLM engages in land restoration and hazardous fuels reduction 
activities with interagency partners and affected landowners to expand 
and accelerate forest ecosystem restoration. The ``Good Neighbor'' 
concept provides a mechanism to facilitate treatments across the 
landscape, inclusive of all ownerships, and enhances relationships 
between Federal, state, and private land managers.
    In Fiscal Year (FY) 2001, Congress authorized the U.S. Forest 
Service to allow the Colorado State Forest Service (CSFS) to conduct 
activities such as hazardous fuels reduction on U.S. Forest Service 
lands when performing similar activities on adjacent state or private 
lands. The BLM received similar authority in Colorado in FY 2004, as 
did the U.S. Forest Service in Utah. The BLM used this ``Good 
Neighbor'' authority beginning in 2006 in the agency's Royal Gorge 
Field Office. Through an assistance agreement with the CSFS, the BLM 
accomplished a fuels reduction and mitigation project within and 
adjacent to the Gold Hill Subdivision of Boulder County. The Gold Hill 
Project treated a total of 372 acres of wildland urban interface 
consisting of 122 acres of BLM land, 27 acres of U.S. Forest Service 
land, and 223 acres of private land. All of these acres were identified 
as priorities within the Gold Hill Community Wildfire Protection Plan. 
Through the assistance agreement, the CSFS delineated the areas to be 
treated within the Gold Hill Project, managed the project, administered 
contracts, monitored firewood removal, and monitored forestry and fuels 
projects on BLM and U.S. Forest Service lands. No timber was harvested 
or sold from the BLM lands. The BLM and the U.S. Forest Service 
conducted the project planning and fulfilled NEPA requirements on their 
respective lands.
    The project area consisted of small parcels of Federal lands 
interspersed with state and private lands. Since all the landowners 
used the same State contract, treatments were accomplished concurrently 
and with consistency in treatment methods, thereby achieving hazardous 
fuels reductions across a larger area to reduce the risk of wildfire. 
Efficiencies were also realized by utilizing a single contractor to 
treat one large project area. The BLM also realized savings in 
personnel resources. Although the project area was located nearly 200 
miles from the BLM field office, CSFS personnel were in the immediate 
vicinity and were able to conduct the field work for the BLM. In 
addition, the CSFS regularly worked with private landowners in the area 
and easily gained access through the private lands to conduct work on 
the Federal lands, which allowed the work to begin quickly. Simplified 
state contracting procedures also expedited the project. The project 
was completed in 2008.
    A February 2009 GAO report examined state service contracting 
procedures regarding transparency, competitiveness, and oversight, and 
found that the state requirements generally addressed each of these 
areas. (GAO-09-277). The GAO issued two recommendations to the BLM: 1) 
To develop written procedures for Good Neighbor timber sales in 
collaboration with each state to better ensure accountability for 
federal timber; and 2) To document how prior experiences with Good 
Neighbor projects offer ways to enhance the use of the authority in the 
future and make such information available to current and prospective 
users of the authority. The BLM completed the final corrective action 
plan incorporating these suggestions in September of 2010.

S. 327
    S. 327 provides for the Secretaries of Agriculture and Interior to 
enter into cooperative agreements and contracts with state foresters in 
any state west of the 100th meridian, to provide forest, rangeland, and 
watershed restoration and protection services on National Forest System 
land or BLM land. The success that the BLM experienced in using the 
Good Neighbor authority in Colorado as a cross-boundary management tool 
would be available under S. 375 to all BLM-managed lands throughout the 
west. The authority provided by the bill is discretionary; each BLM 
office could determine on a case-by-case basis whether or not the Good 
Neighbor authority is a desirable option. All Good Neighbor projects 
would be undertaken in conformance with land use plans and comply with 
the National Environmental Policy Act, if applicable.
    Section 3(a) of the bill would authorize the Secretary to enter 
into a cooperative agreement or contract with a state Forester. For 
clarification, the BLM suggests an amendment to the language to add 
``notwithstanding the Federal Grants and Cooperative Agreements Act.''
    The provisions in section 3(b) authorize services to include 
activities that treat insect-infected trees; reduce hazardous fuels; 
and any other activities to restore or improve forest, rangeland, and 
watershed health, including fish and wildlife habitat. There is no 
requirement that the BLM-managed lands be adjacent to state or private 
lands to be eligible for services. This expansion of authority could be 
beneficial in watershed restoration projects where state and Federal 
lands might not be immediately adjacent to one another, but are within 
the same watershed.
    Accordingly, this expanded authority could enhance the 
effectiveness of landscape-scale treatment.

Conclusion
    Thank you for the opportunity to testify about Good Neighbor 
Authority and S. 327. The Department of the Interior and the BLM 
welcome opportunities to engage in efforts that can advance cooperation 
of all landowners, improve the effectiveness of restoration and fuels 
treatments, and provide cost-effective tools for managing natural 
resources.

                               ON S. 366

    Thank you for the opportunity to testify today on S. 366, which 
would require the Bureau of Land Management (BLM) to allow mining 
claimants a chance to ``cure'' their failure to meet the required 
filing deadlines. This bill would also give private relief to one 
particular mining claimant whose mining claims have been deemed 
abandoned for failure to comply with applicable laws and regulations, 
and would give that claimant the opportunity to obtain fee title to the 
reinstated mining claims from the Government.
    The Department of the Interior opposes S. 366 because of the 
enormous administrative burden it would generate, and because it 
singles out one mining claimant for special treatment and leaves open 
the question as to how other mining claimants in similar situations 
would be affected.

Background
    The Omnibus Budget Reconciliation Act of 1993, Pub. L. No. 103-66 
Sec. Sec.  10101 to 10106, 107 Stat. 312, 405-07 (Aug. 10, 1993) 
(maintenance fee statute), established an annual maintenance fee for 
unpatented mining claims, mill sites, and tunnel sites. This annual 
maintenance fee is currently set by regulation at $140 per lode mining 
claim or site and $140 per every 20 acres or portion thereof for a 
placer claim. The maintenance fee statute also gave the Secretary of 
the Interior the discretion to waive the annual maintenance fee for 
certain ``small miners''--mining claimants who hold 10 or fewer claims 
or sites.
    Following the enactment of the maintenance fee statute, the 
Department promulgated regulations that exercised the Secretary's 
discretion to allow the ``small miner waiver.'' These regulations state 
that in order to qualify for this ``small miner waiver'' under the 
maintenance fee statute, the claimant must, among other things, file a 
maintenance fee waiver request that certifies he and all related 
parties hold 10 or fewer mining claims or sites. Under the original 
regulations, the deadline for filing the maintenance fee waiver request 
for the upcoming assessment year was August 31, which was the same day 
as the statutory deadline for filing annual maintenance fees. When 
Congress changed the statutory annual maintenance fee deadline to 
September 1, the Department changed the deadline for maintenance fee 
waiver requests to also be September 1 for the coming assessment year. 
The Secretary's decision to make the regulatory deadline for filing 
maintenance fee waiver requests the same as the statutory deadline for 
paying annual mining claim maintenance fees took into consideration the 
statutory constraint that maintenance fee waivers could not legally or 
practically be sought any later than the deadline for the maintenance 
fee itself.
    The same year that Congress changed the deadline for paying the 
maintenance fee to September 1, it amended the maintenance fee statute 
to allow claimants seeking a ``small miner waiver'' to cure a 
``defective'' waiver certification. Omnibus Consolidated and Emergency 
Supplemental Appropriations Act for Fiscal Year 1999, Pub. L. No. 105-
277, 112 Stat. 2681-235 (1998) (codified as amended at 30 U.S.C. Sec.  
28f(d)(3)). The statute as amended required the BLM to give claimants 
filing timely ``defective'' maintenance fee waiver requests notice of 
the defect and 60 days to cure the defect or pay the annual maintenance 
fee due for the applicable assessment year.
    Another change in the administration of mining laws and regulations 
occurred in the Department of the Interior and Related Agencies 
Appropriations Act of 1995, Pub. L. No. 103-332 Sec. Sec.  112-113, 108 
Stat. 2499, 2519 (Sept. 30, 1994), which placed a moratorium on the 
patenting of new mining claims or sites, and the further processing of 
existing patent applications; this moratorium has continued unbroken 
through subsequent appropriations language. The processing of a patent 
application to completion can result in the transfer of fee title or 
``patent'' to the claimant for the Federal lands where the claims and 
sites are located.
    Congress provided an exemption from the patenting moratorium for 
applicants who had satisfied the requirements of the Mining Law of 1872 
for obtaining a patent before the moratorium went into effect. Only 
patent applications for which a ``First Half of Mineral Entry-Final 
Certificate'' (FHFC) had been issued were considered exempt or 
``grandfathered'' from the moratorium. Over 600 patent applications 
were pending with the BLM when the moratorium went into effect on 
October 1, 1994. Of those, 405 patent applications had received a FHFC 
by September 30, 1994, and were determined to be ``grandfathered'' from 
the moratorium. Mining claimants in a ``grandfathered'' patent 
application are not required to comply with the maintenance fee statute 
after the FHFC was issued.
    The remaining 221 patent applications were considered ``non-
grandfathered'' and subject to the moratorium. The BLM did no further 
processing of these patent applications and the mining claimants were 
responsible to continue to meet annual maintenance requirements--timely 
payment of the annual maintenance fee, or filing a small miner waiver 
and completing the required annual assessment work--in order to keep 
their mining claims active and their ``non-grandfathered'' patent 
applications pending.

S. 366
    S. 366 (Section 1(a)) would amend the maintenance fee statute that 
requires the BLM to provide holders of 10 or fewer mining claims or 
sites with written notice of any ``defect'' in their maintenance fee 
waiver request and an opportunity to cure the defective, but timely, 
filing. Unlike the current maintenance fee statute, failure to timely 
file the waiver request would be considered a ``defect'' under S. 366. 
As under the current statute, mining claimants would have 60 days from 
the receipt of written notice to correct that defect or pay the 
applicable maintenance fee. Sec. 1(a) also purports to provide the same 
60-day cure period for an untimely ``affidavit of annual labor 
associated with the application and required application fees.''
    The BLM opposes the provision in Sec. 1(a) to amend the maintenance 
fee statute to make failure to timely file a small miner fee waiver 
request a curable ``defect.'' The BLM also opposes the provision in S. 
366 purporting to allow claimants to ``cure'' defective affidavits of 
annual assessment work filings, including failure to timely file the 
affidavits as required by section 314 of the Federal Land Policy and 
Management Act of 1976 (FLPMA). Currently, the cure provision in 30 
U.S.C. Sec.  28f(d)(3) applies only to maintenance fee waiver requests, 
and it is unclear whether the legislation would extend the opportunity 
to cure the failure to timely file an affidavit of annual assessment 
work to any claimant who fails to timely file the affidavit, or only to 
those claimants who have submitted a defective small miner waiver 
request.
    BLM's primary concern with the proposed legislation, however, is 
that it would effectively eliminate the deadline for filing a small 
miner waiver. Defining an untimely small miner waiver filing as 
``defective'' would require the BLM to accept late filings after the 
deadline, no matter how late. This change will place an excessive 
administrative review and notification burden on the BLM and would 
vastly increase the cost of administering the small miner waiver. 
Further, it would enable a mining claimant to avoid filing the waiver 
and hold the claims or sites in suspense until the BLM is able to 
identify the deficiency and notify the claimant.
    Under Sec. 1(a) of S. 366, if a mining claimant files either an 
untimely maintenance fee payment, an untimely waiver request, or fails 
to make any filing at all, including a maintenance fee payment, the BLM 
would no longer be able to simply declare the mining claim or site void 
by operation of law, as authorized under the current maintenance fee 
statute since 1994. Rather, under this new provision, if any claimant 
fails to pay the annual maintenance fee or file a maintenance fee 
waiver request by the deadline, the BLM will have to first determine 
whether each and every claimant who failed to timely pay maintenance 
fees is qualified as a small miner and, if so, give notice and 
opportunity to cure--whether or not the claimant had any intention of 
paying the fee or filing a maintenance fee waiver request.
    These additional administrative steps would be required even if the 
holder of the mining claim or site had not filed a maintenance fee 
waiver in the past, for two reasons. First, fewer than 13,000 mining 
claimants among those who are eligible for a maintenance fee waiver 
each year actually request a waiver, and S. 366 does not restrict the 
``cure'' provisions to those claimants who had intended to file a 
waiver but missed the deadline. Second, verifying eligibility for the 
``cure'' provisions of S. 366 would be required each year for any 
mining claimant who missed the payment deadline because eligibility for 
a maintenance fee waiver depends on the number of mining claims and 
sites held by the claimant ``and related parties'' on the date that the 
maintenance fee payment was due (30 U.S.C. Sec.  28f(d)). The BLM would 
also have to determine if the claimant had any ``related parties'' that 
owned claims or sites which would make the claimant ineligible if 
together the claimant and related parties owned more than 10 claims or 
sites. Since claimants may be a ``silent'' related party to 
corporations or other individual claimants owning more than 10 claims 
or sites, it would be almost impossible for the BLM to determine 
factual eligibility of all claimants.
    It would be costly and difficult for the BLM to assess whether 
every mining claimant who either makes an untimely filing or fails to 
file anything is eligible to invoke the ``cure'' provisions of S. 366. 
Moreover, because the agency would have no way to determine if a 
claimant holding 10 or fewer claims or sites had simply decided not to 
pay the fee or file the fee waiver request and intentionally relinquish 
his claims, the BLM would have to send a ``defect'' notice to all such 
claimants who fail to either timely pay their maintenance fees or 
timely file a maintenance fee waiver request and give them the 
opportunity to cure. This effectively extends the payment deadline for 
any claimant holding 10 or fewer mining claims by removing any penalty 
for failing to pay in a timely manner.
    In addition, this increased administrative burden would so 
drastically increase the processing time for all mining claimants as to 
allow some claimants to continue to hold and work their claims for 
months or potentially years after what would have been forfeiture by 
operation of law under the current statute without providing payment. 
It would be challenging for the BLM to reliably determine if a mining 
claimant intended to relinquish his mining claim or site. Action on the 
part of individuals wishing to maintain a claim to a Federal resource 
is a basic responsibility found in many of our Federal programs. 
Relieving individuals of this basic responsibility is contrary to the 
interest of the general public that owns the property.
    In addition, the BLM opposes the bill's provisions in Sec. 1(b) 
under ``Transition Rules'' on behalf of the mining claimant who 
forfeited his claims for failure to meet the filing requirements 
discussed above. Section 1(b) is essentially a private relief bill that 
gives special treatment to the claimant, allowing his mining claims to 
be reinstated, and allowing him to have his patent application 
considered ``grandfathered'' from the patent moratorium.
    The mining claims described under Sec. 1(b) belonged to a claimant 
from Girdwood, Alaska. The claimant owned nine mining claims located in 
the Chugach National Forest in southeastern Alaska. The claimant had 
filed a patent application for these mining claims, but his application 
had not received a FHFC by the deadline. As such, his patent 
application was considered ``non-grandfathered'' and his mining claims 
were subject to ongoing annual maintenance requirements. The BLM 
determined these mining claims to be statutorily abandoned in January 
2005 when the claimant failed to file his annual assessment work 
documents in accordance with FLPMA, and the Interior Board of Land 
Appeals (IBLA) subsequently upheld the BLM's decision. The bill would 
give the claimant the opportunity to ``cure'' the defects that led to 
his mining claims being declared abandoned and void, presumably under 
the amended version of the statute proposed in this legislation.
    Sec. 1(b)(1) of the bill would also consider the claimant ``to have 
received first half final certificate'' for these voided mining claims 
before September 30, 1994, thereby ``grandfathering'' his patent 
application from the patent moratorium. Even if this claimant had 
complied with annual FLPMA requirements, his patent application was not 
considered ``grandfathered'' under the guidelines imposed through 
Congress. Congress was clear that the exemption from the patenting 
moratorium applied only to applicants who had satisfied the 
requirements of the Mining Law of 1872 for obtaining a patent before 
the moratorium went into effect. Singling out this claimant and patent 
application to receive special treatment by considering his patent 
application ``grandfathered'' is unfair to the other 220 pending ``non-
grandfathered'' patent applications. Additionally, a portion of the 
land formerly covered by these claims is now closed to mineral entry, 
because the State of Alaska has filed Community Grant Selection under 
the authority of the Alaska Statehood Act. Considering the claimant's 
patent application ``grandfathered'' would give him priority over the 
State of Alaska with respect to these lands, and may mean that he, 
rather than the State of Alaska, would obtain the fee title.
    The BLM's final concern with respect to this legislation--requiring 
the BLM to consider failure to timely file a maintenance fee waiver 
certificate a curable ``defect''--is that the bill is unclear as to the 
retroactive effects on other small miners who have forfeited or 
abandoned their mining claims because they failed to timely file a 
small miner waiver or affidavit of annual assessment work. This 
includes those small miners who have lost their challenges at the IBLA 
of BLM decisions declaring their claims forfeited or abandoned 
Furthermore, the Department of Justice advises that, as a practical 
matter, it seems likely that small miners will pursue a ``cure'' for 
failure to pursue a small miner waiver only where the claim owner 
cannot simply relocate that claim, which might occur if, for example, 
intervening rights have been granted or the land has been conveyed or 
assigned other uses. If that has happened, then reinstating any 
forfeited or abandoned mining claims would create confusion, and 
generate litigation, and could arguably create takings liability on the 
part of the United States.

Conclusion
    Thank you again for the opportunity to testify on S. 366.

                               ON S. 353

    Thank you for inviting the Department of the Interior to testify on 
S. 353, the Oregon Treasures Act. The Department supports S. 353 and 
would welcome the opportunity to work with the Chairman on some minor 
modifications to this legislation. S. 353 includes wilderness and wild 
and scenic river designations in three areas of Oregon: Cathedral Rock 
and Horse Heaven along the John Day River, the Wild Rogue in 
southwestern Oregon, and the Molalla River in northern Oregon. This 
legislation would conserve and protect these special places that are 
treasured both locally and nationally.

Cathedral Rock & Horse Heaven Wilderness
            Background
    Along the western bank of the John Day Wild and Scenic River are 
lands proposed to become the Cathedral Rock Wilderness. The lands 
planned for designation range from the cliffs and canyons along the 
river heading westerly to steep rolling hills punctuated by rocky 
escarpments. Wagner Mountain is located in the center of the proposed 
wilderness and is the highest point in the area. The geology is 
dominated by ancient volcanics, composed of andesite flows, plugs, and 
domes. The entire area is covered in rhyolite ash-flows which produce 
dramatic red, white, and buff colored soils. Hunters and hikers alike 
enjoy the breathtaking scenery as well as the resident mule deer and 
elk populations, while rafters brave the John Day's rapids. Cultural 
sites showcase prehistoric fossils, stone tools, and rock art.
    Four miles to the southwest of the Cathedral Rock region is the 
proposed Horse Heaven Wilderness. The name reflects Oregon's pioneer 
past when the flawless grasslands of the areas were a closely guarded 
secret. Today that secret is out, and a wide range of recreationists 
enjoy the area's many opportunities. At more than 4,000 feet, Horse 
Heaven Mountain serves as a worthy centerpiece to a diverse landscape 
illustrating Oregon's high and low countries. Traveling south, rolling 
plains and steep terrain dominate the area; to the west, Muddy Creek is 
the area's lone perennial stream. Prairie steppes throughout connect 
hearty shrubs and woodlands that demonstrate steadfast resolve to 
thrive in the rocky soil.
            S. 353, Section 2
    The legislation provides for the exchange of lands between three 
private parties and the Federal government which would allow the 
consolidation of fragmented land patterns, the designation of two new 
potential wilderness areas, and a process for those areas becoming 
designated wilderness and components of the National Wilderness 
Preservation System. Should the land exchanges be completed, the 
additional land would greatly enhance the wilderness quality and 
manageability of the two areas proposed for wilderness.
    The bill (section 2(b)) outlines a series of land exchanges with 
three private parties. Under section 206 of the Federal Land Policy and 
Management Act (FLPMA), the Bureau of Land Management (BLM) has the 
authority to undertake land exchanges that are in the public interest. 
Exchanges allow the BLM to acquire environmentally-sensitive lands 
while transferring public lands into private ownership for local needs 
and the consolidation of scattered tracts. The lands proposed for 
exchange out of Federal ownership are largely scattered sections of 
public land intermingled with private land. In principle, the BLM 
supports the land exchanges envisioned by section 2(b); however, we 
would like the opportunity to continue to work with the sponsor and the 
Committee to address concerns specifically in the areas of public 
access and the protection of cultural resources.
    It is the Department's understanding that the Confederated Tribes 
of the Warm Springs of Oregon continue to have concerns about this 
legislation. Many of these lands are significant to local tribes and we 
encourage the sponsor and the Committee to continue to work toward 
resolving these issues.
    The bill requires that the exchanges be consistent with FLPMA, 
including the requirement that the Secretary determine that the public 
interest would be served by completing the exchange (section 2(b)(2)). 
We believe that this provides the BLM latitude to withdraw specific 
lands from the exchange if any serious impediments are discovered. 
Furthermore, the legislation provides that the Secretary may add such 
additional terms and conditions as appropriate (section 2(b)(3)(E)). We 
believe this would allow the BLM to require that all non-Federal 
parties are responsible for addressing any human safety concerns or the 
remediation of hazardous materials on the lands to be exchanged out of 
present ownership. Finally, the BLM supports the provisions of the bill 
requiring that all three exchanges be equal value exchanges, and that 
the appraisals be undertaken consistent with Uniform Appraisal 
Standards.
    The bill (section 2(c)) also proposes to designate two potential 
wilderness areas, the ``Proposed Cathedral Rock Wilderness'' and the 
``Proposed Horse Heaven Wilderness'' on the lands that would be 
consolidated under the land exchanges envisioned by section 2(b) of the 
bill. When those land exchanges are completed, the Cathedral Rock 
Wilderness would include over 8,300 acres of public land and the Horse 
Heaven Wilderness 9,000 acres. The legislation provides a process in 
section 2(c)(2) for converting the ``proposed'' wilderness areas into 
designated wilderness following adequate acquisitions of the now 
private lands. The BLM could manage these areas as wilderness following 
the exchanges. However, absent the largest exchange envisioned under 
section 2 of S. 353, these areas would be impracticable for the BLM to 
manage as wilderness. That proposed exchange with the local landowner, 
``Young Life,'' involves the core of both the proposed Cathedral Rock 
and Horse Heaven wilderness areas.
    The current land patterns of both the ``Proposed Cathedral Rock 
Wilderness'' and ``Proposed Horse Heaven Wilderness'' are highly 
fragmented. The BLM manages approximately 4,500 acres in seven, non-
contiguous parcels within the Cathedral Rock area and less than 3,000 
acres in two separate parcels within Horse Heaven. The land exchanges 
are, of course, optional for the three private parties. If, in the end, 
the largest private land owner decides not to pursue the exchange, 
managing the areas as wilderness would not be practical given the 
fragmented nature of the BLM landholdings in these two areas. The BLM 
supports the provisions for interim management of the ``proposed'' 
areas and the methodology for final designation if sufficient land 
exchanges are consummated. Additionally, the BLM supports the 
provisions in section 2(c)(4) of the bill providing for a termination 
of the wilderness designation authority 10 years after the date of 
enactment of the Act. This provides a reasonable timeframe during which 
to either consummate the land exchanges and designate the wilderness 
areas or return to current management of the area.
    Finally, section 2(b)(7) would transfer the administrative 
jurisdiction of approximately 750 acres of BLM-managed lands to the 
Forest Service. The BLM supports this transfer of lands which will 
improve manageability.

Wild Rogue Wilderness
            Background
    The Rogue River's headwaters begin near Crater Lake. It then rushes 
215 miles through the mountains and valleys of southwestern Oregon, 
eventually emptying into the Pacific Ocean near the town of Gold Beach. 
Over millions of years, the Rogue has patiently carved its way through 
western Oregon's mountains creating 3,000 foot canyons, rugged valleys 
and inspiring scenery. Dense, old-growth forests flank the Rogue 
providing habitat for older, forest-dependent species, including the 
Northern Spotted Owl and the Marbled Murrelet. The cold, clear waters 
of the river provide a home for Pacific salmon, steelhead trout, and 
green sturgeon.
    Recreationists are drawn to the entire Rogue River watershed to 
experience nature in a multitude of ways. These recreationists are a 
critical economic engine for local economies and include commercial and 
sport fishing, rafting and jet boat tours, and hiking and backpacking. 
The untamed landscape offers countless opportunities for challenge, 
exploration, and discovery.
    The 36,000-acre Wild Rogue Wilderness was designated by an Act of 
Congress (Public Law 95-237) in 1978. Located primarily on lands 
managed by the U.S. Forest Service, the Wild Rogue includes 
approximately 8,600 acres of lands administered by the BLM. In 1968, 
Congress passed the Wild and Scenic Rivers Act (Public Law 90-542), 
establishing the Wild and Scenic River System and designating eight 
original rivers. As one of these initial eight rivers, Oregon's Rogue 
River has long been recognized for its beauty, exceptional recreational 
opportunities, and extraordinary resource values.
            S. 353, Section 3
    The bill (section 3) proposes to enlarge the existing Wild Rogue 
Wilderness by adding nearly 60,000 acres of land administered by the 
BLM. This section also extends the existing Rogue Wild and Scenic River 
by adding 93 miles of 35 tributaries of the Rogue to the wild and 
scenic river system. In addition, the bill withdraws 50 miles of 20 
other Rogue River tributaries from operation of the land laws, mining 
laws, and mineral leasing laws and prohibits the Federal Energy 
Regulatory Commission (FERC) from licensing new water resource projects 
and associated facilities along these tributaries.
    The BLM supports the expansion of the Wild Rogue Wilderness. This 
wild and rugged area is largely untrammeled. It has largely retained 
its primeval character and has been influenced primarily by the forces 
of nature with outstanding opportunities for primitive recreation or 
solitude. Protection of these wilderness characteristics is largely 
consistent with the current management framework for these lands. We 
would like the opportunity to work with the bill Sponsor and the 
Committee on some modifications to the map and the legislation. The BLM 
recommends that the legislation include language directing the 
Secretary of the Interior to manage the BLM portion of the current Wild 
Rogue Wilderness. When the Wild Rogue Wilderness was established in 
1978, the legislation called for the Secretary of Agriculture to manage 
all of the lands within the wilderness boundary. With this expansion, 
we would like to correct that previous oversight and ensure that both 
the original and the additional BLM-managed lands within the Wild Rogue 
are managed by the BLM. Management of this area will continue to be a 
cooperative exercise with the U. S. Forest Service and involve many of 
the same staff that jointly manage the Rogue's successful river 
program.
    The bill excludes over 500 acres of BLM-managed lands on the north 
side of the river within the external boundaries of the wilderness 
addition from designation as wilderness by cherry-stemming a road 
network where logging and other activities have occurred. This could 
leave these lands open to future development and potentially complicate 
management of the surrounding lands as wilderness. While these lands 
show visible effects of past logging activities and existing primitive 
roads that do not meet the naturalness criteria of the Wilderness 
Act,the BLM would like to discuss the possibility of designating them 
as ``potential wilderness'' (as was done, for example, to California's 
Elkhorn Ridge Potential Wilderness Area through the Northern California 
Coastal Wild Heritage Wilderness Act--Public Law 109-362). The BLM 
would consider management of the area in order to actively restore or, 
where more appropriate, passively restore these lands to move them 
toward wilderness conditions that are consistent with future Wilderness 
designation.
    The BLM would also like to work with the Oregon delegation on 
boundary modifications of the wilderness expansion to improve 
manageability. There are portions of the proposed wilderness where 
minor modifications to follow a road would allow for a more 
recognizable and manageable boundary. In addition, a few areas 
identified for wilderness designation on the southeast side of the 
proposed expansion may raise manageability concerns. Specifically, the 
inclusion of areas south of Bailey Creek and east of the Rogue appears 
to present conflicts with existing mining activity and other uses. The 
BLM would like the opportunity to discuss these conflicts further with 
the Committee and the bill's sponsor.
    In 1968, when Congress established the National Wild and Scenic 
Rivers System, it designated the Rogue as one of the original eight 
rivers included in this system. Section 3(c)(1) further enhances that 
initial designation by adding 35 specific tributaries of the Rogue to 
the national system, thus conserving the greater Rogue River watershed. 
In general, the proposed stream segments are located in steep, sloped 
canyons with mature and structurally complex forest stands that have 
high conservation values. We support maintaining and enhancing those 
conservation values through designating the 35 tributaries as Wild and 
Scenic.
    Finally, Section 3(d) of S. 353 prohibits FERC from licensing the 
construction of any new water or power projects along 50 miles of 20 
Rogue River tributaries. Additionally, the bill would withdraw land for 
one-quarter mile along either side of these tributaries from operation 
of the land laws, mining laws, and mineral leasing laws. This 
withdrawal will protect valid existing rights but would prohibit the 
sale or exchange of any of these federal lands, the location of new 
mining claims, new mineral or geothermal leases, and sales of mineral 
materials. These withdrawals will provide additional protections to 
this important watershed, and the Department supports these provisions.

Molalla Wild & Scenic River
            Background
    The Molalla River begins its journey to the sea on the western 
slopes of the Cascade Mountains of Oregon. At an elevation of 4,800 
feet, the Molalla flows undammed for 49 miles west and north until it 
joins the Willamette River. For years, the Molalla suffered from too 
much negative attention from its visitors, including vandalism. To 
address these problems, local residents joined together several years 
ago and formed the Molalla River Alliance (MRA). The MRA, a nonprofit 
all volunteer organization, has over 45 public and private partners, 
including Federal, State, and local government agencies; user groups; 
and conservationists. Working cooperatively with BLM's local field 
office, the MRA has provided the Molalla the care it needed. Today, we 
are pleased that this subcommittee is considering designating 
approximately 21 miles of the river as a component of the National Wild 
and Scenic Rivers System.
    The Molalla River is home to important natural and cultural 
resources. Protection of this watershed is crucial as the source of 
drinking water for local communities and the important spawning habitat 
it provides for several fish species, including salmon and steelhead. 
Within an hour's drive of the metropolitan areas of Portland and Salem, 
Oregon, the Molalla watershed provides significant recreational 
opportunities for fishing, canoeing, mountain biking, horseback riding, 
hiking, hunting, camping, and swimming and draws over 65,000 visitors 
annually.
            S. 353, Section 4
    The bill (section 4) proposes to designate 15.1 miles of the 
Molalla River and 6.2 miles of the Table Rock Fork of the Molalla as 
components of the National Wild and Scenic Rivers System. The 
Department supports these designations. In earlier planning analyses, 
the BLM evaluated the Molalla River and the Table Rock Fork of the 
Molalla River and determined that most of these two rivers should be 
considered for designation as wild and scenic rivers. As a result, the 
designation called for would be largely consistent with management 
currently in place and would cause few changes to BLM's current 
administration of most of this area. The 5,700-acre Table Rock 
Wilderness, designated by Congress in 1984, is embraced by the Molalla 
and Table Rock Fork, and designation of these river segments would 
reinforce the protections in place for the wilderness area.
    Wild and scenic rivers are designated by Congress in one of three 
categories: wild, scenic, or recreational. Differing management 
proscriptions apply for each of these designations. This bill specifies 
that these river segments be classified as recreational. This 
classification is consistent with the strong recreational values of 
this area as well as the presence of roads along the course of the 
river segments and numerous dispersed campsites along its shorelines.
    Finally, section 5 of S. 353 applies to National Forest System 
lands and we defer to the Forest Service on those provisions.
Conclusion
    The conservation designations included in Senator Wyden's Oregon 
Treasures Act, S. 353, are surely that-National treasures. The 
Administration supports this legislation and looks forward to the 
conservation and protection of these very special places.

                               ON S. 757

    Thank you for the opportunity to present the views of the 
Department of the Interior on S. 757, which amends the Mesquite Lands 
Act of 1986 in order to renew and extend certain authorizations which 
had expired in late 2011. The BLM supports the goals of S. 757 to 
provide for the economic development needs of Mesquite, Nevada, and for 
the implementation of habitat conservation plans in Clark County and in 
Lincoln County, Nevada. The BLM notes that existing authorities, such 
as sales under the Federal Land Policy Management Act (FLPMA), allow 
BLM to achieve similar purposes through the development of Resource 
Management Plans and include opportunities for public comment.

Background
    The Mesquite Lands Act of 1986 (P.L. 99-548) afforded the City of 
Mesquite in eastern Clark County, Nevada, the exclusive right to 
purchase certain parcels of public land, at fair market value, for a 
period of years. In a series of amendments over the last 17 years, the 
Mesquite Lands Act was amended to add additional parcels, authorize 
funding to develop a habitat conservation plan for the Virgin River, 
and to direct a conveyance to the City. The authorizations under the 
Mesquite Lands Act expired in late 2011. The Lincoln County Land Act of 
2000 (P.L. 106-298) similarly authorized the use of certain funds for 
development of a habitat conservation plan in Lincoln County. While the 
City of Mesquite acquired approximately 7,700 acres of public lands 
under the Mesquite Lands Act, as amended, it was not able to complete 
all of the acquisitions it sought in the prescribed time period.

S. 757
    S. 757 extends certain authorizations in the Mesquite Lands Act, as 
amended, for an additional ten years to November 29, 2021. The bill 
also allows for the use of certain funds for the implementation (in 
addition to the development) of habitat conservation plans for the 
Virgin River in Clark County as well as for a habitat conservation plan 
in Lincoln County. It also extends the withdrawal of the lands from all 
forms of location, entry and appropriation under the public land laws, 
including mining laws, and from operation of mineral leasing and 
geothermal leasing laws, subject to valid existing rights.
    The BLM supports S. 757 and its goal of providing for the long-term 
economic development needs of the City. It would allow more time to 
complete the environmental reviews (and to develop possible mitigation 
of impacts) of proposed land uses on the parcels. The U.S. Fish and 
Wildlife Service has been working cooperatively with the BLM in the 
development of the habitat conservation plan for the Virgin River. The 
additional authorizations in S. 757 to implement habitat conservation 
plans will enhance the Department's habitat protection efforts in Clark 
County and in Lincoln County, Nevada.

Conclusion
    Thank you for the opportunity to present testimony on S. 757.

                               ON S. 609

    Thank you for inviting the Department of the Interior to testify on 
S. 609, the San Juan Federal Land Conveyance Act. The Bureau of Land 
Management (BLM) supports S. 609, which provides for the sale of 
approximately 19 acres of public land in northern San Juan County, New 
Mexico to a private party at fair market value. We support this 
legislation, but would like the opportunity to work with the sponsor 
and the committee on a few modifications to S. 609.

Background
    In 1998, the BLM settled a lawsuit regarding protection of the 
southwestern willow flycatcher in New Mexico. In order to protect 
potential flycatcher habitat, the BLM agreed to exclude livestock 
grazing from riparian areas in New Mexico by fencing BLM-managed river 
tracts identified as having suitable flycatcher habitat. While 
surveying lands for fencing under the settlement agreement, the BLM 
discovered as many as 20 different cases of trespass on BLM-
administered public lands in New Mexico.
    These trespass cases included a 14-acre trespass into the Bald 
Eagle Area of Critical Environmental Concern (ACEC) north of Aztec, 
N.M. In 1999, the Blancett family, who were actively farming these 
acres, was cited for trespass on approximately 19 acres of public 
lands. Despite resolution of many of the identified trespass cases-
including cases with the Blancetts' neighbors to the north and south-
BLM negotiation efforts with the Blancetts were unsuccessful.
    Following failed negotiations and an IBLA mediation attempt, the 
Blancetts sued the Department of the Interior in U.S. District Court in 
2010. On February 27, 2012, a settlement was reached between the 
Blancetts and the Department of the Interior, and the case was 
dismissed with prejudice. Under that settlement agreement, the 
Blancetts have two years to obtain a legislative solution to address 
the trespass situation. If a legislative solution is not obtained by 
March 5, 2014, or substantial progress toward that solution is not made 
by that time, the BLM will offer to sell the approximately two-acre 
parcel with the family residence to the Blancetts and the BLM may 
immediately begin to fence and reclaim the remaining 17 acres for bald 
eagle habitat, which will remain in Federal ownership.

S. 609
    S. 609 provides for the direct sale of approximately 19 acres of 
BLM-managed public land in San Juan County, New Mexico, to the 
Blancetts pursuant to a 2012 settlement agreement. The bill requires 
the Secretary of the Interior to sell at fair market value 
approximately 19-acres of public land to the Blancetts upon their 
request, as outlined in the settlement.
    Under the bill, fair market value is to be determined by an 
appraisal conducted using the Uniform Appraisal Standards for Federal 
Land Acquisitions and other standard provisions. Additionally, the bill 
requires the Blancetts to pay administrative costs associated with the 
sale, including the cost of the survey and appraisal. The BLM supports 
these provisions.
    The bill requires the transfer to the Blancetts of all right, 
title, and interest of the Federal government of these public lands. As 
written, this would include the subsurface mineral estate. The BLM 
notes that there are two producing oil wells on Federal land adjacent 
to the lands proposed for conveyance, and the Federal mineral lease 
associated with these wells includes the lands proposed for transfer. 
In order to address the existing lease and producing wells, the BLM 
recommends that the Federal government retain ownership of the mineral 
estate, and that the legislation provide for a withdrawal of the 
mineral estate from the mining laws and mineral leasing laws. 
Furthermore, we recommend that both the conveyance and the withdrawal 
be subject to valid existing rights.
    Under the bill, all proceeds from the sale are to be deposited into 
a special account in the Treasury for use in the acquisition of land or 
interests in land to further the protective purposes of the Bald Eagle 
ACEC or for resource protection consistent with the purposes of the 
ACEC. Because these funds are derived from the sale of lands, the BLM 
believes these funds should be used solely to acquire other lands or 
interest in lands.
    The BLM supports this bill as it represents an opportunity to 
resolve a longstanding trespass issue and facilitates a reasonable and 
practicable conveyance of the lands to the Blancetts that is consistent 
with the 2012 settlement agreement.

Conclusion
    Thank you again for the opportunity to testify in support of the 
San Juan Federal Land Conveyance Act.

                               ON S. 159

    Thank you for the opportunity to testify today on S. 159, the Lyon 
County Economic Development and Conservation Act, which presents 
economic development opportunities for the western Nevada city of 
Yerington. This bill would allow the city to purchase, at fair market 
value, over 10,000 acres of surface land and the subsurface mineral 
estate managed by the Bureau of Land Management (BLM) that surround a 
copper mine development located on approximately 1,500 acres of private 
land. The BLM has a few concerns with the legislation and proposes some 
modifications and amendments, including provisions related to timing of 
the conveyance that would ensure that the Federal government receives 
full value for the lands and associated mineral interests. In addition, 
Sections 3 and 4 of S. 159 designate an addition to the National 
Wilderness Preservation System-the Wovoka Wilderness Area-on National 
Forest System lands managed by the U.S. Forest Service. The Department 
of the Interior defers to the U.S. Department of Agriculture on 
provisions that apply to lands and programs under its management.

Background
    Yerington is a small community located southeast of Carson City in 
Lyon County, Nevada. The BLM manages approximately 570,000 acres of 
public land in the county. Historically, mining and agriculture have 
been significant contributors to the local economy, but today, 
Yerington has an unemployment rate that is higher than the national 
average.
    In February 2012, Nevada Copper Corp. broke ground on an 
exploratory operation at its Pumpkin Hollow mine site on private lands 
that are at the center of the proposed conveyance area. The city plans 
to annex the mine as well as the conveyance area, which will increase 
the tax base of both the city and Lyon County. Nevada Copper will fund 
the land acquisition costs for the city as well as land surveys, 
appraisals and cultural and natural resource evaluations required for 
the conveyance. In return, the city will either lease or sell certain 
lands that Nevada Copper requires for the development of its mine 
complex. Nevada Copper will also work with the city to extend water and 
sewer services beyond those needed for the Pumpkin Hollow mine. The 
city's plans envision an area where transportation, power, and water 
infrastructure installed for the mine will benefit other industrial and 
commercial users and facilitate the development of cultural and 
recreational areas for the benefit of Yerington.

S. 159
    S. 159 (Section 2) requires the Secretary of the Interior to convey 
to the city of Yerington for fair market value over 10,000 acres of 
BLM-managed land and the underlying mineral estate-if the city agrees 
to the conveyance. Under the bill, the Secretary would establish the 
value of the land and the mineral estate in accordance with the Federal 
Land Policy and Management Act and uniform appraisal standards. The 
city will pay the fair market value for the property and all costs 
related to the conveyance, including surveys, appraisals, and other 
administrative expenses.
    The bill's 180-day time period for conveyance does not allow 
sufficient time to complete reviews and consultation with parties under 
the National Environmental Policy Act and the National Historic 
Preservation Act or conduct appraisals to establish the fair market 
value of the surface and mineral estates. To its credit, the city has 
moved ahead and already sought and been granted permission to perform 
cultural survey work on the area. The preliminary findings of this 
survey indicate that there are sites in the conveyance area that may be 
eligible for inclusion in the National Register of Historic Properties. 
Resolution of adverse effects, or an agreement for the resolution or 
preservation, should be addressed before the sites pass from Federal 
ownership. The BLM recommends a one-year time period to complete all 
the necessary work associated with the conveyance.
    The area's longstanding relationship to mining poses two other 
challenges not taken into account in the bill. Although originally 
there were a number of mining claims held by parties other than Nevada 
Copper, the BLM understands Nevada Copper has purchased many of these 
mining claims. According to the BLM's mining claim database, there are 
11 other outstanding mining claims. We understand that Nevada Copper is 
making arrangements that may resolve this issue. The BLM generally does 
not convey lands with mining claims. If left unresolved, S. 159 leaves 
open the question of who would administer these other mining claims, 
which by default leaves the responsibility to the BLM to conduct 
validity exams and resolve other issues such as site remediation. 
According to the city, one of the stated goals of this bill is to 
``expedite near term and long term development of mining facilities.'' 
If the BLM manages these claims but not the surrounding surface rights, 
conflicts may occur that would hobble this goal of expedited 
development.
    The area's mining legacy poses a second and potentially dangerous 
situation. The Nevada Division of Minerals has identified abandoned 
mine features on the public lands to be conveyed to the city, a few of 
which may present potential hazards to the public. We would like to 
work with the proponents of this bill to resolve this issue. For 
example, the United States government should be indemnified from any 
future liabilities arising from any hazardous features . . . . In 
addition, there are a few technical changes the BLM suggests for the 
bill on matters such as the conveyance parcel boundary.

Conclusion
    Thank you again for the opportunity to testify on S. 159. This 
legislation is important to the people of this area, and the BLM looks 
forward to working with the sponsor and the committee.

                                ON S. 256

    Mr. Chairman and members of the Committee, the Department of the 
Interior is pleased to provide this statement for the record in support 
of enactment of legislation that would convey the three geographical 
miles of submerged lands adjacent to the Northern Mariana Islands to 
the Government of the Northern Mariana Islands. The Administration 
would strongly support this bill if amended to address the issues 
outlined below.
    The bill is intended to give the Commonwealth of the Northern 
Mariana Islands (CNMI) authority over its submerged lands from mean 
high tide seaward to three geographical miles distant from its coast 
lines.
    It has been the position of the Federal Government that United 
States submerged lands around the Northern Mariana Islands did not 
transfer to the CNMI when the Covenant came into force. This position 
was validated in Ninth Circuit Court of Appeals opinion in the case of 
the Commonwealth of the Northern Mariana Islands v. the United States 
of America. One consequence of this decision is that CNMI law 
enforcement personnel lack jurisdiction in the territorial waters 
surrounding the islands of the CNMI without a grant from the Federal 
Government.
    At present, the CNMI is the only United States territory that does 
not have title to the submerged lands in that portion of the United 
States territorial sea that is three miles distant from the coastline. 
It is appropriate that the CNMI be given the same authority as her 
sister territories.
    Second, on January 6, 2009, by presidential proclamation, the 
Marianas Trench Marine National Monument was created, including the 
Islands Unit, comprising the submerged lands and waters surrounding 
Uracas, Maug, and Asuncion, the northernmost islands of the CNMI. While 
creation of the monument is a historic achievement, it should be 
remembered that the leaders and people of the CNMI were and are these 
three islands' first preservationists. They included in their 1978, 
plebiscite-approved constitution the following language:

ARTICLE XIV--NATURAL RESOURCES

          Section 1--Marine Resources. The marine resources in the 
        waters off the coast of the Commonwealth over which the 
        Commonwealth now or hereafter may have any jurisdiction under 
        United States law shall be managed, controlled, protected and 
        preserved by the legislature for the benefit of the people.
          Section 2--Uninhabited Islands. . . . The islands of Maug, 
        Uracas, Asuncion, Guguan and other islands specified by law 
        shall be maintained as uninhabited places and used only for the 
        preservation and protection of natural resources, including but 
        not limited to bird, wildlife and plant species.

    It is important to note that the legislature has never taken action 
adverse to the preservation of these northern islands and the waters 
surrounding them. The people of the CNMI are well aware of their 
treasures. CNMI leaders consented to creation of the monument because 
they believed that the monument would bring Federal assets for marine 
surveillance, protection, and enforcement to the northern islands that 
the CNMI cannot afford.
    If enacted as introduced, S. 256 would become a public law enacted 
subsequent to the creation of the monument. S. 256's amendments to the 
Territorial Submerged Lands Act would convey to the CNMI the submerged 
lands surrounding Uracas, Maug, and Asuncion without addressing the 
effect of this conveyance on the administrative responsibilities of the 
Department of the Interior and the Department of Commerce. Presidential 
Proclamation 8335 assigned management responsibility of the Marianas 
Trench Marine National Monument to the Secretary of the Interior, in 
consultation with the Secretary of Commerce. The proclamation further 
states that the ``Secretary of Commerce shall have the primary 
management responsibility . . . with respect to fishery-related 
activities regulated pursuant to the Magnuson-Stevens Fishery 
Conservation and Management Act (16 U.S.C. Sec. Sec.  1801 et seq.) and 
any other applicable authorities.'' The proclamation provides that 
submerged lands that are granted to the CNMI ``but remain controlled by 
the United States under the Antiquities Act may remain part of the 
monument'' for coordinated management with the CNMI. As envisioned by 
the Presidential Proclamation establishing the Marianas Trench Marine 
National Monument, the Administration is proposing an amendment to 
ensure that the outstanding resources in the waters surrounding the 
CNMI's three northernmost islands remain protected. Thus, the 
Administration recommends that language be included in S. 256 
referencing the coordination of management contemplated within the 
Proclamation prior to the transfer of the submerged lands within the 
Islands Unit of the monument to the CNMI. This language is intended to 
protect the Islands Unit of the monument and at the same time 
acknowledge the prescient and historic conservation effort of the 
leaders and people of the CNMI in protecting Uracas, Maug, and 
Asuncion, and their surrounding waters.
    The Administration recommends that S. 256 include an amendment to 
subsection (b) of section 1 of the Territorial Submerged Lands Act, 
Public Law 93-435, 48 U.S.C. 1705, as follows:

          (xii) any submerged lands within the Islands Unit of the 
        Marianas Trench Marine National Monument unless or until such 
        time as the Commonwealth of the Northern Mariana Islands enters 
        into an agreement with the Secretary of the Interior and the 
        Secretary of Commerce for the permanent protection and co-
        management of such portion of the Islands Unit.

    The Department of the Interior strongly supports S. 256 if it is 
amended to include the legislative language provided. The Department of 
the Interior looks forward to the Commonwealth of the Northern Mariana 
Islands gaining rights in surrounding submerged lands similar to those 
accorded her sister territories.

                               ON S. 360

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 360, a bill to amend the Public 
Lands Corps Act of 1993 to expand the authorization of the Secretaries 
of Agriculture, Commerce and the Interior to provide service 
opportunities for young Americans; help restore the nation's natural, 
cultural, historic, archaeological, recreational and scenic resources; 
train a new generation of public land managers and enthusiasts; and 
promote the values of public service.
    The Administration strongly supports S. 360 which promotes 
environmental stewardship while providing job skill development to 
succeed in the 21st century workforce. This bill would strengthen and 
facilitate the use of the Public Land Corps (PLC) program, helping to 
fulfill the Administration's commitment to build a 21st Century 
Conservation Service Corps (21 CSC)-a national collaborative effort 
encouraging young people across America to serve their community and 
their country. During the last two Congresses, the Department testified 
in support of similar bills. While we appreciate many of the revisions 
since the 111th Congress' version that are reflected in S. 360, we 
would like to have the opportunity to work with the committee on the 
amendments described in this statement and any additional issues that 
we identify as we continue our review of the bill.

Engaging America's Youth Through Service
    While there are other federal programs that promote service, 
expanding the use of the Public Land Corps is particularly important 
because it also serves other high-priority goals. Specifically, 
enactment of this legislation will help pave the way to meeting one of 
the goals of the President's America's Great Outdoors initiative--to 
develop a 21st Century Conservation Service Corps. In January 2013, 
leaders of eight federal departments and agencies signed an agreement 
setting up a national council to guide implementation of the 
Administration's 21CSC--a national collaborative effort to put 
America's youth and returning veterans to work protecting, restoring 
and enhancing America's great outdoors. By signing the Memorandum of 
Understanding, the Secretaries of the Interior, Agriculture, Commerce, 
and Labor, as well as the EPA Administrator, Chair of the President's 
Council on Environmental Quality, CEO of the Corporation for National 
and Community Service and Assistant Secretary for the Army (Civil 
Works) established the National Council for the 21CSC-fully 
implementing the first recommendation of the America's Great Outdoors 
Initiative introduced by President Obama in 2010. The National Council 
works across the federal government to support the 21CSC by enhancing 
partnerships with existing youth corps programs that utilize PLC around 
the nation; stimulating existing and new public-private partnerships; 
and aligning the investment of current federal government resources.
    Building on the legacy of President Roosevelt's Civilian 
Conservation Corps during the Great Depression in the 1930s, the 21CSC 
will help build and train a workforce that fully represents the 
diversity of America while creating the next generation of 
environmental stewards and improving the condition of our public lands. 
The 21CSC focuses on helping young people--including diverse, low-
income, underserved and at-risk youth, as well as returning veterans--
gain valuable training and work experience while accomplishing needed 
conservation and restoration work on public lands, waterways and 
cultural heritage sites.
    S. 360 would help both the Department and our sister agencies, USDA 
and the Department of Commerce, offer expanded opportunities for our 
youth to engage in the care of America's Great Outdoors, consistent 
with efforts to fully implement the 21CSC. Additionally, the PLC 
program helps the Department implement critical cost-effective 
conservation projects that have direct positive impacts for the agency 
and the public. This legislation will also help the Department fully 
implement the 5-Year Plan for Pathways in Science, Technology, 
Engineering and Math (STEM).

Background on Public Land Corps Program
    The Department regards the Public Land Corps program as an 
important and successful example of civic engagement and conservation. 
Authorized by the National and Community Service Trust Act in 1993, the 
program uses non-profit organizations such as the Student Conservation 
Association (SCA) and other service and conservation corps 
organizations affiliated with the Corps Network as the primary partners 
in administering the Public Land Corps program. These public/private 
partnership efforts help to leverage Federal dollars in some cases 3 to 
1. In addition, other non-profit youth organizations such as the YMCA 
also participate, as do local high schools and job-training youth 
organizations. The youth organizations assist the National Park Service 
(NPS) in its efforts to attract diverse participants to the parks by 
recruiting youth 16-25 years of age from all socioeconomic, cultural 
and ethnic backgrounds.
    The National Park Service makes extensive use of the Public Land 
Corps Act. This authority is used for the majority of all NPS youth 
work projects that utilize a non-profit youth-serving organization as a 
partner. In FY 2012, 1,699 employment opportunities were created 
through the projects undertaken by these partner organizations. Many of 
these projects were for maintenance and ecological restoration 
purposes. The NPS receives a 25 percent cost match from the 
participating partner organizations. During FY 2012, the NPS spent 
approximately $14 million on youth conservation projects that engaged 
qualified non-profit youth serving organizations. Funding for these 
projects included Service-wide fee revenue, Youth Partnership Program, 
Cyclic Maintenance, Repair/Rehab, and park-based funds. The NPS has 
developed a Cyclic Maintenance/Repair Rehab Youth Initiative that is 
designed to increase the number of maintenance projects that are 
performed by youth partner organizations. Once this initiative is fully 
implemented in 2014, NPS expects to dramatically increase the number of 
employment opportunities for youth. Parks have been instructed to 
identify maintenance projects could be set aside for PLC youth partner 
organizations. Parks were also asked to identify historic 
rehabilitation projects that could be performed by youth partner 
organizations. A special task force comprised of senior NPS facility 
managers has been formed to implement this initiative.
    In 2011, the NPS and the Student Conservation Association began an 
innovative PLC partnership to introduce college students of color to 
professional opportunities in the NPS. This year, 72 students 
participated in week-long orientation sessions at the Grand Tetons 
National Park and the Great Smoky Mountains National Park and in 
Alaska. These sessions offered a behind the scenes experience of how 
national park units are managed through seminars, workshops and other 
hands on activities that focused on the importance of culture, 
diversity and resource stewardship. They were introduced to the myriad 
of career opportunities in the NPS that include facilities management, 
fire and rescue, administration, resource management and visitor 
education. Those successfully completing their orientation are given 
the opportunity to serve in a 12-week paid summer internship at a 
national park site. The interns are provided a NPS mentor who gives 
advice, guidance and information regarding employment opportunities in 
the NPS.
    The Bureau of Land Management (BLM) and the U.S. Fish and Wildlife 
Service (FWS) also have a long history of employing young people 
through the Youth Conservation Corps (YCC) and through the Student 
Conservation Association (SCA) and other youth service and conservation 
organizations for a wide array of projects related to public lands 
resource enhancement and facility maintenance under the Public Lands 
Corps Act. Though most Corps are affiliated with the nationwide Corps 
Network, they are often administered at the State, rather than national 
level. The FWS and the SCA have partnered for over 20 years to offer 
work and learning opportunities to students. In FY 2012, 278 SCA 
interns and 476 other corps members served in 50 states and 3 
territories to help the FWS achieve its resource management goals.
    The BLM has engaged the services of non-profit youth service corps 
for many years under financial assistance agreements at the state and 
local level. In 2012, the BLM supported 2,100 youth employees through 
non-profit youth service corps organizations. They participated in a 
variety of conservation service activities such as recreation and river 
management, historic building restoration and maintenance, inventory 
and monitoring of cultural resources, wilderness, rangeland, and 
renewable energy compliance; native seed collection and invasive 
species control, and visitor services, including education and 
interpretation.
    In Arizona, as part of Project ROAM (Reclaim Our Arizona 
Monuments), a crew from the Southwest Conservation Corps spent two 
weeks rehabilitating and decommissioning up to 10 miles of illegal 
smuggling roads in the Sonoran Desert National Monument.
    In Harney County, Oregon, the Oregon Youth Conservation Corps, 
which was established by the Oregon Legislature to increase 
educational, training, and employment opportunities for youth, engaged 
high school crews in such projects as improving trails, fences, 
campgrounds, signs, and landscaping. The crews have also removed non-
native plants and weeds, cleaned up fire lookouts, and helped install 
wildlife guzzlers.
    The FWS manages 561 units of the National Wildlife Refuge System 
that cover over 150 million acres of land and waters, as well as over 
70 National Fish Hatcheries, which would directly benefit from programs 
authorized under S. 360. National Wildlife Refuges and National Fish 
Hatcheries enjoy strong relationships with the local communities, and 
are involved in many community-based projects that help maintain 
sustainable landscapes. The FWS's work is also supported by over 200 
non-profit Friends organizations that assist in offering quality 
education programs, mentoring, and work experience for youth.
    In 2012, the FWS employed 1325 youth employees through 90 partners 
that include local, State, and non-profit youth service corps. The FWS 
also provided funding for a YCC program that hired 709 teenagers. The 
FWS has working relationships with numerous colleges and universities 
for students interested in pursuing careers in fish and wildlife 
management.

The Public Lands Service Corps Act of 2013
    S. 360 would make several administrative and programmatic changes 
to the Public Land Corps Act. These changes would encourage broader 
agency use of the program, make more varied opportunities available for 
young men and women, and provide more support for participants during 
and after their service. Appropriately, S. 360 would change the 
program's name to Public Lands Service Corps, reflecting the emphasis 
on ``service'' that is the hallmark of the program. President Obama is 
committed to providing young people with greater opportunities and 
incentives to serve their community and country. Through an enhanced 
Public Lands Service Corps, we would be taking a critical first step 
that direction.
    Key changes that the legislation would make to existing law 
include:

  <bullet> Adding the Department of Commerce's National Oceanic and 
        Atmospheric Administration, which administers national marine 
        sanctuaries and conservation programs geared toward engaging 
        youth in science, service and stewardship, as an agency 
        authorized to use the program;
  <bullet> Establishing an Indian Youth Corps so Indian Youth can 
        benefit from Corps programs based on Indian lands, carrying out 
        projects that their Tribes and communities determine to be 
        priorities;
  <bullet> Authorizing a departmental-level office at the Department of 
        the Interior to coordinate Corps activities within all the 
        participating bureaus;
  <bullet> Requiring each of the three relevant departments to 
        undertake or contract for a recruiting program for the Corps;
  <bullet> Requiring a training program for Corps members and 
        identifying specific components the training must include;
  <bullet> Identifying more specific types of projects that could be 
        conducted under this authority;
  <bullet> Allowing participants in other volunteer programs to 
        participate in PLC projects;
  <bullet> Allowing agencies to make arrangements with other federal, 
        State, or local agencies, or private organizations, to provide 
        temporary housing for Corps members;
  <bullet> Providing explicit authority for the establishment of 
        residential conservation centers;
  <bullet> Authorizing agencies to recruit experienced volunteers from 
        other programs to serve as mentors to Corps members;
  <bullet> Adding ``consulting intern'' as a new category of service 
        employment under the PLC program;
  <bullet> Allowing agencies to provide living allowances, as 
        established by the applicable Secretary, and to reimburse 
        travel expenses;
  <bullet> Allowing agencies to provide non-competitive hiring status 
        for Corps members for two years after completing service, 
        rather than only 120 days, if certain terms are met; and
  <bullet> Allowing agencies to provide job and education counseling, 
        referrals, and other appropriate services to Corps members who 
        have completed their service.

    We believe that the Department's program would benefit from 
enactment of this legislation. As noted above, most PLC projects are 
designed to address maintenance and ecological restoration needs, and 
those types of projects would continue to be done under S. 360. 
However, this legislation specifies a broader range of potential 
projects, making it likely that Corps members could become involved in 
such varied activities as historical and cultural research, museum 
curatorial work, oral history projects and programs, documentary 
photography, public information and orientation services that promote 
visitor safety, and activities that support the creation of public 
works of art. Participants might assist employees in the delivery of 
interpretive or educational programs and create interpretive products 
such as website content, Junior Ranger program books, printed handouts, 
and audiovisual programs.
    PLC participants would also be able to work for a partner 
organization where the work might involve sales, office work, 
accounting, science, communication, education, and management, so long 
as the work experience is directly related to the protection and 
management of public lands. The NPS and the FWS have a large number of 
partner organizations that would be potential sponsors of young people 
interested in the type of work they might offer.
    Another important change is the addition of ``consulting intern'' 
as a new category of service employment under the PLC program, 
expanding on the use of mostly college-student ``resource assistants,'' 
provided for under existing law. The consulting interns would be 
graduate students who would help agencies carry out management analysis 
activities. NPS has successfully used business and public management 
graduate student interns to write business plans for parks for several 
years, and this addition would bring these interns under the PLC 
umbrella.
    The Public Lands Service Corps would also offer agencies the 
ability to hire successful corps members non-competitively at the end 
of their appointment, which would provide the agency with an influx of 
knowledgeable and diverse employees as well as career opportunities for 
those interested in the agencies' mission. Such hiring authority is an 
especially valuable tool for the Department to realize its goals 
spelled out in the ``STEM Education and Employment Pathways Strategic 
Plan.'' Refuges and hatcheries, for example, are uniquely qualified to 
connect with local communities since the Service has so many refuges 
across the country that are located near smaller communities and can 
directly engage urban, inner city, and rural youth. For example, 
partnering academic institutions are beginning to offer academic 
certificate programs to enhance the students' work experience and 
marketability for securing full-time employment in both the federal and 
non-profit sectors, thereby providing orientation and exposure to a 
broad range of career options.
    An expanded Public Lands Service Corps program would provide more 
opportunities for thousands of young Americans to participate in public 
service while assisting the Department to address the critical 
maintenance, restoration, repair and rehabilitation needs on our public 
lands and gain a better understanding of the impacts of climate change 
on these treasured landscapes.

Recommended Changes to S. 360
    As noted at the start of this statement, we appreciate the changes 
that have been made since the legislation was first introduced in the 
111th Congress, and are reflected in S. 360. However, the 
Administration recommends the following amendments to this bill:

          1) Hiring preference
    The Administration recommends changing eligibility for former PLSC 
participants for non-competitive hiring status from two years to one 
year. This change would make eligibility status consistent with other 
Government-wide, non-competitive appointment authorities based on 
service outside of the federal government.

          2) Cost sharing for nonprofit organizations contributing to 
        expenses of resource assistants and consulting interns
    Under current law in the case of resource assistants, and under S. 
360 in the case of consulting interns, sponsoring organizations are 
required to cost-share 25 percent of the expenses of providing and 
supporting these individuals from ``private sources of funding.'' The 
Administration recommends giving agencies the ability to reduce the 
non-federal contribution to no less than 10 percent, only if the 
Secretary determines it is necessary to enable a greater range of 
organizations, such as smaller, community-based organizations that draw 
from low-income and rural populations, to participate in the PLSC 
program. This would make the cost-share provisions for resource 
assistants and consulting interns parallel to the provisions under the 
bill for other PLSC participants.

          3) Definition of Eligible Public Lands
    The Administration recommends technical amendments to clarify the 
definition of ``Eligible service lands'' to include non-federal lands. 
An expanded definition of eligible service lands to include federal, 
state, local and privately-owned lands would provide additional 
flexibility in carrying out conservation projects on non-federal lands 
with willing landowners.

          4) Agreements with Partners on Training and Employing Corps 
        Members
    The Administration recommends striking the provision in S. 360 that 
would allow PLSC members to receive federally funded stipends and other 
PLSC benefits while working directly for non-federal third parties. The 
need for this language is unclear, since agencies already have 
flexibility in how they coordinate work with cooperating associations, 
educational institutes, friends groups, or similar nonprofit 
partnership organizations. Yet, the language could raise unanticipated 
concerns over accountability, liability, and conflicts of interest. For 
example, this language could allow an individual to receive a federally 
funded stipend under a PLSC agreement, and then perform work for a 
different non-federal group (such as a cooperating association) that is 
subject to agency oversight under different agreements. This language 
could blur the lines of responsibility that have been established in 
response to IG concerns over the management of cooperating associations 
and friends groups.

          5) Participants/Terms
    The Administration recommends striking the provision in S. 360 that 
would limit the terms of service of Corps participants. This would 
retain the authority provided for in current law which provides for 
administrative flexibility in determining the appropriate length of 
service for Corps participants.

          6) Authorization of Appropriations
    The Administration recommends amending S. 360 to eliminate the $12 
million authorization ceiling for the program under existing law. This 
would allow for an increased funding for the program in the future, as 
the three Departments increase their use of the Public Lands Service 
Corps.
    The Department and its bureaus, along with its sister agencies are 
presently working together to: establish a 21CSC; improve federal 
capacity for recruiting, training and managing volunteers and volunteer 
programs to create a new generation of citizen stewards; and improve 
career pathways and to review barriers to jobs in natural resource 
conservation and historic and cultural preservation. The proposed 
amendments to the Public Lands Service Corps Act will support these 
efforts to fully implement the President's America's Great Outdoors 
initiative.
    Finally, the Department of Labor also is reviewing S. 360 to ensure 
child labor protections apply for participating youth, and will address 
any concerns it has directly with the Subcommittee.

    Senator Manchin. Thank you so much.
    With that we'll open up to the committee, to the Senators, 
to see if they have any questions.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Pena, first on the Grazing Improvement Act. I really 
appreciate your general support and positive testimony and just 
ask if you'll commit to working with my staff to resolve the 
outstanding issue with the use of categorical exclusion when 
they shouldn't be used.
    Mr. Pena. We would enjoy doing that.
    Senator Barrasso. Thank you very much. I appreciate that.
    Now, I'll like to turn to you, Ms. Connell, on the same 
topic about the grazing bill and your primary objections is 
also the use of categorical exclusions to comply with NEPA.
    You know, in 2007 the Bureau, the Bureau of Land 
Management, actually established the categorical exclusion for 
issuing grazing permits and leases that meet certain criteria 
tied to land health. The categorical exclusion was established 
following public comment and consultation with the Council on 
Environmental Quality and the preparation of a full analysis by 
your agency of grazing permit activities. The categorical 
exclusion in my bill largely tracks the language in the BLM 
established categorical exclusion. BLM used this categorical 
exclusion up through 2009.
    In 2009 BLM permanently suspended its use of the 
categorical exclusion pursuant to a stipulated settlement 
agreement with an environmental activist group called Western 
Watersheds. This group actually received $43,000 of taxpayer 
money for their attorney's fees related to this. So once again 
this Administration, in my opinion, allowed an environmental 
group to determine its decision making.
    My question is does the BLM still stand behind the 
categorical exclusion it established in the analysis and 
rationale it used to support its establishment in 2007?
    Ms. Connell. Thank you for your question. The BLM and the 
Department of the Interior would in fact like to have a 
categorical exclusion opportunity for our grazing permit 
renewal process. We would just prefer that it be a 
discretionary action as opposed to, what I understand to be, 
mandatory as the way it's worded in the existing bill.
    Senator Barrasso. So then I can ask--can I ask for your 
commitment in working with my staff to address this issue of 
NEPA compliance and the other specific language and concerns 
that have been raised in your testimony?
    Ms. Connell. We would look forward to working with you on 
this bill.
    Senator Barrasso. I'm very glad to see the BLM's testimony 
on the Good Neighbor bill. The BLM recognized how replacing the 
immediately adjacent requirement for State and Federal lands 
within the same watershed could be beneficial in watershed 
restoration projects and enhance the effectiveness of landscape 
scale treatment. So I'm grateful for that.
    Mr. Pena, with regarding that Good Neighbor Forestry Act 
since 2009 both the Forest Service and the BLM have testified 
in support of the Good Neighbor concept. But have suggested 
that further study was necessary. I'm happy to see today that 
further study of the issue is not raised in your testimony and 
now only minor technical corrections remain.
    So can you briefly outline for me maybe what those 
technical corrections are and if you don't have a list, that's 
OK. We can visit together about dealing with those.
    Mr. Pena. Yes, Senator Barrasso. I'm glad that we're here 
too. We don't need to do any more study, I think.
    The main thing that we want to do is be able to, within the 
Administration, reconcile how the labor laws would be 
reconciled between State and Federal agencies. I think the 
wording in the bill has come a long ways in being more clear 
and help us reach a place where we can move forward together. 
We'd be happy to work with your staff on those technical 
issues.
    Senator Barrasso. Thank you.
    Mr. Chairman, maybe in the interest of time I have a couple 
other questions. I'll just submit those for written answers if 
that's alright with you?
    Senator Manchin. Thank you, Senator. Absolutely.
    Senator Barrasso. Thank you.
    Senator Manchin. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    I probably should have mentioned this while our colleagues 
from Nevada were here. But as a testament to the local support 
for the Lyon County bill even my own Aunt in Yerington called 
me to ask me to support it. So they seem to be covering their 
bases.
    I want to talk a little bit about FLTFA and ask Ms. Connell 
a question with that regard.
    As you know in New Mexico we have a lot of places where, 
like a lot of Western States, where State trust lands are 
scattered through holdings of Federal lands. The BLM in New 
Mexico spends quite a lot of time and energy trying to work on 
exchanges and if it's a more appropriate question for you, Mr. 
Rountree, feel free to jump in. But a lot of time and energy on 
exchanges between the State and the Department of the Interior 
to try and resolve that so that we're using our limited 
management funds efficiently on both those landscapes, on the 
State lands and on the Department of the Interior lands.
    Can you talk a little bit about how FLTFA would help 
resolve those State inholdings while maintaining the principle 
of land for land that is important in exchanges?
    Mr. Rountree. Yes, sir, I'd be happy to.
    Exchanges aren't the most efficient way of conducting land 
tenure adjustments.
    There's usually two appraisals that are required.
    There's all sorts of clearances that are required.
    There's also trying to alleviate any discrepancies that 
there might be on appraisals.
    There may be some lands that we are interested or 
uninterested in acquiring through exchange.
    It is a valuable tool. It's not one of the most efficient.
    One of the things we cannot do with the Land and Water 
Conservation Fund is to acquire State lands. One of the 
outstanding attributes of using FLTFA is our ability to do so. 
There's simply not enough money under the Land and Water 
Conservation Fund to buy lands from willing sellers across the 
country. This is certainly a more efficient way of doing that 
at the same time being able to acquire many of the inholdings 
in areas like the Rio Grande del Norte.
    Senator Heinrich. Great.
    Mr. Chairman, I mentioned one other thing in regard to 
that. You know, when I was on the House side I sat on the 
Natural Resources Committee with a number of members from the 
intermountain west. One of the things that I think attracted 
people like Congressman Bishop and Congresswoman Lomas and 
others to the FLTFA model that didn't necessarily, who weren't 
necessarily fans of the Land and Water conservation fund in 
some circumstances, is the idea of quality to over quantity and 
being able to really focus the resources to places that were 
productive for the public that produced a lot of wildlife 
values, for example. That it actually facilitates a faster--
facilitates the Bureau of Land Management doing a quicker job 
of disposing of lands that are no longer meet their 
requirements for what they're looking for for their own 
inholdings or holdings, I should say.
    So I very much look forward to continuing to work with the 
Department of the Interior to see this move forward. Sure 
appreciate you holding this hearing today. One last thing, I 
just want to thank the Department for their work with the local 
community in Taos and Rio* Arriba Counties on the Rio Grande 
del Norte designation.
    Senator Manchin. Thank you, Senator.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Pena, thank you for your comments on S. 736. This is 
the Subsistence Cabin Fee bill. If I understand your statement 
here today you do believe that the Forest Service has the 
authority to address these fees and will be doing so 
administratively. Is that a correct summation?
    Mr. Pena. Yes.
    Senator Murkowski. OK.
    Mr. Pena. Yes.
    Senator Murkowski. I look forward to working with you to 
resolve that and appreciate your efforts on that.
    In turning to the Sealaska bill, S. 340, I appreciate your 
recognition of the importance of this bill and the fact that 
the Forest Service does support the principle objective as I 
have outlined in my statement.
    Ms. Connell, your statement as well that the BLM does 
support the goal of Sealaska.
    I think we recognize that 40 years is a long time to wait 
for conveyances. I know that there were a lot of extenuating 
circumstances in between. That has caused concern.
    But the effort to get this resolved is an important one. 
The work that has gone on now for well over 2 years, well over 
2 years, you used the word diligent work, Mr. Pena, and I do 
believe that that has been the case not only from those of you 
within the agencies, our staffs, the members, again, working 
with stakeholders and interest groups. It has been a long time 
coming. I am hopeful that we are close to being able to resolve 
this.
    I appreciate your statements, Mr. Pena, that you believe 
that this legislation would be in your words. ``Our full and 
final satisfaction of the Sealaska claims and speak to the 
issue of this being a unique situation for Sealaska as the last 
of the Native Corporations to receive their full conveyances 
under ANCSA.'' That in the Forest Service opinion this is 
unique and that it is not precedent setting.
    That has been an issue that has been raised back home. It 
is an issue that has been raised by others. I think it is 
important that we have worked diligently throughout this 
process to ensure that it is not precedenting that it would not 
allow for a reopener, if you will. So I think that's important 
to put that out on the record here.
    Ms., am I pronouncing it right? Is it Conell or Connell?
    Ms. Connell. Actually either way. It depends on who you ask 
in my family.
    [Laughter.]
    Senator Murkowski. I'm asking you today. So let's call it, 
Conell.
    Ms. Connell. That sounds good.
    Senator Murkowski. Ms. Connell, I appreciate your 
statement, again, a brief statement, but supporting, clearly, 
the goals that we're trying to accomplish with this legislation 
and the reference there that you defer to the Forest Service 
and their statements. I appreciate that because I will admit 
that when I read your testimony that we received late last 
evening, I was concerned because there were two points that 
were raised.
    One as to the issue of precedent.
    The other as it related to, kind of, the issue of 
endangered species.
    I just want to make sure that we're all in agreement in 
terms of where BLM is coming from in terms of its support.
    Again, I noted that over the course of these years we've 
made some 175 changes. We have worked with the Department of 
the Interior and USDA to meet their concerns. We've been 
assured in the past that we had met those.
    We did consult with BLM and used exactly the acreage 
numbers that your folks gave us to settle on the final 
entitlement. We worked with Forest Service, who, I'm told, 
consulted with Fish and Wildlife to resolve the Endangered 
Species Act concerns. We substantially modified those timber 
conveyances so that Sealaska is now taking 4 times less acreage 
that contains the old growth.
    So when we're talking about the goshawk and the wolf 
listing that we have addressed. Those concerns, that was 
important. We did modify the language to specifically say that 
this is full and final satisfaction of Sealaska's remaining 
land entitlement.
    Then also, to meet the Department's concern that somehow or 
other this was going to be precedent setting, we went around 
and contacted all of the Native Corporation's Heads, gained 
assurance that they understood the very unique situation that 
Sealaska faces. That they do not consider this bill as some 
kind of a precedent and understand that the 2004 Alaska Land 
Transfer Acceleration was a firm deadline for them.
    So I just want to make sure then, Ms. Connell, that you, 
when you say that you do defer to the Forest Service in terms 
of their recommendation, that you would agree that Sealaska's 
situation is unique. It will not be establishing a precedent 
for reopening into the future for other Native Corporations.
    Ms. Connell. I appreciate your concern with our late night 
submittal of our testimony. certainly I can understand where 
they can be some confusion created there.
    First I would like to say that we very much appreciate all 
the hard work that's been done on this bill over the years that 
it's been worked on. The improvements have been vast. We 
definitely appreciate that and do defer to the Forest Service.
    It is my understanding that our comments are simply stating 
that we can't give an absolute on some of the issues that were 
brought up, an absolute that another corporation wouldn't come 
in and ask for some type of similar treatment or an absolute 
that it couldn't create an opening for a new determination or 
consideration for the listing of a species. That was simply the 
intent of our comment.
    Senator Murkowski. It had appeared that it was language 
that had been resurrected from the comments that we received 
back in 2009 and 2011. Of course, that was ancient history in 
terms of where we were then and where we are now.
    So given, again, the very direct assurances contained in 
the legislation that it is full and final satisfaction of 
Sealaska's remaining land entitlements. What we have done to 
really address, to the fullest extent possible, the issue of 
making sure that we don't run into issues with endangered 
species. I think it is important to recognize the extent that 
all the parties went to to resolve these 2 areas.
    So I hear your qualification there, but would you not agree 
that we have worked aggressively to address these, not only 
these two concerns in terms of precedent setting, but the 
Endangered Species Act, but so many of the other concerns that 
had been raised initially?
    Ms. Connell. Yes, Senator. We would definitely agree that 
you have made improvements in these areas. Working closely with 
the Forest Service and on behalf of the Fish and Wildlife 
Service, we appreciate the hard work and the significant 
improvements that have been made in this bill.
    Senator Murkowski. Let me ask you, Mr. Pena, this relates 
to the CMAI issue. You have noted that this is the outstanding 
issue. We know that we've been going back and forth, but in 
terms of a waiver for a limited amount of young growth that 
would then accepted from CMAI.
    You've indicated you want to work with us to resolve this 
outstanding issue. I appreciate that. I also recognize though 
that you're saying that this is going to be necessary to make 
this whole transition to second growth work.
    But I'm kind of looking at this and saying, this is only 
about half true because the waiver doesn't really do anything 
to keep the timber industry alive there in Southeast. What we 
need down there is a steady supply. We need the long term old 
growth supply commitment for the existing mill so that we can 
keep them alive, essentially, until we're able to transition to 
the young growth timber.
    So the question to you would be, how does the CMAI 
exemption actually make this transition, the Tongass transition 
plan work?
    Mr. Pena. I don't think the Tongass transition is just 
predicated on the CMAI. I think where were coming from is 
because of the number of more mature, second growth stands that 
will be conveyed to Sealaska, that we had hoped would be able 
to be part of our transition, beginning that transition earlier 
than what we had planned. The few acres or the acres that we'd 
be able to use the exemption on would reduce that gap where 
we'd have to be relying on old growth timber for more of an 
extended period of time.
    It's my understanding that the transition is over time. So 
right now the sales that we're putting up are predominately 
going to be old growth type sales. They will be into the 
future. The ability for us to make the transition and to lay 
out a plan that where all parties can see that we will be 
moving toward a second growth economy over time, I think is 
part of the mix of being able to get the support for the near 
term use of old growth looking at being able to speed up, as 
quickly as we can, a transition.
    It's my understanding that transition is over 15 to 20 
years.
    Senator Murkowski. Right.
    Mr. Pena. So that's, what we're hoping is, adequate time 
for industry to make the shift toward second growth. I would 
expect even when we're 15 to 20 years out, we're still going to 
need to rely on some portion of old growth to maintain that 
harvest level that's going to maintain a viable industry there. 
That's what we're all committed to doing with both the Tongass 
transition as well as looking at what would be needed for the 
limited exemption for the CMAI. We've got to come up with a 
different acronym.
    Senator Murkowski. I know it's a tongue twister.
    But this is what we've been trying to do is get some 
commitment from the Forest Service that can be offered up to 
the existing mills with respect to this old growth supply so 
that they can make this transition. It's been difficult to get 
that level of commitment. We had Chief Tidwell before the 
committee here last week, I guess it was. It's been hard.
    So, we understand what you're talking about within the 
transition. I appreciate that you recognize that this is not 
something that we could flip the switch on. It's a 20 year 
deal.
    So how, again, we keep this industry alive in the interim 
is what I think we're all trying to work through. So I would 
ask that you and your folks within Forest Service work with us 
on this Sealaska bill to resolve this CMAI issue. Hopefully 
allow us to move forward with the Sealaska Lands bill.
    I gave the full title. The second half to this title is a 
jobs protection act because we recognize that this will allow 
for a small continuation of some of that industry, an industry 
that is struggling in Southeastern Alaska. If this legislation 
can't go through truly those timber jobs are no longer there to 
make this transition to where Forest Service wants to go.
    So I appreciate your offer to work with us on this. I think 
we just have a little bit more to go, but I would hope that 
between yourself, Ms. Connell at BLM, we can get this finally 
resolved and end the 40 year transition that it's taken to get 
Sealaska to this point.
    So we need you to work with us. But I appreciate what you 
have done to this point in time.
    Mr. Chairman, I am well over my time. I have one more 
question to ask on the Small Miners. Is that OK?
    Senator Manchin. Absolutely. Absolutely.
    Senator Murkowski. Alright. Thank you for your indulgence.
    This is back to you, Ms. Connell. This is regarding the 
Small Miner bill.
    I guess I'm just kind of struggling to try to figure out 
what we do when we had initially introduced this bill there 
were several different small miners that were in a similarly 
situated situation. One of them has been addressed. Now we're 
still trying to figure out how we address, what I think, is an 
inequity or unevenness in the system. You've got a poor guy out 
there. Now, it's a private relief bill because it's just one.
    I still am trying to figure out why the BLM feels that the 
language that says that miners should have the ability to cure 
any defect for any reason doesn't apply to this primary, you 
know, the defect in the first place which is not having the 
application or the related work claim affidavits being recorded 
and filed in a timely manner. So I'm still pushing on this 
because I think that there is an issue within the system where 
it failed. How we might be able to address it is what I am 
still struggling with.
    So I hear what you're saying about costly treatment if you 
have to provide for this system wide notification. I would ask 
that you all work with me, work with my staff, to try to 
fashion what we would consider to be a fair solution for these 
Alaska cases where we've got a small miner and just kind of 
gets caught in the requirements that are out there.
    I appreciate that we've got to have the requirements, but 
it seems to me that we had a fatal flaw in the first place. We 
haven't been able to get around that. I'd like to be able to 
see if there isn't someway that we can address this matter and 
bring this one to a conclusion as well.
    Ms. Connell. We would be happy to continue working with you 
on this matter.
    Senator Murkowski. I appreciate that.
    Again, to both of you, all of you within your respective 
agencies, thank you for your efforts in helping us on the 
Sealaska Lands Provision bill. It is a very important bill to 
me. It's a very important bill to so many Alaskans.
    As I mentioned this is not a perfect one where everybody is 
walking away happy. But I think that it is recognized that good 
faith effort was made by everyone from Sealaska, to the 
communities, to the fishermen, to the sportsmen, to the 
recreationists, to the folks in the agencies and I really 
appreciate the efforts that have been made.
    Thank you, Mr. Chairman. Look forward to moving things out 
from here.
    Senator Manchin. Thank you, Senator.
    If there are no further questions I'd like to thank all of 
our witnesses today for their testimony this afternoon.
    Some members of the committee may submit additional 
questions in writing. If so, we may ask you to submit answers 
for the record.
    We will keep the hearing record open for 2 weeks to receive 
any additional comments.
    Senator Manchin. The committee is adjourned.

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Jamie Connell to Questions From Senator Murkowski

    Question 1. According to your testimony and the Forest Service's, 
on S. 255, the North Fork Watershed Protection Act, there are 39 
existing leases or claims in the North Fork comprising 56,117 acres and 
18 existing leases or claims in the Middle Fork comprising 8,595 acres. 
Please provide a map of the withdrawal area, as described in S. 255, 
displaying the location of all the existing leases or claims.
    Answer. In response to your request, a map has been provided to 
your staff. Please note, the acreage of the 18 existing leases in the 
Middle Fork should be corrected to 8,482 acres.
    Question 2. Has the Department of the Interior inventoried the oil 
and gas resources underlying the federal lands proposed for withdrawal 
in S.255? If so, please provide the estimates of oil and gas. If not, 
why not?
    Answer. The Department has not completed an inventory or 
exploratory assessment of the oil and gas resources in the North Fork 
Watershed. However, the USGS National Oil and Gas Assessment (NOGA), a 
geology-based assessment of oil and gas potential across the country, 
has included this area. The assessment unit containing the North Fork 
Watershed is known as the ``Montana Thrust Belt'' and covers the 
Western third of Montana.
    The 1995 USGS NOGA assessment stated of this area:

  <bullet> ``[U]nlike the adjacent and contiguous Alberta Foothills 
        Belt to the north, the Montana Thrust Belt has failed to yield 
        appreciable hydrocarbons in spite of more than 80 years of 
        exploration and wildcat drilling.''
  <bullet> ``Federal lands withdrawn from exploration [e.g., Glacier 
        National Park and National Forest Wilderness] are generally 
        west of the mountain front in areas analogous to those in 
        Alberta that have not yielded hydrocarbons.''
  <bullet> ``Altogether fewer than 80 wildcat wells have resulted in 
        the discovery of three minor gas fields.''

    The 2002 USGS NOGA assessment:

  <bullet> Provided more quantitative data, though all of it is 
        predicted based on geologic characteristics (the Department 
        does not conduct exploratory assessments as part of the NOGA)
  <bullet> Estimated 8.6 trillion cubic feet of gas (mean) for the 
        entire Montana Thrust Belt (range from 1.1 tcf to 20.7 tcf).
  <bullet> Echoes the 1995 report that carbon dioxide may be a 
        significant contaminant, especially in the Northwest, which 
        includes the North Fork.

    Question 3. If S.255 were enacted into law, could the valid 
existing leases or claims be explored or developed? If so, please 
describe under what conditions those existing leases or claims could be 
explored or developed. (What would be the process?)
    Answer. S. 255 would withdraw all Federal lands in the North Fork 
watershed of the Flathead River from all forms of location, entry, and 
patent under the mining laws and from disposition from all laws related 
to mineral and geothermal leasing. This means that the BLM would be 
prohibited from issuing new leases and the lands would not be available 
for location of additional mining claims. S. 255 does not impact 
development of valid existing leases and development on valid, pre-
existing claims could continue.
    The 39 valid, existing oil and gas leases within the North Fork 
Watershed and the 18 in the Middle Fork Watershed of the Flathead 
National Forest have been suspended since 1985 due to litigation. The 
Conner v. Burford decision required the Forest Service to prepare an 
Environmental Impact Study (EIS) under the National Environmental 
Protection Act before authorizing any surface disturbing activities on 
the affected leases. The leases will remain suspended, at least until 
the Forest Service completes the EIS addressing the court's decision in 
Conner v. Burford.
    S. 255 does not affect future leases for ``saleable'' minerals, 
such as sand and gravel.
    Question 4. In your opinion, what is the likelihood that the 
existing leases or claims will ever be developed if S. 255, is enacted 
into law?
    Answer. S. 255 as written does not affect valid existing rights. 
Whether or not development will occur on valid existing leases or 
claims will depend on a number of factors. If the suspension is lifted, 
the BLM will work with the Forest Service to honor the valid existing 
rights and to guide development of the leases.
    Question 5. In your written testimony on S.368, the Federal Land 
Transaction Facilitation Act, you recommend eliminating the date 
restriction on identifying lands eligible to be sold through the FLTFA 
process, rather than simply moving the date forward. Please explain why 
BLM is making this recommendation.
    Answer. The BLM currently oversees the public lands through 157 
Resource Management Plans (RMPs). These include more than 75 RMP 
revisions and major plan amendments since 2000. Additionally, the BLM 
is currently involved in planning efforts on 57 new RMPs that the 
bureau expects to complete within the next three to four years. 
Planning updates are an ongoing part of the BLM's mandate under FLPMA. 
In this process, the BLM often makes incremental modifications to the 
plans, and identifies lands that may be suitable for disposal. All of 
these planning modifications or revisions are made in compliance with 
the National Environmental Policy Act, and are undertaken through a 
process that invites full public participation. If the enactment date 
is again utilized as the cut-off date, lands identified as suitable for 
disposal after the enactment date and later sold would occur outside 
the FLTFA process. Eliminating the restriction to provide more 
flexibility on the lands eligible for FLTFA and would allow the BLM to 
maintain a more consistent program over time.

     Responses of Jamie Connell to Questions From Senator Barrasso

    Question 1. On March 25, 2013, the President proclaimed the 
establishment of the 242,555 acre Rio Grande del Norte National 
Monument in New Mexico. S. 241, the Rio Grande del Norte National 
Conservation Area Act, instead would establish the Rio Grande del Norte 
National Conservation Area. Can you explain what the BLM sees as the 
differences between a National Monument and a National Conservation 
Area? What are the differences in BLM management? How are each funded?
    Answer. Both National Conservation Areas (NCAs) and National 
Monuments can and have been designated by Acts of Congress, and the BLM 
manages these units consistent with Congressional direction. The 
President can also designate an area as a National Monument under 
Antiquities Act authority. Neither NCAs nor National Monuments can be 
designated administratively by the Department or agency. Both NCAs and 
National Monuments are typically designated to conserve, protect, and 
enhance the unique resources and values for which they were designated, 
as well as other purposes, including public enjoyment and encouragement 
of partnerships. The BLM plans for and manages National Monuments and 
National Conservation Areas similarly in that both are governed by the 
FLPMA, go through public processes for land use planning, and follow 
other laws and policies applicable to other public lands in accordance 
with the enacting legislation or proclamation. Base funding for both 
NCAs and National Monuments is provided through the specific budget 
line item (``subactivity'') for National Monuments and National 
Conservation Areas. Additional funds may be provided through other 
subactivities including the land use planning, range management, 
recreation, and others subactivities, depending on specific 
circumstances.
    Question 2. In your written testimony on S. 353, the Oregon 
Treasures Act, with respect to the Rogue Wilderness proposal, you 
suggest managing approximately 500 acres on the north-side of the Rogue 
River, that you state does not meet the criteria to be designated as 
wilderness,(due to past logging activities and existing primitive 
roads), as ``potential wilderness. `` You then go on to explain that as 
part of that management you would in your words: ``actively 
restore.these lands to move them toward wilderness conditions . . . '' 
What are ``potential wilderness'' areas? If an area does not currently 
meet the criteria to be designated wilderness, how can it managed to 
gain such characteristics?
    Answer. The Congress first established a ``potential wilderness'' 
in 2006 with the designation of the Elkhorn Ridge Potential Wilderness 
Area under Public Law 109-362. That law directed the BLM to either 
actively or passively provide for the restoration of these public lands 
before designating them as wilderness. In January 2011, the BLM 
determined no additional restoration of the Elkhorn Ridge area was 
necessary as the area had naturally rehabilitated itself. The area 
formally became wilderness upon publication of the required Federal 
Register notice, as provided for in Public Law 109-362.
    In this case, there are 500 acres of non-wilderness within a large 
wilderness area. While the area currently has roads from prior logging, 
it would be possible and perhaps advantageous either to passively or 
actively restore this area to a more natural state for purposes of 
manageability. At that point it would make sense to include those lands 
within the larger, surrounding wilderness.
                                 ______
                                 
       Responses of Jim Pena to Questions From Senator Murkowski

    Question 1. In your testimony on S. 736, the Alaska Subsistence 
Protection Act, the Forest Service contends that it has existing 
authority to change the fees charged for special use permits 
authorizing the use of cabins, as required by the bill. What is the 
actual authority the Forest Service has to change the fees? Please 
provide the legal citation, if applicable.
    Answer. 36 CFR Sec. 251.57(a) directs the Forest Service to collect 
annual rental fees for special-use authorizations, and to base such 
fees on fair market value. The Alaska Region publishes its fee schedule 
annually in a regional supplement to Forest Service Handbook (FSH) 
2709.11, Chapter 30.
    When there are specific reasons for adjusting or changing fees from 
the established fee schedule, such adjustments are made following 
direction in FSH 2709.11, Section 31.5. The handbook allows Regions to 
establish fees when there is no national rate system, or schedule for a 
particular use.
    Although Congress stated in FLPMA that the general policy of the 
United States is to charge fair market value for use of its lands or 
their resources, there are several provisions in ANILCA that may 
reasonably be interpreted as providing exceptions to the general 
policy. Section 1303(d) of ANILCA (16 U.S.C. 3193(d)), dealing with 
cabins, authorizes the renewal of cabin leases or permits "in 
accordance with the provisions of the original lease or permit, subject 
to such reasonable regulations as [the Secretary] may provide." This 
provision may be a reasonably interpreted to authorize, for example, a 
yearly fee of $10 if an original permit or lease had an annual fee of 
$10.
    Section 811(a) of ANILCA (16 U.S.C. 3121(a)), dealing with 
subsistence, provides that ``[t]he Secretary shall ensure that rural 
residents engaged in subsistence uses shall have reasonable access to 
subsistence resources on public lands.'' It is reasonable to interpret 
this section to mean that since subsistence resources are often away 
from permanent domiciles and in areas with inclement weather or 
potentially dangerous wildlife, paying something less than market value 
for necessary shelter is a way to ``ensure . . . reasonable access.''
    Section 1316 of ANILCA (16 U.S.C. 3204), dealing with temporary 
facilities, states that ``the Secretary shall permit, subject to 
reasonable regulation to insure compatibility, the continuation of 
existing uses, and the future establishment, and use, of temporary 
campsites, tent platforms, shelters, and other temporary facilities . . 
. '' If the use of these facilities was permitted prior to ANILCA 
without cost or for a cost less than market value, it would be 
reasonable to interpret this section as allowing these uses to continue 
at no or a low cost.
    These interpretations are consistent with the Congressional 
findings in Sec. 801 and the policy statements in Sec. 802 on ANILCA 
that provide the expression of Congress of its intent of providing the 
continuation and opportunity of the subsistence lifestyle of rural 
Alaska residents, which may provide additional support for departing 
from fair market value fees.
    To date, the Forest Service has chosen to interpret ANILCA in such 
a way as to be able to charge fair market value rental rates. That 
interpretation, while it may be reasonable, is not required. S. 736 
would clarify Congress' intent by establishing a maximum annual fee of 
$250 for these special uses.
    Question 2. Under S.736, the Alaska Subsistence Protection Act, 
some subsistence users who also use their cabins for limited small-
scale commercial fishing would also see a fee reduction for the special 
use permits authorizing the use of the cabins. Is it your position that 
these users, as described, would also be eligible for reduced fees 
under the existing administrative authority to change the fees you 
referenced in your testimony? Please explain.
    Answer. The revised regional policy would specify that cabin users 
that qualify for the reduced fee based on subsistence use would be 
charged the reduced rate if they hold an Alaska limited entry permit 
for commercial fishing and do not generate more than $15,000 gross 
annual income from that fishing.
    Question 3. If the Forest Service exercises the authority it 
contends it has to change the fees charged for subsistence users, how 
would that administrative process work and how would the level of the 
fee be determined?
    Answer. The Alaska Region is in the process of issuing a contract 
for appraisal services to determine whether the fees for four 
structures in the Yakutat area represent fair market value of these 
uses of National Forest System lands, and whether that amount could 
influence ensuring reasonable access.
    The results of the forthcoming appraisal will be considered along 
with other information such as administrative costs, commercial uses, 
and the need to provide access for subsistence uses of National Forest 
System lands, to determine whether these fees should be adjusted. Any 
adjustments would be made through a regional supplement to FSH 2709.11, 
Chapter 30 - Fees. The update would be published by December in time 
for the 2014 bills for land use fees.
    Question 4. According to your testimony on S.255, the North Fork 
Protection Act, the Forest Service contends that a portion of the 
Middle Fork has a high potential for oil and gas occurrence. Is any of 
this area proposed for withdrawal in S.255? Are any of the existing 
leases or claims located in this ``high potential'' portion of the 
Middle Fork?
    Answer. The Middle Fork portion in the withdrawal bill only 
includes a small strip of land between the Great Bear Wilderness to the 
South and Glacier National Park to the North. A portion of that area 
has been mapped as having the potential for a high occurrence of Oil 
and/or Gas. There are as many as 18 leases in this area. The leases 
have been suspended by the BLM for nearly 30 years and there is no 
pending action on them.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Hon. Joe Manchin,
Chairman, Public Lands, Forests, and Mining Subcommittee304 Dirksen 
        Senate Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, Public Lands, Forests, and Mining Subcommittee, 304 
        Dirksen Senate Building, Washington, DC.
    Dear Chairman Manchin and Ranking Member Barrasso:
    Thank you for holding a hearing today on S. 256, which Energy and 
Natural Resources Committee Chairman Ron Wyden and Ranking Member Lisa 
Murkowski introduced at my request. The Commonwealth of the Northern 
Mariana Islands is the only U.S. jurisdiction that does not have 
ownership of the submerged lands three miles off its shores. S. 256 
corrects that anomaly, providing the same interest in submerged lands 
around the Northern Mariana Islands as is now enjoyed by American 
Samoa, Guam, and the Virgin Islands.
    The language of S. 256 reflects recommendations made by the 
Executive Branch, when the Senate Energy and Natural Resources 
Committee held a hearing in the 112th Congress on S. 590, similarly 
conveying submerged lands to the Northern Mariana Islands. And the 
validity of the underlying purpose of the bill has been confirmed 
through many iterations of the legislative process. In the 109th 
Congress Representative Jeff Flake--now Senator Jeff Flake and a member 
of this Committee--introduced H.R. 4255, conveying these submerged 
lands; and a companion measure in the Senate, introduced by Senator 
Pete Domenici, received a hearing before the Energy and Natural 
Resources Committee. In the 111th Congress, I introduced H.R. 934, also 
conveying these submerged lands. That bill passed the House of 
Representatives unanimously and was reported favorably by this 
Committee. In the 112th Congress, my bill H.R. 670, also, passed the 
House without dissent and its companion, S. 590, received a favorable 
hearing.
    I would like to underscore how important the conveyance of 
submerged lands is to the people of the Northern Mariana Islands. For 
thousands of years, our people fished the seas and harvested the other 
marine resources around our islands. Yet, on February 25, 2005 the 
people of the Mariana Islands awoke to learn that the Ninth Circuit 
Court of Appeals had concluded that these waters and the submerged 
lands below them did not belong to the people of the Northern Marianas, 
but were the property of the United States. Recognizing, perhaps, the 
oddity of this conclusion, the Court did point out in its decision that 
Congress could return these lands to the people of the Northern Mariana 
Islands. S. 256 does exactly that.
    The return of these lands to the people of the Northern Mariana 
Islands is not simply a matter of pride, however. Near-shore waters are 
a source of important economic benefits to other coastal jurisdictions 
and could become so for the Northern Marianas. By way of example, 
Louisiana leases about 400,000 acres of its submerged lands for oyster 
harvest, profiting the state and providing an economic opportunity for 
the holders of some 8,000 leases. In addition, conveyance of submerged 
lands around the Northern Mariana Islands to local control would 
relieve the federal government of its current responsibility-and the 
attendant costs-of management.
    I request that this letter be made a part of your subcommittee's 
hearing record on S. 256. I urge you to report the bill favorably, so 
that it can be enacted quickly and so that the people of the Northern 
Mariana Islands will get back the land that they have always believed 
belonged to them.
            Sincerely,
                            Gregorio Kilili Camacho Sablan,
                                                Member of Congress.
                                 ______
                                 
        Statement for the Department of the Interior, on S. 256

    Mr. Chairman and members of the committee, the Department of the 
Interior is pleased to provide this statement for the record in support 
of enactment of legislation that would convey the three geographical 
miles of submerged lands adjacent to the Northern Mariana Islands to 
the Government of the Northern Mariana Islands. The Administration 
would strongly support this bill if amended to address the issues 
outlined below.
    The bill is intended to give the Commonwealth of the Northern 
Mariana Islands (CNMI) authority over its submerged lands from mean 
high tide seaward to three geographical miles distant from its coast 
lines.
    It has been the position of the Federal Government that United 
States submerged lands around the Northern Mariana Islands did not 
transfer to the CNMI when the Covenant came into force. This position 
was validated in Ninth Circuit Court of Appeals opinion in the case of 
the Commonwealth of the Northern Mariana Islands v. the United States 
of America. One consequence of this decision is that CNMI law 
enforcement personnel lack jurisdiction in the territorial waters 
surrounding the islands of the CNMI without a grant from the Federal 
Government.
    At present, the CNMI is the only United States territory that does 
not have title to the submerged lands in that portion of the United 
States territorial sea that is three miles distant from the coastline. 
It is appropriate that the CNMI be given the same authority as her 
sister territories.
    Second, on January 6, 2009, by presidential proclamation, the 
Marianas Trench Marine National Monument was created, including the 
Islands Unit, comprising the submerged lands and waters surrounding 
Uracas, Maug, and Asuncion, the northernmost islands of the CNMI. While 
creation of the monument is a historic achievement, it should be 
remembered that the leaders and people of the CNMI were and are these 
three islands' first preservationists. They included in their 1978, 
plebiscite-approved constitution the following language:

                     ARTICLE XIV--NATURAL RESOURCES

          Section 1--Marine Resources. The marine resources in the 
        waters off the coast of the Commonwealth over which the 
        Commonwealth now or hereafter may have any jurisdiction under 
        United States law shall be managed, controlled, protected and 
        preserved by the legislature for the benefit of the people.

          Section 2--Uninhabited Islands . . . The islands of Maug, 
        Uracas, Asuncion, Guguan and other islands specified by law 
        shall be maintained as uninhabited places and used only for the 
        preservation and protection of natural resources, including but 
        not limited to bird, wildlife and plant species.

    It is important to note that the legislature has never taken action 
adverse to the preservation of these northern islands and the waters 
surrounding them. The people of the CNMI are well aware of their 
treasures. CNMI leaders consented to creation of the monument because 
they believed that the monument would bring Federal assets for marine 
surveillance, protection, and enforcement to the northern islands that 
the CNMI cannot afford.
    If enacted as introduced, S. 256 would become a public law enacted 
subsequent to the creation of the monument. S. 256's amendments to the 
Territorial Submerged Lands Act would convey to the CNMI the submerged 
lands surrounding Uracas, Maug, and Asuncion without addressing the 
effect of this conveyance on the administrative responsibilities of the 
Department of the Interior and the Department of Commerce. Presidential 
Proclamation 8335 assigned management responsibility of the Marianas 
Trench Marine National Monument to the Secretary of the Interior, in 
consultation with the Secretary of Commerce. The proclamation further 
states that the ``Secretary of Commerce shall have the primary 
management responsibility . . . with respect to fishery-related 
activities regulated pursuant to the Magnuson-Stevens Fishery 
Conservation and Management Act (16 U.S.C. Sec. Sec.  1801 et seq.) and 
any other applicable authorities.'' The proclamation provides that 
submerged lands that are granted to the CNMI ``but remain controlled by 
the United States under the Antiquities Act may remain part of the 
monument'' for coordinated management with the CNMI. As envisioned by 
the Presidential Proclamation establishing the Marianas Trench Marine 
National Monument, the Administration is proposing an amendment to 
ensure that the outstanding resources in the waters surrounding the 
CNMI's three northernmost islands remain protected. Thus, the 
Administration recommends that language be included in S. 256 
referencing the coordination of management contemplated within the 
Proclamation prior to the transfer of the submerged lands within the 
Islands Unit of the monument to the CNMI. This language is intended to 
protect the Islands Unit of the monument and at the same time 
acknowledge the prescient and historic conservation effort of the 
leaders and people of the CNMI in protecting Uracas, Maug, and 
Asuncion, and their surrounding waters.
    The Administration recommends that S. 256 include an amendment to 
subsection (b) of section 1 of the Territorial Submerged Lands Act, 
Public Law 93-435, 48 U.S.C. 1705, as follows:

          (xii) any submerged lands within the Islands Unit of the 
        Marianas Trench Marine National Monument unless or until such 
        time as the Commonwealth of the Northern Mariana Islands enters 
        into an agreement with the Secretary of the Interior and the 
        Secretary of Commerce for the permanent protection and co-
        management of such portion of the Islands Unit.

    The Department of the Interior strongly supports S. 256 if it is 
amended to include the legislative language provided. The Department of 
the Interior looks forward to the Commonwealth of the Northern Mariana 
Islands gaining rights in surrounding submerged lands similar to those 
accorded her sister territories.

                               ON S. 360

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 360, a bill to amend the Public 
Lands Corps Act of 1993 to expand the authorization of the Secretaries 
of Agriculture, Commerce and the Interior to provide service 
opportunities for young Americans; help restore the nation's natural, 
cultural, historic, archaeological, recreational and scenic resources; 
train a new generation of public land managers and enthusiasts; and 
promote the values of public service.
    The Administration strongly supports S. 360 which promotes 
environmental stewardship while providing job skill development to 
succeed in the 21st century workforce. This bill would strengthen and 
facilitate the use of the Public Land Corps (PLC) program, helping to 
fulfill the Administration's commitment to build a 21st Century 
Conservation Service Corps (21 CSC)--a national collaborative effort 
encouraging young people across America to serve their community and 
their country. During the last two Congresses, the Department testified 
in support of similar bills. While we appreciate many of the revisions 
since the 111th Congress' version that are reflected in S. 360, we 
would like to have the opportunity to work with the committee on the 
amendments described in this statement and any additional issues that 
we identify as we continue our review of the bill.

Engaging America's Youth Through Service
    While there are other federal programs that promote service, 
expanding the use of the Public Land Corps is particularly important 
because it also serves other high-priority goals. Specifically, 
enactment of this legislation will help pave the way to meeting one of 
the goals of the President's America's Great Outdoors initiative--to 
develop a 21st Century Conservation Service Corps. In January 2013, 
leaders of eight federal departments and agencies signed an agreement 
setting up a national council to guide implementation of the 
Administration's 21CSC--a national collaborative effort to put 
America's youth and returning veterans to work protecting, restoring 
and enhancing America's great outdoors. By signing the Memorandum of 
Understanding, the Secretaries of the Interior, Agriculture, Commerce, 
and Labor, as well as the EPA Administrator, Chair of the President's 
Council on Environmental Quality, CEO of the Corporation for National 
and Community Service and Assistant Secretary for the Army (Civil 
Works) established the National Council for the 21CSC-fully 
implementing the first recommendation of the America's Great Outdoors 
Initiative introduced by President Obama in 2010. The National Council 
works across the federal government to support the 21CSC by enhancing 
partnerships with existing youth corps programs that utilize PLC around 
the nation; stimulating existing and new public-private partnerships; 
and aligning the investment of current federal government resources.
    Building on the legacy of President Roosevelt's Civilian 
Conservation Corps during the Great Depression in the 1930s, the 21CSC 
will help build and train a workforce that fully represents the 
diversity of America while creating the next generation of 
environmental stewards and improving the condition of our public lands. 
The 21CSC focuses on helping young people--including diverse, low-
income, underserved and at-risk youth, as well as returning veterans--
gain valuable training and work experience while accomplishing needed 
conservation and restoration work on public lands, waterways and 
cultural heritage sites.
    S. 360 would help both the Department and our sister agencies, USDA 
and the Department of Commerce, offer expanded opportunities for our 
youth to engage in the care of America's Great Outdoors, consistent 
with efforts to fully implement the 21CSC. Additionally, the PLC 
program helps the Department implement critical cost-effective 
conservation projects that have direct positive impacts for the agency 
and the public. This legislation will also help the Department fully 
implement the 5-Year Plan for Pathways in Science, Technology, 
Engineering and Math (STEM).

Background on Public Land Corps Program
    The Department regards the Public Land Corps program as an 
important and successful example of civic engagement and conservation. 
Authorized by the National and Community Service Trust Act in 1993, the 
program uses non-profit organizations such as the Student Conservation 
Association (SCA) and other service and conservation corps 
organizations affiliated with the Corps Network as the primary partners 
in administering the Public Land Corps program. These public/private 
partnership efforts help to leverage Federal dollars in some cases 3 to 
1. In addition, other non-profit youth organizations such as the YMCA 
also participate, as do local high schools and job-training youth 
organizations. The youth organizations assist the National Park Service 
(NPS) in its efforts to attract diverse participants to the parks by 
recruiting youth 16-25 years of age from all socioeconomic, cultural 
and ethnic backgrounds.
    The National Park Service makes extensive use of the Public Land 
Corps Act. This authority is used for the majority of all NPS youth 
work projects that utilize a non-profit youth-serving organization as a 
partner. In FY 2012, 1,699 employment opportunities were created 
through the projects undertaken by these partner organizations. Many of 
these projects were for maintenance and ecological restoration 
purposes. The NPS receives a 25 percent cost match from the 
participating partner organizations. During FY 2012, the NPS spent 
approximately $14 million on youth conservation projects that engaged 
qualified non-profit youth serving organizations. Funding for these 
projects included Service-wide fee revenue, Youth Partnership Program, 
Cyclic Maintenance, Repair/Rehab, and park-based funds. The NPS has 
developed a Cyclic Maintenance/Repair Rehab Youth Initiative that is 
designed to increase the number of maintenance projects that are 
performed by youth partner organizations. Once this initiative is fully 
implemented in 2014, NPS expects to dramatically increase the number of 
employment opportunities for youth. Parks have been instructed to 
identify maintenance projects could be set aside for PLC youth partner 
organizations. Parks were also asked to identify historic 
rehabilitation projects that could be performed by youth partner 
organizations. A special task force comprised of senior NPS facility 
managers has been formed to implement this initiative.
    In 2011, the NPS and the Student Conservation Association began an 
innovative PLC partnership to introduce college students of color to 
professional opportunities in the NPS. This year, 72 students 
participated in week-long orientation sessions at the Grand Tetons 
National Park and the Great Smoky Mountains National Park and in 
Alaska. These sessions offered a behind the scenes experience of how 
national park units are managed through seminars, workshops and other 
hands on activities that focused on the importance of culture, 
diversity and resource stewardship. They were introduced to the myriad 
of career opportunities in the NPS that include facilities management, 
fire and rescue, administration, resource management and visitor 
education. Those successfully completing their orientation are given 
the opportunity to serve in a 12-week paid summer internship at a 
national park site. The interns are provided a NPS mentor who gives 
advice, guidance and information regarding employment opportunities in 
the NPS.
    The Bureau of Land Management (BLM) and the U.S. Fish and Wildlife 
Service (FWS) also have a long history of employing young people 
through the Youth Conservation Corps (YCC) and through the Student 
Conservation Association (SCA) and other youth service and conservation 
organizations for a wide array of projects related to public lands 
resource enhancement and facility maintenance under the Public Lands 
Corps Act. Though most Corps are affiliated with the nationwide Corps 
Network, they are often administered at the State, rather than national 
level. The FWS and the SCA have partnered for over 20 years to offer 
work and learning opportunities to students. In FY 2012, 278 SCA 
interns and 476 other corps members served in 50 states and 3 
territories to help the FWS achieve its resource management goals.
    The BLM has engaged the services of non-profit youth service corps 
for many years under financial assistance agreements at the state and 
local level. In 2012, the BLM supported 2,100 youth employees through 
non-profit youth service corps organizations. They participated in a 
variety of conservation service activities such as recreation and river 
management, historic building restoration and maintenance, inventory 
and monitoring of cultural resources, wilderness, rangeland, and 
renewable energy compliance; native seed collection and invasive 
species control, and visitor services, including education and 
interpretation.
    In Arizona, as part of Project ROAM (Reclaim Our Arizona 
Monuments), a crew from the Southwest Conservation Corps spent two 
weeks rehabilitating and decommissioning up to 10 miles of illegal 
smuggling roads in the Sonoran Desert National Monument.
    In Harney County, Oregon, the Oregon Youth Conservation Corps, 
which was established by the Oregon Legislature to increase 
educational, training, and employment opportunities for youth, engaged 
high school crews in such projects as improving trails, fences, 
campgrounds, signs, and landscaping. The crews have also removed non-
native plants and weeds, cleaned up fire lookouts, and helped install 
wildlife guzzlers.
    The FWS manages 561 units of the National Wildlife Refuge System 
that cover over 150 million acres of land and waters, as well as over 
70 National Fish Hatcheries, which would directly benefit from programs 
authorized under S. 360. National Wildlife Refuges and National Fish 
Hatcheries enjoy strong relationships with the local communities, and 
are involved in many community-based projects that help maintain 
sustainable landscapes. The FWS's work is also supported by over 200 
non-profit Friends organizations that assist in offering quality 
education programs, mentoring, and work experience for youth.
    In 2012, the FWS employed 1325 youth employees through 90 partners 
that include local, State, and non-profit youth service corps. The FWS 
also provided funding for a YCC program that hired 709 teenagers. The 
FWS has working relationships with numerous colleges and universities 
for students interested in pursuing careers in fish and wildlife 
management.

The Public Lands Service Corps Act of 2013
    S. 360 would make several administrative and programmatic changes 
to the Public Land Corps Act. These changes would encourage broader 
agency use of the program, make more varied opportunities available for 
young men and women, and provide more support for participants during 
and after their service. Appropriately, S. 360 would change the 
program's name to Public Lands Service Corps, reflecting the emphasis 
on ``service'' that is the hallmark of the program. President Obama is 
committed to providing young people with greater opportunities and 
incentives to serve their community and country. Through an enhanced 
Public Lands Service Corps, we would be taking a critical first step 
that direction.
Key changes that the legislation would make to existing law include:

  <bullet> Adding the Department of Commerce's National Oceanic and 
        Atmospheric Administration, which administers national marine 
        sanctuaries and conservation programs geared toward engaging 
        youth in science, service and stewardship, as an agency 
        authorized to use the program;
  <bullet> Establishing an Indian Youth Corps so Indian Youth can 
        benefit from Corps programs based on Indian lands, carrying out 
        projects that their Tribes and communities determine to be 
        priorities;
  <bullet> Authorizing a departmental-level office at the Department of 
        the Interior to coordinate Corps activities within all the 
        participating bureaus;
  <bullet> Requiring each of the three relevant departments to 
        undertake or contract for a recruiting program for the Corps;
  <bullet> Requiring a training program for Corps members and 
        identifying specific components the training must include;
  <bullet> Identifying more specific types of projects that could be 
        conducted under this authority;
  <bullet> Allowing participants in other volunteer programs to 
        participate in PLC projects;
  <bullet> Allowing agencies to make arrangements with other federal, 
        State, or local agencies, or private organizations, to provide 
        temporary housing for Corps members;
  <bullet> Providing explicit authority for the establishment of 
        residential conservation centers;
  <bullet> Authorizing agencies to recruit experienced volunteers from 
        other programs to serve as mentors to Corps members;
  <bullet> Adding ``consulting intern'' as a new category of service 
        employment under the PLC program;
  <bullet> Allowing agencies to provide living allowances, as 
        established by the applicable Secretary, and to reimburse 
        travel expenses;
  <bullet> Allowing agencies to provide non-competitive hiring status 
        for Corps members for two years after completing service, 
        rather than only 120 days, if certain terms are met; and
  <bullet> Allowing agencies to provide job and education counseling, 
        referrals, and other appropriate services to Corps members who 
        have completed their service.

    We believe that the Department's program would benefit from 
enactment of this legislation. As noted above, most PLC projects are 
designed to address maintenance and ecological restoration needs, and 
those types of projects would continue to be done under S. 360. 
However, this legislation specifies a broader range of potential 
projects, making it likely that Corps members could become involved in 
such varied activities as historical and cultural research, museum 
curatorial work, oral history projects and programs, documentary 
photography, public information and orientation services that promote 
visitor safety, and activities that support the creation of public 
works of art. Participants might assist employees in the delivery of 
interpretive or educational programs and create interpretive products 
such as website content, Junior Ranger program books, printed handouts, 
and audiovisual programs.
    PLC participants would also be able to work for a partner 
organization where the work might involve sales, office work, 
accounting, science, communication, education, and management, so long 
as the work experience is directly related to the protection and 
management of public lands. The NPS and the FWS have a large number of 
partner organizations that would be potential sponsors of young people 
interested in the type of work they might offer.
    Another important change is the addition of ``consulting intern'' 
as a new category of service employment under the PLC program, 
expanding on the use of mostly college-student ``resource assistants,'' 
provided for under existing law. The consulting interns would be 
graduate students who would help agencies carry out management analysis 
activities. NPS has successfully used business and public management 
graduate student interns to write business plans for parks for several 
years, and this addition would bring these interns under the PLC 
umbrella.
    The Public Lands Service Corps would also offer agencies the 
ability to hire successful corps members non-competitively at the end 
of their appointment, which would provide the agency with an influx of 
knowledgeable and diverse employees as well as career opportunities for 
those interested in the agencies' mission. Such hiring authority is an 
especially valuable tool for the Department to realize its goals 
spelled out in the ``STEM Education and Employment Pathways Strategic 
Plan.'' Refuges and hatcheries, for example, are uniquely qualified to 
connect with local communities since the Service has so many refuges 
across the country that are located near smaller communities and can 
directly engage urban, inner city, and rural youth. For example, 
partnering academic institutions are beginning to offer academic 
certificate programs to enhance the students' work experience and 
marketability for securing full-time employment in both the federal and 
non-profit sectors, thereby providing orientation and exposure to a 
broad range of career options.
    An expanded Public Lands Service Corps program would provide more 
opportunities for thousands of young Americans to participate in public 
service while assisting the Department to address the critical 
maintenance, restoration, repair and rehabilitation needs on our public 
lands and gain a better understanding of the impacts of climate change 
on these treasured landscapes.

Recommended Changes to S. 360
    As noted at the start of this statement, we appreciate the changes 
that have been made since the legislation was first introduced in the 
111th Congress, and are reflected in S. 360. However, the 
Administration recommends the following amendments to this bill:

          1) Hiring preference

    The Administration recommends changing eligibility for former PLSC 
participants for non-competitive hiring status from two years to one 
year. This change would make eligibility status consistent with other 
Government-wide, non-competitive appointment authorities based on 
service outside of the federal government.

          2) Cost sharing for nonprofit organizations contributing to 
        expenses of resource assistants and consulting interns

    Under current law in the case of resource assistants, and under S. 
360 in the case of consulting interns, sponsoring organizations are 
required to cost-share 25 percent of the expenses of providing and 
supporting these individuals from ``private sources of funding.'' The 
Administration recommends giving agencies the ability to reduce the 
non-federal contribution to no less than 10 percent, only if the 
Secretary determines it is necessary to enable a greater range of 
organizations, such as smaller, community-based organizations that draw 
from low-income and rural populations, to participate in the PLSC 
program. This would make the cost-share provisions for resource 
assistants and consulting interns parallel to the provisions under the 
bill for other PLSC participants.

          3) Definition of Eligible Public Lands

    The Administration recommends technical amendments to clarify the 
definition of ``Eligible service lands'' to include non-federal lands. 
An expanded definition of eligible service lands to include federal, 
state, local and privately-owned lands would provide additional 
flexibility in carrying out conservation projects on non-federal lands 
with willing landowners.

          4) Agreements with Partners on Training and Employing Corps 
        Members

    The Administration recommends striking the provision in S. 360 that 
would allow PLSC members to receive federally funded stipends and other 
PLSC benefits while working directly for non-federal third parties. The 
need for this language is unclear, since agencies already have 
flexibility in how they coordinate work with cooperating associations, 
educational institutes, friends groups, or similar nonprofit 
partnership organizations. Yet, the language could raise unanticipated 
concerns over accountability, liability, and conflicts of interest. For 
example, this language could allow an individual to receive a federally 
funded stipend under a PLSC agreement, and then perform work for a 
different non-federal group (such as a cooperating association) that is 
subject to agency oversight under different agreements. This language 
could blur the lines of responsibility that have been established in 
response to IG concerns over the management of cooperating associations 
and friends groups.

          5) Participants/Terms

    The Administration recommends striking the provision in S. 360 that 
would limit the terms of service of Corps participants. This would 
retain the authority provided for in current law which provides for 
administrative flexibility in determining the appropriate length of 
service for Corps participants.

          6) Authorization of Appropriations

    The Administration recommends amending S. 360 to eliminate the $12 
million authorization ceiling for the program under existing law. This 
would allow for an increased funding for the program in the future, as 
the three Departments increase their use of the Public Lands Service 
Corps.
    The Department and its bureaus, along with its sister agencies are 
presently working together to: establish a 21CSC; improve federal 
capacity for recruiting, training and managing volunteers and volunteer 
programs to create a new generation of citizen stewards; and improve 
career pathways and to review barriers to jobs in natural resource 
conservation and historic and cultural preservation. The proposed 
amendments to the Public Lands Service Corps Act will support these 
efforts to fully implement the President's America's Great Outdoors 
initiative.
    Finally, the Department of Labor also is reviewing S. 360 to ensure 
child labor protections apply for participating youth, and will address 
any concerns it has directly with the Subcommittee.
    The Department is happy to answer any questions you or the other 
members of the subcommittee have.
                                 ______
                                 
                                             AMIGOS BRAVOS,
                                        New Mexico, April 16, 2013.
Hon. Joe Manchin,
Chairman, Senate Subcommittee on Public Lands, Forests and Mining, U.S. 
        Senate Washington, DC.
Hon. John Barrasso,
Ranking Member, Senate Subcommittee on Public Lands, Forests and 
        Mining, U.S. Senate, Washington, DC.
    Dear Senators Manchin and Barrasso:
    I am writing in support of S. 312, the Carson National Forest 
Boundary Adjustment Act, introduced by New Mexico Senators Tom Udall 
and Martin Heinrich. I am very grateful that your Senate Energy and 
Natural Resources subcommittee is holding a hearing on this important 
piece of legislation for New Mexico on April 25, 2013. I am very 
hopeful that this bill will move forward through the committee and 
Senate as quickly as possible.
    S. 312 is an important bill for my community. It will adjust the 
boundaries of the Carson National Forest to include the 5,000 acre 
Miranda Canyon tract, protecting our local drinking water supplies and 
ensuring that this high--value resource land is open to the public 
forever. Adding Miranda Canyon to the forest will provide residents and 
visitors with enhanced pportunities to hike, hunt, mountain bike and 
generally enjoy the outdoors.
    The Miranda Canyon acquisition is strongly supported by the local 
community in Taos, including our county commission. In addition to 
expanding recreational access, the project will protect water resources 
within the Rio Grande watershed, a segment of the Old Spanish National 
Historic Trail, wildlife habitat, and the scenic viewshed from the 
valley towards Picuris Peak. All of these attributes contribute to the 
economy and quality of life in Taos County.
    Thank you for your consideration of this important piece of 
legislation before your committee.
            Sincerely,
                                             Brian Shields,
                                                Executive Director.
                                 ______
                                 
                                 Archery Trade Association,
                                           Ulm, MN, April 22, 2013.
Hon. Ron Wyden,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, 304 Dirksen 
        Senate Office Building, Washington, DC.
    Dear Chairman Wyden and Ranking Member Murkowski:
    We are writing you in regards to S.340, the Southeast Alaska Native 
Land Entitlement Finalization and Jobs Protection Act. If advanced, 
this legislation would transfer public lands from the Tongass National 
Forest, in southeast Alaska, to the Sealaska Corporation. The 
undersigned organizations, representing hunters, anglers, scientists, 
and conservationists write to provide the following analysis and 
recommendations on this bill.
    Few places in the United States have the wildlife populations, the 
public land values, and the hunting opportunities that are found today 
in Alaska. We are fully committed to conserving this richness of 
wildlife, and the hunting opportunities it affords, for the benefit of 
future generations of Americans.
    Revisiting previously settled Alaska land claims risks problems
    We believe that S. 340 will have impacts on wildlife and hunting 
that are far out of proportion to the number of acres involved in this 
particular legislation. Of particular concern is the precedent that 
this bill could set in terms of effectively re-writing key provisions 
of the Alaska Native Claims Settlement Act (ANCSA). That important law 
authorized the transfer of 44 million acres and about l billion dollars 
to 13 regional corporations and 206 village corporations to resolve all 
original land claims. Passage of S. 340 as proposed invites a cascade 
of other claims to amend ANCSA with potentially severe implications for 
public lands, and public access and use, in virtually all parts of 
Alaska.
    In hindsight, after many decades, any number of native corporations 
can identify further changes to ANCSA and suggest alternate land 
selections that would provide greater economic benefit to their 
shareholders. While the largest percentage of ANCSA acres have been 
conveyed, there still remain hundreds of thousands of acres in 
outstanding entitlements, as well as many millions of acres in interim 
conveyance status not yet patented. lf S. 340 is allowed to provide a 
precedent for revisiting land selections in Alaska, with a new 
opportunity for countless new high-value parcel selections (as with the 
``future sites'' in S. 340), it may open a proverbial Pandora's Box of 
controversy and conflict.
    Already, there are proposals to create new native corporations with 
brand new land selections in Southeast Alaska totaling more than 
100,000 acres in addition to the Sealaska Corporation legislation now 
under consideration. Legislation has been filed in previous sessions 
that would transfer even more public land to native corporations 
outside the framework of ANCSA\1\ If we support the full and immediate 
conveyance of Sealaska's current entitlement under the provisions of 
ANCSA, as reflected in their request to BLM filed in 2008. We do not 
support advancement or passage of S. 340. It gives selective advantage 
to a single corporation, and will create requests by others for 
comparable benefits. The short and long-range implications of this bill 
pose too great a risk to important fish and wildlife habitat in 
Southeast Alaska to merit our support.
---------------------------------------------------------------------------
    \1\ H.R. 5617, 109th Cong. (2006), and H.R. 5403, ll0th Cong. 
(2008)
---------------------------------------------------------------------------
    We believe this bill is fundamentally flawed. However, we also 
realize that bills are often advanced despite a constituency's 
concerns. Should this bill be scheduled for mark-up in your committee, 
we respectfully request the following changes be made:

          1) Exclude from the requested selection two special areas 
        with extraordinarily high wildlife values. These places are: 
        North Kuiu Island (4,728 acres) and Keete Inlet (11,863 acres), 
        on S. Prince of Wales. Both areas have been ranked extremely 
        high for wildlife values in a Tongass-wide conservation 
        assessment.\2\
---------------------------------------------------------------------------
    \2\ Schoen and Dovichin, eds. A Conservation Assessment and 
Resource Synthesis for the Coastal Forests and Mountains Ecoregion in 
Southeastern Alaska and the Tonigass National Forest, The Nature 
Conservancy and Audubon Alaska (March 2007).

  <bullet> North Kuiu is famous for its large black bears, big trees 
        and rich estuarine habitat. The island produces over half the 
        black bears harvested in Southeast Alaska. Populations have 
        declined significantly as early clearcuts close in, reducing 
        numbers of deer, wolves, and bears. This area is a high 
        priority for restoration of logged areas (thinning) and 
        protection of the vital large tree old-growth habitat that 
        remains.
  <bullet> Keete Inlet is a nearly pristine watershed located between a 
        designated Wilderness area and a legislated roadless area. It 
        provides a highly productive and important large tree old-
        growth refuge for wildlife on Prince of Wales Island where past 
        logging has been especially intensive. Logging in the Keete 
        Inlet drainage would compromise the integrity of the larger 
        area This watershed has also been identified by Trout Unlimited 
        as a priority for protection as one of the premier salmon 
        watersheds in the Tongass.

    Protecting these vital watersheds from further logging would reduce 
the acres in Sealaska's request. We would encourage selection of 
alternative second-growth acres on the existing road system instead.

          2) Sealaska's selections should be weighted towards existing 
        second-growth forest.--In general, these areas are already 
        compromised in terms of their wildlife and habitat values and 
        these are the lands best suited for long-term timber 
        production. As inducement, such lands include infrastructure 
        already in place, including roads, culverts, bridges, and log-
        transfer facilities, representing millions of dollars of public 
        investment.
          3) Selections should not occur within 100 ft of class 1 and 2 
        salmon streams. or on sensitive soils (e.g., karst and 
        wetlands). Logging on these selections should conform to best 
        management practices on National Forest lands. Moreover, 
        location of selections should be responsive to the desires of 
        nearby communities that depend on these lands for hunting and 
        other subsistence activities.
          4) Public access to the proposed land selections should be 
        granted in certain terms.--The current provisions appear based 
        on the public easement provisions in section 17(b) of ANILCA, 
        which are rare in Southeast Alaska. Because ofBLM's past record 
        of vacating easements we request that language be inserted 
        which states: ``17(b) easements may not be vacated unless 
        comparable access is provided.'' In addition, Congress should 
        include language that assures free public access for hunting, 
        fishing and recreation. S. 340 should incorporate the access 
        language in the Koniag agreement. See example.\3\
---------------------------------------------------------------------------
    \3\ Example--The lands on Afognak Island required to be conveyed 
shall remain open and available to recreational and sport hunting and 
fishing and other recreational uses by the public commercial uses under 
applicable law, subject only to such reasonable restrictions which may 
be imposed by Koniag, Incorporated for the purposes of limiting or 
prohibiting such public uses in the immediate vicinity of logging or 
other commercial operations which may be undertaken by the corporations 
upon the affected lands. Such restrictions shall comprise only those 
restrictions necessary to insure public safety and to minimize 
conflicts between recreational and commercial uses.
---------------------------------------------------------------------------
          5) The management offish and wildlife populations on these 
        lands should be--the responsibility of the State of Alaska. The 
        provision in this bill which applies Title 8 of ANILCA (federal 
        subsistence priority) over private land in Alaska is 
        unprecedented, and should be changed. Authority for fish and 
        game management on these lands should be consistent with that 
        on all other state and private land in Alaska.
          6) The legislation should specify that its passage does not 
        set a precedent for other Native Corporations to re-open 
        settlement agreements that were made under ANCSA.

    Thank you, Senator Wyden and Senator Murkowski, for considering our 
views. We appreciate the opportunity to weigh in on this legislation 
which will shape the future of Southeast Alaska in profound ways. While 
there are many diverse and legitimate interests affected by this 
legislation, we trust there is wide agreement on the need to protect 
the basic integrity and productivity of this ecosystem for all, far 
into the future.
    We would greatly appreciate your help to that end, and happy to 
meet with you or your staff for further discussion of our concerns and 
recommendations.
            Sincerely,
       Archery Trade Association Bear Trust International, 
                          Bowhunting Preservation Alliance,
                                             Campfire Club,
                                        Conservation Force,
                                        Dallas Safari Club,
                                Delta Waterfowl Foundation,
                             National Trappers Association,
                            North American Bear Foundation,
                         North American Grouse Partnership,
                                      Mule Deer Foundation,
                                       Pope and Young Club,
                             Orion, The Hunter's Institute,
                                 Safari Club International,
                                Texas Wildlife Association,
                                      The Wildlife Society,
               Theodore Roosevelt Conservation Partnership,
                             Wildlife Management Institute,
                                          Wildlife Forever,
                                 ______
                                 
 Statement of John H. Atkins, Jr., President, Molalla River Alliance, 
                              Molalla, OR

    Mr. Chairman and honorable members of the Committee:
    On behalf of the diverse organizations and individuals affiliated 
with the Molalla River Alliance, thank-you for the opportunity to 
submit testimony in favor of designating the upper 21 miles of the 
Molalla River near Portland, Oregon as a Wild and Scenic River.
    In the previous congress, Wild and Scenic legislation for the 
Molalla River was favorably--and unanimously--reported to the House 
floor for a vote. Regrettably, Congress adjourned before a vote could 
be taken. In the Congress before that, the 111th Congress, the House 
passed Wild and Scenic designation for the Molalla River with strong 
bipartisan support, but Congress adjourned before a companion measure 
could be taken up in the Senate.
    While the outcome of these previous legislative initiatives was 
disappointing, they were nevertheless important milestones toward what 
we fervently hope will be final, favorable action in this Congress. Our 
reasons for optimism:

  <bullet> There is no opposition whatever to Wild and Scenic status 
        for the Molalla River. The proposal has been thoroughly vetted 
        in Congressional hearings. The idea enjoys wide support in the 
        region among public officials, landowners, conservationists, 
        fisherman, campers, recreational users and literally dozens of 
        nonprofit organizations interested in preserving this special 
        place.
  <bullet> The Molalla River meets all of the criteria set forth in the 
        Wild and Scenic Rivers Act for inclusion in the Wild and Scenic 
        River system for a recreational classification, including:

          1) ``Outstandingly remarkable'' geologic, hydrologic, scenic, 
        biological, and recreational values and free-flowing character 
        representative of a wild Cascadian stream. It provides 
        extensive native fish habitat including critical cold water 
        refuges and spawning beds. It is home to the largest run of 
        wild winter steelhead on the upper Willamette River system.
          2) No private landholdings on the river would be adversely 
        affected.
          3) A quarter-mile riparian buffer on both sides of the river 
        proposed for Wild and Scenic status is already in federal 
        ownership and managed by the BLM with great care for multiple 
        purposes, including recreational uses and habitat restoration 
        and protection.
          4) With strong and varied input from river users, a 
        recreation management plan for the upper Molalla River and 
        adjacent Table Rock Wilderness in the Western Cascade Range 
        (the Molalla's headwaters) has been developed and adopted by 
        the BLM and is being implemented.
          5)The upper part of the Molalla River proposed for Wild and 
        Scenic status is only an hour from the cities of Portland and 
        Salem, Oregon, and is accessible along its full stretch by a 
        paved road. New, handicapped-accessible campgrounds are under 
        development there by the BLM.

    Mr. Chairman and members of the Committee, the Molalla River 
Alliance is an all-volunteer coalition of 45 nonprofit civic and 
conservation groups; regional, state and federal agencies; numerous 
user groups; river property owners; and individual conservationists. It 
is not unusual for there to be disagreement among these diverse 
organizations on policy issues relating to resource management. The 
remarkable thing is that there is no disagreement among us that the 
upper Molalla River merits Wild and Scenic protection. We hope that 
this is the Congress when that will happen.
                                 ______
                                 
                                        City of Winnemucca,
                                 Winnemucca, NV, February 22, 2013.
Hon. Harry Reid,
U.S. Senate, 522 Hart Senate Office Building, Washington, DC.
Hon. Mark Amodei,
U.S. House of Representatives, 222 Cannon House Office Building 
        Washington, DC.
Hon. Dean Heller,
United States Senate, 361A Russell Senate Office Building, Washington, 
        DC.
Re: Support letter for H.R. 433 and S. 342 The Pine Forest Recreational 
Enhancement Act
    Dear Representative Amodei and Senators Reid and Heller:
    The City of Winnemucca, strongly supports the Pine Forest 
Recreational Enhancement Act. We are the largest City in Humboldt 
County and we are a direct beneficiary of the recreational 
opportunities in the Pine Forest Range. This recreational area is an 
important point of destination for tourists,as well as local 
residents,and the recommendations found in HR 433 and S.342 will serve 
to enhance the recreational uses ofthis area. It is our opinion that 
the locally driven and all-inclusive stakeholder process used to 
develop these recommendations should be used as a model on how best to 
resolve land use issues on Federal lands. The Pine Forest Working Group 
should be commended for successfully developing unanimously supported 
recommendations on how best to utilize these two Pine Forest Range 
WSA's located in Northern Humboldt County. The recommendations include: 
dropping areas of existing recreational conflict,adding designated 
roadless areas,identifying lands for possible exchange, identifying 
access roads, realigning roads away from riparian areas and improving 
the Blue lake trailhead.
    This legislation is supported by Humboldt County, the Nevada 
Association of Counties and all major conservation and wildlife 
organizations throughout Nevada. Passage is not only good for Nevada 
but would also validate the ``bottom up'' land use review process where 
all parties work together to develop the best overall use of federal 
lands.
    We greatly evada Congressional Delegation's support of HR 433 and 
S.342.
                                               DiAn Putnam,
                                                             Mayor.
                                 ______
                                 
 Statement of Hon. Gregorio Kilili Camacho Sablan, U.S. Representative 
                From Northern Mariana Islands, on S. 256

    Thank you for holding a hearing today on S. 256, which Energy and 
Natural Resources Committee Chairman Ron Wyden and Ranking Member Lisa 
Murkowski introduced at my request. The Commonwealth of the Northern 
Mariana Islands is the only U.S. jurisdiction that does not have 
ownership of the submerged lands three miles off its shores. S. 256 
corrects that anomaly, providing the same interest in submerged lands 
around the Northern Mariana Islands as is now enjoyed by American 
Samoa, Guam, and the Virgin Islands.
    The language of S. 256 reflects recommendations made by the 
Executive Branch, when the Senate Energy and Natural Resources 
Committee held a hearing in the 112th Congress on S. 590, similarly 
conveying submerged lands to the Northern Mariana Islands. And the 
validity of the underlying purpose of the bill has been confirmed 
through many iterations of the legislative process. In the 109th 
Congress Representative Jeff Flake--now Senator Jeff Flake and a member 
of this Committee--introduced H.R. 4255, conveying these submerged 
lands; and a companion measure in the Senate, introduced by Senator 
Pete Domenici, received a hearing before the Energy and Natural 
Resources Committee. In the 111th Congress, I introduced H.R. 934, also 
conveying these submerged lands. That bill passed the House of 
Representatives unanimously and was reported favorably by this 
Committee. In the 112th Congress, my bill H.R. 670, also, passed the 
House without dissent and its companion, S. 590, received a favorable 
hearing.
    I would like to underscore how important the conveyance of 
submerged lands is to the people of the Northern Mariana Islands. For 
thousands of years, our people fished the seas and harvested the other 
marine resources around our islands. Yet, on February 25, 2005 the 
people of the Mariana Islands awoke to learn that the Ninth Circuit 
Court of Appeals had concluded that these waters and the submerged 
lands below them did not belong to the people of the Northern Marianas, 
but were the property of the United States. Recognizing, perhaps, the 
oddity of this conclusion, the Court did point out in its decision that 
Congress could return these lands to the people of the Northern Mariana 
Islands. S. 256 does exactly that.
    The return of these lands to the people of the Northern Mariana 
Islands is not simply a matter of pride, however. Near-shore waters are 
a source of important economic benefits to other coastal jurisdictions 
and could become so for the Northern Marianas. By way of example, 
Louisiana leases about 400,000 acres of its submerged lands for oyster 
harvest, profiting the state and providing an economic opportunity for 
the holders of some 8,000 leases. In addition, conveyance of submerged 
lands around the Northern Mariana Islands to local control would 
relieve the federal government of its current responsibility-and the 
attendant costs-of management.
    I request that this letter be made a part of your subcommittee's 
hearing record on S. 256. I urge you to report the bill favorably, so 
that it can be enacted quickly and so that the people of the Northern 
Mariana Islands will get back the land that they have always believed 
belonged to them.
                                 ______
                                 
    Statement of Sealaska Corporation, Native Regional Corporation, 
                         Juneau, AK, on S. 340

    Chairman Manchin and Members of the Subcommittee:
    Thank you for the opportunity to submit testimony on behalf of 
Sealaska, the regional Alaska Native Corporation for Southeast Alaska, 
regarding S. 340, the ``Southeast Alaska Native Land Entitlement 
Finalization and Jobs Protection Act,'' a bill that we refer to as Haa 
Aani. ``Haa Aani'' is the Tlingit way of referring to our ancestral and 
traditional homeland and the foundation of our history and culture.
    Sealaska is one of 12 Native Regional Corporations established 
pursuant to the Alaska Native Claims Settlement Act (``ANCSA'') of 
1971. Our shareholders are descendants of the original Native 
inhabitants of Southeast Alaska--the Tlingit, Haida and Tsimshian 
people.
    In 1907, President Theodore Roosevelt established the Tongass 
National Forest, which, along with Glacier Bay National Park, now 
covers most of Southeast Alaska. The creation of the Tongass National 
Forest, named for the Tongass Tlingit people, was in effect an act of 
confiscation, certainly without the benefit of public process. This 
bill is a small effort to right that inequity. This place is our 
homeland--our past, our present, and our future.
    Our cultural and burial sites occupy every corner of Southeast 
Alaska and reflect that fact that we historically have used all of the 
Tongass. This legislation is small but significant step towards 
recognizing that historic affinity to Southeast Alaska. Our presence in 
Washington, DC-thousands of miles from our home-is a reflection of the 
significance of Haa Aani to our people and its importance in meeting 
the cultural, social and economic needs of our community.
    One hundred years ago, in October 1912, the Alaska Native 
Brotherhood met for the first time, organizing itself in Sitka, Alaska 
to address racism against Alaska Native peoples and to fight for Native 
rights, including Native land claims. One hundred years later, things 
are better, but we continue to seek a fair and balanced settlement of 
our indigenous land claims. Our efforts to achieve resolution are 
objected to, in many cases, by others who came later and who choose 
today to ignore the Native history of use and occupancy of the land. 
Those who claim we have no right to seek ownership of the lands that 
are the subject of this legislation-those who claim we do not have a 
``right'' to select land outside of the original ANCSA ``withdrawal 
boxes'', discussed below-ignore history. We wish people no harm and we 
desire to live in harmony with all our neighbors, but do we ask 
Congress to do the right thing and to return a small fraction of our 
land, from which we might seek to realize the goals of ANCSA: to 
improve the social, cultural and economic wellbeing of our 
shareholders.
    Today, Sealaska seeks legislation that will define the location of 
the last 70,000 acres of land we will receive under ANCSA. Our people 
will own these lands in perpetuity. The land will support our villages 
and will help sustain our people and our culture. This legislation is 
about Native land-land that we will share with all people-but in our 
hearts, Haa Aani.
    S. 340 would convey just 70,000 acres in the Southeast Alaska 
region, a region with almost 23 million acres of land; 85 percent of 
the region is already in some form of conservation, wilderness or other 
protected status. Putting the acreage in perspective, Sealaska's 
remaining land entitlement represents about 1/3 of one percent of the 
total land mass in Southeast Alaska.
    Yet this legislation also represents a significant opportunity for 
the public, this Congress, the Obama Administration, the Forest 
Service, communities, environmental groups and others to get it right 
for once in the Tongass. S. 340 protects ecologically sensitive areas, 
sustains jobs and communities, and returns important cultural lands to 
Southeast Alaska's Native people.
    This legislation does not give Sealaska one acre of land beyond 
that already promised by Congress. Sealaska has worked closely with the 
timber industry, conservation organizations, tribes and Native 
institutions, local communities, the State of Alaska, and federal land 
management agencies to craft legislation that provides the best 
possible result-the most balanced solution-for the people, communities 
and environment of Southeast Alaska.
    For you, Members of Congress and staff, who must consider this 
legislation, one thing should be clear by now: Every acre of Southeast 
Alaska is precious to someone. And given the vast array of interests in 
Southeast Alaska, there is simply no way to achieve absolute consensus 
on where and how Sealaska should select its remaining lands. We 
believe-and we hope you will agree-that this legislation offers a 
balanced solution as a result of our congressional delegation's 
engagement with all regional stakeholders.

Can Sealaska Select its Remaining Land under Current Law?
    Under ANCSA, as amended, Sealaska is required to select land from 
within 10 ``withdrawal boxes''. Opponents of the legislation say that 
Sealaska asked to select land from within the 10 withdrawal boxes in 
1976, and today Sealaska should be forced to select the remaining 
70,000 acres to which it is entitled under current law.
    Let's set the record straight.
    ANCSA authorized the distribution of approximately $1 billion and 
44,000,000 acres of land to Alaska Natives and provided for the 
establishment of 12 Regional Native Corporations and more than 200 
Village Corporations to receive and manage the funds and land to meet 
the cultural, social, and economic needs of Native shareholders.
    Under section 12 of ANCSA, each Regional Corporation, except 
Sealaska, was authorized to receive a share of land based on the 
proportion that the number of Alaska Native shareholders residing in 
the region of the Regional Corporation bore to the total number of 
Alaska Native shareholders, or the relative size of the area to which 
the Regional Corporation had an aboriginal land claim bore to the size 
of the area to which all Regional Corporations had aboriginal land 
claims.
    While each other Regional Corporation received a significant 
quantity of land under section 12 of ANCSA, Sealaska received land only 
under section 14(h) of that Act. Sealaska did not receive land in 
proportion to the number of Native shareholders in the region, nor did 
it receive land in proportion to the size of the area to which Sealaska 
had an aboriginal land claim because, in part, in 1968, minimal 
compensation was paid to the Tlingit and Haida Indians pursuant to a 
U.S. Court of Claims decision, which held compensation was due for the 
taking of the 17 million acre Tongass National Forest and the 3.3 
million acre Glacier Bay National Park.
    Even if it could be considered equitable, the 1968 settlement 
provided by the Court of Claims did not compensate the Tlingit and 
Haida for 2,628,207 acres of land in Southeast Alaska also subject to 
aboriginal title. The court also determined the value of the lost 
Indian fishing rights at $8,388,315, but did not provide compensation 
for those rights.
    The 1968 settlement also should be viewed in context with the 
universal settlement reached by Congress, just three years later, which 
allowed for the return of 44 million acres and almost $1 billion to 
Alaska's Native people. With a population that represented more than 20 
percent of Alaska's Native population in 1971, Southeast Alaska Natives 
ultimately would receive title to just 1 percent of land returned to 
Alaska Natives under ANCSA, ostensibly because the taking of Native 
lands in Southeast Alaska had been dealt with by the Court of Claims. 
The Tlingit and Haida people thus led the fight for Native land claims, 
and lost their land as a consequence.
    Sealaska ultimately would be authorized to recover about 365,000 
acres of land under ANCSA. However, under the terms of ANCSA, and 
because the homeland of the Tlingit, Haida and Tsimshian people had 
been reserved by the U.S. government as a national forest, the 
Secretary of the Interior was not able to withdraw land in the Tongass 
for selection by and conveyance to Sealaska. The only lands available 
for selection by Sealaska in 1971 were slated to become part of the 
Wrangell-St. Elias National Park or consisted essentially of mountain 
tops.
    For this reason, in the early 1970s, Sealaska requested that 
Congress amend ANCSA to permit Sealaska to select lands in Southeast 
Alaska, particularly located near its villages. Congress accomplished 
this by offering to Sealaska the opportunity to make its selections 
from within 10 withdrawal boxes established under ANCSA for the 10 
Southeast Native villages recognized under that Act. In 1976, Congress 
granted that right.
    Sealaska agreed to select land from within the withdrawal boxes 
because, in 1976, we had no other place to go. With two large pulp 
mills holding contracts to cut timber throughout the Tongass at the 
time, the political reality was such that Sealaska had no true ability 
to ask for a fair settlement. The suggestion that we, Alaska's Native 
people, invited our own exclusion from our own Native homeland is an 
idea that any witness to our history should find repugnant. For us, it 
was a choice between something limited, or nothing at all. It was 
hardly a choice.
    S. 340 addresses problems associated with the unique treatment of 
Sealaska under ANCSA and the unintended public policy consequences of 
forcing Sealaska to select its remaining land entitlement from within 
the existing ANCSA withdrawal boxes. The legislation presents to 
Congress a legislative package that will result in public policy 
benefits on many levels. The benefits to the public of this legislation 
are discussed in detail in this testimony.
    Observers unfamiliar with ANCSA sometimes suggest that the Sealaska 
legislation might somehow create a negative ``precedent'' with respect 
to Alaska Native land claims. This seems odd in the context of the 
history of the Tongass and its impact on the Southeast settlement. 
Congress has, on multiple occasions, deemed it appropriate to amend 
ANCSA to address in an equitable manner issues that were not 
anticipated by Congress when ANCSA passed.

Sealaska's Land Settlement in the Context of Southeast Alaska's History
    Two documents attached to this written testimony present an 
historical perspective on the long struggle to return lands in the 
Tongass to Native people: (1) the draft document funded by the Forest 
Service and authored by Dr. Charles W. Smythe, ``A New Frontier: 
Managing the National Forests in Alaska, 1970-1995'' (1995) (``A New 
Frontier''); and (2) a paper by Walter R. Echo-Hawk, ``A Context for 
Setting Modern Congressional Indian Policy in Native Southeast Alaska 
(``Indian Policy in Southeast Alaska'').
    The findings and observations summarized below are to be attributed 
to the work of Dr. Smythe and Mr. Echo-Hawk. For the sake of brevity, 
we have summarized or paraphrased these findings and observations. We 
encourage people with an interest in the history of the Tongass 
generally, or in this legislation specifically, to take the time to 
read these documents in full.
    Dr. Smythe's research, compiled in ``A New Frontier'', found, among 
other things

  <bullet> By the time the Tongass National Forest was created in 1908, 
        the Tlingit and Haida Indians had been marginalized. As white 
        settlers and commercial interests moved into the Alaska 
        territory, they utilized the resources as they found them, 
        often taking over key areas for cannery sites, fish traps, 
        logging, and mining.
  <bullet> The Act of 1884, which created civil government in the 
        Alaska territory, also extended the first land laws to the 
        region, and in combination with legislation in 1903, settlers 
        were given the ability to claim exclusively areas for 
        canneries, mining claims, townsites, and homesteads, and to 
        obtain legal title to such tracts. Since the Indians were not 
        recognized as citizens, they did not have corresponding rights 
        (to hold title to land, to vote, etc.) to protect their 
        interests.
  <bullet> For decades prior to the passage of ANCSA, the Forest 
        Service opposed the recognition of traditional Indian use and 
        aboriginal title in the Tongass National Forest. As late as 
        1954, the Forest Service formally recommended that all Indian 
        claims to the Tongass be extinguished because of continuing 
        uncertainty affecting the timber industry in Southeast Alaska.
  <bullet> On October 7, 1959, the U.S. Court of Claims held that the 
        Tlingit and Haida Indians had established their claims of 
        aboriginal Indian title to the land in Southeast Alaska and 
        were entitled to recover compensation for the uncompensated 
        taking of their lands, and for the failure to protect their 
        hunting and fishing rights.
  <bullet> The efforts by the Interior Department in the 1930s and 
        1940s to establish reservations in Southeast Alaska greatly 
        alarmed the Forest Service--which at the time opposed the 
        principle of aboriginal rights and its serious conflict with 
        Forest Service plans for a pulpwood industry in Alaska.
  <bullet> The policy of the Franklin Delano Roosevelt Administration, 
        with Harold Ickes as Interior Secretary, was to recognize 
        aboriginal rights to land and fisheries in Alaska and to 
        support efforts to provide a land and resource base to Native 
        communities for their economic benefit. Following hearings on 
        the aboriginal claims related to the protection of fisheries in 
        the communities of Hydaburg, Klawock and Kake, Secretary Ickes 
        established an amount of land to be set aside for village 
        reservations. The judgments of the Department of the Interior 
        were troubling to the Forest Service. If realized, the whole 
        timber industry in southeast Alaska would be jeopardized. The 
        Forest Service's ability to make timber sales would be in 
        doubt. The Department of Agriculture later expressed its 
        agreement with the efforts of the U.S. Senate to substantially 
        repeal the Interior Secretary's authority to establish the 
        proposed reservations in Southeast Alaska.

    Walter Echo Hawk's paper, ``Indian Policy in Southeast Alaska'', 
observes, in part:

  <bullet> The creation of the Tongass National Forest was done 
        unilaterally, more than likely unbeknownst to the Indian 
        inhabitants.
  <bullet> The Tongass National Forest was actually established subject 
        to existing property rights, as it stated that nothing shall be 
        construed ``to deprive any persons of any valid rights'' 
        secured by the Treaty with Russia or by any federal law 
        pertaining to Alaska. This limitation was essentially ignored.
  <bullet> A Tlingit leader and attorney William Paul won a short-lived 
        legal victory in the Ninth Circuit Court of Appeals in Miller 
        v. United States, 159 F. 2d 997 (9th Cir. 1947), which ruled 
        that lands could not be seized by the government without the 
        consent of the Tlingit landowners and without paying just 
        compensation.
  <bullet> To combat this decision, federal lawmakers passed a Joint 
        Resolution authorizing the Secretary of Agriculture to sell 
        timber and land within the Tongass National Forest, 
        ``notwithstanding any claim of possessory rights'' based upon 
        ``aboriginal occupancy or title.'' This action ultimately 
        resulted in the Tee-Hit-Ton Indians v. United States decision, 
        in which the U.S. Supreme Court held that Indian land rights 
        are subject to the doctrines of discovery and conquest, and 
        ``conquest gives a title which the Courts of the Conqueror 
        cannot deny.'' 348 U.S. 272, 280 (1955). The Court concluded 
        that Indians do not have 5th Amendment rights to aboriginal 
        property. The Congress, in its sole discretion, would decide if 
        there was to be any compensation whatsoever for lands stolen.

S. 340: A Balanced Solution with Significant Public Policy Benefits
    Alaska's congressional delegation has worked hard to ensure that 
the fair settlement of Sealaska's Native land claims is accomplished in 
a manner that may have the greatest benefit to all of Southeast Alaska 
while balancing the interests of individuals, communities, federal and 
state land management agencies, and other interested stakeholders.
    Thanks to the hard work of Alaska's congressional delegation, this 
legislation largely is in symmetry with the Obama Administration's 
goals for the Tongass, while also allowing Sealaska to apply to receive 
cultural sites that are sacred to our people and land that will allow 
us to develop natural resources in a sustainable manner, supporting 
local jobs and communities.
            Sacred Sites
  <bullet> S. 340 also would permit Sealaska to select up to 76 
        cultural sites, totaling 490 acres. In previous version of the 
        legislation, Sealaska would have been permitted to select more 
        than 200 cultural sites, totaling 3600 acres.
  <bullet> Sites will be selected and conveyed pursuant to the terms of 
        ANCSA Section 14(h)(1) and federal regulations.
  <bullet> Public access across sacred sites and along fishing streams 
        is protected in the legislation.
            Small Parcels of Land
  <bullet> S. 340 permits Sealaska to select 9 parcels totaling 1,004 
        acres, near Native villages. The land offers cultural, 
        recreational, and renewable energy opportunities for the 
        villages.
  <bullet> More than 50 small parcels sites were considered in previous 
        version of the legislation. Sites heavily used by local 
        communities were removed from S. 340.
  <bullet> Sealaska will seek partnerships with local tribes, clans, 
        businesses and residents to enhance the indigenous and 
        recreational experience on these parcels of land and to share 
        local character and knowledge. Emphasis will be placed on the 
        hiring of local guides and cultural and historical interpreters 
        and traditional entertainers and artists.
            Large Parcels of Land
  <bullet> Most of Sealaska's entitlement lands will be conveyed as 
        large parcels of land, comprising approximately 68,500 acres.
  <bullet> These lands were identified in consultation between Alaska's 
        congressional delegation, Sealaska, tribes, the State, local 
        communities, the Forest Service, local conservation groups, and 
        other regional stakeholders, avoiding ecologically sensitive 
        areas, the ``backyards'' of local communities, conservation 
        areas, and community watersheds.
  <bullet> These lands are generally roaded, and contain significant 
        second growth stands timber, supporting Sealaska's efforts to 
        develop a sustainable forestry economy on Native lands in 
        southeastern Alaska.

    We believe this legislation is in symmetry with the goals of the 
Obama Administration. S. 340 will:
  <bullet> Protect roadless areas and accelerate the transition away 
        from forest management that relied on old growth harvesting;
  <bullet> Help struggling communities in rural Alaska; and
  <bullet> Finalize Sealaska's Native entitlement in an equitable 
        manner, while supporting a transition by Sealaska to second 
        growth harvesting and maintaining rural jobs.

    Without legislation to amend ANCSA, Sealaska will be forced either, 
to select and develop roadless old growth areas within the existing 
withdrawals or, to shut down all Native timber operations, with 
significant negative impacts to rural communities, the economy of 
Southeast Alaska, and our tribal member shareholders.
    The public benefits of this legislation also extend far beyond 
Sealaska Corporation and its shareholders. Pursuant to a revenue 
sharing provision in ANCSA, Sealaska distributes 70 percent of all 
revenues derived from the development of its timber resources among all 
of the more than 200 Alaska Native Village and Regional Corporations.
    Finalizing Sealaska's ANCSA land entitlement conveyances will also 
benefit the federal government. This legislation allows Sealaska to 
move forward with its selections, which ultimately will give the Bureau 
of Land Management (BLM) and the Forest Service some finality and 
closure with respect to Sealaska's selections in Southeast Alaska.
Sealaska's Role in Sustainable Natural Resource Development
    Alaska Native Corporations were tasked by Congress in 1971 with 
supporting the future of the Alaska Native community, in part by 
utilizing lands returned by the United States to Native people to 
develop resources that would advance the social, cultural, and economic 
well-being of our tribal member shareholders.
    We believe that Congress' core promise to Alaska Natives in ANCSA 
was that Alaska Natives would be able to develop sustainable economies 
so that we could work to achieve, for ourselves, economic parity with 
the rest of America. Socio-economic parity was a focal point of Alaska 
Natives and the Land, a congressionally-mandated study published in 
1968, which was a foundational predicate for Congress to act on Alaska 
Native land claims.
    Sealaska has utilized some of its land base to develop timber 
resources. Of the 290,000 acres Sealaska has received under ANCSA, 
Sealaska has harvested timber on 189,000 acres in accordance with 
modern forestry and forest engineering best management practices that 
protect water quality, anadromous fish habitat, wildlife habitat, 
forest soils, and the long term productivity of the forest. Selective 
harvesting and even-aged harvesting has been employed. Less than half 
(81,000 acres) of Sealaska managed forest lands have been clear cut 
(even-aged harvest).
    Sealaska's timber business has been a powerful economic engine that 
has helped to support the regional economy for 30 years, and 70 percent 
of Sealaska's timber revenues have been shared with more than 200 
Alaska Native Corporations, as required under sections 7(i) and 7(j) of 
ANCSA.
    According to a report prepared in 2008, Sealaska and its 
subsidiaries and affiliates expended over $45 million in just one year 
in Southeast Alaska. Over 350 businesses and organizations in 16 
Southeast communities benefited from spending resulting from Sealaska 
activities. Sealaska provided over 363 full and part-time jobs with a 
payroll of over $15 million. Including direct and indirect employment 
and payroll, Sealaska supported 490 jobs and approximately $21 million 
in payroll. Sealaska will utilize some of its remaining entitlement to 
support sustainable forestry as part of a sustainable timber rotation 
that sustains hundreds of jobs in our region, in perpetuity, while 
protecting important forest resources.
            Seeking Sustainable Solutions by Selecting Outside the 
                    ``Boxes''
    Unlike the other eleven Regional Native Corporations, Sealaska was 
directed to select the entirety of its entitlement lands only from 
within boxes drawn around a restricted number of Native villages in 
Southeast Alaska. Forty-four percent of the ten withdrawal areas is 
comprised of salt water, and multiple other factors limit the ability 
of Sealaska to select land within the boxes. This has made it difficult 
to make equitable selections. No other Regional Corporation was treated 
in this manner under ANCSA.
    To date, Sealaska has selected 290,000 acres of land under ANCSA 
from within the withdrawal boxes. Based on BLM projections for 
completion of Sealaska's selections, and our own estimates, the 
remaining entitlement to be conveyed to Sealaska is approximately 
70,000 acres. The only remaining issue is where this land will come 
from. Of the lands available to Sealaska today within the ANCSA 
withdrawal boxes:

  <bullet> 270,000 are included in the current U.S. Forest Service 
        inventory of roadless forestland;
  <bullet> 112,000 acres are comprised of productive old growth;
  <bullet> 60,000 acres are included in the Forest Service's inventory 
        of old growth reserves; and
  <bullet> much of the land is comprised of important community 
        watersheds, high conservation value areas important for sport 
        and commercial fisheries and/or areas important for subsistence 
        uses.

    The Sealaska legislation allows Sealaska to move away from 
sensitive watersheds and roadless areas, to select a balanced inventory 
of second growth and old growth, and to select most of its remaining 
ANCSA lands on the existing road system, preserving on balance tens of 
thousands of acres of old growth, much of which is inventoried 
``roadless old growth''.

Local Impact of S. 340: Saving Jobs in Rural Southeast Alaska
    While jobs in Southeast Alaska are up over the last 30 years, many 
of those jobs can be attributed to industrial tourism, which creates 
seasonal jobs in urban centers and does not translate to population 
growth. In fact, the post-timber economy has not supported populations 
in traditional Native villages, where unemployment among Alaska Natives 
ranges above Great Depression levels and populations are shrinking 
rapidly.
    We consider this legislation to be the most important and immediate 
``economic stimulus package'' that Congress can implement for Southeast 
Alaska. Sealaska provides significant economic opportunities for our 
tribal member shareholders and for residents of all of Southeast Alaska 
through the development of an abundant natural resource--timber.
    Our shareholders are Alaska Natives. The profits we make from 
timber support causes that strengthen Native pride and awareness of who 
we are as Native people and where we came from, and further our 
contribution in a positive way to the cultural richness of American 
society. The proceeds from timber operations allow us to make 
substantial investments in cultural preservation, educational 
scholarships, and internships for our shareholders and shareholder 
descendants. Through these efforts we have seen a resurgence of Native 
pride in our culture and language, most noticeably in our youth. Our 
scholarships, internships and mentoring efforts have resulted in Native 
shareholder employment above 80 percent in our corporate headquarters, 
and significant Native employment in our logging operations. To create 
new jobs and new economic models, Sealaska is sponsoring initiatives in 
Southeast Alaska like mariculture farming.
    We are also proud of our collaborative efforts to build and support 
sustainable and viable communities and cultures in our region. We face 
continuing economic challenges with commercial electricity rates 
reaching $0.61/kwh and heating fuel costs sometimes ranging above $6.00 
per gallon. To help offset these extraordinary costs, we work with our 
logging contractors and seven of our local communities to run a 
community firewood program. We contribute cedar logs for the carving of 
totems and cedar carving planks to schools and tribal organizations. We 
are collaborating with our village corporations and villages to develop 
hydroelectric projects. We do all of these collaborative activities 
because we are not a typical American corporation. We are a Native 
institution with a vested interest in the well-being of our 
communities.
    ANCSA authorized the return of land to Alaska Natives and 
established Native Corporations to receive and manage that land so that 
Native people would be empowered to meet their own cultural, social, 
and economic needs. S. 340 is critically important to Sealaska, which 
is charged with meeting these goals in Southeast Alaska.

Economic Development on Native Lands and Sealaska's Sustainable Forest 
        Management Program
    Sealaska has a responsibility to ensure the cultural and economic 
survival of our communities, shareholders and future generations of 
shareholders. Sealaska also remains fully committed to responsible 
management of the forestlands for their value as part of the larger 
forest ecosystem. At the core of Sealaska's land management ethic is 
the perpetuation of a sustainable, well-managed forest, which supports 
timber production while preserving forest ecological functions. 
Significant portions of Sealaska's classified forest lands are set 
aside for the protection of fish habitat and water quality; entire 
watersheds are designated for protection to provide municipal drinking 
water; and there are zones for the protection of bald eagle nesting 
habitat. The decision to cut trees is not taken lightly, and is always 
based on the best science and best forest practices.
    Sealaska re-plants, thins and prunes native spruce and hemlock 
trees on its lands, thereby maintaining a new-growth environment that 
better sustains plant and wildlife populations, and better serves the 
subsistence needs of our communities. In fact, Sealaska has invested a 
great deal of resources in improving its forest sustainability program, 
including investing in ongoing silviculture research that is led by 
professors at Oregon State University and reaching out to organizations 
like the Forest Stewardship Council to ensure best possible management 
practices. All of Sealaska's even aged second-growth forest that is 
ripe for precommercial thinning is managed accordingly, creating 
healthy young forests that provide wildlife habitat. Sealaska maintains 
a silviculture program that rivals the best of programs implemented by 
the Forest Service or private landowners. Our harvesting program as 
well as thinning and planting investments provide jobs for our 
shareholders and others in the region, and help maintain the ecological 
value of our forests.
    We are committed to investing the time, money and hard work in 
progressive management of second growth stands, to capture alternative 
economies from forest management and to ensure that our place in the 
timber industry remains a sustainable, although realigned, component of 
the region's economy. Sealaska is also committed to using its land base 
to create alternative economies, revenues, and jobs-by developing an 
aquaculture industry, fostering cultural tourism, and investing in 
renewable energy development.

Time is of the Essence
    Timing is critical to the success of the legislative proposal 
before you today. Without a legislative solution, we are faced with 
choosing between two scenarios that ultimately will result in dire 
public policy consequences for our region. If S. 340 is stalled during 
the 113th Congress, either Sealaska will be forced to terminate all of 
its timber operations within approximately one year for lack of timber 
availability on existing land holdings, resulting in job losses in a 
region experiencing severe economic depression, or Sealaska must select 
lands that are currently available to it in existing withdrawal areas.

The Forest Service's Plans for the Tongass: Impact of S. 340 on Tongass 
        Management
    The U.S. Forest Service has, in the past, expressed concern that S. 
340 could impact its ability to harvest second growth to support 
Southeast Alaska mills, and could impact other goals laid out in the 
2008 Amendment to the Tongass Land Use Management Plan.
    We believe Sealaska's offer to leave behind roadless old growth 
timber in the Tongass is significant; it is a proposal we believe this 
Administration should support based on its goals to protect these types 
of forest lands. We also believe that the lands proposed for conveyance 
under S. 340 conflict minimally with and may ultimately benefit the 
Forest Service's Transition Framework for the Tongass.
    For the Forest Service, the most significant limitation to an 
accelerated transition to second growth is the large number of acres of 
older second growth that is in restricted timber use status. If S. 340 
were to pass today, under current standards and guidelines, the Forest 
Service would retain at least 223,000 acres of suitable second growth. 
In addition, it retains 177,000 acres of unsuitable second growth that 
is available for stewardship and restoration. We believe the total pool 
of lands available to the Forest Service is more than sufficient to 
support log demand for the Forest Service's Transition Framework.
    We also believe that Sealaska and the Forest Service agree that, to 
achieve a successful transition to second growth, the Forest Service 
needs Sealaska to remain active in the timber industry in the Tongass, 
because Sealaska's operations support regional infrastructure 
(including roads and key contractors), development of markets 
(including second growth markets), and development of efficient and 
sustainable second growth harvesting techniques.
    In short, the likely success of the Forest Service's transition to 
second growth is significantly improved if Sealaska second growth 
operations are in close physical proximity to Forest Service second 
growth operations.
    Sealaska has 30 years of experience developing and distributing 
Southeast Alaska wood to new and existing markets around the world. 
Sealaska recently has pioneered second growth harvesting techniques in 
Southeast Alaska and is active in this market. Partnership between 
Sealaska and the Forest Service, collaborating to build new markets 
based on second growth, will have a better chance of success.
    This legislation, which moves Sealaska into some older second 
growth, ensures that Sealaska will engage as an early partner with the 
Forest Service in second growth market development, while continuing to 
provide local jobs and supporting the local economy.
    It is also important to note that regardless of whether Sealaska 
selects within the existing ANCSA withdrawal boxes or outside of those 
boxes, Sealaska must select its remaining entitlement lands from within 
the Tongass National Forest. In other words, by selecting Native 
entitlement lands, whether under existing law or the proposed 
legislation (S. 340), Sealaska's land selections will incorporate lands 
suitable for timber development and may require the Forest Service to 
adjust land management plans to account for such selections. However, 
the ability to make minor management adjustments is built into the 
revised Tongass Land Management Plan.

Conservation Considerations and S. 340
    This legislation is fundamentally about the ancestral and 
traditional homeland of a people who have lived for 10,000 years in 
Southeast Alaska. For more than 200 years, people from across the 
western world have traveled to Southeast Alaska with an interest in the 
rich natural resources of the region--an area the size of Indiana. The 
Russians arrived in the late 18th Century to harvest sea otters and 
other fur-bearing animals. In the mid-1800s, Americans came to 
Southeast Alaska to hunt for whales, and in the late-1800s, gold miners 
and fishing interests arrived. In the first half of the Twentieth 
century, the fishing industry built traps at the river entrances, 
depleting salmon populations. In the 1950s and 1960s, two pulp mills 
signed contracts with the United States that gave the mills virtually 
unlimited access to Tongass timber. In the meantime, Natives from the 
late-1800's through the 1930s were moved from their traditional 
villages to central locations, in part for federally-mandated 
schooling.
    In the late Twentieth Century conservation-minded groups, like 
industrialists before them, introduced new ideas about how best to 
serve the public interest in the Tongass. The conservation community 
writ-large has long fought to preserve the Tongass for its wilderness 
and ecological values, and we have often worked with them to seek 
appropriate conservation solutions for the forest. Our resource 
development practices have evolved over thirty or more years to better 
ensure to preservation of the Tongass' ecological values.
    We do not, however, appreciate environmentalism that does not 
recognize the human element-that people have to live in this forest, 
and that people rely on a cash economy to survive. Industrial tourism, 
ecotourism, and fishing provide limited employment to the residents of 
our Native villages. But these jobs are limited, and have not prevented 
widespread outmigration from our communities.
    We also do not accept environmentalism that does not recognize that 
the Tongass is a Native place, and that Native people have a right to 
develop natural resources on Native lands while seeking to balance the 
needs of our tribal member shareholders, our neighbors, and the forest 
itself. We welcome people to our homeland--but we do not appreciate the 
assault, by some, on our right to exist and subsist in the Tongass.
    There are groups that consistently agree with us that we should 
have our land, but wish to decide-to the smallest detail-where that 
land should be. Native people have always been asked to go second. 
Let's not forget that S. 340 addresses the existing land entitlement of 
the Native people of Southeast Alaska.
    In attempting to resolve Sealaska's dilemma in an equitable manner, 
Alaska's congressional delegation has been careful to draft legislation 
to be in alignment with the current Administration's stated objectives 
for the Tongass; specifically, to protect roadless areas, reduce 
harvesting of old growth, and accelerate transition to second growth 
management.
    Moreover, lands within the original withdrawal boxes are not 
without significant and important public interest value. For example, 
approximately 85 percent of those lands now designated available to 
Sealaska are classified by the Forest Service as designated roadless 
areas. A significant portion is Productive Old-Growth forest (some 
112,000 acres), with over half of that being Old Growth Reserves as 
classified under the 2008 Amendment to the Tongass Land Use Management 
Plan. S. 340 allows these roadless old growth lands to return to public 
ownership, to be managed as the federal government and general public 
sees fit.
    Some groups have claimed that ``the lands that Sealaska proposes to 
select . . .  are located within watersheds that have extremely 
important public interest fishery and wildlife habitat values.'' They 
suggest that the lands Sealaska would forego selecting-within the 
withdrawal boxes-do not have the same ecological value. We think these 
claims are, frankly, baseless, and we challenge those concerned for the 
ecology of Tongass forestlands to acknowledge that allowing land 
selections to proceed under S. 340 will result in net benefits for 
watersheds, anadromous streams, public hunting and fishing and 
recreation, the preservation of roadless old growth forests, sensitive 
species, and the Forest Service's conservation strategy for the 
Tongass. We agree that all lands in our region are valuable, and we 
believe our federal lands and our Native lands should be managed 
responsibly. We acknowledge the need for conservation areas and 
conservation practices in the Tongass. This bill meets those goals.

Legislation Forged through Public Process
    The alternative selection pool identified in the Sealaska bill is a 
product of an exceptional public process, including five previous 
Congressional hearings, one markup, more than a dozen meetings held by 
Senator Murkowski's staff in Southeast communities, and hundreds of 
community meetings held by Sealaska with the State of Alaska, 
communities, mill owners and industry representatives, conservation 
groups, the Forest Service, the BLM, and Members of Congress.
    The Sealaska bill has the support of the full Alaska delegation and 
many residents, communities and tribes throughout Southeast Alaska and 
statewide:

  <bullet> The legislation is supported by the National Congress of 
        American Indians, the Intertribal Timber Council, the Alaska 
        Federation of Natives, the ANCSA Regional Presidents & CEOs, 
        the Central Council of Tlingit and Haida Indian Tribes of 
        Alaska, and numerous tribes throughout Alaska and the western 
        United States.
  <bullet> The Alaska Forest Association--which works with and 
        represents Southeast Alaska's remaining timber mills--fully 
        supports the Sealaska legislation.
  <bullet> The Sealaska bill represents a net gain to the U.S. Forest 
        Service of roadless and old growth timber in the Tongass 
        National Forest. The legislation is fundamentally aligned with 
        the goals of the Obama Administration.

    Some critics of this bill want to shut down this legislation 
because it might mean that Sealaska selects lands on ``their'' islands, 
in ``their'' backyard, near ``their'' favorite spots. At some level, 
this is understandable. But every acre of the Tongass is precious to 
someone and we need somewhere to go to fulfill our entitlement. 
Alaska's congressional delegation has been careful to select lands that 
do not fall within conservation areas and are appropriate for timber 
development, and has compromised and adjusted the legislation several 
times on the basis of concerns expressed by non-governmental 
organizations, communities, and individuals.

A New Bill for the 113th Congress
    In the 113th Congress, Senators Lisa Murkowski and Mark Begich 
introduced new legislation that incorporates a number of changes, all 
intended to resolve the outstanding concerns of the Obama 
Administration. S. 340 incorporates the following changes:

  <bullet> Final entitlement acreage identified--In the 112th Congress, 
        the Sealaska bill did not finalize Sealaska's entitlement upon 
        enactment. Instead, the bill provided for finalization of 
        entitlement by allowing Sealaska to identify its remaining 
        entitlement lands from within a pool of lands. S. 340 
        identifies with finality the land Sealaska will receive.

    --BLM has estimated Sealaska's final entitlement as approximately 
            70,075 acres.
    --S. 340 establishes Sealaska's final entitlement at 70,075 acres. 
            The bill will convey the land to Sealaska.

  <bullet> Forest Service concerns addressed--S. 340 ``squares up'' the 
        boundaries of Sealaska's economic parcels so the boundaries can 
        more easily be managed by the Forest Service, removes some 
        lands that conflicted with the Forest Service's Tongass 
        National Forest conservation plan and/or timber harvesting 
        plan, and remove parcels of land on Prince of Wales Island, 
        Tuxekan Island, and Kosciusko Island that raised local 
        concerns.
    --S. 340 conveys a significant amount of non-economic land to 
            Sealaska as part of the compromise with the Administration.

  <bullet> Trade and Migration Routes removed--In the 112th Congress, 
        the Sealaska bill would have conveyed three Traditional and 
        Customary Trade and Migration Routes to Sealaska. S. 340 simply 
        recognizes the Trade and Migration Routes as Native places and 
        directs the Forest Service to ensure that public access to the 
        Routes is assured. The new bills would not place these lands in 
        Native ownership.
  <bullet> Cemetery sites and historical places removed--In the 112th 
        Congress, the Sealaska bill would have allowed Sealaska to use 
        3600 acres of its existing entitlement to select cemetery sites 
        and historical places, consistent with Section 14(h)(1) of 
        ANCSA.

    --S. 340 would allow Sealaska to select up to 76 cemetery and 
            historical sites, and will limit the acreage available for 
            those sites to just 490 acres.
    --S. 340 would also place 25 foot public easements along streams 
            that run through cemetery sites and historical places 
            conveyed to Sealaska, to permit continued public access to 
            the streams for fishing, subject to the right of Sealaska 
            to regulate such access to protect cultural resources.

  <bullet> Small parcel sites removed: In the 112th Congress, the 
        Sealaska bill would have conveyed 30 small parcels to Sealaska 
        to be used for cultural or economic activities.

    --S. 340 will reduce the number of small parcel sites to 9-mostly 
            located within the original withdrawal boxes-as a result of 
            opposition by some groups to the conveyance of such sites 
            into Native ownership as ``precedent-setting''.

  <bullet> Agreement with Forest Service required for forest 
        development roads--S. 340 allows Sealaska to utilize certain 
        forest roads, build a road, and upgrade an existing log 
        transfer facility, so that Sealaska will be able to access a 
        land-locked parcel conveyed to it.
  <bullet> New restrictive covenant language removed--In the 112th 
        Congress, the Sealaska bill would have modified\1\ restrictive 
        covenants in place on cemetery site and historical places to 
        ensure certain activities, like running culture camps, could 
        take place at the sites. As a result of local opposition to 
        this language, the language was removed from the bill when 
        introduced in the 113th Congress.
---------------------------------------------------------------------------
    \1\  Under existing restrictive covenants, the standards for 
determining whether the use of an Alaska Native cemetery site or 
historical place is incompatible with or in derogation of the values of 
the site ``are found in relevant portions of 36 C.F.R. 800.9.'' 36 
C.F.R. 800.9, in turn, provides for review by the Advisory Council on 
Historic Preservation of federal agency compliance with federal 
requirements for the protection of historic properties established 
under section 106 of the National Historic Preservation Act (NHPA). In 
the 112th Congress, the Sealaska bill essentially retained the 
restrictions on the use of cemetery sites and historical places, but 
eliminated the paternalistic review process that was established for 
federal agencies.

    --S. 340 also includes the following conservation-oriented 
---------------------------------------------------------------------------
            amendments:

  <bullet> Buffers on anadromous streams--The Obama Administration 
        requested that Sealaska accept 100 foot buffers on three 
        anadromous streams across economic lands conveyed to Sealaska. 
        State law already provides sufficient, 67 foot buffers (or 
        larger, depending on terrain) for these streams. Nevertheless, 
        S. 340 was modified to include three conservation easements 
        along anadromous streams.
  <bullet> New conservation areas established in the Tongass--As in the 
        112th Congress, S. 340 would designate approximately 150,000 
        acres of forestland, much of which is roadless old growth, for 
        new conservation in the Tongass National Forest.
  <bullet> CMAI waiver--S. 340 does not include language requested by 
        the Forest Service that would allow the harvest of trees prior 
        to the ``culmination of mean annual increment'' (CMAI) of 
        growth in areas that are available for commercial timber 
        harvest under the Tongass Land Management Plan to facilitate 
        the transition away from the commercial timber harvest of old 
        growth timber in the region. The Administration has proposed to 
        offer an amendment, during a markup of S. 340, that would 
        require such language. Sealaska does not oppose reasonable 
        language to that effect.

Our Future in Southeast Alaska
    Our people have lived in the area that is now the Tongass National 
Forest since time immemorial. The Tongass is the heart and soul of our 
history and culture. We agree that areas of the region should be 
preserved in perpetuity, but we also believe that our people have a 
right to reasonably pursue economic opportunity so that we can continue 
to live here. S. 340 represents a sincere and open effort to meet the 
interests of the Alaska Native community, regional communities, and the 
public at large.
    It is important for all of us who live in the Tongass, as well as 
those who value the Tongass from afar, to recognize that the Tlingit, 
Haida and Tsimshian are committed to maintaining both the natural 
ecology of the Tongass and the Tongass as our home. We therefore ask 
for a reasoned, open, and respectful process as we attempt to finalize 
the land entitlement promised to our community more than 40 years ago. 
We ask for your support for S. 340.
    Gunalcheesh. Thank you
                                 ______
                                 
                                   Field Institute of Taos,
                                                   Arroyo Seco, NM.
Hon. Joe Manchin,
Chairman, Senate Subcommittee on Public Lands, Forests and Mining, U.S. 
        Senate, Washington, DC.
Hon. John Barrasso,
Ranking Member, Senate Subcommittee on Public Lands, Forests and 
        Mining, U.S. Senate, Washington, DC.
    Dear Senators Manchin and Barrasso:
    I am writing in support of S. 312, the Carson National Forest 
Boundary Adjustment Act, introduced by New Mexico Senators Tom Udall 
and Martin Heinrich. I am very grateful that your Senate Energy and 
Natural Resources subcommittee is holding a hearing on this important 
piece of legislation for New Mexico on April 25, 2013. I am very 
hopeful that this bill will move forward through the committee and 
Senate as quickly as possible.
    S. 312 is an important bill for my community. It will adjust the 
boundaries of the Carson National Forest to include the 5,000 acre 
Miranda Canyon tract, protecting our local drinking water supplies and 
ensuring that this high-value resource land is open to the public 
forever. Adding Miranda Canyon to the forest will provide residents and 
visitors with enhanced opportunities to hike, hunt, mountain bike and 
generally enjoy the outdoors.
    The Miranda Canyon acquisition is strongly supported by the local 
community in Taos, including our county commission. In addition to 
expanding recreational access, the project will protect water resources 
within the Rio Grande watershed, a segment of the Old Spanish National 
Historic Trail, wildlife habitat, and the scenic viewshed from the 
valley towards Picuris Peak. All of these attributes contribute to the 
economy and quality of life in Taos County.
    Thank you for your consideration of this important piece of 
legislation before your committee. Sincerely, Susan Fiore Executive 
Director
            Sincerely,
                                               Susan Fiore,
                                                Executive Director.
                                 ______
                                 
 Statement of Joseph Gersen, Director of Government Relations, Public 
                        Lands Service Coalition

    On behalf of the Public Lands Service Coalition, I would like to 
express our appreciation and support for S.360 and encourage the 
committee to pass the Public Lands Service Corps Act of 2013. An 
expanded Public Lands Service Corps will provide more opportunities for 
thousands of young Americans to gain valuable workforce training and 
career development while assisting our nation's land and water 
management agencies to address critical restoration, maintenance, and 
rehabilitation needs. Engaging young adults through the Public Lands 
Service Corps will also help address billions of dollars in backlogged 
maintenance needs on our nation's public lands and waters, address 
youth unemployment, and prepare a diverse group of youth to be the next 
generation of natural resource employees.
    The Public Lands Service Coalition promotes youth service jobs and 
career development on public/tribal lands and waters. Each year, 
Coalition members engage more than 20,000 young people in jobs and 
service opportunities, and they are poised to expand greatly to address 
the record-high youth unemployment, the billions of dollars of 
backlogged maintenance needs on public lands, the need for future 
federal public lands employees, the national youth obesity epidemic, 
and the disengagement of youth from the great American outdoors.
    The Public Lands Service Coalition supports this legislation 
because it will:

  <bullet> Increase the utilization of service and service learning as 
        a strategies for accomplishing work on our nation's public 
        lands and waters;
  <bullet> Introduce more young Americans to our nation's public lands 
        and waters--instilling in them an appreciation for nature, an 
        enjoyment of healthy recreation, and a sense of stewardship for 
        our natural resources and the environment;
  <bullet> Expand career development and workforce training 
        opportunities for Public Lands Service Corps members by 
        increasing non-competitive hiring status allowing more young 
        people, particularly those from disadvantaged backgrounds, the 
        ability to pursue careers in land and natural resource 
        management.
  <bullet> Raise the profile of the Public Lands Service Corps within 
        the relevant land and water management agencies making it 
        easier for conservation corps to participate and partner with 
        the federal government.

The History of the Corps Movement
    The Civilian Conservation Corps employed six million young men 
between 1933 and 1942 who planted nearly three billion trees and 
constructed more than 800 parks. Subsequent federal efforts built on 
the CCC model include Peace Corps (1961), Job Corps (1964), Youth 
Conservation Corps (1971), Young Adult Conservation Corps (1977), and 
AmeriCorps (1994). In addition, numerous state and non-profit groups 
launched similar efforts beginning with Student Conservation 
Association in 1957 and followed by the California Conservation Corps 
in 1976. The Public Lands Service Corps Act builds on these recent 
efforts by strengthening the ability of the federal government to 
partner with these non-federal entities to meet national priorities.

The Corps Model
    Experienced conservation corps programs engage thousands of young 
people on public and tribal lands and waters each year. Operating in 
all 50 states, these programs provide public and tribal land and water 
managers with an effective and efficient way to complete necessary and 
important projects and give young people opportunities to further their 
education and improve their career prospects, while building the next 
generation of land and water managers and resource stewards.
    Each year, Corps complete hundreds of high-quality and often 
technical projects on public lands and waters. Project sponsors 
consistently express a high degree of satisfaction with the quality of 
work and productivity of the Corps. Virtually all federal project 
partners (99.6 percent) say they would work with Corps again. Types of 
work include, but are not limited to:

  <bullet> Protecting wildlife and preserving public lands and waters 
        (ecological restoration);
  <bullet> Preparing communities for disasters and responding when 
        needed;
  <bullet> Enhancing recreation on public lands;
  <bullet> Protecting communities and public lands from the devastating 
        effects of wildfires;
  <bullet> Preserving historic structures;
  <bullet> Supporting individual placements and internships at the land 
        and water management agencies.

Cost Savings through Expanding Public Private Partnerships
    Corps work with federal and land and water management partners on a 
project based approach (conservation, restoration, and historic 
preservation) with cooperative agreements. Implementing this 
legislation will help stretch the budgets of land and water management 
agencies, and will not require additional appropriations.
    The Public Lands Service Corps Act of 2013 will help the land and 
water management agencies achieve more with their current operating 
budgets though partnerships with conservation corps. Research conducted 
by the National Park Service's Park Facility Management Division in 
2012 found that using Conservation Corps to complete maintenance and 
trail projects provided a cost savings of over 50 percent. Further, it 
is estimated that the cost of two professional level SCA interns, is 
the same as one seasonal employee doing similar work. These public 
private partnerships leverage federal investment by bringing at least a 
25 percent match.
    The Public Lands Service Corps Act of 2013 will be implemented, and 
its goals achieved, without additional appropriations to the affected 
land and water management agencies. PLC programs engaging conservation 
corps in service on public lands are being paid for from within 
existing agency appropriations, from recreation fees retained by the 
agencies, and from charitable contributions. Utilizing existing 
appropriations is possible because conservation corps complete work 
that the agencies would be doing anyway with the appropriated funds, 
primarily derived from maintenance and operating funds. Work projects 
completed by conservation corps has the added advantage of requiring 
fewer federal resources than if carried out by agency employees or 
private contractors.

Conclusion
    The Public Lands Service Corps Act would simultaneously address 
youth unemployment, billions of dollars of backlogged maintenance needs 
on our nation's public lands and waters while preparing a diverse group 
of youth to be the next generation of natural resource employees. 
Meanwhile, the Corpsmembers could, in turn, utilize their AmeriCorps 
Education awards and the expanded non-competitive hiring authority 
contained in this bill to pursue careers in land management-thus 
building and diversifying the next generation of the resource 
management workforce.
    Mr. Chairman, thank you for the opportunity to testify. On behalf 
of the entire Public Lands Service Coalition, I again want to express 
our appreciation and support for S.360. We look forward to working with 
you to see it enacted into law.
Coalition Members
  <bullet> Backcountry Horsemen of America
  <bullet> Calif. Assn of Local Conservation Corps
  <bullet> California Conservation Corps
  <bullet> Campfire USA
  <bullet> Canyon Country Youth Corps
  <bullet> Citizens Conservation Corps of West Virginia
  <bullet> Civilian Conservation Corps Legacy, Inc
  <bullet> Coconino Rural Environment Corps
  <bullet> Colorado Youth Corps Association
  <bullet> Conservation Corps Minnesota and Iowa
  <bullet> EarthCorps
  <bullet> Greater Miami Service Corps
  <bullet> Groundwork USA
  <bullet> Los Angeles Conservation Corps
  <bullet> Montana Conservation Corps
  <bullet> National Congress of American Indians
  <bullet> National Parks Conservation Association
  <bullet> National Wildlife Federation
  <bullet> Nevada Conservation Corps
  <bullet> Northwest Youth Corps
  <bullet> Operation Fresh Start
  <bullet> Rocky Mountain Youth Corps (CO)
  <bullet> Rocky Mountain Youth Corps (NM)
  <bullet> Sequoia Community Corps
  <bullet> Sierra Club
  <bullet> Southeast Alaska Guidance Association
  <bullet> Southwest Conservation Corps
  <bullet> Student Conservation Association
  <bullet> Texas Conservation Corps
  <bullet> The Corps Network
  <bullet> The Wellness Coalition
  <bullet> The Wilderness Society
  <bullet> The Y
  <bullet> Utah Conservation Corps
  <bullet> Vermont Youth Conservation Corps
  <bullet> Veterans Green Jobs
  <bullet> Washington Conservation Corps
                                 ______
                                 
                           Livestock Industry Organization,
                                                    April 24, 2013.
Hon. Joe Manchin,
Chairman, Subcommittee on Public Lands, Forests, and Mining, U.S. 
        Senate, Natural Resources Committee, 306 Hart Senate Office 
        Building, Washington, DC.
Hon. John Barrasso,
Ranking Minority Member, Subcommittee on Public Lands, Forests, and 
        Mining, U.S. Senate, Natural Resources Committee, 307 Dirksen 
        Senate Office Building, Washington, DC. 20510
    Dear Chairman Manchin and Ranking Member Barrasso:
    The Public Lands Council (PLC), American Sheep Industry Association 
(ASI), National Cattlemen's Beef Association (NCBA), Association of 
National Grasslands (ANG) and undersigned livestock groups strongly 
support the Grazing Improvement Act (S. 258) and thank you for 
providing a hearing for this important legislation. Passage of S. 258 
would be a great contribution toward our goal of providing a stable 
business environment to our members, ranchers who hold grazing permits 
on public lands. These ranchers face ever- increasing uncertainty as to 
the future of their permits on lands managed by the Bureau of Land 
Management (BLM) and U.S. Forest Service. Through no fault of their 
own, our members risk the loss of their grazing permits due to the 
abiding and substantial backlog of required environmental analysis by 
the agencies. S. 258 would alleviate this problem.
    Each year, our members rely on appropriation rider language to 
ensure their permits will be reissued when the agencies are unable to 
complete the required environmental analysis. The agency backlog of 
National Environmental Policy Act (NEPA) analysis is only worsened by 
the constant stream of process-based lawsuits by anti-grazing special 
interest groups. Many of these groups' sole purpose is to eliminate 
livestock grazing from public lands, and they use taxpayer dollars to 
fund their agenda. Their lawsuits consume considerable agency 
resources, further delaying the required NEPA analyses and perpetuating 
the cycle of litigation. The Grazing Improvement Act would help 
alleviate that cycle.
    S. 258 would allow permits to be renewed under existing terms and 
conditions until the renewal process is complete, and allow for 
categorical exclusion of grazing permits from NEPA if those permits are 
to continue under current management. By extending the life of a 
grazing permit from 10 years to 20 years, your legislation would reduce 
the number of allotments due for environmental analysis each year. 
These provisions will contribute to the stability and assurances our 
members need in order to continue successful operations.
    The continued success of our members' ranching operations holds 
great implications for the landscapes and rural economies of the West. 
Failed operations lead to the fragmentation of private and public lands 
and the loss of wildlife habitat. Innumerable rural communities count 
grazing on public lands as their lifeblood, and many of them are 
already experiencing the hardships that accompany the loss of grazing 
permits. This legislation is of great importance to our members, and we 
look forward to working with your subcommittee to ensure its success.
    Sincerely,

Public Lands Council
American Sheep Industry Association
Association of National Grasslands
National Cattlemen's Beef Association
Arizona Cattle Growers' Association
Arizona Wool Producers Association
California Cattlemen's Association
California Wool Growers Association
Colorado Cattlemen's Association
Colorado Wool Growers Association
Idaho Cattle Association
Idaho Wool Growers Association
Montana Stockgrowers Association
Montana Public Lands Council
Montana Association of State Grazing Districts
Montana Wool Growers Association
New Mexico Stock Growers' Association
New Mexico Wool Growers, Inc.
Nevada Cattlemen's Association
Nevada Wool Growers Association
North Dakota Stockmen's Association
Oregon Cattlemen's Association
Oregon Sheep Growers Association
South Dakota Cattlemen's Association
South Dakota Public Lands Council
Utah Cattlemen's Association
Utah Wool Growers Association
Washington Cattlemen's Association
Washington State Sheep Producers
Wyoming Stock Growers Association
Wyoming Wool Growers Association
                                 ______
                                 
    Statement of Thomas J. Cassidy, Jr., Vice President, Government 
                    Relations and Policy, on S. 507

    The National Trust for Historic Preservation (National Trust) 
appreciates the Committee on Energy and Natural Resources Member 
Senator Maria Cantwell for her leadership sponsoring S. 507, the 
Manhattan Project National Historical Park and the co-sponsorship of 
fellow Committee Members Senators Lamar Alexander and Martin Heinrich. 
We are also grateful for the co-sponsorship of Senators Patty Murray 
and Tom Udall.
    My name is Thomas J. Cassidy, Jr. and I am the Vice President for 
Government Relations and Policy. The National Trust is a privately-
funded nonprofit organization chartered by Congress in 1949. We work to 
save America's historic places to enrich our future. With headquarters 
in Washington, D.C., 13 field offices, 27 historic sites, 746,000 
members and supporters and partner organizations in 50 states, 
territories, and the District of Columbia, the National Trust works to 
save America's historic places and advocates for historic preservation 
as a fundamental value in programs and policies at all levels of 
government. For more than 20 years, the National Trust has advocated 
for the preservation and enhancement of historic and cultural resources 
on federal public lands.

Manhattan Project Background
    The Manhattan Project is the unparalleled story of a nation coming 
together for the common cause of creating the atomic bomb. It has been 
has been called ``the single most significant event of the 20th 
century.'' The top-secret Manhattan Project brought an end to World War 
II, altering the role of the United States in the world community and 
effectively setting the stage for the Cold War. The newly created 
technology fostered advances in the newly emergent fields of 
chemotherapy, high-speed computer technology, genomics, and 
bioengineering.
    The facilities associated with the Manhattan Project were top-
secret, hidden in rural locations, their perimeters bound with security 
fencing. The project's classified status demanded sites be situated 
beyond the range of enemy aircraft, isolated from population centers 
yet accessible to a ready labor supply as well as rail and motor 
transportation. At its peak, the Manhattan Project employed over 
130,000 people, many of whom knew only enough to do their job and 
nothing more.
    The laboratory sites possessed enough land to erect laboratories 
and secret towns which would house scientists, construction workers, 
and their families. Specific laboratories--the Los Alamos Laboratory, 
New Mexico, the Oak Ridge Reservation, Tennessee, and the Hanford Site, 
Washington--were central to the mission and were established to support 
research. Seventy years later these laboratories retain architectural 
integrity and are considered eligible for National Register of Historic 
Places and National Historic Landmark (NHL) designation. These sites, 
owned and managed by the U.S. Department of Energy (DOE), were listed 
on the National Trust for Historic Preservation's 11 Most Endangered 
Historic Places in 2009, with the Enola Gay Hanger at Utah's Wendover 
Airfield representing threatened Manhattan-era properties. In 2011, the 
National Trust named Manhattan Project resources to its National 
Treasures program, an initiative dedicated to saving the places that 
tell America's stories through the engagement of a wide range of 
partners and the development of strategic campaigns to protect these 
irreplaceable places.
            Oak Ridge
    The Manhattan Project's enormous scale and ambition is illustrated 
at the laboratories located in Oak Ridge, TN--facilities exclusively 
focused on three distinct methods of uranium enrichment--
electromagnetic separation (Y-12 Plant), gaseous diffusion (K-25 Site), 
and liquid thermal diffusion (X-10). Sixty percent of all expenditures 
for the Manhattan Project supported research occurring at Oak Ridge, 
which also functioned as the project's administrative headquarters. 
Construction advanced at such a rapid pace that in December 1945, the 
Engineering News Record described the achievement as the equivalent of 
having constructed the Panama Canal within a period of 12 months.
    Among the facilities to remain at Oak Ridge are Y-12's Beta-3 
Electromagnetic Separation Racetracks, one of only two plants in the 
world capable of producing over 200 stable isotopes. The enriched 
uranium produced by Y-12's calutrons ultimately created the weapon 
detonated over Hiroshima. Y-12's Building 9204-3 houses working 
calutrons, the only surviving production-level electromagnetic isotope 
separation facility to exist in the United States.
    The X-10 Graphite Reactor produced the world's first significant 
amounts of plutonium, proving that plutonium production could be 
achieved. The reactor was designed as the pilot plant for reactors 
later constructed in Hanford, Washington. The Graphite Reactor remains 
in its original condition and currently serves as a museum where 
visitors can examine the reactor face and control panels.
            Hanford
    The B Reactor was completed in 1944, becoming the world's first 
reactor to produce plutonium on a large-scale, including manufacturing 
plutonium for the Trinity device, the Nagasaki weapon and subsequent 
Cold War weapons. At 250 megawatts, the B Reactor was built on a 
significantly larger scale than its prototype, the X-10 Graphite 
Reactor, which produced only 4,000 kilowatts of power. Placement of the 
B Reactor along the banks of the Columbia River permitted cooling of 
the reactor's network of aluminum tubes and uranium slugs with river 
water which was pumped at a rate of 75,000 gallons per minute. 
Hanford's B Reactor is currently accessible via limited, ticketed 
public tours.
            Los Alamos
    The laboratories erected at Los Alamos, New Mexico, were 
constructed on the grounds of the former Los Alamos Ranch School, a 
boy's boarding school which was situated approximately 40 miles from 
Santa Fe. Established in 1928, the school's 800-acre campus contained 
Fuller Lodge, a rustic log-constructed building which met the school's 
administrative needs and a scattering of rustic outbuildings. Acquired 
by the Army in 1942 for inclusion in the Manhattan Project, the 
school's rural campus was soon overrun by barracks and chemistry and 
physics laboratories.
    By 1944, Los Alamos was home to the ``V-Site,'' the lab in which 
the world's first plutonium bombs were assembled. ``The Gadget,'' code 
name of the prototype ``Fat Man'' bomb detonated over Nagasaki, was 
assembled here. Today, the community retains historic residential 
buildings and public spaces dating from the World War II period. Los 
Alamos' visitors will have unique opportunity to walk the same paths as 
the giants of 20th century physics.

Permanent Preservation and Interpretation
    In 2000, the DOE named eight ``Signature Facilities'' historic 
properties whose original function is directly associated with the 
Manhattan Project. In awarding this designation, DOE's intention was to 
advance the preservation and interpretation of properties associated 
with the Manhattan Project. The agency proposed to integrate 
departmental headquarters and field activities by creating a working 
partnership with all interested outside entities, organizations, and 
individuals, a coalition inclusive of Congress, state/local 
governments, and various other stakeholders. Though certainly a 
prestigious designation, the listing does not preclude building 
deterioration or demolition of historic facilities affiliated with the 
Manhattan Project. Five of the eight ``Signature Facilities'' are 
included in H.R. 1208 including Hanford's B Reactor and T Plant 
Chemical Separations Building; Oak Ridge's Y12 Beta-3 Racetracks and X-
10 Graphite Reactor; and Los Alamos' V-Site Assembly Building/Gun Site.
            The Manhattan Project National Historical Park Study Act
    On October 18, 2004, President Bush approved Public Law 108-340, 
``The Manhattan Project National Historical Park Study Act.'' The act 
directed the Secretary of the Department of the Interior, in 
consultation with the Department of Energy, to conduct a study for the 
preservation and interpretation of historic sites associated with the 
Manhattan Project. At its conclusion in July 2011, the Feasibility 
Study determined resources located in Los Alamos, Oak Ridge, and 
Hanford possessed the national significance required for designation 
and were suitable for inclusion in the National Park System. The 
National Trust for Historic Preservation fully endorses this 
conclusion.
    The National Trust recognizes this designation will be accompanied 
by controversy. History is often fraught with complexity, and it is for 
this reason the National Trust supports creation of the Manhattan 
Project National Historical Park. Anyone who has visited National Park 
Service units like Little Bighorn, Manzanar, Andersonville or Little 
Rock Central High School, understands that these National Parks are 
authentic sites--the places where history happened--and not places of 
celebration. The National Park Service's mission in these locations is 
to preserve and objectively interpret what is often complex and 
contentious history, so current and future Americans have opportunity 
for a deeper understanding of seminal events.
    The National Trust believes historic sites associated with the 
Manhattan Project are no less worthy of National Park recognition and 
we recommend the Members of Senate support S. 507 to establish the 
Manhattan Project National Historical Park. Present and future 
generations of Americans deserve the opportunity to see and learn our 
nation's history through the unbiased and balanced interpretation of 
the National Park Service and to draw their own conclusions about how 
the Manhattan Project changed the world. Recognizing that sites 
associated with the Manhattan Project are places of commemoration, 
Pulitzer-prize winning historian Richard Rhodes describes these 
authentic places in this way: ``The factories and bombs that Manhattan 
Project scientists, engineers, and workers built were physical objects 
that depended for their operation on physics, chemistry, metallurgy, 
and other natural sciences, but their social reality--their meaning, if 
you will--was human, social, political. The same is true of 
Williamsburg and Bandelier and the Declaration of Independence.''
    The National Trust for Historic Preservation applauds the National 
Park Service and the Department of Energy for their successful 
collaboration. We anticipate this innovative partnership will bring 
many benefits to the Manhattan Project National Historical Park, 
creating a model which may be replicated by other agencies. We look 
forward to working with you, and request that National Park designation 
be completed by the close of the 113th Congress.
                                 ______
                                 
                           Coalition for Nevada's Wildlife,
                                          Reno, NV, April 10, 2013.
Hon. Mark Amodei,
U.S. House of Representatives, 222 Cannon House Office Building, 
        Washington DC.
Re: Support letter for H.R. 433

    Dear Congressman Amodei:
    We are writing to both thank you for your support of HR 433 and 
also to encourage you to cont1nue to be a strong advocate for this 
bill, until it is enacted into law.
    The ``Pine Forest Range Recreation Enhancement Act of 2013'' is a 
shining model of how public lands bills should be developed here in the 
west. It was a ``ground up'' process that started at the stakeholder 
level. 23 Members of the ``Pine Forest Working Group'', consisting of 
ranchers, miners, hunters, fishermen, Wilderness advocates off-road-
vehicle enthusiasts, and other affected Interests. developed a 
comprehensive set of recommendations that were unanimously supported by 
the members of the working group. These recommendations were then 
unanimously supported by the Humboldt County Commtssion. The entire 
process and recommendations were then supported by a resolution from 
the Nevada State legislature and the Nevada Association of Counties. 
This legislation is also supported by all the major wildlife and 
conservation NGO's in Nevada
    This process and the resulting bill show that when local interests. 
that know and love the land, come to the table and work together, good 
things can happen. Some examples of how stakeholders working together 
can produce good results include:

  <bullet> Areas of conflict, (approximately 1,000 acres from the 
        original WSA's), primarily popular camping and vehicle access 
        areas. were dropped from the final recommendations 1n order to 
        accommodate the desires of local users and stakeholders.
  <bullet> Additional acres of roadless landscape, where no conflicts 
        occurred, were added to create a more logtcal and definable 
        boundary.
  <bullet> Identifies and preserves cherry stem road access that all 
        parties supported
  <bullet> Two existing roads were realigned to avoid wet meadow or 
        ripanan areas, allowing continued access.
  <bullet> Would enlarge the Blue Lakes trailhead for additional 
        camping and parking.
  <bullet> Approximately 1,500 acres of mountamous private lands. 
        bordenng the proposed wilderness, were Identified for exchange 
        for BLM lands at the edge of the mountains adjacent to private 
        landowners. Once transferred, these exchanged BLM lands can 
        then be developed for agricultural production.

    We need passage of this bill not only to ratify the hard, 
painstakmg work of the Humboldt County Commission and the stakeholder 
group, but also to serve as an example of how a ``ground up'' process, 
involving local stakeholders and user groups, can resolve local issues 
through a locally dnven process Th1s is the model for how our pubhc 
lands should be managed. Passage of this bill is not only good for 
Nevada but can also serve as an example for other western states to 
follow. Again we would like to urge you to contmue to be a champion for 
the H.R. 433. Too often land management decisions are perceived as 
being dictated from the top down with madequate mput from local 
residents that are both intimately knowledgeable and deeply affected by 
these decisions.
            Sincerely,
                        The Coalition for Nevada's Wildlife
                                             Larry Johnson,
         President (also Director, Nevada Bighorns Unlimited-Reno).
                                                 Tom Smith,
          Vice President (also Director, Truckee River Flyfishers).
                                             Mike Bertoldi,
                                                         Treasurer.
                                            Stacey Trivitt,
                               President Carson Valley Chukar Club.
                                                 Ed Wagner,
                              Director, Nevada Wildlife Federation.
                                            Joel Blakeslee,
                           President, Nevada Trapper's Association.
                                                Judi Caron,
     Director (also President, Safari Club International, Northern 
                                                   Nevada Chapter).
                                               Jim Puryear,
  Director (also Member, Nevada Guides and Outfitters Association).
                                               Bob Brunner,
                                                          Director.
                                             Willie Molini,
            Director (also Director of Nevada Waterfowl Coalition).
                                              Mike Cassidy,
 Director (also Vice President Safari Club International, Northern 
                                                            Nevada)
                                 ______
                                 
                           Coalition for Nevada's Wildlife,
                                          Reno, NV, April 10, 2013.
Hon. Dean Heller,
U.S. Senate, 361A Russell Senate Office Building, Washtngton, DC.
Re: Support letter for S. 342

    Dear Senator Heller:
    We are writing to both thank you for your support of S. 342 and 
also to encourage you to continue to be a strong advocate for this 
bill, until it is enacted into law.
    The ``Pine Forest Range Recreation Enhancement Act of 2013'' is a 
shining model of how public lands bills should be developed here in the 
west. It was a ``ground up'' process that started at the stakeholder 
level. 23 Members of the ``Pine Forest Working Group'', consisting of 
ranchers, miners, hunters, fishermen, Wilderness advocates, off-road-
vehicle enthusiasts. and other affected tnterests, developed a 
comprehensive set of recommendations that were unammously supported by 
the members of the working group. These recommendations were then 
unanimously supported by the Humboldt County Commission. The entire 
process and recommendations were then supported by a resolution from 
the Nevada State legislature and the Nevada Association of Counties. 
This legislation is also supported by all the major wildlife and 
conservation NGO's in Nevada
    This process and the resulting bill show that when local interests, 
that know and love the land, come to the table and work together, good 
things can happen. Some examples of how stakeholders worktng together 
can produce good results include.

  <bullet> Areas of conflict. (approximately 1,000 acres from the 
        original WSA's), primarily popular camping and vehicle access 
        areas, were dropped from the final recommendations in order to 
        accommodate the desires of local users and stakeholders.
  <bullet> Additional acres of roadless landscape, where no conflicts 
        occurred, were added to create a more logical and definable 
        boundary.
  <bullet> Identifies and preserves cherry stem road access that all 
        parties supported.
  <bullet> Two existing roads were realigned to avo1d wet meadow or 
        riparian areas, allow1ng continued access.
  <bullet> Would enlarge the Blue Lakes trailhead for additional 
        camping and parking.
  <bullet> Approximately 1,500 acres of mountainous pnvate lands, 
        bordering the proposed wilderness, were identified for exchange 
        for BLM lands at the edge of the mountains adjacent to private 
        landowners. Once transferred, these exchanged BLM lands can 
        then be developed for agncultural product1on

    We need passage of this bill not only to ratify the hard, 
painstaking work of the Humboldt County Commission and the stakeholder 
group, but also to serve as an example of how a ``ground up'' process, 
involving local stakeholders and user groups, can resolve local issues 
through a locally driven process. This is the model for how our public 
lands should be managed. Passage of this bill IS not only good for 
Nevada but can also serve as an example for other western states to 
follow. Again we would like to urge you to continue to be a champion 
for the S.342. Too often land management decisions are perceived as 
being dictated from the top down with inadequate input from local 
residents that are both intimately knowledgeable and deeply affected by 
these decisions
            Sincerely,
                        The Coalition for Nevada's Wildlife
                                             Larry Johnson,
         President (also Director, Nevada Bighorns Unlimited-Reno).
                                                 Tom Smith,
          Vice President (also Director, Truckee River Flyfishers).
                                             Mike Bertoldi,
                                                         Treasurer.
                                            Stacey Trivitt,
                               President Carson Valley Chukar Club.
                                                 Ed Wagner,
                              Director, Nevada Wildlife Federation.
                                            Joel Blakeslee,
                           President, Nevada Trapper's Association.
                                                Judi Caron,
     Director (also President, Safari Club International, Northern 
                                                   Nevada Chapter).
                                               Jim Puryear,
  Director (also Member, Nevada Guides and Outfitters Association).
                                               Bob Brunner,
                                                          Director.
                                             Willie Molini,
            Director (also Director of Nevada Waterfowl Coalition).
                                              Mike Cassidy,
 Director (also Vice President Safari Club International, Northern 
                                                            Nevada)
                                 ______
                                 
                            New Mexico Wildlife Federation,
                                                   Albuquerque, NM.
Hon. Joe Manchin,
 Chairman, Senate Subcommittee on Public Lands, Forests and Mining, 
        U.S. Senate, Washington, DC.
Hon. John Barrasso,
Ranking Member, Senate Subcommittee on Public Lands, Forests and Mining 
        U.S. Senate, Washington, DC.
    Dear Senators Manchin and Barrasso:
    I am writing on behalf of the New Mexico Wildlife Federation and 
our 9,000 members and supporters to express my strong support of S. 
312, the Carson National Forest Boundary Adjustment Act, introduced by 
New Mexico Senators Tom Udall and Martin Heinrich. Founded in 1914 by 
Aldo Leopold and other conservation-minded sportsman, the New Mexico 
Wildlife Federation is New Mexico's oldest conservation organization 
dedicated to protecting New Mexico's wildlife, habitat and outdoor way 
of life.
    I am very grateful that your Senate Energy and Natural Resources 
subcommittee is holding a hearing on this important piece of 
legislation for New Mexico on April 25, 2013. I am very hopeful that 
this bill will move forward through the committee and Senate as quickly 
as possible.
    S. 312 is an important bill for my community. It will adjust the 
boundaries of the Carson National Forest to include the 5,000 acre 
Miranda Canyon tract, protecting our local drinking water supplies and 
ensuring that this high-value resource land is open to the public 
forever. Adding Miranda Canyon to the forest will provide residents and 
visitors with enhanced opportunities to hike, hunt, mountain bike and 
generally enjoy the outdoors.
    The Miranda Canyon acquisition is strongly supported by the local 
community in Taos, including our county commission. In addition to 
expanding recreational access, the project will protect water resources 
within the Rio Grande watershed, a segment of the Old Spanish National 
Historic Trail, wildlife habitat, and the scenic viewshed from the 
valley towards Picuris Peak. All of these attributes contribute to the 
economy and quality of life in Taos County.
    Thank you for your consideration of this important piece of 
legislation before your committee.
            Sincerely,
                                        Alan Hamilton Ph.D.
                                             Conservation Director.
                                 ______
                                 
                                 Nevada Wilderness Project,
                                       Reno, NV, February 28, 2013.
Hon. Harry Reid,
U.S. Senate, 522 Hart Senate Office Building, Washington, DC.
Hon. Mark Amodei,
U.S. House of Representatives, 222 Cannon House Office Building, 
        Washington, DC.
Hon. Dean Heller,
U.S. Senate, 361A Russell Senate Office Building, Washington, DC.
Re: Support letter for H.R. 433 and S. 342

    Dear Representative Amodei and Senators Reid and Heller,
    First, let me thank you for introducing and supporting S. 342 and 
H.R. 433. Your leadership on this important issue is deeply appreciated 
by the entire conservation community.
    As you know, The Humboldt County Commission sanctioned a ``ground 
up'' process to review and formulate recommendations on two key 
Wilderness Study Area's (WSA's) within the Pine Forest Range in 
northern Nevada. Twenty three members of the ``Pine Forest Working 
Group'' developed a comprehensive set of recommendations that all the 
various user groups unanimously supported and which in turn were 
unanimously supported by the Humboldt County Commission, by a 5-0 vote.
    The review process and subsequent recommendations were also 
supported by resolutions from the 2011 Nevada Legislature and the 
Nevada Association of Counties. The legislation is supported by all 
major conservation and wildlife NGO's throughout Nevada.
    The recommendations drop areas of conflict from the designated 
WSA's and add additional acres of roadless no conflict landscape to 
firm up a boundary. In addition, approximately 1500 acres of 
mountainous private lands, bordering the proposed wilderness, were 
identified for exchange for BLM lands by the private landowners.
    We need passage of S.342 and H.R. 433 to ratify the work of 
Humboldt County Commission in support of a ``ground up'' land use 
review process that has unilateral support. Passage of the legislation 
is not only good for Nevada; it validates the process of involving 
local and regional user groups to resolve local issues through a 
locally driven process.
            Sincerely,
                                            Jeneane Harter,
                                                Executive Director.
                                 ______
                                 
                             Old Spanish Trail Association,
                                         Las Vegas, NM, April 2013.
Hon. Joe Manchin,
Chairman, Senate Subcommittee on Public Lands, Forests, and Mining, 
        U.S. Senate, Washington, DC.
Hon. John Barrasso,
Ranking Member, Senate Subcommittee on Public Lands, Forests and 
        Mining, U.S. Senate, Washington, DC.
    Dear Senators Manchin and Barrasso:
    I am writing in support of S.312, Carson National Forest Boundary 
Adjustment Act, introduced by Senator Tom Udall and Senator Martin 
Heinrich of New Mexico. As an interested citizen, I am personally 
pleased that your Energy & Natural Resources Subcommittee is holding a 
hearing on this most important piece of legislation, and I am hopeful 
that the bill will move through committee and through the Senate as 
quickly as possible.
    Adjusting the boundaries of Carson National Forest to include the 
5000-acre Miranda Canyon tract will help protect local water supplies, 
preserve wildlife habitat, and ensure that this significant resource 
will always be open to the public for healthful outdoor recreation-
tremendously important to all Americans.
    Not only is the Miranda Canyon acquisition strongly supported by 
the people of Taos and northern New Mexico, but by those of us who work 
with the National Trails System and, especially, with the Old Spanish 
Trail Association (OSTA).
    Thank you for your favorable consideration of S.312.
            Sincerely,
                                       Reba Wells Grandrud.
                                 ______
                                 
                                Oregon Hunters Association,
                                       Medford, OR, April 25, 2013.
Hon. Jon Manchin,
Chairman, Subcommittee on Public Lands and Forests, U.S. Senate, 
        Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, U.S. Senate, 
        Washington, DC.
RE: Oregon Treasures

    Dear Chairman Manchin and Senator Barrasso:
    We are writing to express our strong support for S. 353, the Oregon 
Treasures Act of 2013, which will provide our members with markedly 
improved opportunities to hunt and boat along the John Day River, the 
Rogue River, the Chetco River, and the Molalla River.
    Oregon has always been a haven for outdoor enthusiasts who come 
from far and wide to experience its wild rivers, high deserts, and 
ancient forests. With the passage of legislation like the Oregon 
Treasures Act, we will continue to draw visitors from all over the 
world who come to enjoy the pristine nature of our watersheds and 
protected public lands.
    As hunters, we are especially excited about the consolidation of 
public lands in Cathedral Rock and Horse Heaven. Due to a checkerboard 
of public and private land, these areas have been virtually off-limits 
to hunting for fear of trespass. Thanks to this legislation, we have 
the opportunity to enjoy increased road access to an additional 1,661 
acres of BLM lands and increased river access to 7,501 acres, thereby 
doubling access to public lands, from 9,112 acres to 18,245 acres.
    As boaters, we are looking forward to new protections along the 
John Day, Rogue, Chetco, and Molalla Rivers that will offer enhanced 
protection for fish habitat and some of our favorite river runs.
    Passage of the Oregon Treasures Act will benefit Oregonians of 
today and for many generations to come. Thank you for your continued 
work to support this proposal, showing that securing places for people 
to hunt and boat is an important public value for our state, our nation 
and our future.
            Sincerely,
                                              John Crafton,
                                         Redmond Chapter Secretary.
                                            Thomas O'Keefe,
       Pacific Northwest Stewardship Director, American Whitewater.
                                 ______
                                 
 Statement of Joseph Gersen, Director of Government Relations, Public 
                   Lands Service Coalition, on S. 360

    On behalf of the Public Lands Service Coalition, I would like to 
express our appreciation and support for S.360 and encourage the 
committee to pass the Public Lands Service Corps Act of 2013. An 
expanded Public Lands Service Corps will provide more opportunities for 
thousands of young Americans to gain valuable workforce training and 
career development while assisting our nation's land and water 
management agencies to address critical restoration, maintenance, and 
rehabilitation needs. Engaging young adults through the Public Lands 
Service Corps will also help address billions of dollars in backlogged 
maintenance needs on our nation's public lands and waters, address 
youth unemployment, and prepare a diverse group of youth to be the next 
generation of natural resource employees.
    The Public Lands Service Coalition promotes youth service jobs and 
career development on public/tribal lands and waters. Each year, 
Coalition members engage more than 20,000 young people in jobs and 
service opportunities, and they are poised to expand greatly to address 
the record-high youth unemployment, the billions of dollars of 
backlogged maintenance needs on public lands, the need for future 
federal public lands employees, the national youth obesity epidemic, 
and the disengagement of youth from the great American outdoors.
    The Public Lands Service Coalition supports this legislation 
because it will:

  <bullet> Increase the utilization of service and service learning as 
        a strategies for accomplishing work on our nation's public 
        lands and waters;
  <bullet> Introduce more young Americans to our nation's public lands 
        and waters--instilling in them an appreciation for nature, an 
        enjoyment of healthy recreation, and a sense of stewardship for 
        our natural resources and the environment;
  <bullet> Expand career development and workforce training 
        opportunities for Public Lands Service Corps members by 
        increasing non-competitive hiring status allowing more young 
        people, particularly those from disadvantaged backgrounds, the 
        ability to pursue careers in land and natural resource 
        management.
  <bullet> Raise the profile of the Public Lands Service Corps within 
        the relevant land and water management agencies making it 
        easier for conservation corps to participate and partner with 
        the federal government.

The History of the Corps Movement
    The Civilian Conservation Corps employed six million young men 
between 1933 and 1942 who planted nearly three billion trees and 
constructed more than 800 parks. Subsequent federal efforts built on 
the CCC model include Peace Corps (1961), Job Corps (1964), Youth 
Conservation Corps (1971), Young Adult Conservation Corps (1977), and 
AmeriCorps (1994). In addition, numerous state and non-profit groups 
launched similar efforts beginning with Student Conservation 
Association in 1957 and followed by the California Conservation Corps 
in 1976. The Public Lands Service Corps Act builds on these recent 
efforts by strengthening the ability of the federal government to 
partner with these non-federal entities to meet national priorities.

The Corps Model
    Experienced conservation corps programs engage thousands of young 
people on public and tribal lands and waters each year. Operating in 
all 50 states, these programs provide public and tribal land and water 
managers with an effective and efficient way to complete necessary and 
important projects and give young people opportunities to further their 
education and improve their career prospects, while building the next 
generation of land and water managers and resource stewards.
    Each year, Corps complete hundreds of high-quality and often 
technical projects on public lands and waters. Project sponsors 
consistently express a high degree of satisfaction with the quality of 
work and productivity of the Corps. Virtually all federal project 
partners (99.6 percent) say they would work with Corps again. Types of 
work include, but are not limited to:

  <bullet> Protecting wildlife and preserving public lands and waters 
        (ecological restoration);
  <bullet> Preparing communities for disasters and responding when 
        needed;
  <bullet> Enhancing recreation on public lands;
  <bullet> Protecting communities and public lands from the devastating 
        effects of wildfires;
  <bullet> Preserving historic structures;
  <bullet> Supporting individual placements and internships at the land 
        and water management agencies.

Cost Savings through Expanding Public Private Partnerships
    Corps work with federal and land and water management partners on a 
project based approach (conservation, restoration, and historic 
preservation) with cooperative agreements. Implementing this 
legislation will help stretch the budgets of land and water management 
agencies, and will not require additional appropriations.
    The Public Lands Service Corps Act of 2013 will help the land and 
water management agencies achieve more with their current operating 
budgets though partnerships with conservation corps. Research conducted 
by the National Park Service's Park Facility Management Division in 
2012 found that using Conservation Corps to complete maintenance and 
trail projects provided a cost savings of over 50 percent. Further, it 
is estimated that the cost of two professional level SCA interns, is 
the same as one seasonal employee doing similar work. These public 
private partnerships leverage federal investment by bringing at least a 
25 percent match.
    The Public Lands Service Corps Act of 2013 will be implemented, and 
its goals achieved, without additional appropriations to the affected 
land and water management agencies. PLC programs engaging conservation 
corps in service on public lands are being paid for from within 
existing agency appropriations, from recreation fees retained by the 
agencies, and from charitable contributions. Utilizing existing 
appropriations is possible because conservation corps complete work 
that the agencies would be doing anyway with the appropriated funds, 
primarily derived from maintenance and operating funds. Work projects 
completed by conservation corps has the added advantage of requiring 
fewer federal resources than if carried out by agency employees or 
private contractors.

Conclusion
    The Public Lands Service Corps Act would simultaneously address 
youth unemployment, billions of dollars of backlogged maintenance needs 
on our nation's public lands and waters while preparing a diverse group 
of youth to be the next generation of natural resource employees. 
Meanwhile, the Corpsmembers could, in turn, utilize their AmeriCorps 
Education awards and the expanded non-competitive hiring authority 
contained in this bill to pursue careers in land management-thus 
building and diversifying the next generation of the resource 
management workforce.
    Mr. Chairman, thank you for the opportunity to testify. On behalf 
of the entire Public Lands Service Coalition, I again want to express 
our appreciation and support for S.360. We look forward to working with 
you to see it enacted into law.
Coalition Members
  <bullet> Backcountry Horsemen of America
  <bullet> Calif. Assn of Local Conservation Corps
  <bullet> California Conservation Corps
  <bullet> Campfire USA
  <bullet> Canyon Country Youth Corps
  <bullet> Citizens Conservation Corps of West Virginia
  <bullet> Civilian Conservation Corps Legacy, Inc
  <bullet> Coconino Rural Environment Corps
  <bullet> Colorado Youth Corps Association
  <bullet> Conservation Corps Minnesota and Iowa
  <bullet> EarthCorps
  <bullet> Greater Miami Service Corps
  <bullet> Groundwork USA
  <bullet> Los Angeles Conservation Corps
  <bullet> Montana Conservation Corps
  <bullet> National Congress of American Indians
  <bullet> National Parks Conservation Association
  <bullet> National Wildlife Federation
  <bullet> Nevada Conservation Corps
  <bullet> Northwest Youth Corps
  <bullet> Operation Fresh Start
  <bullet> Rocky Mountain Youth Corps (CO)
  <bullet> Rocky Mountain Youth Corps (NM)
  <bullet> Sequoia Community Corps
  <bullet> Sierra Club
  <bullet> Southeast Alaska Guidance Association
  <bullet> Southwest Conservation Corps
  <bullet> Student Conservation Association
  <bullet> Texas Conservation Corps
  <bullet> The Corps Network
  <bullet> The Wellness Coalition
  <bullet> The Wilderness Society
  <bullet> The Y
  <bullet> Utah Conservation Corps
  <bullet> Vermont Youth Conservation Corps
  <bullet> Veterans Green Jobs
  <bullet> Washington Conservation Corps
                                 ______
                                 
                                               Rogue River,
                                        Merlin, OR, April 24, 2013.
Hon. Joe Manchin,
Chairman, Subcommittee on Public Lands and Forests, U.S. Senate, 
        Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, U.S. Senate, 
        Washington, DC.
    Dear Chairman Manchin and Senator Barrasso:
    We the undersigned are rafting and fishing guide services that 
operate on the Rogue River in the southwestern corner of Oregon. The 
Rogue River is essential to our livelihood and our employee's 
livelihood also. The Rogue River is an iconic place with cultural, 
historical and ecological values. We are writing to strongly encourage 
you to advance S.353, The Oregon Treasures Act of 2013, in this 113th 
Congress to protect our business interests and the resource we depend 
on.
    Over the years, both the fishing and rafting industry on the Rogue 
have grown to become a cornerstone of the recreation economy in 
southwestern Oregon. A recent economic study by ECONorthwest determined 
that rafting, fishing and other recreation along the Rogue generate $30 
million annually in economic output statewide, including 445 jobs. 
Locally this includes economic impacts of approximately $16 million in 
Josephine County, OR, alone. This study doesn't include other 
activities that vacationers may participate in and spend money on 
during their visits to southwestern Oregon. Often these vacations are 
planned around their Rogue fishing or rafting trip with other area 
local attractions benefitting from our world renowned river.
    One reason our businesses are able to invest in our operations and 
plan for the future is due to the existing federal protections for 
portions of the Rogue. In fact, recreation began to blossom in the area 
after the Rogue was designated as Wild and Scenic in 1968. While these 
protections are helpful over half of the well-known and most popular 
section of the river does not have any federal protection outside of 
the narrow Wild and Scenic corridor.
    Timber sales have targeted this area in the past, and while most of 
us agree that timber harvest can be appropriate in some areas this just 
isn't the right place. Logging would harm the views of old-growth 
forest that our trips are known for. Even when a timber harvest cannot 
be seen it can still affect our businesses as it can degrade water 
quality. The tributaries to the Rogue provide clear, cold spawning and 
rearing habitat and respite for salmon and other fish migrating 
upstream. Logging in this area would likely degrade both the ecological 
benefits the area provides and tarnish the reputation of the area. 
Swimming in these cold streams on a warm summer day is a favorite 
pastime of our thousands of visitors and maintaining a healthy fish 
population is essential for our future fishing customers.
    For our businesses to thrive, we need the security of knowing that 
the river will be protected into the future. Increasing the area 
protected to include the popular and well known wild stretch of the 
Rogue will help us feel secure in making investments in our business 
including advertising both our trips and the region as a great tourism 
destination. When you look at a map it is clear that this type of 
protection should have been done a long time ago and we are fortunate 
the opportunity still exists. A place as iconic as the Wild Rogue 
deserves our nation's best protections and we ask that you do this for 
our businesses, the next generation of whitewater, hiking and fishing 
enthusiasts and for our country.
            Sincerely,

ECHO River Trips,
Momentum River Expeditions
Orange Torpedo Trips
Northwest Rafting Company
Ferron's Fun Trips
All Star Rafting
Sundance Kayak School
Morrison's Rogue River Lodge
Rogue River Raft trips
Rogue Wilderness Adventures
ARTA River Trips
Rogue Canyon Adventures
                                 ______
                                 
                     Southeast Alaska Conservation Council,
                                        Juneau, AK, April 24, 2013.
Hon. Lisa Murkowski,
 U.S. Senate, Washington, DC.
Re: S. 340, the Sealaska Bill

    Dear Senator Murkowski:
    In our last letter to you, we endorsed the responsible approach 
reflected in your February 2013 re-introduction of the Sealaska lands 
bill. We expressed our appreciation for the flexibility and leadership 
you showed in your response to community needs and stakeholder 
concerns. We also informed you that S.340 was not perfect from our 
point of view.
    Ongoing discussions between local stakeholders, the Forest Service, 
and a more inoovative segment of the Tongass timber industry are 
complicated by the uncertainties associated with young growth 
management. While young growth management will not be a panacea for all 
timber management controversies, most of the involved stakeholders see 
the benefits from working together to develop economically viable 
solutions for restoring fish and wildlife habitat and developing local 
markets for new wood products. Like the Forest Service, involved 
stakeholders need some space for innovation and trial and error. For 
this reason, we hope the remaining outstanding issues with S.340 do not 
hamstring effort by the Forest Service or Tongass stakeholders to 
develop solutions that can work in the real world.
    While we share some of your apprehension over the Forest Service's 
implementation of its Southeast Alaska Transition Strategy, we applaud 
the agency's willingness to confront new realities, such as permanent 
and fundamental changes in world timber markets and the insoluble 
problems associated with high Tongass production costs and distance 
from markets. The Forest Service is trying to adapt its existing timber 
program to reflect these market realities, as well as changes in demand 
and need for renewable forest resources here in Southeast Alaska. We 
are participating in ongoing and thoughtful discussions with diverse 
interests on what next steps to take to create an integrated wood 
product and forest service industry on the Tongass for the 21st 
Century. The Southeast Alaska Transition Strategy is as an important 
part of the solution for addressing long-tetm community needs on the 
Tongass.
    For us, the Tongass Transition is just the latest expression of a 
common-sense approach that we have long advocated for. Over 15 years 
ago, SEACC teamed up with small-scale timber operators, communities, 
and the U.S. Forest Service to create an innovative approach to logging 
on the southern end of the Tongass National Forest. Today, the 
Microsale Timber Program (Alaskan wood--Alaskan jobs) provides small 
mill operators on Prince of Wales Island with small quantities of dead 
or down trees near the existing road system. The program encourages 
local processing and the manufacture of high value-added wood products. 
This approach produces more job hours per tree cut and higher stumpage 
returns than the Forest Service's traditional timber program. Even 
better, this success does not come at the expense of a mill owner's 
neighbors having to sacrifice their diverse uses on the Tongass 
National Forest.
    More recently, SEACC started our ``Buy Local: Alaskan Wood, Alaskan 
Jobs'' marketing program with small-scale mills on the Tongass. Our 
program is the first effort organized in the region to help these local 
businesses develop local markets for their wood products.
    As the Sealaska bill moves forward, we respectfully request you 
consider the following:

    Expanded Calder Parcel--We understand that the Calder parcel on 
North Prince of Wales was expanded nearly 3,000 acres to make up for 
reductions in other targeted timber tracts. While we realize the 
difficulties in any additional modification to parcel boundaries, 
roughly 500 acres of the expanded parcel encompasses the end of the 
existing Forest Road 2900 . . .  A primary reason the communities of 
Port Protection and Point Baker continue to object to this legislation 
is because they fear Sealaska will connect this road with the existing 
Calder road network and use Labouchere Bay (Lab Bay) instead of Calder 
Bay for log storage and transfer. Such use would interfere with these 
communities' use of the productive Lab Bay and reverse the ongoing 
recovery of this waterbody after decades of intensive use by Ketchikan 
Pulp Company. We intend to raise this issue with Sealaska and hope we 
can come up with a solution that works for everyone. At this point, we 
have identified two (2) options for consideration:

  <bullet> Drop that portion of the Calder Parcel that is isolated from 
        the existing road network in Calder (about 500 acres); or
  <bullet> Obtain Sealaska's agreement not to use Lab Bay for log 
        storage and transfer from development on its lands.

    Conservation--While we appreciate your willingness to conserve 
important Tongass wildlands in this legislation, we offer a couple of 
recmmnendations.

  <bullet> Honker Divide-The Honker Divide is the largest remaining 
        unlogged and unroaded area on Prince of Wales Island-an 
        interconnected chain oflakes and rivers stretching 36 miles 
        from saltwater to saltwater, from Thome Bay to Coffman Cove. 
        Its combination of low elevation topography, extensive stream 
        and lake systems, and wetlands provide an extraordinary 
        diversity offish and wildlife. The Alaska Department ofFish and 
        Game has long recognized the Honker Divide as one of only 19 
        ``high quality'' sport fish watersheds in Southeast Alaska. In 
        1997, the Forest Service recommended designating 24 miles as a 
        ``scenic'' river and the remaining 18 miles as a 
        ``recreational'' river under the Wild and Scenic River Act in 
        order to protect the area's outstandingly remarkable values for 
        future generations.

    We are concerned that the proposed LUD II's 16,684 acres does not 
even encompass the entire 25,480 acre river corridor recommended for 
designation in 1997. Please expand the LUD II boundary to encompass all 
of the Honker Divide-``ridge top to ridge top''--an area encompassing 
approximately 92,629 acres, less than 35 percent of which (+32,000 
acres) are within the current timber base.

  <bullet> Western Kosciusko--The proposed LUD II appears to encompass 
        most of the Kosciusko Island Geological Area, designated as a 
        Special Interest Area in the 2008 TLMP. The proposed 
        designation appears to miss the Badder Ladder cave (between the 
        loops of the road), and the ``super karsty'' slopes below the 
        summit of Mmmt Francis. We recommend expanding this LUD II to 
        include the remainder of this designated geological Special 
        Interest Area (sections 10, 11, and 15 directly west of the 
        proposed LUD II). This expansion will have no effect on the 
        Tongass timber base because the 2008 TLMP classifies all lands 
        allocated to the Special Interest Area as unsuitable for timber 
        production.
  <bullet> Northern Prince of Wales--Similar to the proposed Western 
        Kosciusko LUD II, it looks like the largest western block of 
        the proposed LUD II does not contain all the lands designated 
        as geologic Special Interest Area in the 2008 TLMP. Since these 
        lands are already excluded from the timber base, we recmmnend 
        expanding the northern boundary of the largest block of the 
        proposed LUD II to encompass the entire Special Interest Area . 
        designated in the 2008 TLMP.

    Public Access to Salmon Streams--Section 5(g) of S.340 proposes to 
grant an easement 25 feet wide on either side of a Class I stream for 
public access. As a practical matter, we recmmnend expanding the 
easement to 100 feet on either side of Class I streams and those Class 
II streams that flow into Class I streams. We offer this practical 
suggestion to facilitate safe movement up and down the streams by 
fishermen.
    Thank you for your careful attention to these matters. Please 
incorporate our letter into the record for the Committee's April 25, 
2013 hearing on S.340.
            Best Regards,
                                           Lindsey Ketchel,
                                                Executive Director.
                                 ______
                                 
                     Southeast Alaska Conservation Council,
                                        Juneau, AK, April 22, 2013.
Hon. Ron Wyden,
Senate Committee on Energy & Natural Resources, 221 Dirksen Senate 
        Office Bldg., Washington, DC.
Hon. Lisa Murkowski,
Senate Committee on Energy & Natural Resources, 709 Hart Senate 
        Building, Washington, DC.
Re: Support for the Subsistence Structure Protection Act of 2013 (S. 
736)

    Dear Chairman Wyden and Ranking Member Murkowski, Please accept 
this letter from the Southeast Alaska Conservation Council (SEACC) 
expressing support for the Subsistence Structure Protection Act of 2013 
(S.736).
    Subsistence-or customary and traditional use, as many prefer to 
call it-plays an extremely important role for many Southeast Alaskans. 
For most rural families, much if not most of a family's food comes from 
fish, game, and other wild sources. In smaller communities where things 
like gas, heating oil, and groceries are already many times more 
expensive than they are in the lower 48, subsistence is more than a 
lifestyle- it's a necessity. In addition, harvesting, preparation, and 
eating wild foods is of special value to Alaska Natives, who have 
harvested from these lands since time inunemorial, and for whom 
customary and traditional use plays an integral cultural and spiritual 
role.
    Since 2010, SEACC has been working with Southeast Alaskan 
subsistence users in an effort to lower the fees the Forest Service 
charges annually rural residents for personal use cabins on National 
Forest land. These cabins are often Native-owned, and in most cases, 
were built generations ago by the same families who own them today for 
the purpose of harvesting and processing customary and traditional 
foods, such as salmon, halibut, seal, deer, moose, shellfish, seaweed, 
and benies. In the generations since these cabins were built, for those 
families that have access to them, the cabins have become just as 
impmiant a subsistence tool as the rifle, the seine, or the gaff.
    In recent years, the Forest Service has substantially increased the 
annual fee it charges these cabin owners. Now around $900 per year, the 
fees threaten to put families living in relatively cash-poor 
subsistence economies in the impossible position of having to choose 
between certain basic necessities on the one hand, and access to food, 
culture, and tradition on the other. Particularly upsetting to many of 
the cabin owners affected, the fees are no less than what the Forest 
Service charges numerous other users- including mining companies, 
guides/outfitters, and academic institutions- for use of similar 
shelters on federal land. For many, as a result of the long and 
traumatic history surrounding Native-owned subsistence structures on 
the Tongass, these conflicts run especially deep.
    Two years ago, SEACC submitted a memo to Forest Service Region 10 
urging the agency to substantially reduce the fees it charges these 
cabin owners. In the time since--which has included two billing cycles, 
representing over $1700 per family in special use fees-no categorical 
reduction was made in the fees being charged subsistence users, and 
SEACC began to seek other solutions. We are grateful that Sen. 
Murkowski has taken the issue on. In our efforts to support this 
legislation, we have had numerous conversations with Forest Service 
employees in hopes of ensuring that the legislation protects 
subsistence users, without creating undue hardship for the agency. The 
$250 yearly fee is based on the Forest Service's estimate that the 
annual per-cabin cost for administering the special use permit system 
is no more than $200. The $250 flat fee is also in accordance with the 
preference the agency expressed for pre-determined flat fees, rather 
than general amounts (e.g., ``a fee not to exceed the per-cabin cost of 
administering the program''). Similarly, the $15,000 income cut-off for 
those subsistence users who primarily use their cabins for subsistence 
purposes, but also use their cabins for occasional micro-scale 
commercial fishing, is the product of conversations with Region 10 in 
combination with research from the Commercial Fisheries Entry 
Commission (CFEC) and the Alaska Department of Fish and Game (ADF&G).
    We greatly appreciate Ranking Member Murkowski's leadership on this 
issue. We are grateful to Chairman Wyden and the Committee for taking 
this on, and extremely hopeful that the Subsistence Structure 
Protection Act will succeed, for the benefit of Alaska's mral 
subsistence users.
            Sincerely,
                                           Lindsey Kitchel,
                                                Executive Director.
                                 ______
                                 
                Statement of the Sierra Club, on S. 340

    The Sierra Club appreciates the Subcommittee's invitation to 
comment on S. 340 for the hearing record. We have long been involved in 
major Tongass National Forest management issues, including the massive 
Admiralty Island timber sale of the 1960's; designation of Tongass 
wilderness areas in the Alaska National Interest Lands Conservation Act 
of 1980; the Tongass Timber Reform Act of 1990; Forest Service timber 
sales; and the agency's forest-wide Land and Resource Management plans.
    We support finalization of Sealaska Corporation's land selections, 
a process that will complete the corporation's land entitlement under 
the Alaska Native Claims Settlement Act (ANCSA). We testified in 
support of the Alaska Land Transfer and Acceleration Act of 2004 
(ALTAA), legislation sponsored by Senator Lisa Murkowski, which 
expedites final conveyances of Native corporation and State of Alaska 
land selections.
    However, we oppose S. 340. This bill would in effect amend ANCSA to 
authorize Sealaska selections of approximately 70,000 acres from areas 
of the Tongass outside the areas withdrawn in ANCSA for Sealaska's 
selections. From within these original withdrawals-the eight townships 
surrounding each of the village core townships-Sealaska has title to 
more than 290,000 acres and has prioritized selection of its remaining 
70,000 acres as required by ALTAA.
    But instead of accepting title to its remaining acreage, Sealaska 
asked the Bureau of Land Management to put final conveyance on hold 
while the corporation seeks Congress's approval of S. 340 that would 
allow it take the acreage from other areas of the Tongass.
Sealaska's proposed new selections
    Sealaska's proposed alternative selections, 18 in all throughout 
the Tongass, include stands of high-volume old-growth on Prince of 
Wales Island, Kuiu Island, Kosciusko Island, and the Cleveland 
Peninsula. Keete Inlet on Prince of Wales Island, North Kuiu Island 
(Security Bay), McKenzie Inlet and Calder Bay on Prince of Wales 
Island, contain some of the most valuable old growth stands and fish 
and wildlife habitats in the Tongass.
    In response, the residents of nine small communities on Prince of 
Wales and Kosciusko are vigorously opposing S. 340. Sealaska seeks to 
log in watersheds that encompass major salmon streams that sustain the 
region's commercial and subsistence fisheries. Residents also rely on 
this old growth forest habitat for their subsistence hunting, fishing, 
and trapping, and for recreation.
    Sealaska's proposed move into this general area would also 
adversely affect the interests of other forest users who rely on intact 
old growth forest-sport hunters and anglers, sport fishing/hunting 
lodge owners, independent hunting, fishing, and wildlife tour guides, 
tour companies, and Alaskans and out-of-state visitors coming to view 
outstanding wildlife and scenery in natural, undeveloped settings.
    The potential economic effect of S. 340 is described by retired 
Forest Service economist Joe Merhkens in an op-ed for the Sit News of 
Sitka Alaska.

          Sealaska's exchange is a value-for-value trade. Simply 
        stated, Sealaska Corp. wants to exchange lower quality uncut 
        old-growth for much higher quality old-growth on Prince of 
        Wales Island. Sealaska claims the proposed exchange is a value-
        for-value trade--especially in terms of wildlife habitat. 
        Unfortunately, there are no publicly available timber 
        appraisals available to evaluate the proposed timber trade. 
        However, there are two proxies for value-to-value comparisons. 
        Based on the presence of big trees, Sealaska is getting a ten-
        fold increase in big tree values. Likewise, using comparative 
        wildlife habitat measures, Sealaska will log habitat that is 
        3.5 times more valuable than what they are returning to the 
        public. Granted these proxies may be somewhat subjective, but 
        even if they are off by 200 percent, Sealaska Corp. still gains 
        much higher timber values and the public is left with lower-
        quality habitat. The real issue is that Sealaska quickly 
        liquidated their old-growth and now is looking for a second 
        bite of the apple. Sealaska Corp. is simply angling for a 
        windfall benefit and a benefit that may never trickle down to 
        shareholders. Past Sealaska/village corporation logging has 
        certainly left villages like Kake and Hoonah high and dry. 
        Moreover, there is absolutely no justification for this 
        windfall to Sealaska Corp. when it comes at the expense of 
        small communities, sportsmen, tourism operators and commercial 
        fishers.

Forest Service's transition to second-growth forestry
    The centerpiece of the current Forest Plan is a transition from old 
growth logging to utilization of second growth stands as the agency 
moves away from commercial timber sales to support for tourism, 
wildlife habitat, protection of subsistence resources and other 
industries and activities that depend on the presence of old growth 
forest and unimpaired fish streams.
    In April 25, 2013 testimony on S. 340, Associate Deputy Chief of 
the Forest Service James M. Pena stated that if Sealaska's proposed new 
selections are approved, there would be less timber available for 
supplying local mills during the transition, and hence this could delay 
the transition beyond 15-20 years. Mr. Pena was not asked to estimate 
the length of the delay.
    Interference with the transition plan, which enjoys widespread 
support in SE Alaska and the nation, is not in the public interest.

Conservation Areas
    S. 340 would establish eight new ``conservation areas'' consisting 
of Land Use Designation II (LUD II) areas totaling 152,000 acres. LUD 
11 is a Forest Service land classification that prohibits commercial 
logging while accommodating a host of other uses and developments.
    LUD II designation provides inadequate protection for the full 
range of nationally significant resources and values of the eight areas 
proposed in S. 340. Uses and developments available under LUD II 
designation are listed in the current Forest Plan:

  <bullet> Salvage logging only to prevent significant damage to other 
        resources;
  <bullet> Personal use of wood for cabin logs, fuel wood, float logs, 
        trolling poles, etc.;
  <bullet> Water and power development if designed to be compatible 
        with the primitive characteristics of the area;
  <bullet> Roads only for access to authorized uses, transportation 
        needs identified by the State, or vital linkages;
  <bullet> Mineral development;
  <bullet> Access by boats, aircraft, and snowmachines unless such uses 
        become excessive;
  <bullet> Primitive recreational facilities; and
  <bullet> Major concentrated recreational facilities generally 
        excluded.

    Thus the claim that S. 340 would create ``conservation areas'' is 
misleading. Despite the prohibition on commercial logging, the bill's 
eight proposed LUD II areas would be subject to the above uses and 
developments that over time would render these areas ineligible for 
potential addition to the wilderness and wild and scenic river systems.
    A coalition of environmental groups including the Sierra Club has 
proposed the eight LUD II's of S. 340 for addition to the National 
Wilderness Preservation System or the Wild and Scenic Rivers System. 
These areas are currently administratively-designated ``roadless'' 
units, an interim protective status that preserves Congress's options 
for deciding the appropriate statutory protection for the areas.
    In any event, LUD II designation in S. 340 is not germane. We urge 
the Subcommittee to consider the ultimate disposition of the eight 
proposed LUD II's and other roadless areas on the Tongass in separate 
legislation.

S. 340 as precedent
    In testimony on a previous version of the Sealaska bill in the 
112th Congress, the Interior Department's witness observed that the 
bill, if it became law, might encourage other regional corporations to 
ask Congress for similar treatment.
    At the April 25 Subcommittee hearing, the Interior Department 
reaffirmed its position when Sen. Murkowski pressed the Department's 
witness, Jamie Connell, Acting Deputy Director of the BLM, to concede 
that S. 340 would not establish a precedent, given that the other 
regional corporations have assured her that they would not ask Congress 
to allow major changes to their existing land holdings. But Ms. Connell 
would not give Sen. Murkowski an ``absolute'' that a precedent would 
not be created if S. 340 is enacted into law. Nor would the Department 
in its written statement:

          We note that if S. 340 is enacted other corporations might 
        seek similar legislation for the substitution of new lands. In 
        addition, the U.S. Fish and Wildlife Service notes that if S. 
        340 is enacted as proposed and the Tongass Forest Management 
        Plan is modified, the Service may have to review its findings 
        not to list the southeast Alaska distinct population segment 
        (DPS) of Queen Charlotte goshawk and the Alexander Archipelago 
        wolf.

    We agree with the Department on the possibility that a precedent 
could be set if S. 340 is enacted. Regional corporations, especially 
those that have some land with little or no economic development 
potential, could ask Congress for permission to move existing holdings 
into other federal lands.

Conclusion
    There is no justification for S. 340. Sealaska can take title to 
its remaining 70,000 acres within its original withdrawal areas at any 
time of its choosing. We recommend that the Subcommittee urge the 
corporation to proceed with final conveyance.
    In the absence of S. 340 and with its entitlement complete, 
Sealaska would be free to explore land exchanges with the Forest 
Service. In the Alaska National Interest Lands Conservation Act of 1980 
Congress provided for land exchanges between federal, state, Native, 
and private land owners. Since then several exchanges have taken place 
between Native corporations and the federal government.
    In summary, we recommend that the Subcommittee take no further 
action on S. 340. If this bill were to become law, it would impede the 
Forest Service's planned phase-out of old growth-growth logging, damage 
nationally significant fish and wildlife resources and natural values 
of the Tongass, threaten the livelihoods of local residents and other 
forest users, and set an undesirable precedent.
                                 ______
                                 
  Statement of Robert Skinner, President, Skinner Ranches Inc., Board 
                Member, Public Lands Council, on S. 258

    Chairman Manchin, Ranking Minority Member Barrasso and Members of 
the Subcommittee:
    My name is Robert Skinner. I am a cattle rancher from Jordan 
Valley, Oregon, testifying today on behalf of the Public Lands Council 
(PLC), the National Cattlemen's Beef Association (NCBA), and the Oregon 
Cattlemen's Association (OCA). I serve on PLC's Board of Directors, am 
past president of OCA, and am a longstanding NCBA member. My 
grandchildren are the seventh generation to live and work on the ranch 
I own and operate. I am deeply committed to our way of life and our 
important job of providing food and fiber to a growing nation and 
world. As such, I appreciate the opportunity to share with the 
Subcommittee my and the livestock industry's strong support for S. 258, 
the Grazing Improvement Act.
    PLC is the only National organization dedicated solely to 
representing public land ranchers. Affiliates of PLC include not only 
NCBA but also the American Sheep Industry Association (ASI), the 
Association of National Grasslands (ANG) and sheep and cattle 
organizations from twelve western states. PLC represents the roughly 
22,000 ranchers who own nearly 120 million acres and manage more than 
250 million acres of federal land. NCBA is the nation's oldest and 
largest national trade association for cattlemen and women, 
representing more than 140,000 cattle producers through direct 
membership and their state affiliates. Like PLC, NCBA is producer-
directed and works to preserve the heritage and strength of the 
industry by providing a stable business environment for its members. 
OCA has worked for Oregon's cattlemen for over a hundred years to 
promote environmentally and socially sound industry practices, improve 
and strengthen the economics of the industry, and protect industry 
communities, producers and private property rights.
    We thank Senator Barrasso, Chairman Manchin, and this Subcommittee 
for leading the way on the Grazing Improvement Act, legislation that is 
of crucial importance to the public lands livestock grazing industry 
and that has bipartisan support. This legislation passed the House of 
Representatives last session as part of the Conservation and Economic 
Growth Act (H.R. 2578). We look forward to working with you to achieve 
passage of S. 258 in the Senate.
    The public land livestock industry seeks and supports the essential 
legislative changes provided by S. 258, as they are essential steps in 
restoring a stable business environment to our industry. By allowing 
for grazing permit renewals despite agency National Environmental 
Policy Act (NEPA) backlogs, extending the life of grazing permits, and 
categorically exempting certain qualified permits from NEPA review, S. 
258 will provide environmental, economic, and government cost-saving 
benefits.

Environmental Benefits of a Stable Public Lands Grazing Industry
    Livestock grazing represents the earliest use of the land and 
resources as our nation expanded westward. Today it continues on now-
federally managed land as a multiple-use that is essential to the 
livestock industry, wildlife habitat, open space and the vitality of 
many western rural communities. While grazing was historically viewed 
only as a ``use'' of the public lands, today it has also come to be 
recognized as an important ``tool'' for the management of these lands 
and the resources.
    Greater business stability leads to grazing practices that better 
benefit the resources, allowing federal lands ranchers to think long-
term about the kind of land and resources they want to pass down to the 
next generation. This stability is also at the foundation of the 
evolving science of rangeland management. By implementing long-term 
plans, ranchers are able to bring about significant changes in forage 
composition, to the benefit of livestock and wildlife alike. 
Sophisticated analytical systems, such as the State and Transition 
Model (STM), which has been embraced in recent years by both BLM and 
USFS, allow livestock grazing to be utilized to bring about significant 
changes in forage composition over long periods of time. But without 
the assurance that they will be able to hold onto their permits, many 
ranchers are hesitant to make the commitment of resources it takes to 
implement such plans.
    Accompanying the recent advances in range science are the 
longstanding benefits of grazing, which will only be bolstered by 
better business certainty. Wildlife depend on the habitat and range 
improvements provided by public land ranching. The improvements 
ranchers make to water sources--building, maintaining and protecting 
reservoirs and stock ponds, for example--can improve and, in some 
cases, create, wildlife habitats.\1\ In the West, where productive, 
private lands are interspersed with large areas of arid, less desirable 
public lands, biodiversity of species depends greatly on ranchland. 
According to Rick Knight, a biology professor at Colorado State 
University, ranching on both public and private land ``has been found 
to support biodiversity that is of conservation concern'' because it 
``encompasses large amounts of land with low human densities, and 
because it alters native vegetation in modest ways.''\2\ Knight also 
noted that other uses--such as outdoor recreation and residential use--
are not as conducive to the support of threatened or endangered 
species.
---------------------------------------------------------------------------
    \1\ http://cesantaclara.ucdavis.edu/files/33367.pdf
    \2\ ``Ranchers as a Keystone Species in a West that Works.'' 
Richard L. Knight. Rangelands Oct. 2007.
---------------------------------------------------------------------------
    Wild birds, animals and rodents seek out and thrive in the shelter 
and open spaces provided by natural ranch features, like diverse plant 
cover and windbreaks, as opposed to row crops or bare landscapes. Many 
ranchers across the West are purposefully implementing grazing 
practices to improve habitat and help prevent the addition of species 
such as the Greater Sage-grouse (GSG) to the Endangered Species List. 
(According to the Natural Resources Conservation Service, ranchers 
have, among other efforts, invested approximately $70 million in GSG 
conservation efforts and instituted improved grazing systems on over 2 
million acres over that past three years, which is expected to increase 
GSG populations by 8 to 10 percent.\3\) Not only does well- managed 
grazing encourage healthy root systems and robust forage growth, it 
also reduces the risk of catastrophic wildfire.\4\ Large animals such 
as elk and deer are known to thrive in areas where cattle graze.\5\
---------------------------------------------------------------------------
    \3\ Natural Resources Conservation Service, USDA (2013). Sage 
Grouse Initiative: Tracking Success. Report. http://
static.sagegrouseinitiative.com/sites/default/files/sgi-
tracking__success-final__low__res-020613.pdf
    \4\ Natural Resources Conservation Service, USDA (2004). 
Environmental Benefits of Improved Grazing Management. Illini 
PastureNet Papers. Hendershot, R.
    \5\ Texas A&M University-Kingsville (2005). Cattle Management to 
Enhance Wildlife Habitat in South Texas. Wildlife Management Bulletin 
of the Caesar Kleberg Wildlife Research Institute, Management Bulletin 
No. 6, 2005
---------------------------------------------------------------------------
    Other research suggests that livestock grazing helps prevent 
invasion by non-native grasses, which threaten plant biodiversity on 
the land.\6\ Ranchers' brush control also benefits wildlife, helping 
more grass to take root and decreasing the spread of cheatgrass, a 
highly flammable invasive weed. A study in the Journal of Rangeland 
Management concluded that ``from an ecological standpoint we can argue 
that if we remove the grazing infrastructure from public rangelands, we 
would see some adverse consequences. We'd see less variety and too much 
ground cover, for example, as well as more cheatgrass and the potential 
for more range fires.''\7\ Oregon experienced the worst wildfire season 
in recorded history last summer. The lack of land managers' ability to 
use practices such as grazing to reduce fuels, along with the extreme 
fire conditions and behavior, all combined to create this disaster.
---------------------------------------------------------------------------
    \6\ Ranching as a Conservation Strategy: Can Old Ranchers Save the 
New West? Mark W. Brunson and Lynn Huntsinger. Rangeland Ecology 
Management 61:127-147 March 2008.
    \7\ ``Vegetation Change after 65 Years of Grazing and Grazing 
Exclusion.'' Barry Perryman. Journal of Rangeland Management Dec. 2004.
---------------------------------------------------------------------------
    A study by Mark W. Brunson and Lynn Huntsinger published in the 
journal Rangeland Ecology Management explained that ``Saving ranches 
has become a focus not only of rural traditionalists and livestock 
producers but also of conservationists, who prefer ranching as a land 
use over exurban subdivisions.''\8\
---------------------------------------------------------------------------
    \8\ Ranching as a Conservation Strategy: Can Old Ranchers Save the 
New West? Mark W. Brunson and Lynn Huntsinger. Rangeland Ecology 
Management 61:127-147 March 2008.
---------------------------------------------------------------------------
Economic Benefits of a Stable Public Lands Grazing Industry
    Meanwhile, countless communities across the West depend upon the 
continued existence of ranchers who hold public land grazing permits. 
Many communities across the West, where public lands account for 
roughly half of the landmass, depend just as we do on the tax base, 
commerce, and jobs created by the public land grazing industry.
    Indeed, the national-level statistics give light to the importance 
of public lands grazing. The latest available data show that there were 
over 8.9 million animal unit months (AUMs) of grazing authorized on BLM 
lands in 2012. This grazing was administered through roughly 18,000 
permits and leases.\9\ In 2008 (latest available data), the USFS issued 
more than 8,000 permits in the fifteen western, representing roughly 
6.9 million AUMs.\10\ While false data is often cited showing the 
relatively small amount of beef or lamb that is produced on public 
lands, such statements ignore the importance of these lands in an 
integrated ranching operation. Approximately 40 percent of beef cattle 
in the West and half of the nation's sheep spend some time on federal 
lands. Without public land grazing, the cattle and sheep industries 
would be dramatically downsized, threatening infrastructure and the 
entire market structure. Certainly, with the national cattle herd size 
at its lowest level for 60 years-and trending downward- losing our 
western producers would have a destabilizing effect on the U.S. food 
supply.
---------------------------------------------------------------------------
    \9\ Fact Sheet on BLM Management of Livestock Grazing, February 
2013. Available at http://www.blm.gov/wo/st/en/prog/grazing.html.
    \10\ USDA--USFS, Annual Grazing Statistical Report, Grazing Season 
2009
---------------------------------------------------------------------------
    Of great importance to the economic viability of many western 
ranches is the stability of the federal lands grazing permits 
associated with the private base property. These permits are a value 
property interest of the ranchers who hold them. They represent a 
rancher's ``grazing preference,'' which is exclusive, taxed, included 
in a ranch's deed, transferrable, and the subject of equitable 
protection (all attributes of a property right)\13\. Congress passed 
the Taylor Grazing Act in 1934, which led to the establishment of 
grazing allotments, giving preference rights to forage to ranchers who 
had a history of using the range and who owned private ``base'' 
property nearby. Grazing permits (much like building permits or water 
permits) are the mechanism through which this grazing preference right 
is administered. In order to ensure the continuation of the 
environmental and economic benefits of grazing, this valuable property 
interest, granted protection under the law, must be defended.
---------------------------------------------------------------------------
    \13\ The Right to Graze Livestock on the Federal Lands: The 
Historical Development of Western Grazing Rights, Idaho Law Review, 
Spring, 1994
---------------------------------------------------------------------------
Challenges to the Industry
    Despite the broadening acclaim for public lands livestock grazing's 
environmental and economic benefits, today's public land livestock 
industry faces challenges unlike ever before, making the aforementioned 
goals of a stable business environment and long-term grazing plans 
increasingly difficult to achieve. Private ranchland values in the west 
have skyrocketed based on competing uses-primarily rural subdivision 
development. Increasing land values render the estate tax a bigger 
threat than ever, making succession planning an ominous prospect for 
future generations of ranching families. Enhanced livestock genetics 
and current market prices for sheep and cattle have combined with the 
rising land prices to dramatically increase the need for operating 
capital-and at the same time, agricultural lenders are demanding 
greater long-term certainty in livestock operations. Burgeoning 
government regulation and the resulting litigation demand ever-greater 
investment of both financial and human resources. Extreme, predatory 
``environmental'' groups wage a constant, partly taxpayer-funded war 
against public lands grazing.\11\ Together, these and other factors 
create a business environment that is less stable than ever.
---------------------------------------------------------------------------
    \11\ Budd Falen, K. (2005). Environmental Organization's use of 
NEPA to Eliminate Land Use and Obtain Attorneys' Fees Under the EAJA. 
Legal Memorandum, November, 2005.
---------------------------------------------------------------------------
    Adding to the uncertainty is the changed nature of the grazing 
permit renewal process. In the 1960s, renewal of term grazing permits 
every ten years on both BLM and USFS lands was little more than an 
administrative exercise. The permit renewal routinely arrived in the 
mail it was signed and returned to the agency for final execution, 
completing the renewal process. Any on- the-ground issues regarding 
management were addressed during the many opportunities that the agency 
range personnel and I had to spend time together in the field.
    Today, permit renewals are subject to compatibility with a Resource 
Management Plan or Land Use Plan, prior environmental analysis under 
the National Environmental Protection Act (NEPA), a potential need for 
consultation under Section 7 of the Endangered Species Act and the 
likely appeal by an anti-grazing organization that has been granted 
``interested public'' status by the agency and standing by the courts. 
The opportunities that our members once appreciated to spend time in 
the field with range personnel have become scarce as agency personnel 
are inundated by process, Freedom of Information Act requests and 
endless appeals. The NEPA analysis now deemed necessary is seldom 
completed in a timely manner. As a result, ranchers with public land 
grazing permits have, for the past ten years, been at the mercy of the 
annual congressional appropriations rider to allow permits to be 
renewed in a timely manner. S. 258 would alleviate this annual 
cliffhanger, codifying language that has been approved annually by 
Congress for over a decade.

Challenges Facing the Federal Land Management Agencies
    As noted above, new regulations and resulting litigation have added 
dramatically to agency workloads. Over the past decade, the agencies 
have operated under pressure to produce environmental analyses on 
permit renewals either under a schedule imposed by Congress, or under 
self-imposed schedules. These timelines have seldom been met. Last 
year, the NEPA backlogs impacting permit renewals amounted to 4,200 and 
2,700 for the BLM and USFS, respectively. The backlogs continue to 
exist, with no end in sight. Time pressures have led to NEPA analysis 
that is frequently either substantively or procedurally inadequate and 
is therefore subject to successful administrative and judicial 
challenge. Reducing the requirement for perfunctory environmental 
analysis, as S. 258 proposes to do, would enable the agencies to be 
more thorough when analyzing actions that actually impact the resource. 
It would also help reduce the opportunity for litigation by extreme 
anti-grazing groups who, by virtue of fee- shifting statutes such as 
the Equal Access to Justice Act, have made a cottage industry out of 
process-based litigation, draining agency budgets and reaping taxpayer 
dollars to the tune of millions, annually.

S. 258 Offers Solutions
    As noted above, proper range management, economic certainty at the 
individual, community, and west-wide levels, land management agency 
workloads, and taxpayers would all benefit from a longer-term approach 
to the permitting of public lands grazing. S. 258 takes a sizeable step 
in that direction.
    Section 2 of the bill extends the life of grazing permits from 10 
to 20 years. This critical change will bring needed certainty, improved 
range management and greater agency efficiency. In the context of this 
change to a 20 year permit, it is important to note that the ability of 
the agency to make needed management adjustments through the annual 
authorization to graze (BLM) or annual operating plan (USFS) is not 
diminished. In addition, the agencies retain the authority to issue 
shorter term permits under special conditions. Lengthening term grazing 
permits from 10 to 20 years provides more certainty to permittees and 
reduces process burdens on the land management agencies, all while 
retaining current standards for adjusting on-the-ground practices.
    Section 3--As referenced above, federal lands ranchers have relied 
for more than a decade on language being included into annual 
appropriations bills to allow the agencies to renew grazing permits on 
federal lands under current terms and conditions until the renewal 
process is complete. S. 258 would codify that language. The bill 
recognizes that the renewal, reissuance or transfer of a permit does 
not, per se, have a resource impact so long as there is no significant 
change in the grazing management. By categorically excluding these 
actions from the requirement to prepare an environmental analysis, this 
section restores the role of environmental analysis to its proper 
function-an analysis of the potential impacts of a commitment of 
resources (changes to an RMP or Forest Plan) or a significant new on-
the-ground activity. This section also takes a practical approach by 
properly acknowledging that minor modifications to renewed, reissued or 
transferred permits are acceptable, so long as they do not interfere 
with the achievement of or progress toward land and resource management 
plan objectives, and so long as extraordinary circumstances do not 
indicate a need for further analysis. Additionally, in order to solve a 
problem with crossing permits we have seen in my home state of Oregon, 
S. 258 would correctly exclude the issuance of crossing and trailing 
permits from NEPA analysis. There is no need for endless analysis of an 
activity with minimal impact which takes place in an effort to comply 
with the terms and conditions of underlying term grazing permits.
    Taken together, Sections 2 and 3 represent a major step toward 
returning the focus of public land grazing to on-the-ground activities 
including management plans and range improvements. The resource, the 
land management agencies and the grazing permittees-and thus, 
ultimately, the local and national economies-all stand to benefit from 
these adjustments. Entities that oppose these commonsense provisions 
show their true intensions: removal of all livestock from public lands 
with no real interest in the health of the natural resources or the 
economy.

Conclusion
    All but the most extreme opponents of public lands grazing 
acknowledge that the continuation of grazing on public lands is 
essential to maintaining the integrity of landscapes in the West. Given 
the mosaic pattern of land ownership in most public land areas, a 
majority of ranches in these areas are not economically viable ranching 
operations without access to forage on public lands. These associated 
intermingled private lands will often readily find a market as rural 
subdivisions and other non-agricultural uses. The resulting land 
fragmentation equates to a loss of wildlife habitat, open space and 
scenic vistas, and public access. This can diminish the value of the 
public lands themselves for recreational use. Keeping ranchers in 
business is good policy for conservation of both private and public 
land.
    Most public land ranchers do not want to develop their private 
lands. It is not in the public interest to drive them to do so by 
increasing the uncertainly that they face in continuing public lands 
ranching. Over the past 10 years, many states have seen an increase in 
the use of conservation easements. The primary reason for doing so is 
to provide another tool to keep private ranchlands in ranching. 
However, as we visit with public land ranchers, we often hear, ``I 
would be very interested in placing an easement on my private land if 
my grazing permit were more secure. If I lose the permit, I will have 
little choice but to subdivide my land.''
    There are certain times when small steps can produce large results. 
In S. 258, Senator Barrasso takes those small steps. The results will 
include greater stability for the livestock industry, a renewed focus 
on long-term resource management, enhanced agency efficiency and 
flexibility, and continuation of the broad public benefits provided by 
both public and private lands in the West. On behalf of the Public 
Lands Council, National Cattlemen's Beef Association and the Oregon 
Cattlemen's Association and, most significantly, over 22,000 families 
who depend on public land grazing, I urge your support for this 
legislation.
    Thank you for the opportunity to provide testimony on the Grazing 
Improvement Act. I am happy to submit to the record responses to any 
questions you may have.
                                 ______
                                 
          Statement of Patricia Quintana, Executive Director, 
                  Taos Land Trust, Taos, NM, on S. 312

    I am writing in support of S. 312, the Carson National Forest 
Boundary Adjustment Act, introduced by New Mexico Senators Tom Udall 
and Martin Heinrich. I am very grateful that your Senate Energy and 
Natural Resources subcommittee is holding a hearing on this important 
piece of legislation for New Mexico on April 25, 2013. I am very 
hopeful that this bill will move fotward through the committee and 
Senate as quickly as possible.
    S. 312 is an impmtant bill for my community. It will adjust the 
boundaries of the Carson National Forest to include the 5,000 acre 
Miranda Canyon tract, protecting our local drinking water supplies and 
ensuring that this high-value resource land is open to the public 
forever. Adding Miranda Canyon to the forest will provide residents and 
visitors with enhanced opportunities to hike, hunt, mountain bike and 
generally enjoy the outdoors.
    The Miranda Canyon acquisition is strongly supported by the local 
community in Taos, including our county commission. In addition to 
expanding recreational access, the project will protect water resources 
within the Rio Grande watershed, a segment of the Old Spanish National 
Historic Trail, wildlife habitat, and the scenic viewshed from the 
valley towards Picuris Peak. All of these attributes contribute to the 
economy and quality of life in Taos County.
    Thank you for your consideration of this important piece of 
legislation before your committee.
                                 ______
                                 
 Statement of Kevin S. Carter, Director Utah School and Institutional 
        Trust Lands Administration, Salt Lake City, UT, on S. 27

Introduction
    On behalf of the Utah School and Institutional Trust Lands 
Administration, I thank the subcommittee for the opportunity to provide 
a statement in support of S. 27, the Hill Creek Cultural Preservation 
and Energy Development Act. I also wish to thank the leadership of the 
Ute Tribe of the Uintah and Ouray Reservation for their unanimous and 
continued support of S. 27 and predecessor efforts, and Utah Senators 
Orrin Hatch and Mike Lee for their sponsorship of this legislation. S. 
27 will permit resolution of a 64 year old land tenure problem, protect 
reservation lands with outstanding values for wildlife and other 
biological and scenic resources, promote tribal economic development, 
and help fund public schools in Utah.

About SITLA
    The School and Institutional Trust Lands Administration (``SITLA'') 
is an independent, non- patiisan state agency established to manage 
lands granted by Congress to the State ofUtah at statehood for the 
financial support of K-12 public education and other state 
institutions. SITLA manages approximately 3.3 million acres of state 
trust lands, and an additional million acres of mineral estate. Revenue 
from school trust lands--most of which comes from mineral development--
is deposited in the Utah Pennanent School Fund, a perpetual endowment 
suppmiing K-12 public schools. Investment income from this endowment is 
distributed annually to each public and charter school in Utah to 
supp01i academic priorities chosen at the individual school level.

Background
    In the 1930s and early 1940s, substantial conflict arose between 
Indian and non-Indian ranchers over the rights to graze cattle on the 
public domain in southern Uintah and northern Grand Counties, Utah. The 
Department of the Interior's Indian service (now the Bureau of Indian 
Affairs) proposed resolution of these disputes through the addition of 
a 510,000-acre area of public domain to the existing Uintah and Ouray 
reservation. The addition, which came to be known as the Hill Creek 
Extension, was fonnalized by Congress through the Act of March 11, 
1948, 62 Stat. 72 (the ``Hill Creek Act''). Because the focus of the 
Hill Creek Act was protection of tribal grazing uses, large areas of 
previously withdrawn mineral rights under the extension were retained 
by the Bureau of Land Management (``BLM'') as part of the public 
domain, rather than becoming tribal minerals. A map* showing mineral 
ownership within the extension is attached as Exhibit `T' and a general 
location map of the Hill Creek Extension is attached as Exhibit r to 
this statement.
---------------------------------------------------------------------------
    * All maps have been retained in subcommittee files.
---------------------------------------------------------------------------
    At the time that the Hill Creek Extension was created, the State of 
Utah also owned approximately 38,000 acres of state school trust lands 
inside the extension, most of which were scattered sections in the 
familiar ``checkerboard'' pattern of western land ownership. 
Recognizing the potential need to remove state trust lands from the 
extension, Congress included provisions in the Hill Creek Act allowing 
the State to relinquish state trust lands within the extension to the 
United States for the benefit of the tribe, and to select replacement 
lands from public lands ``outside the area hereby withdrawn.'' In 1955, 
Congress amended the Hill Creek Act to clarify that this right of 
relinquishment and selection extended to lands ``mineral in character. 
. . . Pub. L. 263, 69 Stat. 544 (Aug. 9. 1955)(the ``1955 Act'').
    In 1957, the Utah legislature authorized the State Land Board 
(SITLA 's predecessor agency) to sell the surface estate of all state 
trust lands located in the Hill Creek Extension to the Ute Tribe for 
$2.50/acre. L. Utah, ch. 144, Sec. 1-3 (1957), cod fied at Utah Code 
Ann. Sec. Sec.  65-83, -85 (1961)(repealed). This legislation expressly 
required the State to reserve the mineral estate and the right of 
ingress and egress to develop such minerals. The sale of surface lands 
authorized by the state legislation was consummated in 1958, leaving 
Utah's school trust with approximately 38,000 acres of subsurface 
mineral estate within the extension.

Need for the Current Legislation
    In the intervening years, SITLA and its predecessor agencies and 
the Ute Tribe have maintained a cordial and cooperative relationship in 
connection with the development of state school trust minerals within 
the Hill Creek Extension. Because ofthe area's remote geographic 
location, there has not been significant industry demand for the 
development of minerals in the southern part of the extension until 
recently. With recent industry interest in the area, the Ute Tribe has 
evaluated competing values and dete1mined that it wishes to maintain 
the far southern portion of the extension--that portion of the 
extension located in the Book Cliffs area of Grand County, Utah-as an 
unspoiled area protected for religious and cultural values, as well as 
wildlife and wilderness. The BLM Vernal Resource Management Plan 
desc1ibes this area as follows:

          The Hill Creek Extension Book Cliffs ``wilderness'' is where 
        relatively undisturbed natural values interrelate to 
        Triballifeways and religious pursuits. In these Tribal 
        sensitive areas, construction, operation and sights and sounds 
        of oil and gas wells and associated support facilities would 
        degrade the roadless and natural character of undisturbed 
        areas.

    To accommodate the Ute Tribe's desire to maintain the Grand County 
portion of the Hill Creek Extension in its undeveloped character, SITLA 
filed an application with BLM in 2006 seeking to relinquish 18,247.54 
acres of state trust minerals in the Grand County portion of the 
extension to the United States for the benefit of the tribe, and to 
select replacement minerals from BLM mineral estate further north in 
the Hill Creek Extension. This relinquishment and request for selection 
was made in accordance with applicable provisions of the 1948 Hill 
Creek Act and its 1955 amendment.
    BLM has declined to process SITLA's application on the basis that 
public domain (i.e. non- tribal) minerals managed by BLM within the 
Hill Creek Extension are not ``outside the area . . .  withdrawn'' by 
the 1948 and 1955 acts. Both the Ute Tribe and SITLA disagree with 
BLM's conclusion in this regard since Congress expressly chose not to 
withdraw BLM-managed minerals when it created the Hill Creek extension. 
These mineral lands are open and unappropriated, and should be 
available for selection.
    BLM and the Office of the Solicitor in the Department of the 
Interior have drawn the opposite conclusion, contending that BLM 
minerals within the extension are not subject to selection. S. 27 would 
override this conclusion, and confirm that the State of Utah, upon 
relinquishment of mineral estate within the Grand County portion of the 
Hill Creek Extension, may select BLM mineral estate within the exterior 
boundaries of the extension in Uintah County.
    It should be noted that under the Hill Creek Act and its 1955 
amendment, SITLA has the unquestioned right to select BLM lands outside 
the Hill Creek Extension elsewhere in Utah. SITLA and the Ute Tribe are 
jointly pursuing S. 27 because they believe that a selection of BLM 
minerals inside the extension is most beneficial to all parties 
involved. If S. 27 is not enacted, SITLA will either select replacement 
lands from public lands outside the extension, or lease its existing 
mineral estate to industry.

Description of S.27
    S. 27 adds a new section 5 to the Hill Creek Act. This new section 
5 does two things. First, it clarifies that upon the State's 
relinquishment of minerals within the Hill Creek Extension, the State 
may use the 1948 and 1955 acts to select replacement minerals from BLM 
minerals in the Uintah County portion of the extension on an acre for 
acre basis. Second, it provides that the United States will reserve an 
overriding mineral interest in all lands conveyed to the State equal to 
the percentage of revenue that the United States would have retained 
under the federal Mineral Leasing Act had the lands remained in federal 
ownership and been leased at the current time. The State of Utah would 
reserve an identical interest in the state lands relinquished to the 
United States for the benefit of the tribe.
    The mineral reservation provisions are drafted to ensure that both 
the federal treasury and the State school trust are held harmless by 
the relinquishment/selection process. BLM minerals that would be 
selected by Utah are currently not leased for oil and gas, but are 
thought to be prospective, particularly for natural gas. The State 
trust lands that would be relinquished to the United States for the 
benefit of the tribe are similarly prospective. Appraisals of 
prospective but nonproducing mineral lands are expensive and inherently 
unreliable due to the many unknowable variables involved in determining 
potential resources and their likelihood of production. The mineral 
reservation provisions of S. 27 avoid the expense and unreliability of 
mineral appraisals by sharing revenue from each set of lands equally.
    Under existing federal law, the United States retains 50 percent of 
bonuses, rentals and royalties from mineral production on federal 
lands, with the remaining half transferred to the state of production. 
30 U.S.C. Sec.  191. After the State's acquisition of BLM minerals 
through S. 27, the United States would still retain all revenue that 
the United States treasury would have received from leasable minerals 
had the U.S. retained ownership of the lands, i.e. 50 percent of 
bonuses and rentals, and a share of royalties equal to the federal 
share of production royalties (6.25 percent in the case of oil and gas, 
different amounts for tar sands and oil shale). This language would 
ensure that the U.S. treasury and federal taxpayers are held ham1less 
in the transaction, while saving the United States management and 
royalty collection costs.
    In connection with the identical language passed by the House of 
Representatives in the last Congress, H.R. 4027 (I 12th Cong., 2d 
Sess.), the Congressional Budget Office (CBO) detem1ined that enacting 
the legislation would have no impact on federal direct spending or 
revenues over the ten year CBO analysis period:

          H.R. 4027 would authorize a transfer of federally owned 
        subsurface mineral rights for an equivalent number of acres of 
        state land. However, the acres transferred may not have the 
        same value because mineral deposits are not evenly spread 
        across all areas. To compensate for such a potential imbalance, 
        H.R. 4027 would preserve the federal government's existing 
        financial rights to the value of any subsurface minerals that 
        are developed on all properties . . . . Therefore, CBO 
        estimates that enacting the legislation would have no impact on 
        direct spending or revenues over the 2013-2022 period.

    A copy of the CBO Cost Estimate is attached as Exhibit ``3'' to 
this statement.
    Utah's school trust would likewise share in half of any revenue 
from the relinquished lands, although subsection 5(5) provides that 
neither party is obligated to lease lands in which the other party 
retains a reserved interest. Thus, if the Ute Tribe chooses not to 
permit leasing oflands relinquished by the State, no revenue would be 
generated for the State school trust.
    This type of arrangement has legislative precedent. Sharing of 
revenue by pa1iies exchanging land was a critical component of the 
large state-federal land exchange, Project BOLD, championed by Utah 
Governor Scott Matheson. More recently, in connection with the Utah 
Recreational Land Exchange Act of 1009, Public Law 111-53 (``URLEA . . 
. ''), BLM and SITLA recognized that any formal appraisal of oil shale 
would be expensive and inaccurate, and jointly asked Congress to 
include language for oil shale identical in effect to that contained in 
S. 27. URLEA was enacted with this language. S. 27 simply extends the 
concept to all Jeaseable minerals.
    SITLA has received feedback about S. 27 raising two questions: (1) 
why does the legislation not provide for formal mineral appraisals; and 
(2) why does the legislation base the reserved royalty interest of each 
party on the existing royalty rate structure rather than allowing the 
federal reserved interest to rise if federal royalty rates rise in the 
future? The answers to these questions are as follows:

          (1) The proposal does not require formal mineral appraisals 
        because appraisals of prospective but nonproducing mineral 
        lands are expensive and inherentl y unreliable due to the many 
        unknowable variables involved in determining potential 
        resources and their likelihood of production. SITLA and BLM are 
        currently engaged in mineral appraisals in connection with the 
        Utah Recreational Land Exchange Act of 2009, Pub. L. 111-53 
        (``URLEA . . . ). The cost of mineral appraisals in the URLEA 
        exchange was so high that BLM was unable to fund its share of 
        costs for over three years after congressional enactment. In 
        the current age of sequestration, it seems unlikely that BLM 
        will be able to fund a similar project in the foreseeable 
        future. Mineral appraisals have been a major sticking point in 
        other contexts, causing the failure of legislation to exchange 
        Utah school trust lands out of national forests and parks (Pub. 
        L. 103-93, although that failure was subsequently rectified 
        through the Grand Staircase-Escalante National Monument 
        exchange, Pub. L. 105-335). The mineral reservation provisions 
        of S. 27 would avoid the expense and unreliability of mineral 
        appraisals by sharing revenue from each set of lands equally. 
        As CBO noted, this would have no direct impact on federal 
        revenues, because the legislation would preserve the federal 
        government's existing financial rights in the selected lands.

          (2) H.R. 4207 would give the United States an overriding 
        interest in the lands to be acquired by SITLA equal to 6.25 
        percent of proceeds from oil and gas, and equal to 50 percent 
        of the royalty rate from other leaseable minerals, based on 
        royalty rates as of October 1, 2011 (the date this proposal was 
        first incorporated into proposed legislation). These 
        provisions, as noted above, would ensure that the United States 
        would receive revenue equivalent to that it would receive if 
        the lands remained in federal ownership, based on the existing 
        federal royalty structure. As noted below, SITLA and the Ute 
        Tribe are joining together to develop the selected lands for 
        mutual benefit. If the United States could unilaterall y raise 
        its share of revenue from those lands at a later date- reducing 
        or eliminating the share of the Utah school trust and the Ute 
        Tribe--neither pruty would have the economic certainty 
        necessary to proceed with the transaction. This would result in 
        SITLA either selecting replacement lands from public lands 
        outside the extension under existing authority, or leasing its 
        existing mineral estate in the extension to industry.

    It is important to note that the United States is currently 
receiving nothing from the lands to be selected, and will not unless S. 
27 is passed. Although there is some legal uncertainty about the issue, 
the United States has taken the position that the Tribal Consent Act, 
25 U.S.C. Sec. 324, requires tribal consent for surface occupancy of 
the lands to be selected, as well as any necessary access rights-of-
way. By tribal ordinance, such consent is not available to any 
prospective federal lessee, so there is no prospect of future royalty 
revenue to the federal treasury from the BLM minerals to be selected by 
SITLA under S. 27. This is true no matter how high the United States 
raises the royalty rate for federal oil and gas: a higher percent of 
zero is still zero.

Tribal Economic Development
    One of the great success stories in Native American economic 
development in recent years has been the growth in active participation 
by tribes in the business of mineral development on tribal lands as 
well as lands outside of reservation areas. The Energy Policy Act of 
2005 (Pub. L. 109-58) included a Title V entitled the Indian Tribal 
Enerry Development and Self Determination Act. This Act authorized 
considerably brreater autonomy for tribes in the development of tribal 
energy resources. The Ute Tribe of the Uintah and Ouray Reservation has 
embraced this opportunity in its goal of tribal self-determination and 
financial autonomy.
    If H.R. 4207 is enacted, SITLA has agreed to join with the Ute 
Tribe in development of the selected lands for mineral extraction in a 
prudent and responsible manner. A joint transaction of the nature 
contemplated by SITLA and the Tribe would add 18,257 acres to the 
Tribe's mineral portfolio, creating jobs and supporting financial self-
sufficiency for tribal members. The Utah legislature and both Grand and 
Uintah Counties have supported the proposed legislation as well.

Conclusion
    S. 27 will allow the Ute Tribe to eliminate the possibility of 
surface-subsurface conflict arising from the presence of state school 
trust minerals underlying sensitive lands in the south portion of the 
Hill Creek extension. It will allow Utah's school trust to generate 
revenue for K-12 public education in Utah, and allow the Ute Tribe to 
generate additional revenue to support tribal economic independence, 
without cost to federal taxpayers. I respectfully urge the 
subcommittee's support for S. 27. Thank you for the opportunity to 
provide this statement.
                                 ______
                                 
                                     Western Organizations,
                                                    April 22, 2013.
Hon. Harry Reid,
Majority Leader, U.S. Senate, S-221 Capitol Building, Washington, DC.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Mitch McConnell,
Minority Leader, U.S. Senate, S-230 Capitol Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources,304 Dirksen 
        Senate Office Building, U.S. Senate, aqWashington, DC.
    Dear Majority Leader Reid, Minority Leader McConnell, Chairman 
Wyden and Ranking Member Murkowski:
    On behalf of our respective organizations, we write in support of 
S. 368, the Federal Land Transaction Facilitation Act Reauthorization 
of 2013 (FLTFA reauthorization), a critical lands bill for the West. We 
urge you to advance S. 368 quickly through Committee and pass it in the 
Senate, in order to reinstate this important program as soon as 
possible. Our groups and many others are eagerly waiting for Congress 
to reinstate the program.
    FLTFA is a common-sense lands tool that achieves economic and 
environmental goals. Through FLTFA's ``land for land'' concept, the 
Bureau of Land Management (BLM) sells lands identified for disposal, 
generating revenue for high-value federal conservation projects with 
willing sellers in the West. Through this balanced approach, the BLM 
has more capacity to sell land to private land owners, counties, 
companies and others for ranching, community development, businesses 
and various projects. The sales revenue fuels jobs and allows federal 
agencies to acquire high-priority lands with recreational access, 
historic significance, ecological importance and other conservation 
values. Before it expired, FLTFA funded 39 projects throughout the 
West, including creating public access for trout fishing along the 
North Platte River in Wyoming, hiking in the heart of Hells Canyon 
Wilderness in Arizona, and exploring ancient Pueblo ruins at Canyons of 
the Ancients National Monument in Colorado. The conservation purchases 
often enhanced the tourism and recreation economies of local 
communities through retail sales, hotels, restaurants, gas stations and 
more. FLTFA helped consolidate inholdings to allow for better 
management of public lands.
    The revenue also provides funding for BLM realty staff to conduct 
the program. Without the FLTFA program, BLM has very limited funding to 
conduct sales, appraisals, acquisitions and other real estate 
procedures that benefit communities, ranchers, farmers, businesses and 
others.
    As the bill moves forward, we look forward to working with you and 
your staff. Please reauthorize FLTFA as soon as possible, in order to 
provide benefits for local economies, communities, agencies and 
conservation.
            Sincerely,

Access Fund
Agua Fria Open Space Alliance, Inc.
Ala Kahakai Trail Association
American Bird Conservancy
American Canoe Association
American Hiking Society
American Horse Council
American Sportfishing Association
American Whitewater
Arizona Trail Association
Audubon New Mexico
Backcountry Horsemen of America
Backcountry Horsemen of California
Backcountry Horsemen of Washington
Backcountry Hunters and Anglers
Boone and Crockett Club
0Carson Valley Trails Association
Citizen's for Dixie's Future
Colorado Mountain Biking Association
Columbia Land Trust
Congressional Sportsmen's Foundation
Conservation Lands Foundation
Ducks Unlimited
Endangered Habitats League
Friends of Ironwood Forest
Friends of the Missouri Breaks Monument
Friends of the Sonoran Desert National Monument
Grand Canyon Wildlands Council
Grand Staircase Escalante Partners
Great Old Broads for Wilderness
Greater Yellowstone Coalition
Hancock Natural Resource Group
Henry's Fork Foundation
Idaho Conservation League
Idaho Rivers United
International Mountain Bicycling Association
Japanese American Citizens League
Klamath-Siskiyou Wildlands Center
Land Trust Alliance
Legacy Land and Water Lewis and Clark Trust, Inc. Montana
Wilderness Association
Mule Deer Foundation
National Alliance of Forest Owners
National Parks Conservation Association
National Trust for Historic Preservation
National Wild Turkey Federation
National Wilderness Stewardship Alliance
National Wildlife Federation
Nevada Land Trust
Old Spanish Trail Association
Oregon Natural Desert Association
Oregon-California Trails Association
Outdoor Alliance
Outdoor Alliance
Outdoor Industry Association
Pacific Crest Trail Association
Pacific Northwest Trail Association
Partnership for the National Trails System Public Lands Foundation
Pure Fishing
Rocky Mountain Elk Foundation
San Juan Citizens Alliance
Santa Fe Trail Association
Scenic America
Sierra Club
Soda Mountain Wilderness Council Superstition Area Land Trust
Teton Regional Land Trust
The Appalachian Trail Conservancy
The Conservation Fund
The Mountaineers
The Nature Conservancy
The Trust for Public Land
The Wilderness Land Trust
The Wilderness Society
Theodore Roosevelt Conservation Partnership
Trout Unlimited
Truckee Meadows Trails Association
Tuleyome
Western Rivers Conservancy
Wild Sheep Foundation
Wildlife Management Institute
Winter Wildlands Alliance
                                 ______
                                 
            Statement of The Wilderness Society, on S. 341,

    Chairman Wyden, Ranking Member Murkowski, and Members of the 
Committee:
    On behalf of The Wilderness Society and its half million members 
and supporters nationwide, and on behalf of the organizations listed 
above, I would like to thank the Committee for considering the San Juan 
Mountains Wilderness Act of 2013. This bill would not only protect some 
of Colorado's beloved scenic wild country, it is also the product of 
years of painstaking research and consultation with a myriad of 
interested and affected stakeholders in southwest Colorado. I would 
especially like to thank Senator Udall for his long-standing dedication 
to land protection, and commitment to protecting these deserving areas. 
I also want to thank Senator Michael Bennet, who is an original 
cosponsor of S.341.
    Colorado has a long and rich tradition of wilderness protection, 
with nearly twenty bills enacted over the last 45 years. All of these 
have shared the characteristics of broad citizen and stakeholder 
support and cooperation among the State's delegation members. The San 
Juan Mountains Act is carrying on this proud Colorado tradition.
    This legislation had its genesis with the interest of San Miguel 
County citizens in adding deserving wild land areas to the already 
designated Mt. Sneffels and Lizard Head Wildernesses, and adding 
statutory protection to several other spectacular and qualifying 
backcountry landscapes. Residents of neighboring counties also 
advocated protection for deserving contiguous lands outside San Miguel 
County, and by the Spring of 2009, the proposal included lands in three 
counties (San Miguel, Ouray, and San Juan), and enjoyed nearly 
universal support in the region. More detail about that follows.
    Colorado's San Juan Mountains offer a myriad of benefits and 
services to residents of Colorado and visitors from across the nation. 
Spectacular mountain vistas, clean water and air, ongoing ranching 
operations, healthy wildlife populations, and a wide variety of world-
class recreational opportunities, from hunting and angling to skiing, 
hiking, and boating. In decades past, hard rock mining was a major 
force in the region's development; evidence of this history is 
scattered across the landscape in the form of weathered mill sites, 
mine shafts, and tailings piles. As the economic drivers in the 
intermountain West steadily evolved during the post-war 20th century, 
and outdoor recreation grew in popularity, local communities looked 
increasingly toward tourism and recreation as a significant part of 
their economic foundations. Visitors come to the region in large 
numbers to enjoy not only backcountry challenges, but also to 
experience the area's rich history. Thousands of tourists ride the 
original narrow gauge train from Durango to Silverton each year, to 
wander the town's historic main street or learn about the region's 
mining history.
    As one measure of this modern economy, hunting and fishing alone 
brought in, in direct expenditures, $7.2 million in San Miguel County, 
$2.4 million in Ouray County, and $1.3 million in San Juan County in 
2002. Hunting and fishing groups routinely emphasize the importance of 
protected lands as the basis for healthy game populations.
    As the economy of the San Juan Mountains region has evolved into 
what it is today, and as more and more people visit to experience the 
natural and recreational values offered by the area's public lands, the 
protection of those lands has become increasingly valued by local 
residents, stakeholders, and elected officials. This phenomenon has 
occurred concurrent with our increasing knowledge of the importance of 
large areas of undisturbed land for a broad array of wildlife, both to 
maintain functioning natural systems, and for the human benefits that 
healthy wildlife populations provide. Protective designations also help 
to ensure the resiliency of these areas in the face of climate change.
    Protected public lands provide a critical benefit to local 
communities in the form of clean water and air. Each of the areas 
proposed for permanent protection in this legislation contain portions 
of the watersheds that comprise the water supplies of Telluride, Ouray, 
Ridgway, and Silverton. Wilderness will keep those watersheds intact 
and ensure they are able to provide clean water to those communities in 
perpetuity.

Natural and Human Values of the San Juan Mountains
    The San Juan Mountains, and pointedly the areas proposed for 
protection in this legislation, offer a rich array of natural and 
environmental values. The existing Mt. Sneffels and Lizard Head 
Wilderness areas are the headwaters of the San Miguel, Dolores, and 
Uncompahgre Rivers, and many of their tributaries, such as Deep Creek, 
Dallas Creek, Bilk Creek, and Wilson Creek. Areas in the legislation 
make up large portions of the municipal water supplies for towns in all 
three counties. These waterways also offer some of the West's finest 
fishing opportunities--anglers from across the country come to 
southwest Colorado to fish for many species, including the iconic 
Colorado Cutthroat Trout.
    What wildlife of all kinds needs more than anything is space--large 
areas of land in which to feed, grow, and bear their young. The 
mountain areas in the legislation will expand the core habitat already 
protected in the Mt. Sneffels and Lizard Head Wildernesses, and 
increase the elevation range of existing protected areas by adding 
habitat rich down-slope areas. The Sheep Mountain designation would add 
another significant core habitat area, and improve the wildlife 
connectivity to protected areas on the San Juan National Forest, like 
the Weminuche Wilderness. These mountain designations will benefit 
existing populations of Black bear, elk, bighorn sheep, and bird 
species such as the white-tailed ptarmigan, and provide critical 
habitat for other wildlife such as Canada lynx and Northern goshawk.
    Moving down from the higher mountain areas, the proposed McKenna 
Peak Wilderness and mineral withdrawal for Naturita Canyon would 
protect mid-elevation lands critical as winter range for deer and elk 
(North Mountain, which borders McKenna Peak, contains one of the 
largest deer and elk herds in Colorado), as well as habitat for such 
species as mountain lion, bald eagle, and peregrine falcon. The mineral 
withdrawal proposed for Naturita Canyon would protect more of these 
vital lands, benefitting not only the resident deer, elk, bobcat, 
raptors and rare birds like the Mexican spotted owl; but a rich 
riparian zone as well.
    Ecosystem representation, or selecting areas for protection that 
represent a full range of habitats and vegetation types, is a way of 
ensuring protection of the species that rely on these various 
ecosystems for survival. The Nature Conservancy, which practices this 
``coarse filter'' method, estimates that 85 percent to 90 percent of 
all species in a region can be protected via ecosystem representation. 
Protecting down-slope mountain landscapes, as well as mid-elevation 
areas like McKenna Peak and Naturita Canyon would expand ecosystem 
representation in the region; this helps fulfill the purposes not only 
of the 1964 Wilderness Act, but of conservation biology overall.
    Agriculture has a rich history in the San Juan Mountains, and not 
only provides a long-standing livelihood for multi-generational 
families, but also forms an essential part of the cultural fabric of 
the entire region. There are nearly a dozen working ranches with 
allotments that overlap the areas in the legislation. These ranch 
operators were all consulted as the legislation was crafted; following 
is a quote from Ouray County rancher Liza Clarke, owner of the Ferguson 
Family Ranch, from a letter to former Congressman John Salazar, who 
introduced a House version of the legislation in 2009:

          I was happy to learn that the proposed boundaries avoid any 
        substantial conflict with existing uses and private property. I 
        understand that grazing leases will continue under any new 
        wilderness designation.'' ``I respectfully request that you 
        introduce legislation to expand the Sneffels Wilderness Area in 
        Ouray County. This proposal has widespread support in our 
        County and includes signature views, including Mount Sneffels 
        itself which is currently only partially contained in its 
        namesake Wilderness Area.''

    Recreation and tourism is the backbone of the San Juan Mountains 
regional economy. For visitors who come to explore the region's 
history, go on a jeep tour, or ride the Durango-Silverton train, the 
backdrop views of majestic mountain peaks is essential to the 
experience. Winter recreation is dominated by skiing, including the 
developed alpine resort of Telluride, the recently developed Silverton 
Mountain area, and Colorado's only heli-skiing operation. Backcountry 
skiing is hugely popular across the range.
    In the warmer months, recreational users comb the mountains. Hikers 
enjoy thousands of miles of trails, whether to see the spectacular 
views of the Telluride valley from atop its enclosing cliffs, or 
through a multi-day backpack into the beautiful Ice Lakes Basin out of 
Silverton. Climbers challenge themselves against the iconic 14,150 foot 
Mt. Sneffels, the rock walls near Telluride, and the famous frozen 
waterfalls just outside of Ouray. The San Juan Mountains are a world 
class destination for mountain biking, and many trails skirt the edges 
of the areas in S. 341. The famous Hard Rock 100 footrace--one of most 
grueling of its kind in the nation--courses through the heart of the 
region.

Outreach to Regional Stakeholders
    The process of outreach for, and vetting of, the San Juan Mountains 
Wilderness proposal has been detailed and comprehensive. Thanks to the 
leadership of local citizens groups in the three counties--Sheep 
Mountain Alliance in San Miguel County, the Ridgway-Ouray Community 
Council in Ouray County, the Silverton Mountain School in San Juan 
County, and the San Juan Citizens Alliance for the McKenna Peak 
proposal--the original proposal was crafted with extensive and intimate 
familiarity of the landscapes of interest. Each of these local groups 
worked closely with their respective county governments in carefully 
considering the ramifications and benefits of protective designations. 
San Miguel County first expressed support for wilderness legislation in 
June 2007, followed a short time later by the Commission of Ouray 
County. San Juan County followed in 2009, with an endorsement of 
expanding the proposed Sheep Mountain Special Management Area.
    Extensive outreach to stakeholders that could directly or 
indirectly be affected by the legislation was conducted for over two 
years before legislation was introduced, involving painstaking work to 
consult with, and respond to, anyone with a stake in these 
designations. Every livestock operator with a permit in the proposed 
areas was contacted, as were the owners of private land inside the 
areas (mostly patented mining claims), water right holders, recreation 
interests, State agencies, and local governments. Numerous adjustments 
were made to the areas in the bill to accommodate concerns of these 
parties. Just a few examples follow.
    The Sheep Mountain area was originally proposed for--with strong 
local support--designation as wilderness. Early in the outreach 
process, wilderness advocates were approached by the helicopter-
supported skiing company Helitrax, who informed us that Sheep Mountain 
was the heart of their operation, in which they land helicopters to 
drop off skiers. This particular use would not be allowed in a 
wilderness and therefore a compromise was crafted to accommodate this 
use while protecting the wild character of Sheep Mountain via a Special 
Management Area.
    Another example of efforts to make the legislation work for 
stakeholders is with the Towns of Telluride and Ophir. Both Towns had 
either historic or potential new water supply facilities in the 
proposed areas (Telluride in the proposed Liberty Bell addition to Mt. 
Sneffels Wilderness, and Ophir in the Sheep Mountain SMA); staff from 
both Towns were consulted with to adjust boundaries to make sure that 
designations wouldn't interfere with the development or operation of 
these water supplies.
    Motorized recreation is an important piece of the recreational 
landscape in the San Juan Mountains, and thousands of visitors come 
each year to experience the Ophir Pass jeep road and Alpine Loop. Great 
care was taken to ensure that motorized routes would not be closed by 
the legislation, and boundaries were drawn or adjusted meticulously to 
achieve that. For example, the boundaries of McKenna Peak and Naturita 
Canyon were reduced significantly from what was originally proposed to 
eliminate known motorized routes. Similarly, the boundaries of the 
Whitehouse and Last Dollar additions to the Mt. Sneffels Wilderness 
were adjusted to provide for snowmobile access to backcountry huts 
operated by San Juan Huts for stocking and maintenance.
    Another example relates to concerns with proposed wilderness and 
SMA boundaries brought forth by staff from the Grand Mesa, Uncompahgre, 
and Gunnison (GMUG) National Forest. A number of boundary adjustment 
recommendations were made to improve manageability or to eliminate 
specific potential conflicts, and these were incorporated into the 
legislation; we thank the Forest Service for its knowledgeable advice 
and help on refining this important legislation.
    On another recreation issue, the course of the renowned Hard Rock 
100 footrace runs through two of the areas in the bill. A non-profit 
entity, the Hard Rock brings about 130 runners to the San Juan 
Mountains once each summer to run the backcountry trails and high 
mountain passes. No support facilities are placed within proposed 
wilderness, and travel is by foot only. Although the National Forest 
Service Manual prohibits competitive events in designated wilderness, 
and we generally support that prohibition, wilderness advocates believe 
this particular race is appropriate, since the fundamental activity, 
running, is completely compatible with wilderness, no other non-
conforming uses are associated with the event, and the race has a long-
established history in this area. Guidance for the decision to allow 
the race to continue was found in House Natural Resources Committee 
Chairman Rahall's Wild Monongahela Wilderness legislation, enacted in 
the 111th Congress as part of the Omnibus Public Lands legislation.
    Although southwest Colorado makes important contributions to energy 
production, the areas in this legislation are not part of that. No 
existing oil and gas leases are affected by the proposed designations, 
and exploratory wells recently drilled near McKenna Peak have not 
discovered developable deposits. A number of other adjustments were 
made to the legislation, assuring a steadily increasing degree of 
support throughout the outreach and vetting process.
Support for the San Juan Mountains Wilderness Act
    The result of the consultation with numerous stakeholders and 
adjustments made to the proposal is legislation that enjoys support 
both deep and broad. Written support for the legislation has been 
received from:

  <bullet> San Miguel County Board of County Commissioners
  <bullet> Ouray County Board of County Commissioners
  <bullet> San Juan County Board of County Commissioners
  <bullet> Town of Telluride
  <bullet> Town of Ophir
  <bullet> Town of Mountain Village
  <bullet> Town of Ridgway
  <bullet> City of Ouray
  <bullet> San Miguel County Open Space Commission
  <bullet> San Miguel Conservation Foundation
  <bullet> Telluride Tourism Board
  <bullet> Telluride Open Space Commission
  <bullet> Rancher and grazing permittee Liza Clark
  <bullet> Hidden Lakes Home Owners Association
  <bullet> San Bernardo Home Owners Association
  <bullet> Many adjacent landowners
  <bullet> Telluride Helitrax
  <bullet> Hard Rock 100 Endurance Run
  <bullet> San Miguel County Sheriff
  <bullet> Prominent members of the local mountain biking community
  <bullet> Numerous local, regional, and national conservation and 
        recreation organizations.

    We hope that the information and history included here will be of 
help with Committee members as they consider the merits of S. 341. The 
Wilderness Society along with all the other supporters of this 
legislation stand ready to help in any way, and we encourage the 
Members of this Subcommittee and the full Energy and Natural Resources 
Committee to support this legislation, and report it expeditiously for 
consideration by the full Senate.
    We'd like to again thank Senator Udall for his excellent work in 
crafting this legislation, and also thank the Subcommittee for the 
opportunity to submit our views on S. 341.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
